APPENDIX TABLE OF CONTENTS
FEDERAL OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Tenth Circuit (August 26, 2019) .................. 1a
Memorandum Opinion of the United States
District Court for the Western District of
Oklahoma (July 13, 2017) ................................ 54a
Order of the United States Court of Appeals for
the Tenth Circuit Denying a Petition for
Rehearing (December 2, 2019) ....................... 128a
STATE OF OKLAHOMA COURTS' OPINIONS AND ORDERS
Accelerated Docket Order of the Court of Criminal
Appeals of the State of Oklahoma
(January 29, 2007).......................................... 130a
Order of the Court of Criminal Appeals of
Oklahoma Granting Rehearing
(January 13, 1997).......................................... 155a
OTHER DOCUMENTS
Petition for Writ of Habeas Corpus by a Person
in State Custody Pursuant to 28 U.S.C.
§ 2254, Relevant Excerpts (May 22, 2015) .... 195a
Tenth Circuit Opening Brief of Petitioner/
Appellant Roderick L. Smith,
Relevant Excerpts (August 3, 2018) .............. 239a
Tenth Circuit Respondent-Appellee’s (State of
Oklahoma’s) Answer Brief, Relevant Excerpts
(October 1, 2018) ............................................ 258a

APPENDIX TABLE OF CONTENTS (Cont.)
Tenth Circuit Reply Brief of Petitioner/
Appellant Roderick L. Smith,
Relevant Excerpts (December 7, 2018) .......... 291a
Prosecutor Closing Arguments at Trial,
Relevant Excerpts (March 15, 2004) ............. 305a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE TENTH CIRCUIT
(AUGUST 26, 2019)
935 F.3d 1064
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
________________________
RODERICK L. SMITH,

Petitioner-Appellant,
v.
TOMMY SHARP,
Interim Warden, Oklahoma State Penitentiary,

Respondent-Appellee.

________________________
No. 17-6184

Appeal from the United States District Court
for the Western District of Oklahoma
(D.C. No. 5:14-CV-00579-R)
Attorneys and Law Firms
Emma V. Rolls, Assistant Federal Public Defender
(Thomas D. Hird, Assistant Federal Public Defender,
with her on the briefs), Oklahoma City, Oklahoma,
for Petitioner - Appellant.

 Pursuant to Federal Rule of Appellate Procedure 43(c)(2), Tommy
Sharp, current Interim Warden of Oklahoma State Penitentiary,
is automatically substituted for Mike Carpenter, Warden, as
Respondent in this case.

App.2a
Jennifer J. Dickson, Assistant Attorney General
(Mike Hunter, Attorney General of Oklahoma, with
her on the brief), Oklahoma City, Oklahoma, for
Respondent - Appellee.
Before: LUCERO, MATHESON, and
PHILLIPS, Circuit Judges.
LUCERO, Circuit Judge.
Roderick Smith was sentenced to death by an
Oklahoma state jury for the 1993 murders of his wife
and four stepchildren. Before the resolution of Smith’s
collateral attacks on his convictions and sentence, the
Supreme Court issued its decision in Atkins v. Virginia,
536 U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d 335 (2002),
prohibiting the execution of the intellectually disabled.1
Smith filed a successor application in state court for
post-conviction relief pursuant to Atkins, and the Oklahoma Court of Criminal Appeals (“OCCA”) remanded
the case to the Oklahoma County District Court for a
jury trial to determine whether Smith was intellectually disabled. At the subsequent jury trial in 2004
(the “Atkins trial”), the jury found Smith was not
1 The Supreme Court formerly employed the phrase “mentally
retarded,” but now “uses the term ‘intellectual disability’ to describe
the identical phenomenon,” noting “[t]his change in terminology
is approved and used in the latest edition of the Diagnostic and
Statistic Manual of Mental Disorders.” Hall v. Florida, 572 U.S.
701, 704, 134 S.Ct. 1986, 188 L.Ed.2d 1007 (2014). Recently enacted
federal legislation known as Rosa’s Law, Pub. L. No. 111-256, 124
Stat. 2643 (2010), mandates the use of the term “intellectual
disability” in place of “mental retardation” in all federal enactments and regulations. We accordingly use the term intellectual
disability throughout this opinion, although many of the
sources cited employ the old terminology.

App.3a
intellectually disabled and allowed his execution to
move forward. But our circuit then granted relief on
Smith’s previously filed habeas corpus petition in Smith
v. Mullin, 379 F.3d 919 (10th Cir. 2004), entitling him
to resentencing. A jury found Smith competent to stand
trial in 2009, and he was resentenced to death in 2010.
Smith again sought federal habeas relief. The
district court denied relief in an unpublished opinion.
Smith v. Royal, No. CIV-14-579-R, 2017 WL 2992217
(W.D. Okla. July 13, 2017) (unpublished). Before us,
Smith alleges that the state prosecution in his Atkins,
competency, and resentencing trials violated several
of his constitutional rights, including his Eighth
Amendment right against cruel and unusual punishment and his Sixth Amendment right to counsel.
Specifically, Smith contends: (1) the Eighth and Fourteenth Amendments prohibit his execution because he
is intellectually disabled; (2) the jury instruction
requiring a finding that his intellectual disability was
“present and known” before the age of eighteen violated
Atkins; (3) counsel’s failure to call an expert witness
to testify about the employment capabilities of the
intellectually disabled and prepare an additional adaptive functioning measurement denied him effective
assistance of counsel during his Atkins trial; (4) counsel’s failure to introduce video footage of Smith into
the record denied him effective assistance of trial and
appellate counsel in his competency and resentencing
trials; and (5) cumulative error violated his rights
under the Sixth, Eighth, and Fourteenth Amendments.
Exercising jurisdiction under 28 U.S.C. §§ 1291
and 2253, we reverse the district court’s denial of
habeas relief on Smith’s Atkins challenge to the constitutionality of his execution. Because we grant relief

App.4a
on Smith’s Atkins challenge, we need not address
Smith’s remaining claims concerning his Atkins proceeding. We otherwise affirm the district court’s denial
of Smith’s § 2254 petition for a writ of habeas corpus.
We remand with instructions to grant a conditional
writ vacating Smith’s death sentence and remanding
to the State for a new penalty-phase proceeding.
I
A
Smith was convicted of the murder of his wife,
Jennifer Smith, and her four children from a prior
relationship. The following facts concerning the underlying offense are undisputed and taken from the opinion
of the OCCA affirming Smith’s convictions and sentences on direct appeal. Smith v. State, 932 P.2d 521,
526 (Okla. Crim. App. 1996).
On the morning of June 28, 1993, Jennifer Smith’s
mother called the police and asked them to check on
her daughter, who had not been seen or heard from
for ten days. When the responding officer arrived at
the residence where Smith and Jennifer lived with her
four children, he smelled decaying flesh and observed
many flies around the windows. The responding officer
contacted his supervisor, and the officers entered the
house together. They discovered the body of a woman
in one closet, and the body of a child in another. The
officers requested assistance from the homicide division of the police department, and the bodies of three
more children were found. The bodies were identified
as those of Jennifer and her four children, and were
determined to have been dead for at least two days
and up to two weeks.

App.5a
Later that day, Smith walked into the Oklahoma
County Sheriff’s Office. He was then arrested by the
Oklahoma City Police. Smith was interrogated and
admitted that he had stabbed Jennifer and the two
male children. Smith also admitted that he “got” the
female children, but could not remember any details.
He told the police where he had placed each of the
bodies.
B
As summarized in Smith’s first habeas case, Smith
was tried and convicted before an Oklahoma County
jury of five counts of first-degree murder. Smith v.
Mullin, 379 F.3d at 924. The jury recommended sentences of death on each count, and the Oklahoma
court agreed. Smith filed an unsuccessful direct appeal
with the OCCA, Smith v. State, 932 P.2d at 539, and
the Supreme Court denied his petition for writ of
certiorari. Smith v. Oklahoma, 521 U.S. 1124, 117 S.Ct.
2522, 138 L.Ed.2d 1023 (1997). He subsequently filed
an unsuccessful application for post-conviction relief
in the Oklahoma courts. Smith v. State, 955 P.2d 734
(Okla. Crim. App. 1998). Smith did not seek Supreme
Court review of the OCCA’s denial of post-conviction
relief.
Smith then filed his first habeas corpus action, and
the district court denied relief. Smith v. Gibson, No.
CIV-98-601-R (W.D. Okla. Jan. 10, 2002) (unpublished).
Smith appealed to this court. Pending the resolution
of that appeal, the Supreme Court held the Eighth
Amendment prohibits the execution of the intellectually
disabled. Atkins, 504 U.S. at 321, 112 S.Ct. 1904. The
state provided Smith a jury trial to prove that he is
intellectually disabled, bifurcating the further adjudica-

App.6a
tion of Smith’s challenges into an Atkins trial (and
subsequent appeals) and the federal habeas claims
that developed out of his initial conviction and sentencing.
Smith’s first Atkins trial ended in a mistrial, but
a state jury eventually concluded that he was not
intellectually disabled. Smith appealed to the OCCA,
which affirmed the jury’s verdict. Smith v. State, No.
O-2006-683 (Okla. Crim. App. Jan. 29, 2007) (unpublished) (“OCCA’s Atkins Op.”).
Shortly after Smith’s Atkins trial, however, this
court granted in part Smith’s habeas petition, entitling
Smith to resentencing due to ineffective assistance of
counsel. Smith v. Mullin, 379 F.3d 919. We specifically
held counsel’s failure to introduce any mitigation
evidence regarding Smith’s intellectual disability,
brain damage, and troubled background denied Smith
effective assistance of counsel during his sentencing
proceedings. Id. at 940-44. Prior to the resentencing
proceedings, Smith received a jury trial to determine
his competence. The jury found Smith competent, and
he was resentenced in 2010. At the resentencing, the
jury imposed two death sentences and three sentences
of life without the possibility of the parole. Following
those jury trials, Smith appealed the resentencing
and competency determinations, and the effectiveness
of counsel in those proceedings. The OCCA affirmed.
Smith v. State, 306 P.3d 557 (Okla. Crim. App. 2013),
cert. denied, 572 U.S. 1137, 134 S. Ct. 2662, 189 L.Ed.
2d 213 (2014). Smith applied for but failed to obtain
post-conviction relief in state court. Smith v. State,
No. PCD-2010-660 (Okla. Crim. App. Feb. 13, 2014)
(unpublished) (“OCCA’s Resentencing and Competency
Op.”).

App.7a
Smith then filed a second habeas petition in federal
court, bringing claims related to: (1) sufficiency of
evidence supporting the jury’s determination that he
was not intellectually disabled; (2) purported irregularities in his Atkins trial; and (3) ineffective assistance
of counsel during his Atkins, competency, and resentencing trials. The district court denied relief on all
counts. We granted certificates of appealability as to:
(1) sufficiency of evidence as to the jury’s determination that Smith was not intellectually disabled at his
Atkins trial; (2) his Atkins challenge to language in the
jury instructions at that trial; and (3) various effectiveness of counsel claims during his Atkins, competency,
and resentencing trials.
II
On appeal from orders denying a writ of habeas
corpus, “we review the district court’s legal analysis
of the state court decision de novo and its factual
findings, if any, for clear error.” Michael Smith v.
Duckworth, 824 F.3d 1233, 1241-42 (10th Cir. 2016)
(quotation omitted). But “[t]he Antiterrorism and
Effective Death Penalty Act of 1996 (“AEDPA”) circumscribes our review of federal habeas claims that were
adjudicated on the merits in state-court proceedings.”
Grant v. Royal, 886 F.3d 874, 888 (10th Cir. 2018)
(quotation omitted), cert. denied sub nom. Grant v.
Carpenter, ___ U.S. ___, 139 S. Ct. 925, 202 L.Ed.2d
659 (2019). Under AEDPA, a petitioner may obtain
federal habeas relief on a claim only if the state
court’s adjudication of the claim on the merits: (1)
“resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established
Federal law”; or (2) “resulted in a decision that was

App.8a
based on an unreasonable determination of the facts
in light of the evidence presented in the State court
proceeding.” § 2254(d)(1), (2).
The Supreme Court has explained that “[a] state
court’s determination that a claim lacks merit precludes
federal habeas relief so long as fairminded jurists
could disagree on the correctness of the state court’s
decision.” Harrington v. Richter, 562 U.S. 86, 101,
131 S.Ct. 770, 178 L.Ed.2d 624 (2011) (quotation omitted). That is, the writ may be granted only “in cases
where there is no possibility fairminded jurists could
disagree that the state court’s decision conflicts with”
Supreme Court precedent, id. at 102, 131 S.Ct. 770,
and petitioner “must show that the state court’s
ruling on the claim being presented in federal court
was so lacking in justification that there was an error
well understood and comprehended in existing law
beyond any possibility for fairminded disagreement,”
id. at 103, 131 S.Ct. 770.
Applying § 2254(d)(1)’s legal inquiry, “we ask at
the threshold whether there exists clearly established
federal law, an inquiry that focuses exclusively on
holdings of the Supreme Court.” Grant, 886 F.3d at 888
(quotation omitted). “The absence of clearly established
federal law is dispositive” and requires the denial of
relief. Id. at 889 (quotation omitted). And that Supreme
Court precedent must have been “clearly established at
the time of the [state] adjudication.” Shoop v. Hill,
___ U.S. ___, 139 S. Ct. 504, 506, 202 L.Ed.2d 461
(2019) (per curiam) (quotation omitted).
“If clearly established federal law exists, a statecourt decision is contrary to it if the state applies a
rule different from the governing law set forth in
[Supreme Court] cases, or if it decides a case differently

App.9a
than [the Supreme Court has] done on a set of
materially indistinguishable facts.” Hooks v. Workman,
689 F.3d 1148, 1163 (10th Cir. 2012) (quotation omitted). A state court decision that “identifies the correct
governing legal principle from th[e Supreme] Court’s
decisions but unreasonably applies that principle to
the facts of petitioner’s case” is an “unreasonable
application” of clearly established federal law. Wiggins
v. Smith, 539 U.S. 510, 520, 123 S.Ct. 2527, 156 L.Ed.
2d 471 (2003) (quotation omitted). “In order for a state
court’s decision to be an unreasonable application of
th[e Supreme] Court’s case law, the ruling must be
objectively unreasonable, not merely wrong; even clear
error will not suffice.” Virginia v. LeBlanc, ___ U.S.
___, 137 S. Ct. 1726, 1728, 198 L.Ed.2d 186 (2017)
(quotation omitted). Under § 2254(d)(1), we review only
the record that was before the state court that adjudicated the claim on the merits. Cullen v. Pinholster, 563
U.S. 170, 180, 131 S.Ct. 1388, 179 L.Ed.2d 557 (2011).
Applying § 2254(d)(2)’s factual inquiry, we “conclude that a state court’s determination of the facts is
unreasonable” if “the court plainly and materially
misstated the record or the petitioner shows that
reasonable minds could not disagree that the finding
was in error.” Michael Smith, 824 F.3d at 1250. But
“[e]ven in the context of federal habeas, deference
does not imply abandonment or abdication of judicial
review.” Brumfield v. Cain, ___ U.S. ___, 135 S. Ct.
2269, 2277, 192 L.Ed.2d 356 (2015). And if the petitioner shows “the state courts plainly misapprehend or
misstate the record in making their findings, and the
misapprehension goes to a material factual issue
that is central to petitioner’s claim, that misapprehension can fatally undermine the fact-finding process, ren-

App.10a
dering the resulting factual finding unreasonable.”
Byrd v. Workman, 645 F.3d 1159, 1171-72 (10th Cir.
2011).
“The § 2254 standard does not apply to issues
not decided on the merits by the state court.” Welch
v. Workman, 639 F.3d 980, 992 (10th Cir. 2011). On
those unadjudicated issues, “we review the district
court’s legal conclusions de novo and its factual
findings for clear error.” Id. “[I]f the district court
based its factual findings” related to issues that the
state court did not adjudicate on the merits “entirely
on the state court record, we review that record
independently.” Id.
“When a federal claim has been presented to a
state court and the state court has denied relief, it may
be presumed that the state court adjudicated the
claim on the merits in the absence of any indication
or state-law procedural principles to the contrary.”
Richter, 562 U.S. 86 at 99, 131 S.Ct. 770. But the
petitioner may rebut the presumption that the state
court adjudicated the petitioner’s claim on the merits.
As discussed in more detail below, in cases in which
a state court addresses only one prong of a multiprong analysis, the Supreme Court requires that
federal habeas courts address the other prongs de novo.
See Porter v. McCollum, 558 U.S. 30, 39, 130 S.Ct.
447, 175 L.Ed.2d 398 (2009) (per curiam) (“Because the
state court did not decide whether [petitioner’s] counsel
was deficient, we review this element of [petitioner’s]
Strickland claim de novo.”); Rompilla v. Beard, 545
U.S. 374, 390, 125 S.Ct. 2456, 162 L.Ed.2d 360 (2005)
(“Because the state courts found the representation
adequate, they never reached the issue of prejudice,
and so we examine this element of the Strickland

App.11a
claim de novo.” (citation omitted)); Wiggins, 539 U.S.
at 534, 123 S.Ct. 2527 (same); see also Grant, 886 F.3d
at 910 (“Because the OCCA did not—by the plain
terms of its ruling—reach the prejudice question, we
resolve this overarching question de novo.”); Hooks,
689 F.3d at 1188 (“[I]n those instances where the OCCA
did not address the performance prong of Strickland
and we elect to do so, our review is de novo.”).2
2 As we have previously observed, there is “some possible tension
between” the language in Richter requiring federal habeas
courts to grant AEDPA deference to the adjudication of claims,
not arguments, and “the approach of Wiggins and its progeny
where” we deny AEDPA deference to the “portion of a Strickland claim . . . not reached by a state court.” Grant, 886 F.3d at
910 (quotation omitted) (citing McBride v. Superintendent, SCI
Houtzdale, 687 F.3d 92, 100 n.10 (3d Cir. 2012)). But even after
Richter, this court has denied AEDPA deference to the
unadjudicated prejudice prongs of a broader Strickland habeas
claim. See id. And so, too, has the Supreme Court denied AEDPA
deference to the unadjudicated prong of a broader Atkins
habeas claim. See Brumfield, 135 S. Ct. at 2282.
Moreover, Richter establishes only a rebuttable presumption that
the state court has adjudicated a claim, or portions of that
claim. See Wilson v. Sellers, ___ U.S. ___, 138 S. Ct. 1188, 1195,
200 L.Ed.2d 530 (2018) (“Richter . . . set[ ] forth a presumption,
which may be overcome when there is reason to think some
other explanation for the state court’s decision is more likely.”
(quotation omitted)). Supreme Court precedent indicates the
presumption of adjudication of an entire claim on the merits
outlined in Richter is overcome as to components of that claim
if, as in Wiggins, a state court decision explicitly rests its
analysis on a particular prong of a claim without deciding the
claim’s other prongs. Porter, 558 U.S. at 39, 130 S.Ct. 447
(2009). In other words, the Richter presumption controls if a
state court summarily resolves a claim without explanation, but
the presumption is overcome as to unadjudicated prongs of a
claim if a state court provides a reasoned explanation that rests
exclusively on one prong of a multi-prong analysis. See Mann v.

App.12a
And as with un-adjudicated prongs of Strickland ’s
two-part analysis, we review un-adjudicated prongs
of Atkins’ three-part analysis de novo. As the Supreme
Court explained in Brumfield, if the relevant state
“court never made any finding that [petitioner] failed
to produce evidence suggesting he could meet” one of
the Atkins prongs, federal habeas courts review that
prong of the Atkins analysis de novo because “[t]here
is thus no determination on that point to which a
federal court must defer in assessing whether [petitioner] satisfied § 2254(d).” 135 S. Ct. at 2282; see
also Pruitt v. Neal, 788 F.3d 248, 269 (7th Cir. 2015)
(“While the [state] court noted that ‘the evidence on the
adaptive behavior prong is at least conflicting,’ it did
not actually conclude that [petitioner] failed to establish
substantial impairment of adaptive behavior. Thus, we
review this prong de novo.” (citation omitted)).
III
Smith appeals the district court’s denial of habeas
relief on five grounds. With respect to his Atkins
trial, Smith asserts: (1) he is intellectually disabled
and his execution would violate Atkins; (2) flawed jury
instructions rendered his Atkins trial fundamentally
unfair; and (3) ineffective assistance for his counsel’s
Ryan, 828 F.3d 1143, 1168 (9th Cir. 2016) (“This distinction

between AEDPA review of summary denials and partial adjudications is apparent in post-Richter Supreme Court caselaw,
which applies de novo review to unanalyzed portions of multiprong tests.”); Grueninger v. Dir., Vir. Dep’t of Corr., 813 F.3d
517, 526 (4th Cir. 2016) (“[T]he Richter rule requiring deference
to hypothetical reasons a state court might have given for
rejecting a federal claim is limited to cases in which no state
court has issued an opinion giving reasons for the denial of
relief.” (quotation and alteration omitted)).

App.13a
failures to investigate and call an expert specializing
in the employment capabilities of the intellectually
disabled, and to refute the State’s impeachment of
Smith’s adaptive functioning measurement. Because we
grant habeas relief on Smith’s claim that his execution
would violate Atkins, we need not address the remaining claims concerning his Atkins trial.
With respect to his competency and resentencing
trials, Smith asserts he was denied effective assistance
of trial and appellate counsel for counsel’s failure to
call Anna Wright, a mental health worker at the
Oklahoma County jail, to testify and sponsor the
introduction of a video recording of Smith speaking.
Smith also asserts cumulative error.
A
Smith first argues he cannot legally be executed
pursuant to Atkins because he is intellectually disabled.
At the time of Smith’s Atkins trial, the OCCA implemented Atkins ’ prohibition on the execution of the
intellectually disabled through its decision in Murphy
v. State, 54 P.3d 556 (Okla. Crim. App. 2002), overruled in part on other grounds by Blonner v. State,
127 P.3d 1135, 1139 (Okla. Crim. App. 2006). In that
case, the OCCA articulated the following definition
of intellectual disability:
A person is “mentally retarded”: (1) If he or
she functions at a significantly sub-average
intellectual level that substantially limits his
or her ability to understand and process information, to communicate, to learn from experience or mistakes, to engage in logical
reasoning, to control impulses, and to understand the reactions of others; (2) The mental

App.14a
retardation manifested itself before the age
of eighteen (18); and (3) The mental retardation is accompanied by significant limitations in adaptive functioning in at least two
of the following skill areas: communication;
self-care; social/interpersonal skills; home
living; self-direction; academics; health and
safety; use of community resources; and work.
It is the defendant’s burden to prove he or
she is mentally retarded by a preponderance
of the evidence at trial. Intelligence quotients
are one of the many factors that may be
considered, but are not alone determinative.
However, no person shall be eligible to be
considered mentally retarded unless he or
she has an intelligence quotient of seventy or
below, as reflected by at least one scientifically
recognized, scientifically approved, and contemporary intelligent quotient test.

Id. at 567-68. Smith contends that based on the evidence presented, a reasonable jury would be compelled
to find he was intellectually disabled.
1
Smith argued insufficiency of evidence to the
OCCA in his direct appeal from the jury verdict following his Atkins trial. OCCA Atkins Op. at 6. The
OCCA concluded that “Smith failed to meet even the
first prong of the Murphy definition of mental retardation” because “[t]he evidence, viewed in the light
most favorable to the State, portrayed Smith as a
person who is able to understand and process information, to communicate, to understand the reactions
of others, to learn from experience or mistakes, and

App.15a
to engage in logical reasoning.” Id. at 11. Accordingly,
to prevail on this sufficiency of evidence challenge,
Smith must demonstrate the OCCA’s decision that
he failed to establish significantly sub-average intellectual functioning was contrary to, or an unreasonable
application of, Atkins, or an unreasonable determination of the facts. Hooks, 689 F.3d at 1165 (“A sufficiency-of-the-evidence challenge in a habeas petition
presents a mixed question of fact and law. . . . which is
why we apply both 28 U.S.C. § 2254(d)(1) and (d)(2)
when reviewing sufficiency of the evidence on habeas.”
(quotation omitted)); see also Brown v. Sirmons, 515
F.3d 1072, 1089 (10th Cir. 2008).3
But the OCCA did not adjudicate on the merits
Smith’s challenge to the sufficiency of evidence on
either the age-of-onset or the deficits in adaptive functioning prongs of Murphy, meaning there exists no
state court decision to which we must defer under
AEDPA. Grant, 886 F.3d at 888 (“[AEDPA] circumscribes our review of federal habeas claims that were
adjudicated on the merits in state-court proceedings.”
(quotation omitted)). Specifically, the OCCA made no
mention of the age-of-onset requirement beyond including it in the general definition of intellectual disability in the section of its opinion addressing Smith’s
sufficiency of evidence challenge. OCCA Atkins Op. at
6-11. And although the OCCA noted “the State presented persuasive evidence from lay witnesses to refute
3 Because the law of our circuit clearly states that a sufficiency
of evidence challenge necessarily “presents a mixed question of
law and fact,” Hooks, 689 F.3d at 1165, and Smith presented a
sufficiency of evidence challenge before the district court, we
reject the State’s contention that Smith forfeited § 2254(d)(2)
arguments by failing to raise them expressly below.

App.16a
Smith’s evidence of . . . adaptive functioning deficits,”
id. at 8, it reached no conclusions regarding the
adaptive functioning prong.
Instead, the OCCA’s dispositive language rejecting
Smith’s sufficiency of evidence claim referred only to
the first prong of the Murphy definition of intellectual
disability, detailing each component of significantly
sub-average intellectual functioning and explaining
that Smith failed to meet that prong. Id. at 11. The
OCCA neither addressed how a rational jury could
have viewed the adaptive functioning evidence, nor
concluded that the “evidence presented at trial support[ed]” a finding of deficits in adaptive functioning, as
it stated for the intellectual functioning prong. Id.
And a state court does not adjudicate a claim on the
merits without addressing the claim’s factual basis.
See Fairchild v. Workman, 579 F.3d 1134, 1149 (10th
Cir. 2009) (“A claim is more than a mere theory on
which a court could grant relief; a claim must have a
factual basis, and an adjudication of that claim
requires an evaluation of that factual basis.” (citation
omitted)).
Moreover, the OCCA couches the entirety of its
discussion regarding the “persuasive evidence” in terms
relevant to the intellectual functioning prong of Murphy,
stating the evidence “portrayed Smith as a person
who is able to understand and process information,
to communicate, to understand the reactions of others,
to learn from experiences or mistakes, and to engage
in logical reasoning.” OCCA Atkins Op. at 11. These are
Murphy’s intellectual functioning categories. Although
they may overlap with the adaptive functioning skills,
the psychological terms are different. And even if
evidence supporting these intellectual functioning

App.17a
findings could be relevant to the adaptive functioning
prong, we cannot ignore the fact that the OCCA
addresses this evidence exclusively in the context of
Murphy’s definition of the intellectual functioning
prong. Compare id. with Murphy, 54 P.3d at 567-68
(defining the intellectual functioning prong as “[i]f he
or she functions at a significantly sub-average intellectual level that substantially limits his or her ability
to understand and process information, to communicate, to learn from experience or mistakes, to engage
in logical reasoning, to control impulses, and to understand the reactions of others”). The OCCA made no
attempt to connect the evidence it considered relevant
to the intellectual functioning prong to Murphy’s
adaptive functioning categories. After acknowledging
the adaptive functioning categories in a footnote at the
beginning of its opinion, see OCCA Atkins Op. at 6
n.8, the OCCA did not mention them at all.
The OCCA’s statement that comes closest to
adjudicating on the merits the third Murphy prong
closely resembles the relevant state court statement in
Pruitt. Compare 788 F.3d at 269 (“the evidence on the
adaptive behavior prong is at least conflicting”) with
OCCA Atkins Op. at 8 (“the State presented persuasive
evidence from lay witnesses to refute Smith’s evidence
of sub-average intellectual function and of adaptive
functioning deficits”). As the Seventh Circuit similarly
concluded, such a cursory reference to the evidence
presented absent any conclusion does not constitute
an adjudication on the merits. Pruitt, 788 F.3d at
269. We determine the OCCA resolved the intellectual
disability issue on the intellectual functioning prong
and did not address the other two prongs of the
Murphy test.

App.18a
As explained above, if the state court explicitly
relies on one element of a multi-element test to the
exclusion of others, we review challenges to the
remaining elements de novo. See Brumfield, 135 S.
Ct. at 2282 (holding when relevant state “court never
made any finding that [petitioner] failed to produce
evidence suggesting he could meet” one of the Atkins
prongs, federal habeas courts review that prong de
novo because “[t]here is thus no determination on that
point to which a federal court must defer in assessing
whether [petitioner] satisfied § 2254(d)”); Pruitt, 788
F.3d at 269. Accordingly, although we grant AEDPA
deference to the OCCA’s determination on the first
Murphy prong, we review de novo Smith’s sufficiency
of evidence challenge to the age-of-onset and deficits
in adaptive functioning prongs.4
The proper standard as to the latter two prongs
are thus set forth in Jackson v. Virginia, 443 U.S.
307, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979), as explicated in Hooks: “whether, viewing the evidence in
the light most favorable to the prevailing party (the
State), any rational trier of fact could have found
[Smith] not mentally retarded by a preponderance of
4 In Grant, the majority concluded we may not sua sponte deny
AEDPA deference when the OCCA purportedly “misunderstood”
petitioner’s argument. 886 F.3d at 909. That rule is inapplicable
to our denial of AEDPA deference on a claim the OCCA plainly
failed to reach. Id. at 932 n.20. In Grant, the dissent did not
deny that the OCCA issued a decision on a particular claim for
relief, and instead asserted the OCCA misunderstood petitioner’s
arguments on that question. See 886 F.3d at 968 (Moritz,
dissenting) (explaining “[t]he OCCA misunderstood this argument”
and then “rejected [it]”). Unlike in Grant, there is no OCCA
determination on the adaptive functioning prong of the Murphy
analysis to which we may defer.

App.19a
the evidence.” Hooks, 689 F.3d at 1166 (emphasis in
original). And because the district court “based its
factual findings” in rejecting Smith’s claims “entirely on
the state court record, we review that record independently.” Welch, 639 F.3d at 992 (quotation omitted).
2
In addressing the Murphy prongs, we first conclude
Smith has demonstrated the OCCA either unreasonably
applied Atkins or unreasonably construed the facts in
deciding the evidence justified the jury’s verdict
regarding the intellectual functioning prong of Murphy.
Next, as the State conceded at oral argument, Smith
met the age-of-onset Murphy prong, and that prong
thus does not provide a viable justification for upholding
the jury’s determination that Smith was not intellectually disabled. Finally, we conclude Smith has successfully demonstrated that based on the evidence presented, a reasonable jury would have been compelled
to find that he suffers from deficiencies in at least two
of the nine listed skill areas of adaptive functioning.
We thus reverse the district court’s denial of this claim.
a
The first Murphy prong requires Smith prove by a
preponderance of evidence that he “functions at a
significantly sub-average intellectual level that substantially limits his [ ] ability to understand and
process information, to communicate, to learn from
experience or mistakes, to engage in logical reasoning,
to control impulses, and to understand the reactions
of others.” 54 P.3d at 567-68. Because the OCCA
adjudicated the first Murphy prong on the merits,
AEDPA constrains our review of its finding Smith

App.20a
failed to meet “the first prong of the Murphy definition,”
OCCA Atkins Op. at 11.
But this is not an insurmountable barrier. Even
under AEDPA’s deferential review, at least four of
our sibling circuits have held unreasonable a state
court’s determination that an individual was not
intellectually disabled, or that an individual failed to
meet a particular prong of the relevant definition of
intellectual disability. Pruitt, 788 F.3d at 269 (“The
[state court] made an unreasonable determination of
fact in concluding . . . that [petitioner] failed to establish
significantly subaverage intellectual functioning.”); Van
Tran v. Colson, 764 F.3d 594, 612 (6th Cir. 2014) (“In
light of the methods and analyses employed by the expert witnesses, the [state court] unreasonably determined that Van Tran was not intellectually disabled.”); Burgess v. Comm’r, Ala. Dep’t of Corr., 723
F.3d 1308, 1315-16 (11th Cir. 2013) (“[T]he ruling of
[the state court] that Burgess is not mentally retarded
was an unreasonable determination of the facts in
this case.” (quotation omitted)); Rivera v. Quarterman, 505 F.3d 349, 357 (5th Cir. 2007) (“[I]t was
unreasonable . . . to reject Rivera’s Atkins claim as
failing to even establish a prima facie case—especially
when viewed through the prism of Atkins’ command
that the Constitution places a substantive restriction
on the State’s power to take the life of a mentally
retarded offender.” (quotations omitted)).
Because Smith’s sufficiency of evidence challenge
“presents a mixed question of fact and law,” we will
grant relief if the OCCA’s decision to uphold the jury
determination on the first Murphy prong was contrary to, or an unreasonable application of, Atkins, or
was an unreasonable determination of the facts.

App.21a

Hooks, 689 F.3d at 1165. The Court’s decision in
Atkins provides the “substantive law at this basis of
his sufficiency challenge.” Hooks, 689 F.3d at 1166.
Atkins broadly imposed a “substantive restriction on

the State’s power to take the life of a mentally retarded
offender.” 536 U.S. at 321, 122 S.Ct. 2242. The Supreme
Court in Atkins accepted clinical definitions for the
meaning of the term “mentally retarded.” Id. at 308
n.3, 314-16, 122 S.Ct. 2242. And although Atkins left
the primary task of defining intellectual disability to
the states, Smith’s “sufficiency challenge inescapably
requires that we consider the kinds of evidence that
state courts may (or may not) rely upon in adjudicating
an Atkins claim.” Hooks, 689 F.3d at 1166. Atkins
clearly establishes that intellectual disability must
be assessed, at least in part, under the existing
clinical definitions applied through expert testimony.
Atkins, 536 U.S. at 308 n.3, 122 S.Ct. 2242.5
We recognized the centrality of expert testimony
to our review of Atkins verdicts in Hooks. In that
case, the defendant’s IQ test scores ranged from 53 to
80. The experts testified that he fell into a “gray
area.” Hooks, 689 F.3d at 1168. With a range of expert
testimony, the court saw no reason to overturn the
jury’s finding of not intellectually disabled. Id. And
other circuits similarly prioritize expert testimony in
review of Atkins challenges. In granting habeas relief
pursuant to Atkins in Pruitt, the Seventh Circuit
5 Atkins is thus consistent with other areas of the law concerning medical diagnoses, which place similar emphasis on expert
testimony. For example, the Supreme Court has recognized the
importance of experts in diagnosing insanity for a defense in a
criminal trial. Ake v. Oklahoma, 470 U.S. 68, 80-82, 105 S.Ct.
1087, 84 L.Ed.2d 53 (1985).

App.22a
explained that four “highly qualified experts with
extensive experience with the intellectually disabled
. . . all agreed that the [petitioner’s] IQ scores demonstrated significantly subaverage intellectual functioning
and that [petitioner] is intellectually disabled.” 788
F.3d at 267. And, as in this case, the State’s expert in
Pruitt could not claim with certainty that the petitioner
is not intellectually disabled. Id. Applying Atkins,
both Pruitt and Hooks turned on consideration of expert opinions.
As in Hooks, id. at 1167, the OCCA applied the
correct legal standard in this case, explaining that
“[w]hen a defendant challenges the sufficiency of evidence following a jury verdict finding him not mentally
retarded, [the OCCA] reviews the evidence in the
light most favorable to the State to determine if any
rational trier of fact could have reached the same
conclusion.” OCCA Atkins Op. at 6. “Because the
OCCA applied the correct legal standard, our inquiry
is limited to whether its determination that the
evidence was sufficient to support the jury’s verdict
was reasonable . . . [T]hat inquiry also requires us to
consider whether the OCCA . . . reasonably applied
Atkins.” Hooks, 689 F.3d at 1167 (quotation omitted).
We conclude that in holding Smith failed to satisfy
the intellectual functioning Murphy prong, the OCCA
either relied upon an unreasonable determination of
the facts or unreasonably applied Atkins. Every IQ
test Smith took placed him firmly within the intellectually disabled range. The sub-average intellectual
ability requirement generally turns on IQ scores. See
id. at 1167-68 (“[A] capital defendant’s IQ score is . . .
strong evidence of sub-average intelligence.”); American
Association on Mental Retardation (“AAMR”), Mental

App.23a

Retardation: Definition, Classification, and Systems
of Supports at 58 (10th ed. 2002) (“In the 2002

AAMR system, the ‘intellectual functioning’ criterion
for diagnosis of mental retardation is approximately
two standard deviations below the mean, considering
the [standard error of measurement] for the specific
assessment instruments used and the instruments’
strengths and limitations.”).6 As the Supreme Court
explained in Atkins, “[i]t is estimated that between 1
and 3 percent of the population has an IQ between
70 and 75 or lower, which is typically considered the
cutoff IQ score for the intellectual function prong of
the mental retardation definition.” 536 U.S. at 309
n.5, 122 S.Ct. 2242; see also Michael Smith, 824 F.3d
at 1243 (explaining that “a clinical diagnosis of
intellectual disability generally requires an IQ score
that is approximately two standard deviations below
the mean. . . . The mean score for a standardized IQ
test is 100, and the standard deviation is approximately 15.”).

In light of Smith’s consistent scoring in the
intellectually disabled range and the Supreme Court’s
clear statements regarding the significant role of IQ
assessments under the intellectual functioning prong
of Atkins, for the OCCA’s decision to withstand
review there must be evidence that either: (1) all of
the IQ assessments administered to Smith significantly
underestimate his intellectual functioning; or (2) contrary to the clinical definitions of the intellectual
functioning prong at the time of Smith’s Atkins trial,
expert assessments relying upon standardized metrics
6 We cite to the Tenth Edition as the current AAMR at the time
of Smith’s Atkins trial in 2004.

App.24a
are not dispositive. The State cannot prevail on
either basis. The former requires an unreasonable
construction of the facts; the latter an unreasonable
application of Atkins.
Three experts testified at Smith’s Atkins trial:
Dr. Clifford Allen Hopewell, a clinical neuropsychologist retained by Smith; Dr. Frederick H. Smith, a
psychologist with the Oklahoma Department of Corrections initially retained by the State for Smith’s first
habeas petition but called to testify as an expert for
Smith at his Atkins trial; and Dr. John A. Call, a
forensic psychologist retained by the State. The doctors’
opinions largely track the clinical and legal definitions
of intellectual disability set forth in Murphy. Both
Dr. Hopewell and Dr. Smith concluded Smith was
intellectually disabled. And Dr. Hopewell testified that
Smith’s “case is pretty obvious.” Dr. Call suggested
Smith was malingering but admitted he could not
“say that [Smith] is not mentally retarded.” In other
words, although Dr. Call challenged the accuracy of
some of Smith’s tests, even Dr. Call could not conclusively contradict the ultimate diagnosis of intellectual
disability.
And Smith’s IQ scores, all of which place him in
the intellectually disabled range, strongly compel a
finding of significant deficits in intellectual functioning.
Unlike in previous cases in which we denied relief on
the intellectual functioning prong, not even one of
Smith’s IQ scores falls outside the intellectually disabled range “between 70 and 75 or lower,” Atkins,
536 U.S. at 309 n.5, 122 S.Ct. 2242; see Hooks, 689
F.3d at 1168 n.7 (noting petitioners IQ scores of: 80,
70, 61, 57, 61, 80, 72, 76, and 53, determining the 72
and 76 to be most reliable); Michael Smith, 824 F.3d

App.25a
at 1244 (noting petitioner’s IQ scores of 76, 79, and
71). In this case, the IQ scores addressed by the
OCCA in its opinion were: 65 on the Wechsler Adult
Intelligence Scale-Revised (WAIS-R); 55 on the
Wechsler Adult Intelligence Scale-III (WAIS-III); 55
(WAIS-III); 69-78 on the Raven’s Standard Progressive
Matrices, which provide a range rather than fixed
score; and 73. OCCA Atkins Op. at 7-8.7
Of the scores presented at Smith’s Atkins trial
and to the OCCA, the 55 scores were obtained by Dr.
Hopewell, one of Smith’s experts, and Dr. Call, the
State’s expert, roughly nine months apart. Dr. Hopewell
administered the WAIS-III to Smith in January
2003, and obtained a Verbal IQ interval of 51-61, a
Performance IQ interval of 59-73, and a full scale
interval of 52-60. Dr. Call’s administration of the
same assessment nine months later produced not only
an identical full scale score of 55, but also similar
intervals. Dr. Call obtained a Verbal IQ interval of
53-63, a Performance IQ interval of 58-71, and a full
scale interval of 52-60. Dr. Call’s administration of
the assessment produced age-adjusted scales either
identical to or within one point of Dr. Hopewell’s
administration in nine of the eleven areas the WAISIII measures.
Dr. Smith administered the WAIS-R and the
Raven’s Standard Progressive Matrices to Smith in
7 Smith also attempts to present scores of 55 (WAIS-III) and 55
(WAIS-IV) obtained by Drs. Hall and Ruwe in 2005 and 2010,
respectively. But these scores were obtained after Smith’s Atkins
trial, and were thus not presented to the OCCA. Under AEDPA,
our “review is limited to the record that was before the state
court,” Pinholster, 563 U.S. at 180, 131 S.Ct. 1388, and we may
not consider either score.

App.26a
1997, five years prior to the Supreme Court’s decision
in Atkins.8 On the WAIS-R assessment, Smith’s Verbal
IQ score was 64, his Performance IQ was 70, and full
scale IQ was 65. Dr. Smith testified that the score
indicated Smith was intellectually disabled.9 With
regard to the Raven’s Standard Progress Matrices,
Dr. Smith testified that assessment provides a range,
rather than a fixed score like the WAIS assessments,
and Smith obtained a range of 69 to 78. When asked
to compare the assessments’ accuracy, Dr. Smith une8 And experts on both sides believed Smith to be intellectually
disabled before Atkins was decided. Although our opinion on
Smith’s first habeas petition concerned mitigation evidence
rather than Smith’s intellectual disability, we noted the strong
evidence of his intellectual disability: “Smith is completely illiterate. Even the State’s experts and prison doctors determined
. . . Smith’s IQ to be in the mentally retarded or borderline
mentally retarded range. His understanding and his emotional
development and his ability to relate all seem to be fairly
similar to what we would perceive to be a 12-year-old-child.”
Smith v. Mullin, 379 F.3d at 941 (citations and quotation omitted).
9 Dr. Hopewell addressed the discrepancy between the scores of
55 that Dr. Call and Dr. Hopewell obtained and the 65 Dr.
Smith obtained, testifying that the scores are consistent
because Dr. Smith administered the older version of the WAIS
assessment that would have inflated Smith’s score pursuant to
the Flynn effect. As we explained in Hooks, under the Flynn
effect, “if an individual’s test score is measured against a mean
of a population sample from prior years, then his score will be
inflated in varying degrees (depending on how long ago the
sample was first employed) and will not provide an accurate
picture of his IQ.” 689 F.3d at 1169. We need not rely upon the
Flynn effect to conclude a reasonably jury would have been
compelled to find that Smith met the intellectual functioning
Murphy prong because every score placed Smith in the intellectually disabled range, but merely acknowledge its existence to
refute any suggestion that the discrepancy between Smith’s
1997 and 2003 scores support the conclusion that he malingered.

App.27a
quivocally stated the WAIS “is the premier instrument
used throughout the world for IQ measurement.”
Finally, the 73 results from a test administered
in preparation for Smith’s original criminal trial in
1994. Smith notes that the type of test administered
to obtain the 73 is unclear. Dr. Call’s testimony
provides the only source for the score in the Atkins
trial record, noting that Dr. Murphy administered
the test in 1994. The transcript from Smith’s original
criminal trial includes testimony from Dr. Murphy
that Smith’s full scale IQ is 73, and “in the mentally
retarded range of intellectual functioning.” At no
point in his testimony did Dr. Murphy state what
type of test was administered, and he did not testify
at Smith’s Atkins trial. Accordingly, although we note
the score obtained by Dr. Murphy for its consistent
placement of Smith in the intellectually disabled
range, we do not consider a score on an unknown test
and only introduced into the Atkins trial record indirectly to be of particular significance to our review.10
In view of the evidence showing Smith’s consistent
low IQ scores and Atkins’ statement that a score of
75 or lower will generally satisfy the intellectual
functioning prong of an intellectual disability diagnosis,
the State must provide some basis for a reasonable
juror to believe that every single one of Smith’s IQ
assessments was inaccurate, and that his actual IQ
was some ten to fifteen points higher than his scores
10 And we consider the reliability of a particular IQ assessment
when reviewing a sufficiency of evidence challenge under
AEDPA. See Hooks, 689 F.3d at 1170 (“Given the [uncontested]
reliability problems associated with many of the scores and the
strong reliability of the scores of 72 and 76 from [petitioner’s]
own experts, we agree that [petitioner] falls into a ‘gray area.’”).

App.28a
indicate. The OCCA dismissed the relevance of these
scores consistently placing Smith in the intellectually
disabled range by first emphasizing Dr. Call’s testimony
that Smith was likely malingering. OCCA Atkins Op.
at 8. But to the extent the OCCA determined Smith
failed to satisfy the intellectual functioning Murphy
prong because he was malingering, we conclude such
a determination amounts to an unreasonable factual
conclusion. Byrd, 645 F.3d at 1171-72 (10th Cir. 2011)
(explaining that in cases where the state courts
“plainly misapprehend or misstate the record in making
their findings, and the misapprehension goes to a
material factual issue that is central to petitioner’s
claim, that misapprehension can fatally undermine
the fact-finding process, rendering the resulting factual
finding unreasonable” (quotation omitted)).
As explained supra, Smith has consistently scored
in the intellectually disabled range on every IQ test
he has taken. And Smith almost certainly scored in
that range when he was first placed in courses for the
educable mentally handicapped while in grade school,
as special education instructors from his school testified
that placement in such courses required IQ testing in
the intellectually disabled range. Dr. Hopewell testified
that children would not fake an intellectual disability
for placement in the educable mentally handicapped
courses. Two of Smith’s high school teachers testified
that Smith was one of the lower functioning students
in their educable mentally handicapped courses.
As all three experts expressly testified, Smith’s
consistent placement in the intellectually disabled
range provides compelling evidence that he was not
malingering. Dr. Hopewell testified that Smith’s consistent scoring across a wide range of tests and his

App.29a
prior experience with the intellectually disabled refuted
any claims that Smith was malingering. Dr. Smith
testified that Smith’s scores from 1997 through 2003
demonstrate a “remarkable” consistency difficult to
reconcile with a malingering diagnosis. And Smith
obtained the 65 score in 1997 on the assessment that
Dr. Smith administered, five years prior to the Supreme
Court’s decision in Atkins, calling into question any
purported motivation for malingering. Even the State’s
expert, Dr. Call, agreed that comparing test performance on the same or similar tests over time would
provide one way of assessing whether an individual
was malingering. Moreover, as the Seventh Circuit
explains, “a defendant cannot readily feign the symptoms of mental retardation.” Newman v. Harrington,
726 F.3d 921, 929 (7th Cir. 2013) (quotation omitted).
The State’s assertion that Smith was malingering
thus rests on Dr. Call, the sole expert to so testify.
Unlike Dr. Hopewell, who had extensive experience
with both the intellectually disabled and malingering
patients, Dr. Call had no prior experience with the
intellectually disabled and practiced almost exclusively
in the unrelated field of forensic psychology. See
Lambert v. State, 126 P.3d 646, 651-52 (Okla. Crim.
App. 2005) (“Dr. Call is a forensic psychologist. His
practice has not primarily been in the field of mental
retardation, and he has not had a mentally retarded
patient in a clinical setting for fifteen years. However,
since 2002 he has made a specialty of examining
capital defendants for mental retardation.”). The
OCCA had previously chastised Dr. Call because he
“himself made up and administered a non-standardized
test . . . not administered pursuant to accepted scientific
norms . . . to convince the jury Petitioner was malin-

App.30a
gering.” Salazar v. State, 126 P.3d 625, 632 (Okla.
Crim. App. 2005). Moreover, Dr. Call could not conclude that Smith is not intellectually disabled. Presented with the testimony of two experts who concluded Smith was intellectually disabled, Dr. Call
could only state that the record established that
Smith had neither an intellectual disability nor an
absence thereof. And the OCCA noted an identical
admission from Dr. Call to deemphasize his malingering diagnosis in concluding a defendant met the
first Murphy prong in Lambert. 126 P.3d at 651 (“Dr.
Call did not testify that Lambert was not mentally
retarded. In fact, he explicitly stated he could not say
that Lambert was not mentally retarded.”).
The OCCA also emphasized Dr. Call’s testimony
that the tests he and Dr. Hopewell administered to
assess malingering demonstrate “Smith did not put
forth his best efforts during his and Dr. Hopewell’s
testing and that Smith’s I.Q. test results were unreliable.” OCCA Atkins Op. at 8. Dr. Call testified that
the Test of Memory and Malingering and 15-Item
Memory Test both demonstrated Smith was malingering. Dr. Hopewell disputed this conclusion, testifying
the assessments of malingering that he and Dr. Call
administered would not accurately assess the intellectually disabled.
Even if the OCCA had used the malingering
assessments to disregard Smith’s scores (both 55) on
the WAIS-III assessments, Smith still averaged a 69
on the remaining fixed score assessments. For a
reasonable jury not to be compelled to conclude that
Smith satisfied the first Murphy prong based on the
malingering assessments, there must exist some basis
for the jurors to infer that Smith’s actual IQ falls

App.31a
outside the intellectually disabled range. But every
score presented refuted such an inference. And “[w]hile
the jury may draw reasonable inferences from direct
or circumstantial evidence, an inference must be more
than speculation and conjecture to be reasonable.”
Torres v. Lytle, 461 F.3d 1303, 1313 (10th Cir. 2006).
The OCCA’s conclusion that Smith “failed to meet
even the first prong of the Murphy definition,” OCCA
Atkins Op. at 11, is thus an unreasonable determination of the facts in light of Smith’s consistent IQ
scores that demonstrate significantly subaverage
intellectual functioning. See Pruitt, 788 F.3d at 267
(“Even when viewed through AEDPA’s deferential
lens, the [state court’s] determination that [petitioner]
failed to demonstrate significantly subaverage intellectual functioning . . . was objectively unreasonable.
. . . The record establishes that [petitioner’s] reliable
IQ scores consistently demonstrated significantly
subaverage intellectual functioning.”).11
The OCCA attempted to justify its disregard for
Smith’s consistent IQ scores by explaining “the State
presented persuasive evidence from lay witnesses to
refute Smith’s evidence of subaverage intellectual
11 Because we conclude the OCCA’s holding that Smith failed
to meet the intellectual functioning prong constitutes a “decision that was based on an unreasonable determination of the
facts,” § 2254(d)(2), we have necessarily concluded that Smith
has carried his Jackson burden. A reasonable jury would have
been compelled to find that Smith satisfied the intellectual
functioning Murphy prong. See Hooks, 689 F.3d at 1166
(explaining Jackson, as applied to the Atkins context, requires
assessing “whether, viewing the evidence in the light most
favorable to the prevailing party (the State), any rational trier
of fact could have found [petitioner] not mentally retarded by a
preponderance of the evidence” (emphasis in original)).

App.32a
functioning.” OCCA Atkins Op. at 8. But to the extent
that the OCCA determined Smith failed to satisfy
the intellectual functioning Murphy prong because of
evidence from lay witnesses, such a determination
constitutes an unreasonable application of Atkins.
See Wiggins, 539 U.S. at 520, 123 S.Ct. 2527.

Atkins demands the Eighth Amendment’s prohibi-

tion of the execution of the mentally disabled tracks
the “national consensus [that] developed against” the
execution of “offenders possessing a known IQ less
than 70.” Atkins, 536 U.S. at 316 & 309 n.5, 122
S.Ct. 2242 (“[A]n IQ between 70 and 75 or lower . . . is
typically considered the cutoff IQ score for the intellectual function prong of the mental retardation definition.”). The Diagnostic and Statistical Manual of
Mental Disorders, cited by the Atkins court, id. at 308
n.3, 122 S.Ct. 2242, is even more explicit: “Intellectual
functioning is typically measured with individually
administered and psychometrically valid, comprehensive, culturally appropriate, psychometrically sound
tests of intelligence.” Am. Psychiatric Ass’n, Diag-

nostic and Statistical Manual for Mental Disorders
at 37 (4th ed.-Text Rev. 2000). And, citing Atkins, we

have similarly concluded that “[a]n IQ score of 70 or
below . . . is [ ] strong evidence of sub-average intelligence.” Hooks, 689 F.3d at 1168. This court has
noted that “[t]he [Supreme] Court in Atkins . . . base[d]
its analysis on clinical definitions of intellectual disability, and the [Supreme] Court has since recognized
that such definitions were a fundamental premise of
Atkins.” Michael Smith, 824 F.3d at 1243.
Therefore, the OCCA’s determination Smith did
not satisfy the first prong of the Murphy definition
constitutes either an unreasonable determination of

App.33a
the facts, or amounts to an unreasonable application
of Atkins because such determination requires the
OCCA to have disregarded the clinical definitions
Atkins mandated states adopt. We conclude the OCCA
erred in determining a reasonable jury would not have
been compelled to find Smith intellectually disabled.
b
The State conceded at oral argument that there
exists insufficient evidence for a reasonable jury to
conclude that Smith’s symptoms did not manifest
before the age of eighteen. The record supports the
State’s concession: throughout his schooling, Smith
was placed in educable mentally handicapped courses,
and placement in those courses required Smith submit
to a psychometrist-administered test and score a full
scale IQ in the intellectually disabled range. Two of
Smith’s teachers from his educable mentally handicapped courses confirmed that his placement in those
classes was appropriate. We accordingly conclude
that Smith’s sufficiency of evidence challenge prevails
with regards to the age-of-onset prong of the Murphy
definition of intellectual disability.
c
Finally, Smith must demonstrate that a rational
jury would have been compelled to find he satisfied the
adaptive functioning prong of the Murphy analysis:
“that he has significant limitations in adaptive functioning in at least two of the nine listed skill areas.”
OCCA Atkins Op. at 6. As explained by the OCCA,
the “adaptive functioning skill areas are: communication; self-care; social/interpersonal skills; home living;
self-direction; academics; health and safety; use of

App.34a
community resources; and work.” Id. at 6 n.8. Because
the OCCA did not adjudicate this prong of Murphy
on the merits, we review the evidence and conduct the
legal analysis de novo. Brumfield, 135 S. Ct. at 2282.
Under de novo review, we are not constrained to
consider only Supreme Court precedent “clearly established at the time of the [state] adjudication,” as
required under AEDPA. Shoop, 139 S. Ct. at 506. We
thus apply the general rule for retroactive application
of law to convictions under collateral attack to assess
whether the Supreme Court’s recent applications of
Atkins “are novel.” Chaidez v. United States, 568
U.S. 342, 348, 133 S.Ct. 1103, 185 L.Ed.2d 149 (2013).
In general, “[o]nly when we apply a settled rule
may a person avail herself of the decision on collateral
review.” Id. at 347, 133 S.Ct. 1103. To determine
whether a post-conviction constitutional rule applies
to a case on collateral review, the court must first
“determine when the defendant’s conviction became
final.” Beard v. Banks, 542 U.S. 406, 411, 124 S.Ct.
2504, 159 L.Ed.2d 494 (2004). It then must decide
“whether the rule is actually ‘new.’” Id. Typically, a
rule is “new” if it either “breaks new ground or imposes
a new obligation on the States or the Federal Government,” or its “result was not dictated by precedent
existing at the time the defendant’s conviction became
final.” Teague v. Lane, 489 U.S. 288, 301, 109 S.Ct.
1060, 103 L.Ed.2d 334 (1989). A result is not dictated
by precedent if “reasonable jurists could have differed
as to whether [precedent] compelled” the result.
Beard, 542 U.S. at 414, 124 S.Ct. 2504. If the rule is
not new, the petitioner may “avail herself of the decision
on collateral review.” Chaidez, 568 U.S. at 347, 133
S.Ct. 1103. But “if the rule is new,” it is not retroactively

App.35a
applicable on collateral review unless “it falls within
either of the two exceptions to nonretroactivity.”
Beard, 542 U.S. at 414, 124 S.Ct. 2504.
When the Supreme Court “appl[ies] a general standard to the kind of factual circumstances it was meant
to address, [it] will rarely state a new rule.” Chaidez,
568 U.S. at 348, 133 S.Ct. 1103. And the Supreme
Court’s post-Atkins jurisprudence has expressly confirmed that its reliance on the clinical standards
endorsed in Atkins constitutes a mere application of
that case. We thus conclude these cases do not state
a new rule. As the Supreme Court explained in Hall:

Atkins did not give the States unfettered

discretion to define the full scope of the constitutional protection. The Atkins Court twice
cited definitions of intellectual disability. . . .
Atkins itself not only cited clinical definitions
for intellectual disability but also noted that
the States’ standards, on which the Court
based its own conclusion, conformed to
those definitions. . . . The clinical definitions
of intellectual disability, which take into
account that IQ scores represent a range,
not a fixed number, were a fundamental premise of Atkins . . . If the States were to have
complete autonomy to define intellectual
disability as they wished, the Court’s decision
in Atkins could become a nullity, and the
Eighth Amendment’s protection of human
dignity would not become a reality. This
Court thus reads Atkins to provide substantial guidance on the definition of intellectual
disability.

App.36a
572 U.S. at 720-21, 134 S.Ct. 1986 (emphasis added);
see also Michael Smith, 824 F.3d at 1243 (“The Court
in Atkins did, however, base its analysis on clinical
definitions of intellectual disability.”); Hooks, 689
F.3d at 1166 (“[T]he definition of mental retardation
. . . although dependent on state law (here, Murphy),
ultimately has Eighth Amendment underpinnings
pursuant to Atkins.”). And the Supreme Court reiterated this reading of Atkins in Moore v. Texas (Moore
II), ___ U.S. ___, 139 S. Ct. 666, ___ L.Ed.2d ___
(2019), explaining that “[w]hile our decisions in Atkins
and Hall left to the States the task of developing
appropriate ways to enforce the restriction on executing
the intellectually disabled, a court’s intellectual disability determination must be informed by the medical
community’s diagnostic framework.” Id. at 669 (citations
and quotations omitted).
As in Strickland, the Supreme Court in Atkins
declared “a rule of general application . . . designed for
the specific purpose of evaluating a myriad of factual
contexts.” Chaidez, 568 U.S. at 348, 133 S.Ct. 1103
(quotation omitted). The application of this general
rule to Hall, Moore v. Texas (Moore I), ___ U.S. ___,
137 S. Ct. 1039, 197 L.Ed.2d 416 (2017), and Moore
II cannot be understood to “yield[ ] a result so novel
that it forges a new rule, one not dictated by precedent”,
Chaidez, 568 U.S. at 348, 133 S.Ct. 1103 (quotation
omitted), in light of the Court’s proclamation in Hall
that “Atkins . . . provide[s] substantial guidance on the
definition of intellectual disability,” 572 U.S. at 721,
134 S.Ct. 1986. The Court’s application of Atkins
more closely resembles, for example, our conclusion
that the extension of Strickland’s guarantee of effective
counsel to the plea-bargaining context merely applied

App.37a

Strickland rather than created a new rule. In re
Graham, 714 F.3d 1181, 1183 (10th Cir. 2013) (per
curiam).

Accordingly, we consider on de novo review the
Supreme Court’s application of Atkins in Hall, Moore
I, and Moore II. The Court’s decisions in Moore I and
Moore II, which directly address the adaptive functioning component of the clinical definitions that
Atkins mandated, make clear that no reasonable jury
could conclude Smith failed to establish by a preponderance of evidence that he suffered deficits in at
least two areas of adaptive functioning, with the most
compelling evidence concerning academics and communication. And the State conceded at oral argument
that Smith demonstrated significant limitations in
adaptive functioning in the academics category.
Dr. Hopewell, the only expert to conduct a formal
assessment of Smith’s adaptive functioning capacities,
concluded Smith suffers from profound deficits in at
least five of the nine adaptive functioning areas: communication; academics; social skills; home living; and
health and safety. Dr. Hopewell based this assessment
on the Vineland Adaptive Behavior Scales assessment;
his own interactions with Smith; and his review of
Department of Corrections testing on Smith’s adaptive
functions, which revealed significant deficits in reading,
writing, and personal finances (placing Smith at the
third and fifth grade levels). With regard to Smith’s
significant communication deficits, Dr. Hopewell noted
that Smith could not keep a cellmate because his
fellow prisoners would become bored with his lack of

App.38a
engagement, and frustrated that he spent much of
his time completing grade-school level coloring books.12
Dr. Hopewell also administered the Wide Range
Achievement Test III (WRAT-III), intended to assess
an individual’s ability in reading, writing, and arithmetic to substantiate the finding of significant deficits
in the functional academics category of adaptive
functioning. Smith scored at the kindergarten or first
grade level in each academic area, at or below two
standard deviations from the mean. Dr. Hopewell
characterized Smith as functionally illiterate, unable
to read more than a few words at a very basic level.
And Smith’s teachers from high school confirmed
his illiteracy, with one teacher testifying that she
never asked Smith to read aloud because of his illiteracy, and another stating it was “very, very likely”
that he graduated high school without having learned
to read. Smith was unable to fill out job applications
without the assistance of his teachers. Evidence of
Smith’s adult illiteracy arose out of his employment;
one teacher in the school where Smith worked as a
custodian noted that he was unable to read notes
containing special cleaning requests. And we noted
12 Although Dr. Call heavily criticized Dr. Hopewell’s administration of the Vineland test directly to Smith, rather than a
caretaker, it remains the only formal assessment of adaptive
functioning conducted at the time of Smith’s Atkins trial. And,
as Dr. Hopewell explained, his analysis of Smith’s deficits in
adaptive functioning was not wholly reliant on the Vineland
assessment, because he determined many of Smith’s deficits to
be manifest without testing, and thus “pathological.” Dr. Hopewell
also made efforts to independently verify or corroborate Smith’s
deficits by speaking with his nurse, prison guards, and his
attorneys.

App.39a
the evidence that “Smith is completely illiterate” in
resolving Smith’s first habeas petition. Smith v.
Mullin, 379 F.3d at 941.
Only Smith presented a standardized assessment
of his adaptive behavior; contrary to the AAMR’s
recommendations, the State neither conducted nor
presented a single standardized assessment of Smith’s
adaptive behavior. AAMR, Mental Retardation: Definition, Classification, and Systems of Supports at 83
(10th ed. 2002) (“Regardless of the purpose of diagnosis . . . adaptive behavior should be measured with
a standardized instrument that provides normative
data on people without mental retardation.”). The evidence Smith presented, including the only formal
assessment of his deficits in adaptive functioning
corroborated by expert testimony and testimony from
Smith’s teachers and colleagues about his deficits,
thus overwhelmingly supports Smith’s claim that he
satisfies the third Murphy prong.
The evidence the State emphasizes on appeal to
refute Smith’s adaptive functioning argument carries
little weight in light of the Supreme Court’s warnings
against undue emphasis on “perceived adaptive
strengths,” Moore I, 137 S. Ct. at 1050, and “lay
stereotypes of the intellectually disabled,” id. at 1052.
As the Supreme Court explained in Moore I:
[T]he medical community focuses the adaptive-functioning inquiry on adaptive deficits.
E.g., AAIDD–11, at 47 (“significant limitations
in conceptual, social, or practical adaptive
skills [are] not outweighed by the potential
strengths in some adaptive skills”); DSM–5,
at 33, 38 (inquiry should focus on “[d]eficits
in adaptive functioning”; deficits in only

App.40a
one of the three adaptive-skills domains
suffice to show adaptive deficits).

Id. at 1050 (alterations in original); see also Brumfield,
135 S. Ct. at 2281 (“[I]ntellectually disabled persons
may have ‘strengths in social or physical capabilities,
strengths in some adaptive skill areas, or strengths
in one aspect of an adaptive skill in which they otherwise show an overall limitation.’” (quoting AAMR,
Mental Retardation: Definition, Classification, and
Systems of Supports at 8 (10th ed. 2002))).
Evidence that rests on lay stereotypes about the
intellectually disabled, such as the incorrect stereotypes that they cannot have jobs or relationships, is
similarly disfavored. See Moore II, 139 S. Ct. at 672. As
the Court explained in Moore I, “the medical profession has endeavored to counter lay stereotypes of the
intellectually disabled” and “[t]hose stereotypes, much
more than medical and clinical appraisals, should
spark skepticism.” 137 S. Ct. at 1052. In light of the
Supreme Court’s admonitions against consideration
of adaptive strengths and lay stereotypes, no rational
jury could decide that Smith failed to demonstrate by
a preponderance of evidence deficits in adaptive
functioning. All the evidence emphasized by the State
falls into one or both of those two disfavored categories.
The State first emphasizes the testimony of
Smith’s former prison case manager, Watts, who
testified that Smith could communicate with her and
“use manipulative behavior to get a more desirable
cell or cellmate.” However, Watts has no experience
with intellectual disabilities, and the State’s own expert
acknowledged at the proceeding that the intellectually
disabled can lie. Additionally, the Supreme Court has
“caution[ed] against reliance on adaptive strengths

App.41a
developed in prison.” Moore II, 139 S. Ct. at 671
(quotation omitted); Moore I, 137 S. Ct. at 1050 (citing
DSM-5 for the proposition that “[a]daptive functioning
may be difficult to assess in a controlled setting (e.g.,
prisons, detention centers); if possible, corroborative
information reflecting functioning outside those settings
should be obtained”).
Reliance on the testimony of Smith’s insurance
agent and work supervisor by the State is similarly
unavailing. As with Smith’s prison case manager, these
individuals have no experience in diagnosing intellectual disability, and based their opinions exclusively
on lay stereotypes. Moreover, the testimony of Smith’s
insurance agent concerned two interactions with Smith
over ten years earlier cumulatively taking roughly an
hour. The mere fact that Smith’s insurance company
wanted to hire him, or that his work supervisor did
not have problems with Smith’s performance of his
work duties, is of limited significance. The Supreme
Court has repudiated the notion that persons with
intellectual disability “never have . . . jobs” when “it
is estimated that between nine and forty percent of
persons with intellectual disability have some form
of paid employment.” Moore II, 139 S. Ct. at 672
(citations and quotations omitted). Even if clinically
informed, evidence of perceived adaptive strengths
such as the ability to hold down a job does not constitute
“evidence adequate to overcome . . . objective evidence
of [the individual’s] adaptive deficits.” Moore I, 137 S.
Ct. at 1050. As Dr. Hopewell explained in his testimony,
a work-related deficit in adaptive functioning does
not require the individual be incapable of work;
instead, the deficit is assessed against the population

App.42a
in general, the overwhelming majority of which can
perform work at a much higher level than can Smith.
Reference to the testimony of an assistant district
attorney from the team that prosecuted Smith’s initial
criminal trial does not overcome the strong medical
evidence of significant deficits in adaptive functioning.
The assistant district attorney testified that Smith
filed and presented several motions on his behalf, and
made good arguments in support of those motions.
But one of those motions was a request that the
prosecutor’s table be moved because Smith thought
the prosecutor was making faces at him, which the
prosecutor denied making at the Atkins trial. And
the Supreme Court has warned against using papers
an individual files in court as convincing evidence of
communication skills, especially where, as in this
case, evidence suggests the papers were written by a
cellmate. See Moore II, 139 S. Ct. at 671 (noting such
evidence “lacks convincing strength without a determination about whether [the individual] wrote the
papers on his own”). Further, Smith’s counsel from
his criminal trial refuted the State’s suggestion that
Smith played any role in his own defense, testifying
that Smith spent most of the trial drawing and did
not have “much of a clue about what was going on.”
The State next emphasizes Smith’s relationship
with Laura Dich to refute Smith’s evidence of deficits
in adaptive functioning. Such emphasis further evinces
impermissible “reliance upon . . . lay stereotypes of the
intellectually disabled,” as the Court has warned
against adopting the “incorrect stereotypes that persons
with intellectual disability never have [relationships].”
Moore II, 139 S. Ct. at 672 (quotations omitted). And
the State makes no efforts on appeal to provide any

App.43a
scientific or clinical justifications that would render
meaningful evidence of Smith’s relationships.13 Even
if we were to accept the lay stereotype evidence above
as relevant, the State’s failure to connect that evidence
to any areas of adaptive functioning renders the
evidence uncompelling in this context. See Van Tran,
764 F.3d at 612 (“[T]he [state court] unreasonably
determined that Van Tran was not intellectually disabled. The [state court] emphasized too heavily in its
analysis the facts of the crime, which are not relevant
to the analysis of most of the areas of adaptive
behavior, especially that of functional academics.”).
In sum, Atkins and its progeny prohibit states
from “disregard[ing] established medical practice.”
Moore I, 137 S. Ct. at 1049 (alteration in original).
“[O]ur precedent [does not] license disregard of current
medical standards.” Id. And our review of the record
indicates Smith could only fail to establish by a preponderance of evidence significant deficits in adaptive
functioning in at least two of the enumerated areas if
the jury disregarded medical standards in favor of lay
stereotypes and undue emphasis on adaptive strengths
in the precise manner prohibited by the Supreme
Court in Moore I and Moore II. Only speculation or
conjecture based on lay stereotype could support a
jury verdict finding Smith failed to demonstrate
13 The testimony of Dr. Call, the State’s primary expert witness,
provides no such basis. Dr. Call acknowledged that the intellectually disabled can lie, hold a job, work hard, drive, cook, clean,
use a telephone, marry, and love. To the extent the State would
rely upon Dr. Call’s testimony to refute Smith’s showing of
deficits in adaptive function, Dr. Call explicitly acknowledged
that he did not assess Smith using any “standardized instrument,” and could therefore not definitively testify to Smith’s
deficits in adaptive functioning.

App.44a
significant deficits in adaptive functioning. And “[w]hile
the jury may draw reasonable inferences from direct
or circumstantial evidence, an inference must be more
than speculation and conjecture to be reasonable.”
Torres, 461 F.3d at 1313 (quotation omitted).
Because Smith has demonstrated a reasonable
jury would have been compelled to conclude he satisfied
all three prongs of the Murphy test, we reverse the
district court’s denial of his habeas petition for relief
on this claim.
B
Because we grant habeas relief on Smith’s sufficiency of evidence Atkins challenge, we do not need
to address Smith’s Atkins challenge to the “present
and known” jury instruction or his claims of ineffective
assistance of counsel at his Atkins proceedings. See
Pruitt, 788 F.3d at 270 (“[Petitioner] raises three
alleged errors in support of his ineffective-assistanceof-counsel claim, but we need address only one—
whether trial counsel was ineffective at the penalty
phase in investigating and presenting evidence that
[petitioner] suffered from paranoid schizophrenia.”).
Were we to grant Smith relief on those claims, the
appropriate remedy would entitle Smith to relitigate
intellectual disability at a new Atkins trial. But we
hold Smith is intellectually disabled as a matter of law
and therefore constitutionally ineligible for execution.
Accordingly, any relief we could grant on Smith’s
remaining claims concerning his Atkins trial would

App.45a
be meaningless because the State is not permitted to
conduct a new Atkins trial.14
We must nevertheless consider Smith’s ineffective
assistance of counsel claim concerning counsel’s representation at the competency and resentencing trials.
The relief Smith seeks on that claim could require
the OCCA to vacate his sentences and order a new
competency trial. Only if Smith were found competent
could the OCCA then order resentencing, including
on Smith’s three murder convictions for which he was
not sentenced to death. Accordingly, we address this
claim and affirm the district court’s denial of habeas
relief.
Smith argues his counsel at the competency and
resentencing trials, and attendant direct appeal, was
constitutionally ineffective for failing to present to
the jury a video recording of an interview with Smith,
which he contends would have shown his humanity
and intellectual disability. Specifically, Smith argues
that counsel was ineffective in these proceedings for
failing to call Anna Wright, a mental health worker
at the Oklahoma County jail, to testify and sponsor
the introduction of a video recording of Smith speaking.
14 We also need not address Smith’s cumulative error argument
for purported aggregated constitutional violations. “A cumulativeerror analysis merely aggregates all the errors that individually
have found to be harmless, and therefore not reversible, and it
analyzes whether their cumulative effect on the outcome of the
trial is such that collectively they can no longer be determined to
be harmless.” Hanson v. Sherrod, 797 F.3d 810, 852 (10th Cir.
2015) (quotation omitted). Because we reverse only on Smith’s
claim that the Eighth Amendment prohibits his execution, there
are no harmless errors to aggregate. Id. at 853 (“Because [petitioner] has failed to prove at least two errors, we have no
occasion to apply a cumulative error analysis.”).

App.46a
Wright assisted in a video interview of Smith conducted in preparation for one of Smith’s prior cell
mate’s clemency hearing. Smith claims this video
would have made clear his intellectual disability and
demonstrated his humanity to the juries in those
proceedings. Smith also attaches an auxiliary ineffective assistance of appellate counsel claim to this
failure, arguing his appellate counsel at resentencing
was ineffective for failing to raise the deficiency of
his trial counsel on direct appeal.
1
The Sixth Amendment guarantees a criminal
defendant “the right . . . to have Assistance of Counsel
for his defense.” U.S. Const. amend. VI. Criminal
defendants’ constitutional right to counsel encompasses
post-conviction Atkins proceedings. Hooks, 689 F.3d
at 1184. (“We have concluded that defendants in Atkins
proceedings have the right to effective counsel secured
by the Sixth and Fourteenth Amendments.”).
The right to counsel requires a minimum quality
of advocacy from a professional attorney. See Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80
L.Ed.2d 674 (1984). A defendant can establish a constitutional violation of the right to counsel where
“counsel’s performance was deficient,” and “the deficient
performance prejudiced the defense.” Id. at 687, 104
S.Ct. 2052. “These two prongs may be addressed in
any order, and failure to satisfy either is dispositive.”
Hooks, 689 F.3d at 1186.
To establish deficient performance, “the defendant
must show that counsel’s representation fell below
an objective standard of reasonableness” as assessed
from counsel’s perspective at the time. Strickland, 466

App.47a
U.S. at 688, 104 S.Ct. 2052. In this way, “hindsight is
discounted by pegging adequacy to counsel’s perspective
at the time investigative decisions are made.” Rompilla,
545 U.S. at 381, 125 S.Ct. 2456 (quotation omitted). In
so doing, we determine “whether an attorney’s representation amounted to incompetence under prevailing
professional norms, not whether it deviated from best
practices or most common custom.” Richter, 562 U.S.
at 105, 131 S.Ct. 770. And “counsel is strongly presumed to have rendered adequate assistance and made
all significant decisions in the exercise of reasonable
professional judgment.” Hooks, 689 F.3d at 1168
(quotation omitted); see also Strickland, 466 U.S. at
689, 104 S.Ct. 2052 (“[A] court must indulge in a
strong presumption that counsel’s conduct falls within
the wide range of reasonable professional assistance;
that is, the defendant must overcome the presumption that, under the circumstances, the challenged
action might be considered sound trial strategy.”
(quotation omitted)). “In other words, [counsel’s performance] must have been completely unreasonable,
not merely wrong.” Byrd, 645 F.3d at 1168 (quotation
omitted).
“[T]o establish prejudice, the defendant must show
that, but for counsel’s deficient performance, there is
a reasonable probability the result of the proceeding
would have been different.” Michael Smith, 824 F.3d
at 1249. “[I]n the capital-sentencing context, if the
petitioner demonstrates that there is a reasonable
probability that at least one juror would have refused
to impose the death penalty, the petitioner has
successfully shown prejudice under Strickland.” Grant,
886 F.3d at 905 (quotation omitted). “The likelihood
of a different result must be substantial, not just con-

App.48a
ceivable.” Richter, 562 U.S. at 112, 131 S.Ct. 770. To
assess “whether an inadequate investigation prejudiced a habeas petitioner, we reweigh the evidence
on both sides, this time accounting for the petitioner’s
proposed additions,” and “account for how the state
would have responded to the omitted evidence.” Postelle
v. Carpenter, 901 F.3d 1202, 1217 (10th Cir. 2018)
(quotation omitted), cert denied, ___ U.S. ___, 139
S.Ct. 2668, 204 L.Ed.2d 1073 (2019).
In cases in which the OCCA has adjudicated a
Strickland claim on the merits, our review of the
OCCA decision is “doubly deferential” because “[w]e
take a highly deferential look at counsel’s performance
through the deferential lens of [AEDPA].” Pinholster,
563 U.S. at 190, 131 S.Ct. 1388 (citations and quotations omitted). Applying, AEDPA deference, we must
“determine whether reasonable jurists could agree
with the OCCA that [Smith’s] trial and appellate
counsels acted reasonably.” Johnson v. Carpenter,
918 F.3d 895, 900 (10th Cir. 2019). But, as explained
supra, we do not apply this double deference to an
unadjudicated Strickland prong if the OCCA’s decision rests entirely on a single prong. See, e.g., Porter,
558 U.S. at 39, 130 S.Ct. 447.
2
The parties agree that the OCCA adjudicated
the merits of Smith’s ineffective assistance of counsel
claims concerning Wright’s testimony and the attendant
video. See OCCA Resentencing and Competency Op.
at 9-10 n.5. The OCCA addressed deficient performance
and prejudice, holding both that Smith failed to
demonstrate counsel’s purported failings amounted
to more than a strategic decision and that Smith

App.49a
failed to demonstrate the omitted materials are “of a
character substantially different from the evidence
that trial counsel ultimately chose to use,” rendering
their omission immaterial. Id. The OCCA also explained
Wright had characterized her interactions with Smith
as limited, and that the interview’s persuasive force
on the question of Smith’s intellectual functioning
was debatable. Id.
Smith nonetheless contends we should review
these ineffective assistance claims de novo because
the OCCA “misidentified” the allegations by holding
Smith alleged mere strategic error rather than counsels’
failures to investigate and prepare. He relies on
Chadwick v. Janecka, 312 F.3d 597 (3d Cir. 2002), in
which that court stated “if an examination of the
opinions of the state courts shows that they misunderstood the nature of a properly exhausted claim and
thus failed to adjudicate that claim on the merits,
the deferential standards of review in AEDPA do not
apply.” Id. at 606. Smith explains that he couched his
ineffective assistance claim in terms of counsels’
failure to develop, prepare, and investigate for trial.
But the OCCA need not accept an inaccurate
characterization of a claim to adjudicate that claim
on the merits. And the OCCA did not misconstrue
Smith’s claim by concluding that he alleges only an
imprecise strategic decision by counsel. OCCA Resentencing and Competency Op. at 9-10. Smith does not
and cannot dispute that his counsel was aware of
Wright and the video testimony because counsel provided notice that she intended to present Wright at
the competency and resentencing trials and intended to
have her authenticate and sponsor the video recording
in question. Any failure to present the evidence thus

App.50a
cannot amount to a failure to investigate; counsel
merely chose not to present the evidence after investigating. The OCCA’s presumption that counsel made
an appropriate strategic decision not to present the
evidence thus properly understands Smith’s argument.
See Burt v. Titlow, 571 U.S. 12, 22-23, 134 S.Ct. 10, 187
L.Ed.2d 348 (2013) (noting the strong presumption
that counsel “made all significant decisions in the
exercise of reasonable professional judgment” (quotation omitted)). Accordingly, because the OCCA sufficiently understood Smith’s resentencing and competency ineffective assistance claims to have adjudicated
those claims on the merits, we afford “both the state
court and the defense attorney the benefit of the
doubt” required by AEDPA. Woods v. Donald, ___
U.S. ___, 135 S. Ct. 1372, 1376, 191 L.Ed.2d 464
(2015) (quotation omitted).
Applying this standard, we reject Smith’s claim
that counsel inadequately investigated and prepared
for trial by failing to submit evidence of which counsel was fully aware. Smith submits an affidavit from
his trial counsel, attesting that her failure to present
Wright and the video was due to a “lack of investigation and preparation.” We may not consider this
affidavit on habeas review because it was not presented to the OCCA. Pinholster, 563 U.S. at 181, 131
S.Ct. 1388 (“[R]eview under § 2254(d)(1) is limited to
the record that was before the state court that
adjudicated the claim on the merits.”).15 Smith con15 Smith asserts on appeal that we may consider the affidavits
of trial and appellate counsel because the OCCA never adjudicated
Smith’s allegations of deficient performance. This assertion
fails for the same reason as Smith’s efforts to free this claim
from the confines of AEDPA deference: the OCCA’s rejection of

App.51a
ceded before the OCCA that trial counsel was aware
of Wright and the video because counsel provided notice
that she intended to present Wright and the video at
the hearings in question.
This analysis would not change even were we to
consider the affidavits submitted for the first time on
habeas review. The affidavit from Smith’s trial counsel
during the resentencing and competency hearings
states only that trial counsel could not recall why she
did not call Wright to testify. Because, at best, the
“evidence establishes that there is no discernable
explanation for counsel’s failure to call” the witness
in question, Smith “most certainly ha[s] not overcome the strong presumption that counsel’s conduct
fell within the wide range of reasonable professional
assistance.” Sallahdin v. Mullin, 380 F.3d 1242, 124849 (10th Cir. 2004) (quotation omitted).
Smith contends the OCCA’s deficiency determination is unreasonable because the OCCA declined
to identify any strategic justification for the failure of
his counsel to present Wright’s testimony and the
attendant video. But “[i]t should go without saying
that the absence of evidence cannot overcome the
strong presumption that counsel’s conduct fell within
the wide range of reasonable professional assistance.”
Titlow, 571 U.S. at 23, 134 S.Ct. 10 (quotation omitted).
That presumption places “the burden to show that
counsel’s performance was deficient . . . squarely on”
Smith, id. at 22-23, 134 S.Ct. 10, and Smith fails to
Smith’s characterization of his claim does not preclude it from
adjudicating that claim on the merits. And the OCCA plainly
did adjudicate this claim on the merits, holding that Smith
failed to satisfy either prong of the Strickland analysis. OCCA
Resentencing and Competency Op. at 9-10.

App.52a
identify any support in the record to carry that
burden. Moreover, after review of the video recording,
we do not consider the OCCA’s conclusion that the
“persuasive force” of the evidence was “debatable,”
OCCA Resentencing and Competency Op. at 10 n.5,
to be an “unreasonable determination,” § 2254(d)(2).
Relying upon Bullock v. Carver, 297 F.3d 1036
(10th Cir. 2002), Smith also argues that an “objectively
unreasonable” strategic decision may satisfy the
deficient performance prong of the Strickland analysis.
Id. at 1051. But Smith has failed to carry his burden
to establish the objectively unreasonable nature of
that decision in light of the OCCA’s determination
that the evidence was of little utility because of
Wright’s limited interactions with Smith and the
debatable value of the video.16
Accordingly, we conclude that Smith has failed
to demonstrate ineffective assistance of trial counsel
for failure to call Wright as a witness to sponsor the
introduction of the video interview of Smith. And
16 Moreover, even if Smith’s counsel performed deficiently,
Smith fails to demonstrate the OCCA’s prejudice determination
was unreasonable. Smith contends the video renders obvious
his humanity and intellectual disability, and emphasizes the
uniquely persuasive nature of video evidence. “The likelihood of
a different result must be substantial, not just conceivable.”
Richter, 562 U.S. at 112, 131 S.Ct. 770. And Smith fails to
demonstrate that the OCCA obviously erred in concluding the
video recording did not present substantially different evidence
of Smith’s intellectual disability and humanity from the
materials counsel did use at the resentencing and competency
proceedings. See Johnson, 913 F.3d at 902 (concluding the
omission of video evidence was not prejudicial because the jury
had already heard significant testimony in support of the issue
that the omitted video evidence would have bolstered).

App.53a
because trial counsel’s performance was neither deficient nor prejudicial for failing to introduce the evidence in question, Smith’s ineffective assistance of
appellate counsel necessarily fails. Johnson, 918 F.3d
at 906 (“[B]ecause we conclude that trial counsel was
not deficient . . . [Petitioner’s] auxiliary claim cannot
succeed. Appellate counsel cannot be ineffective for
omitting an unsuccessful issue on appeal.”).17
IV
For the foregoing reasons, we REVERSE in part
and AFFIRM in part the district court’s decision
denying Smith’s § 2254 petition for a writ of habeas
corpus. We REMAND with instructions to grant a
conditional writ vacating Smith’s death sentence and
remanding to the State.

17 Because we reject as unmeritorious Smith’s ineffective assistance claim, we also reject as unnecessary Smith’s request for
an evidentiary hearing on the question.

App.54a
MEMORANDUM OPINION OF THE
UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF OKLAHOMA
(JULY 13, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA
________________________
RODERICK L. SMITH,

Petitioner,
v.
TERRY ROYAL,
Warden, Oklahoma State Penitentiary,

Respondent.1

________________________
Case No. CIV-14-579-R

Before: David L. RUSSELL,
United States District Judge.
Petitioner, Roderick L. Smith, a state court prisoner, has filed a Petition for a Writ of Habeas Corpus
seeking relief pursuant to 28 U.S.C. § 2254. Doc. 18.
This is Petitioner’s second habeas petition.
In 1994, in Oklahoma County District Court Case
No. CF-1993-3968, Petitioner was tried by jury for
1 Pursuant to Fed. R. Civ. P. 25(d), Terry Royal, who currently
serves as warden of the Oklahoma State Penitentiary, is hereby
substituted as the proper party respondent.

App.55a
the murders of his wife and her four children. Petitioner
was found guilty and was sentenced to death on all
five counts. In 1998, after an unsuccessful pursuit for
relief in the state courts, Petitioner initiated his first
habeas corpus action, and in 2002, the Court denied
Petitioner relief. Smith v. Gibson, No. CIV-98-601-R
(W.D. Okla. Jan. 10, 2002) (unpublished). Six months
later, the Supreme Court held that the Eighth Amendment prohibits the execution of a mentally retarded
offender, Atkins v. Virginia, 536 U.S. 304, 321 (2002),
and in March 2004,2 Petitioner was given the opportunity to prove that he is mentally retarded.3 A state
court jury concluded that he is not (O.R. VI, 1115),
and the Oklahoma Court of Criminal Appeals (hereinafter “OCCA”) affirmed the jury’s verdict. Smith v.
State, No. O-2006-683 (Okla. Crim. App. Jan. 29, 2007)
(unpublished). In July 2004, the Tenth Circuit affirmed
this Court’s denial of relief with respect to Petitioner’s
convictions, but found that Petitioner was entitled to
a new sentencing proceeding due to ineffective assistance of counsel. Smith v. Mullin, 379 F.3d 919 (10th
Cir. 2004).

2 This was actually Petitioner’s second mental retardation trial.
The first one, held in November 2003, ended in a mistrial (O.R.
V, 993-98).
3 In Hall v. Florida, 572 U.S. ___, 134 S. Ct. 1986, 1990 (2014),
the Supreme Court began using the term “intellectual disability”
instead of “mental retardation.” Nonetheless, for purposes of
simplicity and consistency, the Court will address Petitioner’s
claims utilizing the old terminology which was used throughout
Petitioner’s state court proceedings. See Howell v. Trammell,
728 F.3d 1202, 1206 n.1 (10th Cir. 2013); Hooks v. Workman,
689 F.3d 1148, 1159 n.1 (10th Cir. 2012).

App.56a
In 2009, Petitioner had a jury trial to determine
to his competence. Found competent (O.R. XII, 2276),
Petitioner was then resentenced in 2010. This time
around, the jury imposed two death sentences and
three sentences of life without the possibility of
parole (O.R. XIII, 2611-30). Petitioner appealed these
sentences to the OCCA. The OCCA affirmed in a
published opinion. Smith v. State, 306 P.3d 557
(Okla. Crim. App. 2013), cert. denied, 134 S. Ct. 2662
(2014). Petitioner was unsuccessful in his pursuit of
post-conviction relief. Smith v. State, No. PCD-2010660 (Okla. Crim. App. Feb. 13, 2014) (unpublished).
Petitioner presents seven grounds for relief. His
first three grounds relate to the state court determination that he is not mentally retarded. Ground Four is
a challenge to the legal representation he received at
his competency trial and resentencing. In Grounds
Five and Six, Petitioner argues that execution for his
crimes would violate the Eighth Amendment’s prohibition against cruel and unusual punishment. His final
ground alleges cumulative error. Respondent has
responded to the petition and Petitioner has replied.
Docs. 35 and 43. In addition to his petition, Petitioner
has filed motions for discovery and an evidentiary
hearing. Docs. 20 and 38. After a thorough review of
the state court record (which Respondent has provided),
the pleadings filed in this case, and the applicable
law, the Court finds that, for the reasons set forth
herein, Petitioner is not entitled to his requested relief.

App.57a
I.
A.

Standard of Review

Exhaustion as a Preliminary Consideration

The exhaustion doctrine, a matter of comity which
has long been a part of habeas corpus jurisprudence,
requires the Court to consider in the first instance
whether Petitioner has presented his grounds for
relief to the OCCA. As the Supreme Court stated in
Coleman v. Thompson, 501 U.S. 722, 731 (1991), “in
a federal system, the States should have the first
opportunity to address and correct alleged violations
of state prisoner’s federal rights.” The exhaustion
doctrine is set forth in 28 U.S.C. § 2254(b). Section
2254(b)(1)(A) prohibits the Court from granting
habeas relief in the absence of exhaustion (although
Section 2254(b)(1)(B) sets forth two limited exceptions to this rule), but Section 2254(b)(2) expressly
authorizes the Court to deny habeas relief “notwithstanding the failure of the applicant to exhaust the
remedies available in the courts of the State.”
B.

Procedural Bar

Beyond the issue of exhaustion, the Court must
also examine how the OCCA adjudicated each of
Petitioner’s grounds for relief, i.e., whether the OCCA
addressed the merits of Petitioner’s grounds or declined
to consider them based on a state procedural rule. “It
is well established that federal courts will not review
questions of federal law presented in a habeas petition
when the state court’s decision rests upon a state-law
ground that ‘is independent of the federal question
and adequate to support the judgment.’” Cone v. Bell,
556 U.S. 449, 465 (2009) (quoting Coleman, 501 U.S.
at 729). “The doctrine applies to bar federal habeas

App.58a
when a state court declined to address a prisoner’s
federal claims because the prisoner had failed to
meet a state procedural requirement.” Coleman, 501
U.S. at 729-30.
C.

Limited Merits Review

When the OCCA has addressed the merits of one
of Petitioner’s grounds for relief, the Court reviews
that ground in accordance with the standard of relief
set forth in 28 U.S.C. § 2254(d). Pursuant to that section
of the Antiterrorism and Effective Death Penalty Act
of 1996 (hereinafter “AEDPA”), in order for Petitioner
to obtain relief, he must show that the OCCA’s
adjudication of a claim either
(1) resulted in a decision that was contrary
to, or involved an unreasonable application
of, clearly established Federal law, as determined by the Supreme Court of the United
States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts
in light of the evidence presented in the State
court proceeding.

See Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (ack-

nowledging that “[t]he petitioner carries the burden
of proof”). The very focus of this statutory provision
is the reasonableness of the OCCA’s decision. “The
question under AEDPA is not whether a federal court
believes the [OCCA’s] determination was incorrect but
whether that determination was unreasonable—a
substantially higher threshold.” Schriro v. Landrigan,
550 U.S. 465, 473 (2007). In other words, “[i]t is not
enough that [this] [C]ourt, in its independent review

App.59a
of the legal question, is left with a firm conviction
that the [OCCA] was erroneous.” What is required is
a showing that the OCCA’s decision is “objectively
unreasonable.” Lockyer v. Andrade, 538 U.S. 63, 7576 (2003) (internal quotation marks and citations
omitted).
The Supreme Court has repeatedly acknowledged
that Section 2254(d) “‘erects a formidable barrier to
federal habeas relief for prisoners whose claims have
been adjudicated in state court[,]’” and that “[i]f [it]
is difficult to meet, that is because it was meant to
be.” White v. Wheeler, 577 U.S. ___, 136 S. Ct. 456,
460 (2015) (quoting Burt v. Titlow, 571 U.S. ___, 134
S. Ct. 10, 16 (2013)); Harrington v. Richter, 562 U.S.
86, 102 (2011). Section 2254(d) “stops short of imposing
a complete bar on federal-court relitigation of claims
already rejected in state proceedings.” Richter, 562
U.S. at 102. What remains, then, is a very narrow
avenue for relief, one that permits relief only “where
there is no possibility fairminded jurists could disagree that the [OCCA’s] decision conflicts with [the
Supreme] Court’s precedents.” Id. (emphasis added).
Section 2254(d) reflects the view that habeas
corpus is a “guard against extreme malfunctions in the state criminal justice systems,”
not a substitute for ordinary error correction
through appeal. As a condition for obtaining
habeas corpus from a federal court, a state
prisoner must show that the state court’s
ruling on the claim being presented in federal
court was so lacking in justification that there
was an error well understood and comprehended in existing law beyond any possibility
for fairminded disagreement.

App.60a

Id. at 102-03 (citation omitted). When reviewing a

claim under Section 2254(d), review “is limited to the
record that was before the state court that adjudicated
the claim on the merits.” Pinholster, 563 U.S. at 181.
II.
A.

Analysis

Ground One: Sufficiency
(Mental Retardation)

of

the

Evidence

Petitioner’s first ground for relief is an Atkins
claim. He argues that because he is mentally retarded,
his two death sentences cannot stand. The question
of whether or not Petitioner is mentally retarded was
submitted to a jury in 2004. The twelve-member jury
listened to five days of testimony from twenty-three
witnesses, ultimately concluding that Petitioner is not
mentally retarded. On appeal to the OCCA, Petitioner
challenged the jury’s verdict, claiming it was contrary
to the clear weight of the evidence. The OCCA denied
relief on the merits. Smith, No. O-2006-683, slip op.
at 6-11.
In denying Petitioner relief, the OCCA acknowledged that in mental retardation proceedings, Petitioner has the burden to prove by a preponderance of
the evidence “‘1) that he functions at a significantly
sub-average intellectual level that substantially limits
his ability to understand and process information, to
communicate, to learn from experience or mistakes,
to engage in logical reasoning, to control impulses,
and to understand the reactions of others; 2) that his
mental retardation manifested itself before the age of
18; and 3) that he has significant limitations in
adaptive functioning in at least two of the nine listed
skill areas [communication; self-care; social/interper-

App.61a
sonal skills; home living; self-direction; academics;
health and safety; use of community resources; and
work].’” Id. at 6 & n.8 (quoting Myers v. State, 130
P.3d 262 (Okla. Crim. App. 2005), for the definition
of mental retardation developed by the OCCA in
Murphy v. State, 54 P.3d 556, 567-68 (Okla. Crim.
App. 2002)).4
“When a defendant challenges the sufficiency of
the evidence following a jury verdict finding him not
mentally retarded, [the OCCA] reviews the evidence
in the light most favorable to the State to determine
if any rational trier of fact could have reached the
same conclusion.” Smith, No. O-2006-683, slip op. at
6. The Tenth Circuit has found this to be “the
relevant constitutional standard.” Hooks, 689 F.3d at
1166. “Put a different way, if any rational trier of
fact could have found that [Petitioner] failed to
establish, by a preponderance of the evidence, that
he is mentally retarded, then the jury verdict must
be upheld.” Id. This is a mixed question of law and
fact. Id. at 1165.
Although the standard of review applied to a jury
verdict in a mental retardation proceeding is a modification of the standard set out in Jackson v. Virginia,
443 U.S. 307 (1979), the deference is the same: a jury
verdict is given substantial deference. Because it is
the jury’s job “to resolve conflicts in the testimony, to
4 Before Oklahoma enacted Atkins legislation, the OCCA defined
mental retardation and set forth the procedures for mental
retardation proceedings in Murphy. Because Oklahoma’s Atkins
statute was not enacted until July 1, 2006, see Okla. Stat. tit.
21, § 701.10b, some two years after Petitioner’s mental retardation
trial, Petitioner’s proceeding was governed by Murphy. See
Hooks, 689 F.3d at 1165 & nn.4 & 5.

App.62a
weigh the evidence, and to draw reasonable inferences
from basic facts to ultimate facts[,]” its verdict will be
“impinge[d] . . . only to the extent necessary to guarantee the fundamental protection of due process of law.”
Id. at 319. And, in the habeas context, “a second
layer of deference” is added. This Court does “not
directly review the jury’s verdict[,]” but looks to the
OCCA’s resolution of the sufficiency claim to determine if “the OCCA correctly identified the governing
legal principle from Jackson and reasonably applied it
to the facts of [Petitioner’s] case.” Hooks, 689 F.3d at
1167. Therefore, in order to obtain relief, Petitioner
must overcome these layers of deference and show
that all fairminded jurists would agree that the
OCCA “got it wrong.” Lockett v. Trammel [sic], 711
F.3d 1218, 1231 (10th Cir. 2013). See also Frost v.
Pryor, 749 F.3d 1212, 1225 (10th Cir. 2014) (“If . . . some
fairminded jurists could possibly agree with the
[OCCA’s] decision, then it was not unreasonable and
the writ should be denied.”).
In reviewing the OCCA’s resolution of this claim,
the Court can only consider the evidence which the
OCCA had before it. Pinholster, 563 U.S. at 181; Hooks,
689 F.3d at 1167. Because Petitioner’s Ground One is
a challenge to the jury’s verdict, the evidence before
the OCCA was the evidence that was presented to
the jury. Despite these review parameters, Petitioner’s
argument for relief relies heavily on evidence which
was not presented at his mental retardation trial. The
Court will not consider this evidence.5 The following
is a summary of the trial evidence.
5 In his reply, Petitioner states that with one exception (Attachment 5, Report of Dr. Terese Hall, dated September 12, 2005),
all of his later developed evidence is simply “additional confirming

App.63a
Petitioner’s Trial Evidence
Two experts, Dr. Clifford Alan Hopewell and Dr.
Fred Smith, testified on Petitioner’s behalf. Dr. Hopewell, a clinical neuropsychologist who had been
involved in Petitioner’s case since 1997, testified that
in his opinion, Petitioner is “within the range of mild
mental retardation” (Tr. 3/9/04, 30, 42, 46). Dr.
Hopewell tested Petitioner’s intelligence quotient (I.Q.)
using the third revision of the Wechsler Adult
Intelligence Scale (WAIS-III). Petitioner’s full scale
score was a 55, a score which reflected significantly
sub-average intellectual functioning (id. at 55-56).
Dr. Hopewell testified that this score substantially
limits Petitioner’s ability to understand and process
information, to communicate, to learn from experiences
or mistakes, to engage in logical reasoning, to control
impulses, and to understand the reactions of others
(id. at 57).
To assess Petitioner’s adaptive functioning, Dr.
Hopewell administered the Vineland Test6 and the
evidence” which this Court can consider once it determines that
he has satisfied Section 2254(d). Reply at 1-3. This is incorrect.
A jury verdict cannot be invalidated based on evidence which it
did not hear. Matthews v. Workman, 577 F.3d 1175, 1185 (10th
Cir. 2009) (“[I]t makes no sense for us, in reviewing whether a
jury’s verdict was based on sufficient evidence, to consider facts
the jury never heard.”). Although Petitioner asserts that Dr. Hall’s
report is an exception to Pinholster because it was presented to
the OCCA in support of a trial counsel ineffectiveness claim,
the fact remains that this Court cannot consider later developed
evidence when evaluating the OCCA’s determination of a
sufficiency of the evidence claim. Hooks, 689 F.3d at 1168 n.7.
6 With the exception of communication, Dr. Hopewell gave only
general testimony about the adaptive functioning he assessed
with the Vineland. Although he testified that the Vineland tests

App.64a
Wide Range Achievement Test (WRAT-III),7 concluding
that Petitioner has significant deficits in all areas
(Tr. 3/9/04, 61, 65, 68, 130). Regarding communication,
Dr. Hopewell found that Petitioner was “impoverished.”
While Petitioner could talk and communicate about
basic things, Dr. Hopewell described Petitioner’s
communication skills as limited and lacking in both
detail and spontaneity. He testified that Petitioner’s
communication was at an eight-year-old level (id. at
62-64). Regarding academics (as tested with the
WRAT-III), Dr. Hopewell testified that Petitioner
was at the kindergarten or first-grade level in spelling
and writing (id. at 65-66). He also noted that Petitioner
is functionally illiterate (id. at 66-67).
Dr. Hopewell testified that he had seen evidence
that Petitioner had this condition before age 18 and
that he did not believe that Petitioner was malingering
or faking his condition (id. at 71, 73, 77).

five areas of adaptive functioning, he did not specify which ones,
but simply stated that Petitioner tested out at an eight-year-old
level on some things “like communication . . . and being able to
do things and fix things and so forth” and at a five-year-old
level “on a couple of things” (Tr. 3/9/04, 64). When asked if he
believed that Petitioner had deficits in at least five of the areas
of adaptive functioning, he responded that Petitioner had
deficits in all of them (id. at 67-68). On cross-examination of Dr.
John Call, defense counsel elicited the results of the Dr. Hopewell’s
Vineland testing in three primary areas: communication at four
years, nine months; daily living skills at five years, eight
months; and socialization at five years, eight months (Tr. 3/15/04,
49-51).
7 Dr. Hopewell testified that the WRAT tests reading, writing,
and math (Tr. 3/9/04, 65). Dr. Call testified that it tests reading,
spelling, and math (Tr. 3/15/04, 27).

App.65a
Dr. Smith, a psychologist with the Oklahoma
Department of Corrections, testified about his evaluation and testing of Petitioner in 1997. On the Wechsler
Adult Intelligence Scale–Revised (WAIS-R), Petitioner’s
full scale I.Q. score was a 65, and on the Standard
Progressive Matrices, also known as the Raven’s,
Petitioner’s I.Q. score was between 69 and 78. Dr.
Smith testified that Petitioner’s score on the WAIS-R
was indicative of mental retardation (Tr. 3/10/04, 15762). Although Dr. Smith believed that Petitioner was
“a little bit brighter than what he tested out to be on
the [WAIS-R],” he did not believe that Petitioner was
faking. In his opinion, Petitioner “is consistent with
mental retardation in his general level of functioning
and speech” (id. at 163, 167-68). Noting that adaptive
functioning is difficult to measure in a structured
prison setting, Dr. Smith did not determine if Petitioner
had any adaptive functioning deficits (id. at 164, 18687). Ultimately, Dr. Smith testified that Petitioner
was “right on [the] cusp” of being mentally retarded,
but that he would “vote for mental retardation” (id. at
168).
Although all of Petitioner’s school records except
his high school transcript had been destroyed, school
administrators and teachers testified that Petitioner
was in special education classes beginning in elementary school (Tr. 3/9/04, 202-04; Tr. 3/10/04, 8-11, 14;
Def.’s Exs. 1-3). Paul Preston, who taught high school
special education, was Petitioner’s teacher for four
years. He described Petitioner as having very low/
limited abilities. Although Petitioner received custodial training during high school, Mr. Preston testified
that he would be surprised to learn that Petitioner
worked as a janitorial supervisor because he did not

App.66a
believe that Petitioner had the skills for such a position (Tr. 3/10/04, 22, 28, 31, 43). Another special
education teacher, Mona Autry, also had Petitioner
as a student. She testified that Petitioner functioned
in her classes at about a third grade level. Although
Petitioner tried hard, Ms. Autry testified that
Petitioner was one of her lower functioning students.
Like Mr. Preston, she testified that she would be
“[e]xtremely surprised” to learn that Petitioner was
able to become a head janitor (id. at 94, 99-101, 104,
114). Both Ms. Autry and Mr. Preston acknowledged
Petitioner’s very limited ability to read (id. at 34, 100).
Madeline Corsoro was the music teacher at the
elementary school where Petitioner was employed as
head custodian. They worked together for about five
years. Petitioner was responsible for cleaning her
room and he also helped her with other things from
time to time. Ms. Corsoro testified that through her
interaction with Petitioner, she discovered that he
could not read (Tr. 3/10/04, 45-53; Def.’s Ex. 4).
Although witnesses testified that Petitioner was
able to drive a car, Lee Frizzell, an Oklahoma Department of Public Safety employee, testified that Petitioner
did not have a driver’s license (Tr. 3/9/04, 112-14;
Tr. 3/10/04, 63, 66, 75-76; Tr. 3/12/04, 41).
Petitioner’s cousin, Chris Scott, testified that
Petitioner was a loner, that he was slower than everyone else, that he did not read, and that Petitioner’s
mother did everything for him (Tr. 3/10/04, 69-71).
For about a year, Mr. Scott worked as a janitor with
Petitioner. Mr. Scott testified that although Petitioner
was his supervisor, Petitioner did not perform supervisory duties. Mr. Scott’s mother, who hired Petitioner,

App.67a
handled the paperwork, ordering, and time cards (id.
at 71-74).
Jack Fisher, an attorney who had previously
represented Petitioner, described Petitioner “like an
11 or 12-year-old child” whose “main concern in life
is that he have pens and coloring books.” Mr. Fisher
identified a folder containing numerous coloring pages
Petitioner had colored and sent to him. Mr. Fisher
testified that he purchased coloring books for Petitioner
and sent him money to buy felt pens at the prison
commissary. Mr. Fisher did not bother sending Petitioner any books because Petitioner “can’t read more
than just maybe a few words.” Mr. Fisher testified
that Petitioner was not smart enough to make the
decision to malinger (Tr. 3/10/04, 147-50, 151, 155;
Def.’s Ex. 7).
Norman Cleary, who had shared a cell with
Petitioner over the years, testified about his interaction with Petitioner in prison (Def.’s Ex. B at 4).8
When Petitioner first moved into his cell, Mr. Cleary
knew “within 30 minutes . . . that [Petitioner] had some
problems” (id. at 5). He testified that Petitioner could
not read or write, and although he tried to teach
Petitioner to read, “it was hopeless” (id. at 5-6, 7, 911). Mr. Cleary testified that Petitioner would color
in his coloring books and watch TV all day (id. at 78). Mr. Cleary helped Petitioner write and address
letters and fill out his canteen slips (id. at 12-13, 158 Because Mr. Cleary was scheduled to be executed on February 17, 2004, he gave videotaped testimony on February 4,
2004, and a transcript of his testimony was then read to the
jury (O.R. V, 1013-19; Tr. 3/10/04, 196). The transcript was
preserved for the record as Defendant’s Exhibit B.

App.68a
16). Mr. Cleary testified that Petitioner could not tell
time (except with a digital clock) or play simple games
(except for Tic-Tac-Toe) (id. at 13-15, 29-30). When
Petitioner would frequently cut himself and do nothing
to address the bleeding, Mr. Cleary administered the
first aid Petitioner needed (id. at 17-18). Mr. Cleary
testified that other inmates took financial advantage
of Petitioner (id. at 18-20).
Petitioner’s mother, Eva Cates, testified that
Petitioner “was very, very slow” from the start. For
him, walking, talking, and potty training were all
delayed developments (Tr. 3/11/04, 5-7). Ms. Cates
testified that other kids were cruel and would tease
Petitioner because he acted like a two-year-old (id. at
7). Ms. Cates testified that she was told that Petitioner
was placed in special education classes (id. at 8). She
did not teach Petitioner to cook because she “didn’t
want him to play with fire when [she] wasn’t there” (id.
at 9).
State’s Trial Evidence
The State retained Dr. John Call, a forensic
psychologist, to review Dr. Hopewell’s opinion and conduct his own evaluation (Tr. 3/15/04, 3-7). It was Dr.
Call’s opinion that no reliable documentation existed
to indicate that Petitioner was mentally retarded (id.
at 39, 67).
Dr. Call disagreed with Dr. Hopewell’s conclusion
that Petitioner was not malingering. To determine
if Petitioner was malingering, Dr. Hopewell administered two tests, the Test of Memory and Malingering
(TOMM) and the 15-Item Memory Test. Petitioner’s
results on both of these tests showed that Petitioner
was malingering; however, Dr. Hopewell discounted

App.69a
these results due to Petitioner’s low score on the
WAIS-III. Dr. Call testified that there was no research
to support Dr. Hopewell’s disregard for the malingering
test results based on Petitioner’s low I.Q. (id. at 1222, 24-25, 37). When Dr. Call himself administered
the WAIS-III and the TOMM to Petitioner, he received
the same results as Dr. Hopewell; however, giving
appropriate consideration to Petitioner’s scores on
the TOMM, Dr. Call testified that Petitioner’s WAISIII score must be deemed invalid due to malingering.
In sum, because there was evidence that Petitioner
was malingering during both testing sessions, Dr.
Call testified that neither his results nor Dr. Hopewell’s
results could be considered valid I.Q. assessments
(id. at 25-26, 38-39, 69-70).
Dr. Call also took note of other I.Q. tests Petitioner
had taken. In 1994, Petitioner received an I.Q. score
of 73, and in 1997, he received a 70. Dr. Call testified
that the drop from a 73 in 1994 to a 55 in 2003 was
significant, and he explained how easy it would be to
malinger on the WAIS test (Tr. 3/15/04, 34-38).
Dr. Call disagreed with Dr. Hopewell’s use of the
Vineland Test to assess Petitioner’s adaptive functioning. Because Dr. Hopewell administered the test
to Petitioner, and not to a third-party observer like a
parent or a teacher as the Vineland was specifically
designed, Dr. Call testified that Dr. Hopewell’s assessment of adaptive functioning was also invalid. Acknowledging that adaptive functioning is extremely difficult to assess in a prison setting, as Dr. Smith likewise testified, Dr. Call did not do any formal adaptive
functioning assessment of Petitioner. He did, however,
testify that the Adaptive Behavior Assessment System,
Second Edition (ABAS-II), could have been used.

App.70a
Based on his interviews with certain prison personnel
and his own interaction with Petitioner, Dr. Call did
not believe that Petitioner had any deficiencies in any
particular area of adaptive functioning (id. at 22-25,
30-34, 48-49).
Like Dr. Hopewell, Dr. Call also gave Petitioner
the WRAT-III. Although Dr. Call expected results
similar to those received by Dr. Hopewell, the results
were not the same. One major difference was in spelling. When Dr. Call administered the test, Petitioner
could not even spell his last name or recognize several
additional letters—letters he was able to identify for
Dr. Hopewell just eight months before.9 After the
State made reference to admitted exhibits wherein
Petitioner had previously signed his name, Dr. Call
testified that absent some significant brain damage
since the time Petitioner had signed those documents
(which there was no evidence of), it was clear to him
that Petitioner was not putting forth his best effort
(Tr. 3/9/04, 148; Tr. 3/15/04, 26-30, 70; State’s Exs. 12, 5 and 6).
Ruby Badillo was an insurance agent who met
with Petitioner and his wife about life insurance. Ms.
Badillo testified that Petitioner “seemed perfectly
normal” and “very sociable.” Ms. Badillo stated that
if Petitioner had had any kind of physical or mental
challenge, she would not have been able to help him
obtain a life insurance policy. After meeting with
Petitioner for almost an hour, Ms. Badillo even asked
9 Dr. Hopewell tested Petitioner in January 2003 and Dr. Call
tested Petitioner in September 2003 (Tr. 3/9/04, 129; Tr. 3/15/04,
36, 44). Petitioner’s reference in the petition to a December
2003 testing by Dr. Hopewell is incorrect. Pet. at 12.

App.71a
Petitioner if he would be interested in working at her
company selling insurance and other services (Tr.
3/11/04, 46-52; State’s Ex. 6).
Emma Watts, Petitioner’s case manager at the
Oklahoma Department of Corrections, testified about
her interaction with Petitioner over a two to threeyear period. She described Petitioner as quiet and
respectful (id. at 55-57). But for his cell change requests,
which she felt were manipulative, she testified that
Petitioner was no different from the other inmates
(id. at 57, 61).
Mark Woodward was Petitioner’s supervisor at
work in the months immediately preceding Petitioner’s
crimes. Mr. Woodward testified that as head custodian, Petitioner was the “go-to person if there was
something that had to be done.” Petitioner supervised four to five employees and did so adequately.
No family members worked with Petitioner while Mr.
Woodward was his supervisor (Tr. 3/11/04, 68-73). Mr.
Woodward communicated with Petitioner through a
pager, and Mr. Woodward testified that Petitioner
knew how to operate the school’s zoned alarm system
(id. at 73-79). Mr. Woodward testified that Petitioner
had access to carpet cleaners at the school and that
from his review of crime scene photos, he could tell
that the carpets had been cleaned by a cleaner
similar to the ones at the school (id. at 79-81).
Fern Smith, one of the assistant district attorneys
who originally prosecuted Petitioner, testified about
her observations of him in 1993 and 1994. Ms. Smith,
who has a Master’s Degree in Special Education and
previously taught high school special education before
becoming an attorney, testified that she “didn’t notice
anything unusual or out of the ordinary during the

App.72a
times that [she] was in court with [Petitioner].” Ms.
Smith told the jury that Petitioner filed and argued
some of his own motions and that he was “articulate”
and “knew what he was doing.” Ms. Smith further
testified that Petitioner “made good arguments” and
“knew why he was presenting them.”10 Ms. Smith also
testified that during his original trial Petitioner took
notes and discussed the notes with his attorney,
which was very different from how Petitioner was
currently acting in front of the jury. Based on her
observations of Petitioner, Ms. Smith did not see
anything that indicated he was mentally retarded
(Tr. 3/11/04, 100-05, 111).11
Oklahoma City Police Officer John Maddox, who
investigated the scene of Petitioner’s crimes, testified
that the crime scene had been altered after the
crimes occurred (Tr. 3/11/04, 112-14). Some evidence
was hidden in closets and under a bed, other evidence
was concealed, and the title to Petitioner’s car was
found in the attic (id. at 114, 116). There was also
evidence that the crime scene had been cleaned. After
running some tests, the police determined that evidence
had been removed from the carpet and from the
kitchen and bathroom sinks (id. at 116-17). Officer
Maddox testified that all of these actions were done
10 Even the Tenth Circuit noted that “[w]hile [Petitioner’s]
presentation did not reveal the skills of a trained legal mind, he
put forth a coherent argument and demonstrated comprehension of both a lawyer’s duties and the concept of a ‘fair trial.’”
Smith, 379 F.3d at 932.
11 In rebuttal, Kenneth Watson, Petitioner’s original trial counsel,
testified that Petitioner did not know what was going on, that
he was unable to assist in his defense, and that Petitioner doodled
on a pad of paper most of the time (Tr. 3/15/04, 72-73).

App.73a
to delay the investigation and did in fact do so, as
Petitioner’s crimes were not detected for some seven
to ten days after their commission (id. at 116, 121-23).
Officer Maddox also testified about his interview
of Petitioner on June 30, 1993. He testified that
Petitioner understood his rights and answered some
questions before pulling an attorney’s business card
out of his pocket and indicating that he did not want
to talk anymore (id. at 117-19). He also testified how
Petitioner was able to return a bicycle to a retail
store and obtain a refund (id. at 119-20).
In the months before Petitioner’s crimes, Petitioner
was having an affair with Laura Dich.12 Petitioner
met Ms. Dich at a flea market. They exchanged phone
numbers and began seeing each other the next day.
Although Ms. Dich contacted Petitioner by pager and
only met with Petitioner at certain times of the night,
Ms. Dich had no idea that Petitioner was married
and had kids. Ms. Dich saw Petitioner about four
times a week and she considered him her boyfriend.
Petitioner told her that he loved her and wanted to
marry her and have kids with her. Petitioner maintained a sexual relationship with Ms. Dich and he
rented a motel room for this specific purpose on more
than one occasion. Ms. Dich testified that Petitioner
acquired and paid for the motel room without her
assistance (Tr. 3/12/04, 6-24, 26-27, 29).
Mariette Love, Petitioner’s mother-in-law, testified
that although she did not have a lot of contact with
Petitioner, she did not believe he had anything wrong
with him mentally. She did acknowledge, however,
12 Ms. Dich’s prior testimony was read to the jury (Tr. 3/12/04, 4).

App.74a
that Petitioner was a little slow, that “he didn’t know
what he should have known,” and that she was not
particularly happy with her daughter being in a
relationship with him (id. at 32-34, 37-39).
Cherie Mishion, Petitioner’s wife’s niece, testified
about the time she spent with Petitioner and his
family. She told the jury about Petitioner’s care of
the kids and about how he would drive, read the
paper, and cook breakfast. Petitioner even taught her
how to drive. Ms. Mishion never had the impression
that Petitioner was mentally handicapped or slow
because he was no different than the rest of the family
and was able to do what others could do (id. at 40-45).
Dina Dean was Petitioner’s sister-in-law. Like
Ms. Mishion, she testified about her familial relationship with Petitioner. She described Petitioner as
“kind of stand-offish,” but other than that he was
normal. Because Ms. Dean had a younger sister who
was “slow”, she had a point of reference. She testified
that in comparison to her sister, Petitioner was normal
(id. at 47-51).
OCCA’s Decision
As noted above, in denying Petitioner relief on
the sufficiency issue, the OCCA applied the correct
constitutional standard. The question therefore is
whether the OCCA applied it reasonably given the
presented evidence. In upholding the jury’s verdict,
the OCCA analyzed the issue as follows:
Evidence of [Petitioner’s] intellectual functioning was controverted at trial by the experts.
[FN9] [Petitioner’s] primary expert, Dr.
Clifford Hopewell, tested him in January

App.75a
2003 and scored his full scale I.Q. at 55. Dr.
Hopewell concluded that [Petitioner] is mildly
mentally retarded and that he has adaptive
functioning deficits in at least five areas.
Dr. Frederick Smith, another psychologist
who evaluated [Petitioner] in prison in
1997, testified that his testing showed that
[Petitioner’s] full scale I.Q. was 65, some
ten points higher than Dr. Hopewell’s score.
Dr. Smith was left with the impression during
his evaluation that [Petitioner] was actually
brighter than what his I.Q. test score
showed. He wrote in a memo shortly after
the evaluation that he suspected that
[Petitioner’s] score was somewhat low in
terms of accuracy. Dr. Smith also administered the Raven’s Standard Progressive
Matrices that showed [Petitioner’s] I.Q. was
in the range of 69 to 78. He testified that he
now believes [Petitioner’s] I.Q. is closer to 70.
FN9. Intelligence quotients are one of the
many factors that may be considered,
but are not alone determinative. Myers,
2005 OK CR 22, ¶ 8, 130 P.3d at 268.
The State presented the testimony of forensic
psychologist Dr. John Call to refute [Petitioner’s] expert evidence of subaverage intellectual functioning. Dr. Call gave [Petitioner]
the Wechsler Adult Intelligence Scale-III
(WAIS-III) I.Q. test and reviewed Dr. Hopewell’s data and score on this same test, as
well as several other tests. He found that
[Petitioner] failed two tests designed to detect
malingering given by Dr. Hopewell. [FN10]

App.76a
According to Dr. Call, [Petitioner’s] performance on these two tests provides significant
doubt about his efforts on the WAIS-III I.Q.
test and the validity of Dr. Hopewell’s overall
testing. Dr. Call also gave [Petitioner] one of
the malingering tests (Test of Memory and
Malingering) during his evaluation and found
that [Petitioner] failed again. Dr. Call concluded that [Petitioner’s] score suggested a
lack of effort on his part calling into doubt
the reliability and validity of the I.Q. score
that both he and Dr. Hopewell obtained.
[FN11] Dr. Call noted a previous I.Q. test
given by Dr. Murphy in 1994 in which
[Petitioner] scored a full scale I.Q. of 73. Dr.
Call believed lack of effort on [Petitioner’s]
part was one possible explanation to account
for the discrepancy in the subsequent scores.
In Dr. Call’s opinion, the data showed that
[Petitioner] did not put forth his best efforts
during his and Dr. Hopewell’s testing and
that [Petitioner’s] I.Q. test results were
unreliable and suspect.
FN10. The tests were the 15-Item Test
and the Test of Memory and Malingering
commonly referred to as the TOMM test.
FN11. Dr. Call’s I.Q. testing of [Petitioner] also showed a full scale I.Q. score of
55.
Though evidence of [Petitioner’s] I.Q. was
disputed, the State presented persuasive
evidence from lay witnesses to refute [Petitioner’s] evidence of subaverage intellectual
functioning and of adaptive functioning defi-

App.77a
cits. Emma Watts, [Petitioner’s] former case
manager, now unit manager in prison, testified that she had daily contact with [Petitioner] for two years while acting as his case
manager. Watts described [Petitioner] as
quiet and respectful for the most part; he
appeared to be like the other inmates in her
unit. He was able to communicate with her
and she found that he understood how to use
manipulative behavior to get a more desirable
cell or cellmate.
Ruby Badillo, a provider of financial services,
testified that she met with [Petitioner] and
his wife twelve years ago about purchasing
life insurance. She recalled that [Petitioner]
was kind and attentive to his wife. She
identified their application and [Petitioner’s]
signature. She said that [Petitioner] neither
indicated that he had any physical or mental
challenges nor did she suspect that he had
any based on their conversation. She described
[Petitioner] as “perfectly normal” and “very
sociable.” [Petitioner] appeared so personable
and capable that Badillo tried to recruit him
to work for her company selling insurance
policies and presenting other financial services to would-be customers.
Mark Woodward, the facilities manager for
a company providing custodial services to
local schools, testified that [Petitioner] was the
head custodian at Washington Irving Elementary School. Woodward described [Petitioner]
as the “go-to” person if something needed to be
done at the school. [Petitioner] was respon-

App.78a
sible for supervising a staff of four to five
people working shifts from 7 a.m. until 11
p.m. and insuring that their time cards were
filled out. [Petitioner] had to delegate
custodial duties and, if someone was absent
from work, reassign that person’s duties.
Woodward identified [Petitioner’s] job application and signature; he also identified various
forms that [Petitioner] had signed or filled
out for his employment. He noted that
[Petitioner] checked on his job application
form that he could read, write and speak the
English language. Woodward testified that he
effectively communicated with [Petitioner]
in person and through the use of a digital
pager. He recalled an occasion when he had
to reprimand [Petitioner] for not wearing his
uniform and thereafter [Petitioner] followed
the rules and wore his uniform. According
to Woodward, [Petitioner] effectively operated
the school’s multi-zone alarm system and
cleaning equipment. Woodward described
[Petitioner] as a typical head janitor.
Fern Smith, one of the assistant district attorneys who prosecuted [Petitioner’s] murder case,
testified that [Petitioner] filed and presented
several motions on his own behalf. She said
that [Petitioner] was articulate and made
“good” arguments to the court in support of his
motions. She did not notice anything unusual
or out of the ordinary about [Petitioner’s]
demeanor during trial or his many court
appearances. She recalled him taking notes
and conferring with counsel during trial.

App.79a
Ms. Smith, who was once a special education teacher of mentally retarded students,
stated there was nothing in her contacts
with [Petitioner] that led her to believe that
[Petitioner] was mentally retarded.
Laura Dich testified that she met [Petitioner]
in April 1993 at a flea market and they began
dating shortly thereafter. [Petitioner] did
not give her his home phone number, instead
he had her use his digital pager number to
contact him. [Petitioner] lied to Dich and told
her that he lived with a cousin instead of
with his wife and step-children and Dich
claimed that she was none the wiser. [FN12]
Dich testified that by the end of May 1993,
her relationship with [Petitioner] was progressing and [Petitioner] told her that he
wanted to marry and have children with
her. Dich, who was only 19 years old and
still living with her parents, testified that
[Petitioner] took her to a motel on several
occasions and that it was [Petitioner] who
rented and paid for the motel room.
FN12. Once when Dich paged [Petitioner], an upset woman returned the page
causing Dich concern, but [Petitioner]
convinced her for the most part that he
had no other girlfriends.
The evidence presented at trial supports a
finding that [Petitioner] failed to meet even
the first prong of the Murphy definition of
mental retardation. The evidence, viewed in
the light most favorable to the State, portrayed [Petitioner] as a person who is able

App.80a
to understand and process information, to
communicate, to understand the reactions of
others, to learn from experience or mistakes,
and to engage in logical reasoning. He held
down a job with supervisory functions, carried
on an affair, argued motions on his own behalf
and manipulated those around him. The jury’s
verdict finding that [Petitioner] is not mentally retarded is justified.

Smith, No. O-2006-683, slip op. at 7-11.
Analysis
Petitioner asserts that the OCCA’s decision is
“patently unreasonable.” He claims that “the OCCA
disregarded the clinical diagnostic practices and definitions of professionals in the field of intellectual disability by substituting its own I-know-it-when-I-seeit approach.” Characterizing the evidence as a “consensus of professionals in the field of intellectual disability,” Petitioner additionally argues that the OCCA
decision is inconsistent with expert opinion and with
“the requirements of Atkins.” Pet. at 39-46. In sum,
he declares that “the OCCA arbitrarily relied on
isolated factors that it unreasonably believed were
inconsistent with intellectual disability while disregarding the wealth of evidence that shows [Petitioner] is
intellectually disabled.” Reply at 5. However, Petitioner’s arguments for relief are extensively supported by
evidence which the jury did not hear and which this
Court cannot consider in deciding his claim. Focusing
on the evidence presented at trial and the OCCA’s
review of that evidence, the issue of whether Petitioner
is mentally retarded is not as clear cut as Petitioner
alleges.

App.81a
Although Petitioner claims that the OCCA violated
Atkins by disregarding expert opinion, what the OCCA
found was a dispute among the experts. Although Dr.
Hopewell believed that Petitioner’s I.Q. testing showed
sub-average intellectual functioning, the State’s expert,
Dr. Call, questioned that conclusion based on additional testing that indicated Petitioner was not putting
forth his best effort. Smith, No. O-2006-683, slip op.
at 7-8. The same is true regarding Petitioner’s adaptive
functioning. While Dr. Hopewell found that Petitioner
had deficits in all areas of adaptive functioning (Tr.
3/9/04, 63-65, 67-68), Dr. Call testified that Dr. Hopewell’s assessment was invalid because the test was
inappropriately administered (Tr. 3/15/04, 22-25). In
addition, as with the testing of Petitioner’s intellectual
function, Dr. Call testified that he believed that
Petitioner did not put forth his best effort in adaptive
functioning testing. Dr. Call’s opinion is supported by
the fact that Petitioner could not even spell his last
name for Dr. Call, when he had done so on prior occasions, including for Dr. Hopewell just eight months
earlier (Tr. 3/9/04, 129, 148; Tr. 3/15/04, 26-30, 36, 44;
State’s Ex. 1).
Petitioner’s assessment of the evidence also fails
to give due consideration to the very posture of the
claim. This is a sufficiency-of-the-evidence claim.
Although Petitioner argues with great fervor that he
is mentally retarded, that is not for this Court to decide.
Petitioner had the opportunity to prove he is mentally
retarded. However, a jury determined that he had
failed to meet his burden of proof. That jury verdict,
and its subsequent validation by the OCCA, is what
is under review here, and the Court’s review is largely
limited due to the deference afforded the jury’s verdict

App.82a
and the AEDPA deference afforded the OCCA’s decision.
While Petitioner clearly does not agree with the
jury’s verdict, it was the jury’s job to assess the
evidence, and the OCCA found that when viewing the
evidence in light most favorable to the State, a rational
trier of fact could have reached the same conclusion.
In addition to Dr. Call’s testimony, which called into
question Petitioner’s primary expert, evidence from
lay witnesses showed that Petitioner had skills and
strengths which the jury could consider in assessing
whether Petitioner had significant limitations. See
Smith, No. O-2006-683, slip op. at 11 (“[Petitioner]
held down a job with supervisory functions, carried
on an affair, argued motions on his own behalf and
manipulated those around him.”). Although Petitioner
argues that his strengths were overemphasized and
inappropriately considered, the Tenth Circuit has
held that “[b]oth strengths and deficiencies enter
into [the mental retardation determination] because
they make up the universe of facts tending to establish
that a defendant either has ‘significant limitations’
or does not. Not only does Murphy not require the
OCCA to focus on deficiencies to the exclusion of
strengths but—most relevant to our inquiry here—
neither does Atkins.” Hooks, 689 F.3d at 1172.
Given the evidence presented to the jury, the
OCCA’s assessment of that evidence in upholding the
jury’s verdict, and the double-deference review this
Court must apply in its review, the Court concludes
that Petitioner is not entitled to relief on his first
ground for relief. Ground One is therefore denied.

App.83a
B.

Ground Two: Challenges to the Atkins Trial

In his Ground Two, Petitioner cites irregularities
in his mental retardation trial. He challenges the
admission of evidence regarding his crimes, claims
the prosecutors committed misconduct, and finds fault
with a single instruction given to the jury.13 The
OCCA addressed all of these claims on the merits
and denied relief. Smith, No. O-2006683, slip op. at
3-5, 17-18. Applying AEDPA deference, the Court
concludes that Petitioner is not entitled to relief.
Petitioner’s first complaint concerns the testimony
of Officer Maddox and the prosecution’s reference to
the same in closing argument. As detailed in Ground
One, supra, Officer Maddox testified about how the
crime scene had been altered. He discussed hidden
evidence and indications that the crime scene had
been cleaned. Officer Maddox also testified about his
interview with Petitioner and Petitioner’s ability
during that interview to understand his legal rights.
Petitioner asserts that the admission of this evidence
was “especially egregious,” “highly prejudicial,” and
“unquestionably vague and confusing.” Pet. at 57, 60.
13 Petitioner begins his Ground Two with a history/overview of
mental retardation trials in Oklahoma in an effort to show that
he never had a fair chance to receive a jury determination that
he is mentally retarded. Pet. at 47-55. Within that discussion,
Petitioner mentions, among other general complaints, the jury
instruction defining the term mentally retarded, the prosecution’s “novel interpretation” of the instruction, and an appeal
that was “cramped,” “abbreviated,” and “clearly insufficient.” The
Court does not construe these references as additional grounds
for relief and notes that while Respondent has specifically
argued that the instruction and prosecutorial misconduct references are unexhausted claims, Petitioner has made no attempt
to counter the argument.

App.84a
He contends that this evidence was admitted in
violation of the OCCA’s decision in Lambert v. State,
71 P.3d 30, 31 (Okla. Crim. App. 2003), wherein the
OCCA held that “[t]he jury should not hear evidence
of the crimes for which [the defendant] was convicted,
unless particular facts of the case are relevant to the
issue of mental retardation.” Petitioner additionally
asserts that admission of this evidence “made it
impossible to regard the verdict as [ ] factually reliable
. . . [as] required by Atkins.” Pet. at 60.
In denying Petitioner relief on this claim, the
OCCA held as follows:
[Petitioner] argues in his first proposition that
the district court erred in allowing Detective
Maddox to testify, over objection, that the concealing of evidence and altering of the crime
scene were thoughtful, deliberate actions
undertaken by [Petitioner] to avoid detection
and which show that [Petitioner] is capable of
logical reasoning. He maintains this testimony
was beyond Detective Maddox’s personal
knowledge and is nothing but speculation.
A trial court’s decision to admit evidence
will not be disturbed on appeal absent a
showing of abuse of discretion accompanied
by prejudice. Howell v. State, 2006 OK CR
28, ¶ 33, 138 P.3d 549, 561. Detective Maddox testified that he was the lead investigator
in the crime for which [Petitioner] was convicted. He explained that evidence at the
crime scene was hidden in closets and in the
attic and that a bed had been “remade” in
such a way as to conceal evidence hidden
underneath it. He further explained that

App.85a
police determined that the carpet at the scene
had been cleaned based on tracks in the carpet consistent with a carpet cleaning machine
and tests confirming that evidence on the
carpet had been removed through a cleaning
process. The prosecutor asked Detective
Maddox what the condition of the crime
scene indicated to him about the mental
ability of the perpetrator and Maddox testified that the placement of the evidence
indicated the perpetrator thoughtfully hid
evidence to avoid detection.
The district court did not err in allowing this
testimony. Jurors were told that [Petitioner]
had been found guilty of a crime, but neither
the crime itself nor the sentence imposed
was revealed. Throughout the trial, no reference was made to the death penalty, capital
punishment, or death row. No facts of the
murders [Petitioner] committed were introduced and the district court confined the
evidence to the narrow issue of mental retardation. [Petitioner’s] ability to recognize the
wrongfulness of his criminal acts and to
conceal evidence of his crimes is relevant to
the issue of whether he is capable of logical
reasoning and whether he is mentally
retarded. The evidence regarding the crime
scene was presented without prejudicial
details of the crime itself to comport with
our prior decisions concerning admission of
evidence related to the crime and admission
of this evidence was not unfairly prejudicial.
See e.g., Lambert v. State, 2003 OK CR 11,

App.86a
¶ 3, 71 P.3d 30, 31. Maddox’s opinion that
[Petitioner] deliberately hid evidence to
avoid being caught was rationally based on
his perceptions of the crime scene and his
dealings with [Petitioner] and were helpful
to the jury’s determination of whether
[Petitioner] is mentally retarded. Such lay
opinion testimony is admissible under 12
O.S.2001, § 2701. This claim is denied.

Smith, No. O-2006-683, slip op. at 3-4 (footnotes

omitted).

This a state law evidentiary claim. Because this
Court is only empowered “to vindicate [Petitioner’s]
constitutional rights,” Petitioner “is entitled to relief
only if [the] alleged state-law error [ ] was so grossly
prejudicial that it fatally infected the trial and denied
the fundamental fairness that is the essence of due
process.” Hooks, 689 F.3d at 1180 (internal quotation
marks and citation omitted). The Court concludes
that relief is not warranted under this standard of
review. Officer Maddox’s testimony was presented in
generic terms. The jury did not hear the gruesome
details of Petitioner’s crimes or how Petitioner’s victims
were discovered. See Smith, 379 F.3d at 923-34. The
jury was not told that Petitioner’s five victims were
shoved into closets and under a bed and that the
carpets and sinks had been cleaned to remove the
evidence of blood. Instead the jury heard that the
scene had been altered–that Petitioner had taken
certain actions to cover up his crimes. The OCCA did
not act unreasonably in determining that this evidence,
and evidence of Petitioner’s interaction with Officer
Maddox, was relevant and admissible to the issue of
Petitioner’s mental abilities.

App.87a
Petitioner’s next complaint concerns five comments
made by the prosecutors during voir dire, opening
statement, and closing statement. Petitioner asserts
that the comments were “misleading,” “argumentative,”
“inaccurate,” “[d]enigrating and disparaging,” and
“deceptive.” Pet. at 61, 62, 66. Alleging that the comments “thoroughly permeated the entire proceedings,”
he claims that he has been denied fundamental fairness and is entitled to relief. Reply at 17.
“Prosecutors are prohibited from violating fundamental principles of fairness, which are basic requirements of Due Process.” Hanson v. Sherrod, 797 F.3d
810, 843 (10th Cir. 2015), cert. denied, 136 S. Ct.
2013 (2016). Therefore, when a petitioner alleges
prosecutorial misconduct, the question is whether the
prosecutor’s actions or remarks “so infected the trial
with unfairness as to make the resulting conviction a
denial of due process.” Donnelly v. DeChristoforo, 416
U.S. 637, 643 (1974). Evaluating the alleged misconduct in light of the entire proceeding, the reviewing
court must determine “whether the jury was able to
fairly judge the evidence in light of the prosecutors’
conduct.” Bland v. Sirmons, 459 F.3d 999, 1024 (10th
Cir. 2006).
In denying Petitioner relief on this claim, the
OCCA held as follows:
[Petitioner] argues in his eighth proposition
that he was denied a fair trial on the issue
of mental retardation because of prosecutorial
misconduct. Allegations of prosecutorial misconduct do not warrant reversal unless the
cumulative effect of error found deprived the
defendant of a fair trial. Warner v. State,
2006 OK CR 40, ¶ 197, 144 P.3d 838, 891.

App.88a
[Petitioner] challenges one of the prosecutor’s
statements during jury selection relating to
the burden of proof, two statements in opening statement about the experts review of the
evidence and three statements made during
closing argument. The defense’s objection to
the prosecutor’s question during jury selection about the burden of proof was sustained
before any juror answered; the trial court
advised the prosecutor to rephrase. We find
the trial court’s ruling cured any error in
light of the instructions and other discussion about the burden of proof. McElmurry
v. State, 2002 OK CR 40, ¶ 126, 60 P.3d 4,
30 (sustaining an objection generally cures
any error.). The trial court also sustained
the defense’s objection to the first challenged
remark during opening statement because
it was argumentative and the prosecutor
followed the court’s ruling and outlined the
evidence. The second objection, for the same
reason (argumentative), was properly overruled because the prosecutor was merely
outlining the evidence. Howell, 2006 OK CR
28, ¶ 7, 138 P.3d at 556 (The purpose of
opening statement is to tell the jury of the
evidence the attorneys expect to present
during trial and its scope is determined at
the discretion of the trial court.). Likewise,
any error in the prosecutor’s statement during
closing argument brought to the court’s attention was cured when the trial court sustained
[Petitioner’s] objection. McElmurry, 2002 OK
CR 40, ¶ 126, 60 P.3d at 30. The other two
statements challenged in closing argument

App.89a
were not met with objection and a review of
the remarks shows they were fair comments
on the evidence. This claim is denied.

Smith, No. O-2006-683, slip op. at 17-18.
Although Petitioner argues that the OCCA gave
this claim “short shrift,” Pet. at 65, the Court finds
that the OCCA’s above analysis is both sufficient and
reasonable under the AEDPA. The record reflects
that with respect to the first three comments complained of by Petitioner, the trial court appropriately
responded to Petitioner’s objections. See Le v. Mullin,
311 F.3d 1002, 1013 (10th Cir. 2002) (a fundamental
fairness assessment includes consideration of the trial
court’s “cautionary steps . . . to counteract improper
remarks”). To the extent the question during voir
dire was “probably a little on the edge,” Petitioner
objected to it at the onset before any harm could
develop and the trial court directed the prosecutor to
rephrase the question (Tr. 3/8/04, 155-56). Petitioner’s
objection to the opening statement comment was
initially sustained as argumentative, but then overruled when the prosecutor rephrased the comment
within acceptable parameters of outlining the evidence
to the jury (Tr. 3/9/04, 22-23). And finally, when the
prosecutor made the comment in closing argument
that the defense “don’t put in front of you what they
don’t want you to see,” the trial court sustained the
objection (Tr. 3/15/04, 103), thereby curing any harm.
See Hanson, 797 F.3d at 845 n.13 (a sustained objection is presumed to cure any error).
As for the remaining two comments, both of
which also occurred in closing argument, Petitioner
made no objection to them at trial (Tr. 3/15/04, 95,
110-11). See Le, 311 F.3d at 1013 (acknowledging

App.90a
that the absence of an objection is “relevant to a
fundamental fairness assessment”). In the first of
these comments, the prosecutor stated that Petitioner
is “either a bottom dweller, slobbering, or he’s just
right on the cusp” (Tr. 3/15/04, 95). Although referring
to a person with mental retardation as a “slobbering
bottom dweller” is harsh and inappropriate, the
Court cannot conclude that this single reference
rendered the entire proceeding fundamentally unfair.
The comment was not objected to, the prosecutor made
the reference only once, and it was made within an
otherwise permissible argument discussing Petitioner’s
expert evidence. As for the third unobjected-to comment, it concerned Officer Maddox’s testimony, which
the Court has already addressed herein. Because the
evidence was relevant and admissible, the prosecutor’s
reasonable comments based on the officer’s testimony
did not deny Petitioner due process. See United
States v. Dazey, 403 F.3d 1147, 1170 (10th Cir. 2005)
(“The prosecutor is entitled to argue to the jury that
it should draw reasonable inferences from the evidence
to support the government’s theory of the case.”).
Petitioner’s final complaint concerns Jury Instruction No. 17 which required the jury to determine
whether “the mental retardation [was] present and
known before [Petitioner] was eighteen (18) years of
age” (O.R. VI, 1138). Petitioner contends that the
language “present and known” is contrary to Atkins,
which referred to mental retardation manifesting
itself (or the onset occurring) before the age of eighteen.
Atkins, 536 U.S. at 308 n.3. Pet. at 70-71.
“A habeas petitioner who seeks to overturn his
conviction based on a claim of error in the jury
instructions faces a significant burden.” Ellis v. Hargett,

App.91a
302 F.3d 1182, 1186 (10th Cir. 2002). “Unless the
constitution mandates a jury instruction be given, a
habeas petitioner must show that, in the context of
the entire trial, the error in the instruction was so
fundamentally unfair as to deny the petitioner due
process.” Tiger v. Workman, 445 F.3d 1265, 1267
(10th Cir. 2006).
In denying Petitioner relief on this claim, the
OCCA relied on its prior decisions in Howell v. State,
138 P.3d 549 (Okla. Crim. App. 2006), and Myers v.
State, 130 P.3d 262 (Okla. Crim. App. 2005). Smith,
No. O-2006-683, slip op. at 5. In Myers, the OCCA
held as follows:
Jury instructions are sufficient if, when read
as a whole, they state the applicable law.
McGregor v. State, 1994 OK CR 71, ¶ 23,
885 P.2d 1366, 1380. As used in this context,
the word “manifest” is a transitive verb and
the word “known” is an adjective. The Random House Unabridged Dictionary defines
“known” as perceived or understood as fact
or truth; apprehended clearly and with
certainty. See “know” & “known” Random
House Dictionary (2nd ed. 1997). It defines
“manifest” as “to make clear or evident to
the eye or the understanding; show plainly
. . . to prove; put beyond doubt or question.”
See “manifest” Random House Dictionary
(2nd ed. 1997).
We find that the words “present and known”
are words of common everyday understanding that do not require a level of proof above
that required to prove that a condition
“manifested” itself. “Known” as it relates to

App.92a
the jury instruction used in this case does
not require a scientific finding or a medical
diagnosis. See Murphy I, 2002 OK CR 32,
¶ 31 n.19, 54 P.3d at 567 n.19. The retardation
has only to have been perceived or recognized
by someone before the defendant reached
the age of 18. The court’s instruction accurately stated the applicable law and therefore we find that the district court did not
abuse its discretion in giving this uniform
instruction.

Myers, 130 P.3d at 269.
Petitioner has not shown that the OCCA’s analysis
is unreasonable. In addition to the fact that Petitioner’s
claim has been specifically rejected in both Howell v.
Workman, No. CIV-07-1008-D, 2011 WL 5143069, at
*20-21 (W.D. Okla. Oct. 28, 2011) (unpublished), and
Myers v. Workman, No. 02-CV-140-GKF-PJC, 2010
WL 2106456, at *57-59 (N.D. Okla. May 25, 2010)
(unpublished), when the Court considers the additional step taken by the trial court to clarify this
issue, Petitioner’s argument is especially weak. Pulling
clarifying language from the Murphy decision, Murphy,
54 P.3d at 567 n.19, the trial court further instructed
the jury as follows:
Whether mental retardation before the age
of eighteen was present and known is a question of fact to be decided by you the jury. To
establish that the first signs of mental retardation appeared and were recognized before
[Petitioner] turned eighteen, lay opinion and
poor school records may be considered.

App.93a
(O.R. VI, 1140; Tr. 3/15/04, 75-77). Therefore, reviewing
the instructions as a whole and giving the OCCA’s
decision appropriate deference, the Court finds that
no relief is warranted on this claim.
In conclusion, for the reasons set forth above,
the Court finds that Petitioner has not demonstrated
his entitlement to relief for the claims raised in his
Ground Two. Ground Two is therefore denied.
C.

Ground Three: Ineffective Assistance of Atkins
Trial Counsel

In his third ground for relief, Petitioner argues
that his Atkins trial counsel was ineffective for two
reasons. First, Petitioner faults his trial counsel for
failing to retain and present for testimony an expert
like Theresa Flannery of the Dale Rogers Training
Center.14 Petitioner contends that Ms. Flannery should
have testified to educate the jury regarding his ability
to work as a head custodian despite his limited intelligence. Second, Petitioner asserts that his trial counsel should have retained an expert like Dr. Terese
Hall to assess his adaptive functioning using the
ABAS-II. Because his expert at trial failed to use this
test and was criticized by the State’s expert for
failing to do so, Petitioner asserts that Dr. Hall’s
results should have been presented to the jury to
establish his significant limitations in adaptive functioning. Had trial counsel presented these two pieces
14 “Dale Rogers Training Center is the oldest and largest community vocational training and employment center in Oklahoma
that serves persons with disabilities. . . . [It] provides individuals
whose IQ levels test 75 or below with meaningful, productive,
and compensated work.” Pet’r’s Attach. 20 at 1.

App.94a
of additional evidence, Petitioner claims that he would
not be under a death sentence today.
As an initial matter, the Court must first determine whether the OCCA’s determination of these
claims is entitled to AEDPA deference, a matter
which the parties dispute. The record reflects that in
his presentation of these ineffectiveness claims to the
OCCA, Petitioner attached four exhibits to his application for relief, including an August 2006 affidavit from
Ms. Flannery (Pet’r’s Attach. 20), Dr. Hall’s September 2005 report (Pet’r’s Attach. 5), and a September
2006 affidavit from trial counsel (Pet’r’s Attach. 15).
In denying Petitioner relief, the OCCA analyzed
Petitioner’s claims and discussed his extra-record
material as follows:
[Petitioner] contends in his ninth proposition
that he was denied a fair trial because of
ineffective assistance of counsel. He contends
that trial counsel failed to investigate and
fully present evidence demonstrating that
he, in his status as a custodial supervisor,
was working at his full potential as a person
with mental retardation.
This Court reviews claims of ineffective
assistance of counsel under the two-part
Strickland test that requires an appellant to
show: [1] that counsel’s performance was
constitutionally deficient; and [2] that counsel’s performance prejudiced the defense,
depriving the appellant of a fair trial with a
reliable result. Strickland v. Washington,
466 U.S. 668, 687, 104 S. Ct. 2052, 2064, 80
L.Ed.2d 674 (1984); Davis v. State, 2005 OK
CR 21, ¶ 7, 123 P.3d 243, 246. Under this

App.95a
test, [Petitioner] must affirmatively prove
prejudice resulting from his attorney’s actions.
Strickland, 466 U.S. at 693, 104 S. Ct. at
2067; Head v. State, 2006 OK CR 44, ¶ 23,
146 P.3d 1141, 1148. “To accomplish this, it
is not enough to show the failure had some
conceivable effect on the outcome of the
proceeding.” Head, 2006 OK CR 44, ¶ 23,
146 P.3d at 1148. Rather, [Petitioner] must
show that there is a reasonable probability
that, but for counsel’s unprofessional error,
the result of the proceeding would have been
different. Id. “A reasonable probability is a
probability sufficient to undermine confidence
in the outcome.” Id.
On appeal, [Petitioner] contends that trial
counsel should have secured an expert in
the field of training mentally retarded
individuals to show that the skills he performed as head custodian were not inconsistent with someone who is mentally retarded.
[Petitioner] has appended to his brief, among
other things, an affidavit from Theresa
Flannery who is the Administrator for the
Dale Rogers Training Center’s Vocational
Programs, a vocational training program for
mentally retarded individuals in Oklahoma
City. She attests that individuals with an I.Q.
in the range of 55 can be trained to be
custodians, to set security alarms, to use
pagers and to learn repetitive cleaning tasks.
We cannot consider [Petitioner’s] extra record
material to evaluate the merits of his ineffective assistance of counsel claim under these

App.96a
circumstances. [FN13] Convincing evidence
was presented that [Petitioner] did not suffer
from sub-average intellectual functioning that
prevented him from being productive and able
to function adequately. Those witnesses with
first-hand knowledge of his skills portrayed
[Petitioner] as capable and normal. This claim
is denied.
FN13. [Petitioner] has not requested an
evidentiary hearing on his ineffective
assistance of counsel claim under Rule
3.11, Rules of the Oklahoma Court of
Criminal Appeals, Title 22, Ch. 18, App.
(2007). This Court does not consider ex
parte affidavits and extra-record material for purposes of assessing the merits
of an ineffective assistance of counsel
claim. Rather, we will consider such
material to determine if an evidentiary
hearing is warranted. Dewberry v. State,
1998 OK CR 10, ¶ 9, 954 P.2d 774, 776.
Assuming [Petitioner] attached this information for purposes of requesting an
evidentiary hearing on his ineffective
assistance of counsel claim, the information is insufficient to show by clear
and convincing evidence that there is a
strong possibility that counsel was
ineffective for failing to utilize the complained-of evidence. Rule 3.11(B)(3)(b)(i).
[Petitioner] contends in his tenth proposition
that . . . his attorneys should have had an
expert perform the ABAS II test to confirm
deficits in his adaptive functioning.

App.97a
[Petitioner] submits an affidavit from Dr.
Terese Hall in support of this claim again
without requesting an evidentiary hearing.
We cannot consider this affidavit for purposes
of evaluating the merits of this claim. Thus,
we must find that [Petitioner] has failed to
meet his burden and cannot prevail. This
claim is denied.

Smith, No. O-2006-683, slip op. at 18-20. In a sub-

sequent post-conviction proceeding, where Petitioner
challenged his appellate counsel’s handling of the
extra-record materials, the OCCA explicitly stated
that in its review of Petitioner’s mental retardation
trial, “[it] did consider the materials appended by
MR appeal counsel, as if they had been properly presented under Rule 3.11.” Smith, No. PCD-2010-660,
slip op. at 7.15
Petitioner argues for de novo review based on
the Tenth Circuit’s decision in Wilson v. Workman,
577 F.3d 1284 (10th Cir. 2009) (en banc). Pet. at 85
n.53. In Wilson, 577 F.3d at 1300, the Tenth Circuit
held that “[w]hen the OCCA, pursuant to Rule 3.11,
refuses to grant an evidentiary hearing to consider
material, non-record evidence of ineffective assistance of
counsel that the defendant has diligently sought to
15 Although Petitioner faults his appellate counsel for not
following proper Rule 3.11 procedure, Pet. at 83, the Court does
not construe this one-sentence declaration as an additional
claim of ineffectiveness. In any event, such a claim would be
unworthy of habeas relief. Because the OCCA considered the
materials as if they had been properly filed under Rule 3.11, it
was reasonable for the OCCA to deny Petitioner relief on his
appellate counsel claim due to the absence of prejudice. Smith,
No. PCD-2010-660, slip op. at 7.

App.98a
develop, and then rules on the ineffectiveness claim
without consideration of this evidence, the OCCA’s
denial of the claim is not an adjudication on the merits
to which the federal courts owe AEDPA deference.”
Petitioner stands on Wilson, despite the Tenth Circuit’s
subsequent holding in Lott v. Trammell, 705 F.3d
1167 (10th Cir. 2013). In Lott, the Tenth Circuit (1)
acknowledged the OCCA’s post-Wilson decision in
Simpson v. State, 230 P.3d 888, 906 (Okla. Crim.
App. 2010), wherein the OCCA explained the relationship between the Strickland standard and the Rule
3.11 standard a defendant must meet in order to
obtain an evidentiary hearing in state court on his
ineffectiveness claim; (2) reversed the position it took
in Wilson; and (3) concluded, in light of Simpson,
that when the OCCA applies Rule 3.11 to deny a
defendant an evidentiary hearing, the same constitutes
a merits ruling entitled to AEDPA deference. Lott,
705 F.3d at 1211-13. See Glossip v. Trammell, 530 F.
App’x 708, 736 (10th Cir. 2013) (acknowledging that
Wilson is “no longer good law given the OCCA’s subsequent decision in Simpson ”). Thus, contrary to
Petitioner’s assertion, Lott is controlling and the
OCCA’s decision on Petitioner’s claims concerning
Ms. Flannery and Dr. Hall is due AEDPA deference.
“[T]he Sixth Amendment does not guarantee the
right to perfect counsel; it promises only the right to
effective assistance. . . . ” Burt v. Titlow, 571 U.S.___,
134 S. Ct. 10, 18 (2013). Whether counsel has provided
constitutional assistance is a question to be reviewed
under the familiar standard set forth in Strickland v.
Washington, 466 U.S. 668 (1984). To obtain relief,
Strickland requires a defendant to show not only
that his counsel performed deficiently, but that he

App.99a
was prejudiced by it. Id. at 687. A defendant must
show that his counsel “made errors so serious that
counsel was not functioning as the ‘counsel’ guaranteed . . . by the Sixth Amendment.” Id. The assessment
of counsel’s conduct is “highly deferential,” and a
defendant must overcome the strong presumption that
counsel’s actions constituted “‘sound trial strategy.’”
Id. at 689 (citation omitted). “[S]trategic choices made
after thorough investigation of law and facts relevant
to plausible options are virtually unchallengeable. . . . ”
Id. at 690.
As Strickland cautions, “[i]t is all too tempting
for a defendant to second-guess counsel’s assistance
after conviction or adverse sentence, and it is all too
easy for a court, examining counsel’s defense after it
has proved unsuccessful, to conclude that a particular
act or omission of counsel was unreasonable.” Id. at 689.
Therefore, “[a] fair assessment of attorney performance
requires that every effort be made to eliminate the
distorting effects of hindsight, to reconstruct the
circumstances of counsel’s challenged conduct, and to
evaluate the conduct from counsel’s perspective at
the time.” Id. Within “the wide range of reasonable
professional assistance,” “[t]here are countless ways
to provide effective assistance in any given case[,
and] [e]ven the best criminal defense attorneys would
not defend a particular client in the same way.” Id.
As for prejudice, Strickland requires a defendant
to show that his counsel’s errors and omissions
resulted in actual prejudice to him. Id. at 687. In
order to make a threshold showing of actual prejudice,
a defendant “must show that there is a reasonable
probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been differ-

App.100a
ent. A reasonable probability is a probability sufficient
to undermine confidence in the outcome.” Id. at 694.
In Richter, the Supreme Court addressed the
limitations of the AEDPA as specifically applied to a
claim of ineffective assistance of counsel that a state
court has denied on the merits. The Court held that
“[a] state court’s determination that a claim lacks
merit precludes federal habeas relief so long as
fairminded jurists could disagree on the correctness
of the state court’s decision.” Richter, 562 U.S. at 101
(internal quotation marks and citation omitted). The
Court bluntly acknowledged that “[i]f this standard
is difficult to meet, that is because it was meant to
be.” Id. at 102.
[The AEDPA] preserves authority to issue
the writ in cases where there is no possibility
fairminded jurists could disagree that the
state court’s decision conflicts with [the
Supreme] Court’s precedents. It goes no further. Section 2254(d) reflects the view that
habeas corpus is a guard against extreme
malfunctions in the state criminal justice
systems, not a substitute for ordinary error
correction through appeal.

Id. at 102-03 (internal quotation marks and citation

omitted). When these limits imposed by the AEDPA
intersect with the deference afforded counsel under
Strickland, a petitioner’s ability to obtain federal
habeas relief is even more limited.
Surmounting Strickland’s high bar is never
an easy task. An ineffective-assistance claim
can function as a way to escape rules of
waiver and forfeiture and raise issues not

App.101a
presented at trial, and so the Strickland
standard must be applied with scrupulous
care, lest intrusive post-trial inquiry threaten
the integrity of the very adversary process
the right to counsel is meant to serve. Even
under de novo review, the standard for
judging counsel’s representation is a most
deferential one. Unlike a later reviewing
court, the attorney observed the relevant
proceedings, knew of materials outside the
record, and interacted with the client, with
opposing counsel, and with the judge. It is
all too tempting to second-guess counsel’s
assistance after conviction or adverse sentence. The question is whether an attorney’s
representation amounted to incompetence
under prevailing professional norms, not
whether it deviated from best practices or
most common custom.
Establishing that a state court’s application
of Strickland was unreasonable under § 2254
(d) is all the more difficult. The standards
created by Strickland and § 2254(d) are both
highly deferential, and when the two apply in
tandem, review is doubly so[.] The Strickland
standard is a general one, so the range of
reasonable applications is substantial. Federal
habeas courts must guard against the danger
of equating unreasonableness under Strickland with unreasonableness under § 2254
(d). When § 2254(d) applies, the question is
not whether counsel’s actions were reasonable.
The question is whether there is any reason-

App.102a
able argument that counsel satisfied Strickland’s deferential standard.

Richter, 562 U.S. at 105 (internal quotation marks
and citations omitted).

In disposing of Petitioner’s claims, the OCCA
applied Strickland. The question, therefore, is whether
it applied Strickland in a reasonable manner. Although
Petitioner characterizes the OCCA’s analysis as
“unclear,” Pet. at 85, not knowing whether the OCCA
denied Petitioner relief under the deficient performance prong, the prejudice prong, or both, does not
make its decision unreasonable. Williams v. Trammell,
782 F.3d 1184, 1199 (10th Cir. 2015) (“[U]ncertainty
does not change our deference.”). It is the result, not
the analysis, which is paramount to this Court’s
review. Lack of clarity is “not a license to penalize a
state court for its opinion-writing technique.” Lafler v.
Cooper, 566 U.S. 156, 183 (2012). “Even ‘[w]here a
state court’s decision is unaccompanied by an explanation, the habeas petitioner’s burden still must be
met by showing there was no reasonable basis for the
state court to deny relief.’” Williams, 782 F.3d at
1199-1200 (citation omitted). Here then, this Court
“must determine what arguments or theories supported
or . . . could have supported, the state court’s decision;
and then it must ask whether it is possible fairminded
jurists could disagree that those arguments or theories
are inconsistent with the holding in a prior decision of
[the Supreme Court].” Richter, 562 U.S. at 102.
Theresa Flannery
Petitioner asserts that Ms. Flannery’s testimony
about the abilities of an individual with an I.Q.
between 50 and 70 could have undercut the State’s

App.103a
evidence and argument that “someone with [an]
intellectual disability surely could not carry out the
duties required” by Petitioner’s position as head
custodian at an elementary school. Pet. at 77. Regarding
the State’s evidence and related argument, Petitioner
points to the State’s opening statement wherein the
prosecutor commented on Petitioner’s competence as
a head custodian (Tr. 3/9/04, 27-28); the prosecutor’s
elicitation of testimony from Petitioner’s former teachers that they would be surprised if Petitioner could
hold such a position (Tr. 3/10/04, 43, 114); Dr. Call’s
testimony “that there would be some significant
problems” with Petitioner having such a job (Tr.
3/15/04, 68); and the State’s closing argument references to his teachers’ surprise (id. at 93, 104-07). Pet.
at 77-78.16 Petitioner contends that his trial counsel’s
failure to seek out Ms. Flannery is made worse by
the fact that after his first mental retardation trial
(which ended in a mistrial), trial counsel knew that
the prosecution would employ this strategy. From his
first trial, Petitioner points to similar testimony from
one of his teachers about his surprise (Tr. 11/18/03,
235) and testimony from a cousin/coworker who testified that Petitioner was his supervisor and had keys
to the alarm-protected school building (Tr. 11/19/03,
16-17, 19, 21). Pet. at 78.
The OCCA’s denial of relief on this claim is not
unreasonable under either Strickland prong. From
16 In his reply, Petitioner also points to the testimony of Mr.
Woodward, a State’s witness. Reply at 19. As detailed in Ground
One, supra, Mr. Woodward was Petitioner’s supervisor. He testified
that Petitioner supervised four to five employees, communicated
with him through a pager, and knew how to operate the school’s
alarm system.

App.104a
Petitioner’s argument, one might get the impression
that trial counsel did absolutely nothing to counter
this evidence. This is simply not the case. Trial
counsel elicited evidence from its expert, Dr. Hopewell,
that being in a supervisory position is not inconsistent
with being mentally retarded (Tr. 3/9/04, 69). Dr.
Hopewell described Petitioner’s job as “routine,” and
while acknowledging that Petitioner had some people
who reported to him, he testified that Petitioner’s
supervisory responsibilities were limited to making
sure that the cleaning assignments of absent employees
got done (Id. at 116). Petitioner’s cousin, who worked
with Petitioner at the school for a time, also testified
that Petitioner’s supervisory duties were limited: “He
just made sure everybody did what we had to do. If
one of us didn’t come in, he would just have to do the
work. That was it” (Tr. 3/10/04, 72). His cousin further
testified that it was his mother, Petitioner’s aunt,
who hired Petitioner and did all the paperwork
required. Petitioner did not have to complete any
paperwork in his supervisory duties (id. at 73-74).
Finally, through the testimony of one of Petitioner’s
former teachers, the jury learned that Petitioner had
participated in a work-study program where he received
specific training to be a school janitor (id. at 31).
Trial counsel offered and the court admitted into
evidence Petitioner’s work schedule. It listed Petitioner’s area of responsibility; daily, weekly, and as needed
assignments; and the full cleaning schedule. Although
it classified Petitioner as “Head Custodian,” no supervisory duties were noted (Def.’s Ex. 4). When trial
counsel showed this schedule to one of Petitioner’s
former teachers who had testified that she would be
“[e]xtremely surprised” to know that Petitioner was

App.105a
working as a head janitor, she testified that she
would not be surprised if Petitioner could carry out
those general cleaning duties. She only questioned
whether he might have issues reading the names of
the chemicals and/or knowing which chemicals to use
(Tr. 3/10/04, 114-15).
In response to testimony from Mr. Woodward,
see n.16, supra, trial counsel brought out on crossexamination that he had only been Petitioner’s supervisor for “a very short time,” and that although Mr.
Woodward had testified that Petitioner was responsible
for making sure everyone’s time cards were filled out,
he admitted on cross-examination that he only came
by the school to pick up the time cards from Petitioner
and had no idea what, if anything, Petitioner had done
to make sure they were ready to go (Tr. 3/11/04, 92,
94, 97). And in closing argument, trial counsel made
the following comments about Petitioner’s job:
As an adult [Petitioner] became a janitor.
And you will have the job description of that
position. Now, it was called head janitor. But
I ask you to look over that description. And
what you will see is he cleaned, he straightened, he threw away trash, very simple tasks.
The title of head janitor did not mean he was
responsible for major supervisory responsibilities.
In fact, Mr. Woodward, who was his supervisor for the last six to seven weeks of his
employment, indicated that the biggest thing
that the head janitor did was if someone
didn’t show up he was supposed to delegate
the duties of the person that didn’t show up.
However, if you will remember Chris Scott’s

App.106a
testimony, he didn’t delegate those responsibilities. [Petitioner] would do the job—the
cleaning job of the person who missed work.
In addition to those duties, the state has
argued that there was paperwork involved
in this. However, Mr. Woodward also indicated there was a limited amount of paperwork that [Petitioner] was responsible for.
And Mr. Scott told us that his mother was
the one who assisted [Petitioner] with his
paperwork.
[...]
The evidence that he had the janitor job. All
the experts testified, including the Special
Education teachers, including Fern Smith,
the prosecutor in this case, testified that
mentally retarded people can have jobs. They
can work. I bet we shouldn’t be surprised by
that, should we, that mentally retarded
people can have jobs? It’s what kind of jobs
they have and what kind of work that they
can get. And Mr. Preston testified through
the transcript that janitorial work is the kind
of work that they were teaching children for
in high school in the work co-op class to teach
them how to be functional in society.
The fact that he was able to have a job
doesn’t mean he’s not mentally retarded.
(Tr. 3/15/04, 82-83, 120).
In light of what trial counsel did do, trial counsel
was not deficient with respect to the Flannery evidence.
At most, Petitioner has shown that there was some

App.107a
additional evidence that trial counsel could have
been presented to challenge the State’s assertions
about his job and its reflection of his mental capabilities.
While Ms. Flannery’s testimony may have bolstered
trial counsel’s efforts, there is always more that counsel
could have done, but failing to pursue any and all
evidentiary angles does not make counsel ineffective.
As noted above, within “the wide range of reasonable
professional assistance,” “[t]here are countless ways
to provide effective assistance in any given case[,
and] [e]ven the best criminal defense attorneys would
not defend a particular client in the same way.”
Strickland, 466 U.S. at 689.
There is no Strickland prejudice as well. Even if
the Flannery evidence had been presented, there is
no reasonable probability that Petitioner would have
received a jury verdict that he is mentally retarded.
The janitor evidence was just a part of the evidence
before the jury, and given trial counsel’s efforts to
challenge the State’s contentions about the significance of his job, as well as all of the other evidence
presented, Petitioner was not prejudiced by its absence.
Dr. Terese Hall
Because trial counsel was aware that Dr. Call
would criticize Dr. Hopewell’s use of the Vineland Test
to test Petitioner’s adaptive functioning, Petitioner
contends that trial counsel was ineffective for failing
to retain an expert like Dr. Hall to assess his
adaptive functioning using the ABAS-II. On the
ABAS-II, administered by Dr. Hall in 2005, Petitioner
scored “in the significantly impaired range in several
areas. . . . ” Pet’r’s Attach. 5 at 12. Because trial counsel
did not have Petitioner tested using the ABAS-II,

App.108a
Petitioner asserts that his case “was left vulnerable
to damaging attacks by the prosecution” and a “critical
requirement for a finding of mental retardation was
left in question.” Pet. at 82, 83. Here again, however,
the Court cannot conclude that the OCCA was unreasonable to deny Petitioner relief on this claim.
Regarding the Vineland Test, Dr. Hopewell testified that although it is usually administered to a caretaker, he administered it directly to Petitioner. He
explained that given Petitioner’s status as a prisoner,
he did not have caretakers to interview in the traditional sense. While guards looked after Petitioner,
Petitioner was housed in a cell and did not have
frequent contact with them. Dr. Hopewell called it an
“artificial setting.” For example, Petitioner was not in
a situation where others could assess his ability to
cook a meal because cooking a meal in that setting
was impossible. In Dr. Hopewell’s opinion, “it was
really much better just to get the information directly
from [Petitioner], as well as what [he (Dr. Hopewell)]
was seeing in [his] testing and then the information
from the other records that [he] had” (Tr. 3/9/04, 6062). Dr. Hopewell testified that the Vineland tests
five areas of adaptive functioning, and although he did
not detail each of the five areas tested, he did testify
that Petitioner had deficits in all areas (id. at 64, 65,
68).
On cross-examination, the State did question
Dr. Hopewell rather extensively about his use of the
Vineland Test. Dr. Hopewell defended his use of the test
and explained that he did not give the test to
Petitioner’s mother or a former teacher because
Petitioner was an adult who had not lived with his
mother for a number of years and relying on a

App.109a
teacher’s memory from that long ago would have
been inappropriate (id. at 143-45). When questioned
about whether the Vineland results may have been
skewed due to Petitioner’s failure to be truthful
about his abilities, Dr. Hopewell acknowledged that
if Petitioner had lied consistently, it could have
changed some scores on the test; however, the Vineland
results were just a part of the information he relied
on to assess Petitioner’s adaptive functioning. Beyond
the Vineland, Dr. Hopewell relied on Petitioner’s extensive records, his own personal observation of him,
and discussions he had with Petitioner’s nurse, prison
guards, and attorneys (id. at 151-52, 154).
On redirect, Dr. Hopewell testified that no adaptive
functioning test, including the ABAS-II, has been
designed for the prison population. He also explained
that the ABAS-II was new and that using it required
caution. Even though the test had norms, “it’s so new
that still people don’t know how to do on it.” Dr.
Hopewell testified that the Vineland was the most
familiar test (one of the reasons why he chose it):
[I]f I reported tests that other people are
familiar with and aware of they can at least
make some comparisons. So if I use a test
that’s brand new or other people aren’t aware
of that creates some problems. So I just felt
it was quite—I thought it was quite adequate
to and saw no reason not to [use the Vineland].
Dr. Hopewell further testified that although the Vineland was “an entirely appropriate or adequate measure to give,” Petitioner’s adaptive functioning deficits
were so profound that his choice of test was of little
or no consequence (Tr. 3/9/04, 190-91).

App.110a
Dr. Call testified that Dr. Hopewell should not
have used the Vineland because it was not designed
to be given to the subject of the study, and because
Dr. Hopewell gave the test to Petitioner, the results
were of no value (Tr. 3/15/04, 22-25). He, however,
did not do any adaptive functioning testing of Petitioner
(id. at 45-46). Dr. Call interviewed a prison psychologist
and a guard, but was “unable to use a standardized
instrument with them” (id. at 31). He discussed
Petitioner’s ability to communicate with him, but he
again “underline[d]” the fact that he “was unable to
give any individual standardized technique” (id. at
32). Although Dr. Call admitted that it was difficult
to measure adaptive functioning in the structured
prison setting and agreed with Dr. Hopewell that
there is no adaptive functioning test specifically
designed for the prison population, he suggested that
the ABAS-II could have been used (id. at 34, 48-49).
Like the Flannery evidence, the OCCA’s determination that trial counsel was not ineffective with
respect to the Hall evidence is also not unreasonable.
While trial counsel was aware that Dr. Call would
criticize Dr. Hopewell’s use of the Vineland test, it
was not unreasonable for counsel to forego additional
testing. The evidence presented at trial showed that
there was no standardized test to assess the adaptive
functioning of prisoners. Dr. Hopewell not only had a
reasonable explanation for using the Vineland, but
also explained that it was not the only information
he used to assess Petitioner’s adaptive functioning.
And while Dr. Call criticized Dr. Hopewell’s use of
the Vineland, he did no testing of his own, but only
suggested that the ABAS-II may have been used.
Here again, Dr. Hall’s additional testing may have

App.111a
aided Petitioner’s case, but trial counsel was not
deficient for relying on Dr. Hopewell alone. Assessing
trial counsel’s actions requires a deferential lens.
Through this lens, trial counsel’s actions were not
unreasonable.
As for prejudice, even if trial counsel had presented
Dr. Hall’s ABAS-II results, no reasonable probability
exists that the jury would have found Petitioner to be
mentally retarded. Although Petitioner asserts that
Dr. Call’s discounting of Dr. Hopewell’s Vineland
results left a devastating void in his case, his assertion
ignores (1) Dr. Hopewell’s testimony that the Vineland
was just a part of his total assessment of Petitioner’s
adaptive functioning; (2) the additional testimony
Dr. Hopewell gave (apart from the Vineland) about
Petitioner’s adaptive functioning deficits in the areas
of communication and academics (O.R. VI, 1138-39;
Tr. 3/9/04, 62-63, 65-67);17 and (3) all of the additional evidence which was presented at trial regarding
Petitioner’s skills. Considering all of this evidence,
Strickland prejudice is lacking.
In conclusion, for the reasons set forth above,
the Court concludes that Petitioner has failed to
demonstrate that the OCCA was unreasonable in its
denial of relief on these two claims of trial counsel
ineffectiveness.18 Ground Three is therefore denied.
17 The jury was only required to find significant limitations in
two of nine skill areas.
18 Petitioner’s assertion that the OCCA’s decision is unreasonable because it did not consider both failures by trial counsel in
a Strickland prejudice analysis is unavailing because for the
reasons set forth herein, neither failure by counsel was deficient. Pet. at 85-86.

App.112a
D.

Ground Four: Ineffective Assistance of Trial and
Appellate Counsel (Competency and Resentencing)

Petitioner’s Ground Four is another challenge to
the effectiveness of his counsel. Here, however, Petitioner challenges the representation he received during
his 2009 competency trial and 2010 resentencing.
Petitioner asserts that his trial counsel in these proceedings was ineffective for failing to present a witness,
Anna Wright, and a DVD of Petitioner which she could
have sponsored for admission. Petitioner additionally
contends that his appellate counsel was ineffective
for failing to raise this trial counsel ineffectiveness
claim on appeal. These claims were presented to the
OCCA on post-conviction. The OCCA denied relief on
the merits. Smith, No. PCD-2010-660, slip op. at 910. Because Petitioner has not shown that the OCCA
was unreasonable in its denial, his Ground Four
must be denied.19
Petitioner asserts that Ms. Wright could “have
presented compelling and incisive testimony about
[his] simple and childlike nature as observed by her
in her capacity as a mental health counselor at the
Oklahoma County Jail.” Pet. at 87-88. Ms. Wright’s
admittedly “limited” observations of Petitioner are
detailed in a 2013 affidavit appended to his postconviction application as Attachment 5 (hereinafter
“Wright Affidavit”). The real focus of Petitioner’s
19 Having concluded herein that the OCCA did not unreasonably
deny relief on Petitioner’s trial counsel claim, the OCCA’s determination of Petitioner’s appellate counsel claim was likewise
reasonable. Because the trial counsel claim was without merit,
appellate counsel was not ineffective for failing to raise the
claim on appeal.

App.113a
Ground Four, however, is a 2009 video recording
(Pet’r’s Attach. 16), which Ms. Wright could have
sponsored into evidence. The video in question is a
21-minute interview of Petitioner conducted by the
Federal Public Defender’s Office for use in another
death row inmate’s clemency proceeding. Ms. Wright
was present during the interview. Wright Affidavit at
2-3. Characterizing the video as “extremely valuable,”
“unique,” “compelling,” and “humanizing,” Pet. at 88,
91, 94, Petitioner faults his trial counsel for not showing
this video to his competency and resentencing juries.
As for prejudice, Petitioner argues that the video
would have made a difference in his competency
proceeding because the jurors could have seen for
themselves how “concrete” he is and how “he [can]
only answer simple and direct questions.” Id. at 94.
Petitioner asserts that the video would have made a
difference at his resentencing as well because it would
have humanized him, showing the jury “a real person they were being asked to sentence to death.” Id.
at 95.
Applying Strickland, the OCCA analyzed Petitioner’s claims and denied relief as follows:
At Petitioner’s competency trial, and later at
his re-sentencing trial, his counsel presented
a considerable amount of evidence relevant
to Petitioner’s mental functioning. Petitioner
now points to two pieces of evidence that
trial counsel had, but did not use at either
proceeding. He claims this evidence could
have been outcome-determinative. Because
Petitioner did not raise this claim on direct
appeal, it would be forfeited, but for the fact
that he alleges his direct-appeal counsel was

App.114a
ineffective in omitting it. 22 O.S.2011, § 1089
(D)(4)(b).
Petitioner cites to several cases where we
found error (though not always reversible
error) when a trial court barred defense
counsel from presenting certain mitigation
evidence in a capital case. See Medlock v.
State, 1994 OK CR 65, ¶¶ 42-43, 887 P.2d
1333, 1346; Mitchell v. State, 2006 OK CR
20, ¶¶ 55-57, 136 P.3d 671, 696-98. But
Petitioner does not claim that the trial court
barred him from presenting the evidence in
question, at either the competency trial or
the re-sentencing trial. Nor does he claim that
trial counsel failed to uncover this information. In fact, as Petitioner concedes, trial
counsel filed written notice concerning the
potential use of this information in August
2009, well in advance of either proceeding.
Petitioner merely claims that trial counsel
made a fatal strategic error in deciding not
to present this information, and that appellate counsel was ineffective for not raising
this meritorious claim. We disagree.
When counsel has made an informed decision (i.e. after reasonable investigation) to
pursue one strategy over another, that choice
is virtually unchallengeable. Underwood v.
State, 2011 OK CR 12, ¶ 82, 252 P.3d 221,
252 (quoting Strickland, 466 U.S. at 690-91,
104 S.Ct. at 2066). Trial counsel’s decision
not to present this or that piece of mitigation evidence may be sound trial strategy.
Coddington, 2011 OK CR 21, ¶ 19, 259 P.3d

App.115a
at 839. Petitioner’s lead counsel at the competency and re-sentencing trials was not
only highly experienced in capital criminal
defense; she was also quite familiar with the
long and complicated history of Petitioner’s
case. Our assessment of the omitted materials
does not show them to be of a character substantially different from the evidence that
trial counsel ultimately chose to use. [FN5]
We find no reasonable probability that raising
this claim on direct appeal would have
changed the outcome thereof. Therefore,
appellate counsel was not ineffective for failing to include it.
FN5. The evidence in question consists
of (1) the proposed testimony of a counselor/investigator who interacted with
Petitioner several times over the years,
and (2) a video interview where Petitioner describes his feelings about a
fellow inmate at Oklahoma State Penitentiary (which had been prepared for
the fellow inmate’s clemency hearing).
The counselor’s involvement with Petitioner, and her opinions about his mental
functioning, were similar to the opinions of many other witnesses who testified at both the competency trial and
the re-sentencing trial. However, this
potential witness characterizes her interactions with Petitioner as “limited” in
nature. Petitioner claims that the video
interview would have corroborated witness accounts of his limited intellectual

App.116a
functioning and humanized him to the
jury. Without substituting our judgment
for that of the fact-finder, we believe
the interview’s persuasive force on that
point is debatable.

Smith, No. PCD-2010-660, slip op. at 4, 9-10.
In his attempt to demonstrate unreasonableness, Petitioner’s first contention is that the OCCA
completely mischaracterized his claims. Petitioner
challenges the OCCA’s focus on strategy, claiming
that he did not allege a strategic error, but an error
“of preparedness and the failure to properly investigate and prepare on the part of both trial and appellate counsel.” He points to his post-conviction application wherein he argued about the “‘lack of investigation and preparation.’” Pet. at 89-90. However, in
assessing whether counsel was deficient, strategy is a
Strickland consideration. Strickland requires a defendant to “overcome the presumption that, under the
circumstances, the challenged action ‘might be considered sound trial strategy.’” Strickland, 466 U.S. at
689 (citation omitted). Although Petitioner may have
framed his claims in terms of a failure to investigate,
the uncontested facts show otherwise. Petitioner’s
trial counsel knew about this evidence–about Ms.
Wright and about the video. Before Petitioner was interviewed, trial counsel gave the Federal Public Defender’s Office permission to interview him, and after the
interview, the assistant federal public defender who
conducted the interview contacted trial counsel about
it. Thereafter, Ms. Wright spoke with trial counsel on
two separate occasions, once when she dropped off
the video at trial counsel’s office and later in a telephone conversation. Wright Affidavit at 2-3. Trial

App.117a
counsel was not only aware of the evidence, but she
even endorsed Ms. Wright as a witness for both the
competency proceeding and the resentencing. In her
court filing, trial counsel gave the following summary
about Ms. Wright’s testimony:
Anna Wright, Investigator, Federal Public
Defender, Oklahoma City. Ms. Wright, until
very recently, was the psychiatric social
worker at the Oklahoma County Jail. She
became familiar with [Petitioner] when he
was remanded for court in approximately
2003. At the time [Petitioner] came he had
coloring books and pencils. Wright remembers being instructed to allow [Petitioner] to
continue to keep them. Wright made sure
[Petitioner] was safe and had his medications. As she quickly recognized that he was
slow, she also wanted to make sure no one
took advantage of him. Wright did not have
great amounts of time to spend with [Petitioner], as inmates who are well behaved tend
to get the least attention. [Petitioner] was
very compliant, and very childlike in answers
to questions she posed. [Petitioner] appears
to Wright to be consistent with having an
IQ of 55. Recently Anna Wright and a Federal Defender made a visit to [Petitioner] to
interview him about a former cellie at DOC,
Michael Delozier. The visit was a surprise
to [Petitioner]. Interactions with him were
filmed and saved onto a DVD. [Petitioner]
did not understand the trial and appellate
process; did not understand the concept of
execution; did not understand in legal terms

App.118a
the help he was being asked to provide. In
the end, Wright and the Federal Defender
simply asked [Petitioner] what he would
like to say about his former cellie. Wright
will authenticate this DVD for the jury.
Should it become an issue, Anna Wright is
aware that [Petitioner] had trouble with an
inmate who has profound mental illness.
The inmate accused [Petitioner] of sexually
assaulting him, but based on the traumatized
behavior of [Petitioner], as well as the other
inmate’s history of abusing other inmates,
staff at the jail were comfortable that [Petitioner] was not at fault. In fact this inmate
is currently at the Oklahoma County Jail, on
isolation, for having abused yet another
inmate.
(O.R. XI, 2074-75). Trial counsel also listed the DVD
as an exhibit, stating it “will be provided to State
once objectionable parts regarding death row are
omitted” (id. at 2076). Under these circumstances,
Petitioner’s assertion that the OCCA’s opinion is
flawed because it failed to recognize the nature of his
claims is undoubtedly without merit.
Next, Petitioner claims that the OCCA made no

Strickland deficient performance determination. He
therefore seeks de novo review of this Strickland

prong. Pet. at 90-91. The Court does not agree. The
OCCA’s discussion of strategy was an assessment of
trial counsel’s performance under Strickland ’s first
prong. AEDPA double deference is therefore due. See
Jackson v. Warrior, 805 F.3d 940, 954 (10th Cir.
2015) (“Given that the standards of review under
both Strickland and AEDPA are highly deferential,

App.119a
habeas review of ineffective assistance claims is
doubly so.”) (internal quotation marks and citation
omitted), cert. denied, 137 S. Ct. 311 (2016).
Asserting that “[t]he deficient performance prong
is easily met,” Petitioner argues that trial counsel
simply dropped the ball in failing to present Ms.
Wright as a witness and introduce the video into evidence. His argument is that the video is of such great
evidentiary value, there is no question that trial
counsel was deficient for not presenting it. Pet. at 91.
But trial counsel not only knew the evidence existed,
but also what Ms. Wright could testify to and what
the video would show. Since trial counsel was fully
informed about the evidence, the OCCA’s determination that trial counsel’s decision not to present it fell
within counsel’s wide range of deference is not unreasonable. Petitioner has not overcome Strickland’s strong
presumption that counsel’s actions amounted to a
strategic decision.20
Although concluding that the OCCA reasonably
denied relief on the deficient prong is enough to defeat
Petitioner’s Strickland claims, the Court additionally
concludes that the OCCA’s prejudice determination
survives AEDPA deference as well. The OCCA found
that given the evidence which trial counsel did present, the omitted evidence was not outcome-determinative. Petitioner does not specifically challenge or
even reference the case trial counsel did present at
20 Petitioner has provided an affidavit from his trial counsel
dated April 21, 2015. Although Pinholster, 563 U.S. at 181,
prohibits its consideration here, it is, in any event, no help to
Petitioner’s cause. In the affidavit, trial counsel simply states
that she does not remember why she did not present this evidence.
Pet’r’s Attach. 17 at 2.

App.120a
both his competency proceeding and resentencing,
but only argues that the evidentiary quality of the
video would have made a difference. The OCCA
found that this argument was debatable, and the
Court cannot disagree, especially in light of AEDPA
deference. See Frost, 749 F.3d at 1225 (“Under the
test, if all fairminded jurists would agree the state
court decision was incorrect, then it was unreasonable
and the habeas corpus writ should be granted. If,
however, some fairminded jurists could possibly agree
with the state court decision, then it was not unreasonable and the writ should be denied.”); Stouffer v.
Trammell, 738 F.3d 1205, 1221 (10th Cir. 2013) (“We
may reverse only if all fairminded jurists would agree
that the state court got it wrong.”) (internal quotation marks omitted).
For the reasons set forth above, the Court concludes that Petitioner has failed to demonstrate his
entitlement to relief on his fourth ground. Relief is
therefore denied.
E.

Grounds Five and Six: Cruel and Unusual
Punishment

Petitioner’s Grounds Five and Six are unexhausted
claims which are easily disposed of on the merits.
See 28 U.S.C. § 2254(b)(2) (“An application for a writ
of habeas corpus may be denied on the merits, notwithstanding the failure of the applicant to exhaust
the remedies available in the courts of the State.”).
In Ground Five, Petitioner asserts that because he is
mentally ill, his execution would constitute cruel and
unusual punishment under the Eighth Amendment,
and in Ground Six, he argues that his rights under
the Eighth and Fourteenth Amendments would be

App.121a
violated if the State of Oklahoma is allowed to execute him for crimes he committed in 1993.
With respect to his Ground Five, Petitioner contends that mentally ill offenders should be categorically
excluded from execution like mentally retarded offenders (Atkins) and juvenile offenders (Roper v. Simmons,
543 U.S. 551, 578 (2005)).
Given all of his alleged mental impairments
(brain damage, mental retardation, and mental illness),
Petitioner asserts that he is even more deserving of
exclusion than the offenders in Atkins and Roper.
Pet. at 98 (labeling his circumstance as “Super Atkins”
or “Atkins PLUS”).
Because neither Atkins nor Roper addresses the
mentally ill offender, what Petitioner asks this Court
to do is to extend their holdings and make new law
which would prohibit the State from executing him.
That is not the function of a habeas court. This Court
has authority to entertain habeas applications from a
state court prisoner “only on the ground that he is in
custody in violation of the Constitution or laws or
treaties of the United States.” 28 U.S.C. § 2254(a).
The current state of the law is that it is cruel and
unusual punishment to execute mentally retarded
offenders and juvenile offenders. Petitioner is neither,
and because the Supreme Court has not found mental
illness to be a categorical exclusion, this Court has no
authority to grant the relief he seeks.21 See Lockett v.
21 Although mental illness is not a categorical exclusion, “[t]he
Eighth Amendment prohibits a State from carrying out a sentence
of death upon a prisoner who is insane.” Ford v. Wainwright,
477 U.S. 399, 410 (1986). If a question of sanity exists at the
time Petitioner’s execution becomes imminent, Petitioner has
an avenue for relief under Ford. See Herrera v. Collins, 506

App.122a

Workman, No. CIV-03-734-F, 2011 WL 10843368, at

*36-38 (W.D. Okla. Jan. 19, 2011) (denying the same
claim due to lack of Supreme Court authority) (unpublished); Thacker v. Workman, No. 06-CV-0028-CVEFHM, 2010 WL 3466707, at *23-24 (N.D. Okla. Sept.
2, 2010) (same) (unpublished).
In Ground Six, Petitioner asserts that because
there has been an excessive delay between his crimes
and the carrying out of his execution, “Oklahoma has
forfeited its right to kill [him].” In support, Petitioner
cites only a memorandum of Justice Stevens respecting
the denial of certiorari in Lackey v. Texas, 514 U.S.
1045 (1995). Pet. at 99. This is clearly an insufficient
demonstration of his entitlement to relief. See Mitchell
v. Duckworth, No. CIV-11-429-F, 2016 WL 4033263,
at *6-7 (W.D. Okla. July 27, 2016) (rejecting the same
claim); Rojem v. Trammell, No. CIV-10-172-M, 2014 WL
4925512, at *3-5 (W.D. Okla. Sept. 30, 2014) (same).
For the foregoing reasons, Petitioner’s Grounds
Five and Six are hereby denied.
F.

Ground Seven: Cumulative Error

In his final ground, Petitioner urges relief upon
a theory of cumulative error; however, where there is
no error, there can be no cumulative error. Thacker
v. Workman, 678 F.3d 820, 849 (10th Cir. 2012).
Because the Court has found no errors in the grounds
for relief raised by Petitioner, Ground Seven presents
no avenue for relief and is hereby denied.

U.S. 390, 406 (1993) (“the issue of sanity is properly considered
in proximity to the execution”).

App.123a
III. Motions for Discovery and Evidentiary Hearing
Petitioner has filed a motion for discovery as
well as a motion for an evidentiary hearing. Docs. 20
and 38. For the following reasons, the Court finds
that both should be denied.
In order to conduct discovery, Rule 6(a) of the
Rules Governing Section 2254 Cases in the United
States District Courts requires petitioner to show good
cause. In Bracy v. Gramley, 520 U.S. 899, 908-09
(1997), the Supreme Court acknowledged that “good
cause” requires a pleading of specific allegations
showing a petitioner’s entitlement to relief if the facts
are fully developed.
In support of his request to conduct discovery,
Petitioner argues that because there have been some
instances in which Oklahoma County prosecutors
have failed to comply with their obligations under
Brady v. Maryland, 373 U.S. 83 (1963), and Napue v.
Illinois, 360 U.S. 264 (1959), he “is concerned prosecutors may not have disclosed important evidence in
[his] case as well.” Doc. 20 at 3-4. Accordingly, Petitioner requests permission from the Court to explore
the State’s files to see what he can uncover.
Overall, Petitioner’s discovery motion lacks the
specificity required by Bracy. While a few of his
requests are more detailed than others, he fails to
show how any of the information he seeks would
entitle him to relief if fully developed. This is reason
enough to deny his motion. But in addition, the Court
notes that his first two requests for production (for
all of the State’s files and records and all of the law
enforcement files and records related to his case),
Doc. 20 at 6, are so broad and generic that they are

App.124a
best characterized as fishing expeditions which the
Court will not permit. Teti v. Bender, 507 F.3d 50, 60
(1st Cir. 2007) (“A habeas proceeding is not a fishing
expedition.”); Hill v. Johnson, 210 F.3d 481, 487 (5th
Cir. 2000) (noting that Rule 6 is not meant for fishing
expeditions and that “factual allegations must be specific, as opposed to merely speculative or conclusory”).
Petitioner’s third request for production is akin to a
fishing expedition, but is also vague and supported
only by Petitioner’s contention that he needs the information to try to explain “strange” things in his case.
Doc. 20 at 5-6. This is clearly insufficient to warrant
a grant of discovery.
Petitioner’s fourth request for production (along
with a related interrogatory) concerns State’s witness
Ruth Badillo, Assistant District Attorney Fern Smith,
and the status of a life insurance policy on Petitioner’s
wife (State’s Ex. 6). With reference to a 2001 evidentiary
hearing conducted by the Court in Petitioner’s prior
habeas case, Petitioner questions whether Ms. Smith
knew that he believed the policy had lapsed thereby
negating a motive for his wife’s murder.22 Doc. 20 at
4-5. Although Petitioner asserts that “[m]ore information is needed” on this issue, id. at 5, a review of
Petitioner’s prior habeas case reveals that this matter
was explored therein. Included with Petitioner’s prior
petition was an affidavit from Ms. Badillo dated
November 5, 1998. Appendix at 45-48, Smith, No. CIV98-601-R, Doc. No. 36 (Jan. 6, 1999). While acknowledging that the information contained in the affidavit
22 Although Petitioner also asserts that Ms. Badillo has “brain
and memory problems [that] were left undiscovered but need
exploration,” Petitioner offers no further explanation as to why
this is relevant. Doc. 20 at 5.

App.125a
was concealed by the prosecution, prior habeas counsel
claimed that the evidence was nevertheless discoverable
by trial counsel. Petition at 50, Smith, No. CIV-98601-R, Doc. No. 35 (Jan. 6, 1999). Both Ms. Badillo
and Ms. Smith testified at the evidentiary hearing,
and following the hearing, the Court concluded that
trial counsel was not ineffective with respect to this
evidence. Memorandum Opinion at 13-14, Smith, No.
CIV-98-601-R, Doc. No. 168 (Jan. 10, 2002). Petitioner
has not shown good cause for why this matter should
be revisited.
Petitioner’s final discovery request (fifth request
for production and two related interrogatories) concerns
Dr. John Call. Related to his Ground One, Petitioner
seeks any and all information the State has on Dr.
Call, including his “use and disuse” of the Blackwell
Memory Test and whether he provided any legal
services to the State in his case (beyond his expert
services). Doc. 20 at 4, 6-7. Although the OCCA has
previously questioned Dr. Call’s use of the Blackwell
Memory Test, and although Dr. Call did administer
this test to Petitioner as a part of his evaluation,
Pet’r’s Attachs. 8 and 9, no evidence about the test
was admitted in Petitioner’s mental retardation trial.
See Smith, No. O-2006-683, slip op. at 15-16 (“Both
sides agree that no evidence was presented to the
jury concerning Dr. Call’s Blackwell Memory Test.”).
Petitioner’s Ground One is a challenge to the jury’s
verdict, but because the jury did not hear any evidence
related to the Blackwell Memory Test, Petitioner has
not shown good cause to warrant further exploration
of the issue. And as for the services Dr. Call provided
the State, Petitioner has made absolutely no argument

App.126a
as to how such information would support a claim for
relief and therefore discovery is denied on this basis.
Petitioner’s request for an evidentiary hearing is
likewise denied. Petitioner requests that he be given
an evidentiary hearing on his Grounds One, Three,
Four, and Five. However, Petitioner’s Grounds One,
Three, and Four have all been denied by the Court
on the merits because Petitioner has failed to show
that the OCCA rendered unreasonable determinations
of law or fact under Section 2254(d). In adjudicating
these claims, the Court has noted that in accordance
with Pinholster, 563 U.S. at 163, its review is limited
to the record that was before the OCCA at the time it
rendered its decision. Having failed to satisfy Section
2254(d), Petitioner is not entitled to an evidentiary
hearing on these claims. Jones v. Warrior, 805 F.3d
1213, 1222 (10th Cir. 2015). As for Ground Five, the
Court has addressed the merits of this claim de novo
and denied relief due to the absence of Supreme Court
authority. Because Petitioner’s Ground Five is easily
disposed of on the record, an evidentiary hearing is
unwarranted on this ground as well. See Anderson v.
Attorney General of Kansas, 425 F.3d 853, 859 (10th
Cir. 2005).
IV. Conclusion
Having rejected all of Petitioner’s grounds for
relief, his petition for writ of habeas corpus is DENIED,
along with his requests for discovery and an evidentiary
hearing. Docs. 18, 20 and 38. Judgment will enter
accordingly.
IT IS SO ORDERED this 13th day of July, 2017.

App.127a
/s/ David L. Russell
United States District Judge

App.128a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE TENTH CIRCUIT DENYING
A PETITION FOR REHEARING
(DECEMBER 2, 2019)
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
________________________
RODERICK L. SMITH,

Petitioner-Appellant,
v.
TOMMY SHARP,
Interim Warden, Oklahoma State Penitentiary,

Respondent-Appellee.

________________________
No. 17-6184

Before: LUCERO, MATHESON, and
PHILLIPS, Circuit Judges.
Appellee’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted
to all of the judges of the court who are in regular
active service. As no member of the panel and no
judge in regular active service on the court requested
that the court be polled, that petition is also denied.

App.129a
Entered for the Court
/s/ Elisabeth A. Shumaker
Clerk

App.130a
ACCELERATED DOCKET ORDER
OF THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
(JANUARY 29, 2007)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
RODERICK L. SMITH,

Appellant,
v.
THE STATE OF OKLAHOMA,

Appellee.

________________________
Not for Publication
No. 0-2006-683

Before: Gary L. LUMPKIN, Presiding Judge,
Charles A. JOHNSON, Vice Presiding Judge,
Charles S. CHAPEL, Judge, Arlene JOHNSON,
Judge, David B. Lewis, Judge.
ACCELERATED DOCKET ORDER
Roderick Smith was convicted by jury and sentenced to death for the 1993 murders of his wife and
four step-children. Following the denial of both his
direct appeal and his original application for post-

App.131a
conviction relief,1 Smith filed a successor application
for post-conviction relief, claiming he cannot be executed
because he is mentally retarded.2 This Court granted
the successor application in part and remanded the
matter for a jury trial on the issue of whether Smith
is mentally retarded.3 The district court conducted a
six-day jury trial in March 2004 and the jury found
that Smith was not mentally retarded. Smith appealed
the jury’s verdict to this Court. While that appeal
was pending here, the Tenth Circuit Court of Appeals
granted Smith a writ of habeas corpus and vacated
his death sentence because of ineffective assistance
of counsel during his capital sentencing proceeding.
Smith v. Mullin, 379 F.3d 919 (10th Cir. 2004). Smith’s
capital post-conviction counsel moved to dismiss the
appeal from Smith’s mental retardation trial, which
was part of his capital post-conviction case, for lack of
jurisdiction because Smith was no longer under a
death sentence. This Court dismissed that appeal
without prejudice and without ruling on the merits of
his claims related to his jury trial on mental retardation.4
Smith’s case is now pending before the district
court for a new capital sentencing proceeding. There,
he moved to quash the Bill of Particulars, alleging
that he is mentally retarded and thus ineligible for
1 Smith v. State, 1996 OK CR 50, 932 P.2d 521 (direct appeal);
Smith v. State, 1998 OK CR 20, 955 P.2d 734 (post-conviction).
2 Atkins v. Virginia, 536 U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d
335 (2002) (holding it is unconstitutional to execute mentally
retarded persons).
3 Smith v. State, Case No. PCD-2002-973 (Okl. Cr. August 5, 2003).
4 Smith v. State, Case No. PCD-2002-973 (Okl. Cr. Nov. 10, 2004).

App.132a
the death penalty under Atkins v. Virginia, 536 U.S.
304, 122 S.Ct. 2242, 153 L.Ed.2d 335 (2002). The district court reluctantly granted Smith’s request for a
second jury trial on the issue of mental retardation
and the State appealed. On May 26, 2006, this Court
issued an Order assuming original jurisdiction and
granting a writ of prohibition. We found that rather
than being entitled to a second jury trial on an issue
already decided by a jury, that Smith should be allowed
to pursue an appeal out-of-time of the verdict from
his earlier jury trial finding him not mentally retarded
to determine if that verdict should stand. State ex
rel. Lane v. Bass, Case No. PR-2006-509. Smith sought
and was granted this appeal out-of-time and his case
was assigned to the Accelerated Docket of this Court
pursuant to the procedure outlined in Blonner v.
State, 2006 OK CR 1, 127 P.3d 1135.5 The Court
heard oral argument on Smith’s claims of error on
January 18, 2007, and took the matter under advisement. We now affirm the jury’s verdict finding that
Smith is not mentally retarded.
Smith argues in his first proposition that the
district court erred in allowing Detective Maddox to
testify, over objection, that the concealing of evidence
and altering of the crime scene were thoughtful,
deliberate actions undertaken by Smith to avoid
detection and which show that Smith is capable of
logical reasoning. He maintains this testimony was

5 The State filed a motion to reconsider this Court’s earlier
decision accepting Smith’s petition in error as timely based on
the unique and complex procedural circumstances of this case.
We have reviewed the motion to reconsider and find that it
should be DENIED.

App.133a
beyond Detective Maddox’s personal knowledge and
is nothing but speculation.
A trial court’s decision to admit evidence will not
be disturbed on appeal absent a showing of abuse of
discretion accompanied by prejudice. Howell v. State,
2006 OK CR 28, ¶ 33, 138 P.3d 549, 561. Detective
Maddox testified that he was the lead investigator in
the crime for which Smith was convicted. He explained
that evidence at the crime scene was hidden in closets
and in the attic and that a bed had been “remade” in
such a way as to conceal evidence hidden underneath
it. He further explained that police determined that
the carpet at the scene had been cleaned based on
tracks in the carpet consistent with a carpet cleaning
machine and tests confirming that evidence on the
carpet had been removed through a cleaning process.
The prosecutor asked Detective Maddox what the
condition of the crime scene indicated to him about
the mental ability of the perpetrator and Maddox
testified that the placement of the evidence indicated
the perpetrator thoughtfully hid evidence to avoid
detection.
The district court did not err in allowing this
testimony. Jurors were told that Smith had been
found guilty of a crime, but neither the crime itself
nor the sentence imposed was revealed. Throughout
the trial, no reference was made to the death penalty,
capital punishment, or death row.6 No facts of the
murders Smith committed were introduced and the
district court confined the evidence to the narrow
issue of mental retardation. Smith’s ability to recognize
6 The district court granted a mistrial in an earlier trial on this
issue when mention was made of the death penalty.

App.134a
the wrongfulness of his criminal acts and to conceal
evidence of his crimes is relevant to the issue of
whether he is capable of logical reasoning and whether
he is mentally retarded. The evidence regarding the
crime scene was presented without prejudicial details of
the crime itself to comport with our prior decisions
concerning admission of evidence related to the crime
and admission of this evidence was not unfairly prejudicial. See e.g., Lambert v. State, 2003 OK CR 11,
¶ 3, 71 P.3d 30, 31. Maddox’s opinion that Smith
deliberately hid evidence to avoid being caught was
rationally based on his perceptions of the crime scene
and his dealings with Smith and were helpful to the
jury’s determination of whether Smith is mentally
retarded. Such lay opinion testimony is admissible
under 12 O.S.2001, § 2701.7 This claim is denied.
Smith claims in his second proposition that the
trial court erred in instructing the jury, over his objection, that mental retardation must be “present and
known” before age eighteen. This is the standard
uniform instruction adopted in Murphy v. State,
2002 OK CR 32, 54 P.3d 556, 570 Appendix A. He
7 Title 12 O.S.Supp.2002, § 2701 provides:
If the witness is not testifying as an expert, the
witness’s testimony in the form of opinions or inferences is limited to those opinions or inferences which
are:
1.

Rationally based on the perception of the witness;

2.

Helpful to a clear understanding of his testimony or
the determination of a fact in issue; and

3.

Not based on scientific, technical or other specialized
knowledge within the scope of Section 2702 of this
title.

App.135a
contends that the phrase “present and known” is more
restrictive than the Murphy definition, as well as
other definitions, of mental retardation. He maintains
that, while the Murphy language requires only that
someone observed his mental disability as a child, the
instruction requires him to prove that his subaverage
intellectual condition was recognized and diagnosed
as mental retardation. This same claim was rejected
in Howell, 2006 OK CR 28, ¶ 19, 138 P.3d at 558 and
Myers v. State, 2005 OK CR 22, ¶ 14, 130 P.3d 262,
269. Smith has provided no new authority to convince us that our prior decisions on this issue are
wrong. This claim is denied.
Smith argues in his third proposition that the
trial court erred in refusing his request to submit
non-unanimous verdict forms to the jury. This Court
has rejected this claim repeatedly. Howell, 2006 OK
CR 28, ¶ 19, 138 P.3d at 558; Hooks v. State, 2005
OK CR 23, ¶ 12, 126 P.3d 636, 642; Myers, 2005 OK
CR 22, ¶ 16, 130 P.3d at 269. Smith offers nothing
new to persuade us to revisit the issue here. This
claim is denied.
Smith complains in his fourth proposition that
the jury’s verdict is contrary to the clear weight of
the evidence and that the State failed to rebut
evidence of his deficits. When a defendant challenges
the sufficiency of the evidence following a jury verdict
finding him not mentally retarded, this Court reviews
the evidence in the light most favorable to the State
to determine if any rational trier of fact could have
reached the same conclusion. Myers, 2005 OK CR 22,
¶ 7, 130 P.3d at 267. Applying this standard of review
to the present case, we find the record supports the
jury’s verdict that Smith is not mentally retarded.

App.136a
It is the defendant’s burden to prove mental
retardation by a preponderance of the evidence. Myers,
2005 OK CR 22, ¶ 6, 130 P.3d at 265-66. “He must
show: 1) that he functions at a significantly sub-average
intellectual level that substantially limits his ability
to understand and process information, to communicate, to learn from experience or mistakes, to engage
in logical reasoning, to control impulses, and to
understand the reactions of others; 2) that his mental
retardation manifested itself before the age of 18;
and 3) that he has significant limitations in adaptive
functioning in at least two of the nine listed skill
areas.”8 Id.
Evidence of Smith’s intellectual functioning was
controverted at trial by the experts.9 Smith’s primary
expert, Dr. Clifford Hopewell, tested him in January
2003 and scored his full scale I.Q. at 55. Dr. Hopewell
concluded that Smith is mildly mentally retarded
and that he has adaptive functioning deficits in at
least five areas. Dr. Frederick Smith, another psychologist who evaluated Smith in prison in 1997, testified
that his testing showed that Smith’s full scale I.Q.
was 65, some ten points higher than Dr. Hopewell’s
score. Dr. Smith was left with the impression during
his evaluation that Smith was actually brighter than
what his I.Q. test score showed. He wrote in a memo
shortly after the evaluation that he suspected that
8 The adaptive functioning skill areas are: communication; selfcare; social/interpersonal skills; home living; self-direction; academics; health and safety; use of community resources; and work.
9 Intelligence quotients are one of the many factors that may be
considered, but are not alone determinative. Myers, 2005 OK
CR 22, ¶ 8, 130 P.3d at 268.

App.137a
Smith’s score was somewhat low in terms of accuracy.
Dr. Smith also administered the Raven’s Standard
Progressive Matrices that showed Smith’s I.Q. was in
the range of 69 to 78. He testified that he now believes
Smith’s I.Q. is closer to 70.
The State presented the testimony of forensic
psychologist Dr. John Call to refute Smith’s expert
evidence of subaverage intellectual functioning. Dr.
Call gave Smith the Wechsler Adult Intelligence ScaleIII (WAIS-III) I.Q. test and reviewed Dr. Hopewell’s
data and score on this same test, as well as several
other tests. He found that Smith failed two tests
designed to detect malingering given by Dr. Hopewell.10 According to Dr. Call, Smith’s performance on
these two tests provides significant doubt about his
efforts on the WAIS-III I.Q. test and the validity of
Dr. Hopewell’s overall testing. Dr. Call also gave
Smith one of the malingering tests (Test of Memory
and Malingering) during his evaluation and found
that Smith failed again. Dr. Call concluded that
Smith’s score suggested a lack of effort on his part
calling into doubt the reliability and validity of the
I.Q. score that both he and Dr. Hopewell obtained.11
Dr. Call noted a previous I.Q. test given by Dr.
Murphy in 1994 in which Smith scored a full scale
I.Q. of 73. Dr. Call believed lack of effort on Smith’s
part was one possible explanation to account for the
discrepancy in the subsequent scores. In Dr. Call’s
opinion, the data showed that Smith did not put
10 The tests were the 15-Item Test and the Test of Memory and
Malingering commonly referred to as the TOMM test.
11 Dr. Call’s I.Q. testing of Smith also showed a full scale I.Q.
score of 55.

App.138a
forth his best efforts during his and Dr. Hopewell’s
testing and that Smith’s I.Q. test results were unreliable and suspect.
Though evidence of Smith’s I.Q. was disputed,
the State presented persuasive evidence from lay
witnesses to refute Smith’s evidence of subaverage
intellectual functioning and of adaptive functioning
deficits. Emma Watts, Smith’s former case manager,
now unit manager in prison, testified that she had
daily contact with Smith for two years while acting
as his case manager. Watts described Smith as quiet
and respectful for the most part; he appeared to be like
the other inmates in her unit. He was able to communicate with her and she found that he understood how
to use manipulative behavior to get a more desirable
cell or cellmate.
Ruby Badillo, a provider of financial services,
testified that she met with Smith and his wife twelve
years ago about purchasing life insurance. She recalled
that Smith was kind and attentive to his wife. She
identified their application and Smith’s signature.
She said that Smith neither indicated that he had
any physical or mental challenges nor did she
suspect that he had any based on their conversation.
She described Smith as “perfectly normal” and “very
sociable.” Smith appeared so personable and capable
that Badillo tried to recruit him to work for her
company selling insurance policies and presenting
other financial services to would-be customers.
Mark Woodward, the facilities manager for a
company providing custodial services to local schools,
testified that Smith was the head custodian at Washington Irving Elementary School. Woodward described
Smith as the “go-to” person if something needed to be

App.139a
done at the school. Smith was responsible for supervising a staff of four to five people working shifts from
7 a.m. until 11 p.m. and insuring that their time
cards were filled out. Smith had to delegate custodial
duties and, if someone was absent from work, reassign
that person’s duties. Woodward identified Smith’s job
application and signature; he also identified various
forms that Smith had signed or filled out for his
employment. He noted that Smith checked on his job
application form that he could read, write and speak
the English language. Woodward testified that he
effectively communicated with Smith in person and
through the use of a digital pager. He recalled an occasion when he had to reprimand Smith for not wearing
his uniform and thereafter Smith followed the rules
and wore his uniform. According to Woodward, Smith
effectively operated the school’s multi-zone alarm
system and cleaning equipment. Woodward described
Smith as a typical head janitor.
Fern Smith, one of the assistant district attorneys
who prosecuted Smith’s murder case, testified that
Smith filed and presented several motions on his
own behalf. She said that Smith was articulate and
made “good” arguments to the court in support of his
motions. She did not notice anything unusual or out
of the ordinary about Smith’s demeanor during trial
or his many court appearances. She recalled him
taking notes and conferring with counsel during trial.
Ms. Smith, who was once a special education teacher
of mentally retarded students, stated there was nothing
in her contacts with Smith that led her to believe
that Smith was mentally retarded.
Laura Dich testified that she met Smith in April
1993 at a flea market and they began dating shortly

App.140a
thereafter. Smith did not give her his home phone
number, instead he had her use his digital pager
number to contact him. Smith lied to Dich and told
her that he lived with a cousin instead of with his
wife and step-children and Dich claimed that she was
none the wiser.12 Dich testified that by the end of
May 1993, her relationship with Smith was progressing
and Smith told her that he wanted to marry and
have children with her. Dich, who was only 19 years
old and still living with her parents, testified that
Smith took her to a motel on several occasions and
that it was Smith who rented and paid for the motel
room.
The evidence presented at trial supports a finding
that Smith failed to meet even the first prong of the
Murphy definition of mental retardation. The evidence,
viewed in the light most favorable to the State, portrayed Smith as a person who is able to understand
and process information, to communicate, to understand the reactions of others, to learn from experience
or mistakes, and to engage in logical reasoning. He
held down a job with supervisory functions, carried
on an affair, argued motions on his own behalf and
manipulated those around him. The jury’s verdict
finding that Smith is not mentally retarded is justified.
Smith argues in his fifth proposition that the trial
court erred in allowing evidence that he suffers from
seizures and has been diagnosed with dissociative
identity disorder, multiple personality disorder and
schizophrenia. He contends that this evidence, admitted
12 Once when Dich paged Smith, an upset woman returned the
page causing Dich concern, but Smith convinced her for the
most part that he had no other girlfriends.

App.141a
through Dr. Hopewell, Dr. Smith and Norman Cleary,
Appellant Smith’s cellmate, was irrelevant to the
issue of mental retardation and was unfairly prejudicial. We disagree.
The prosecutor on cross-examination questioned
Dr. Hopewell about the sources he used to form his
opinion that Smith is mentally retarded. He explained
that he did not conduct personal interviews with
Smith’s family because it was not necessary to his
task. The prosecutor asked what Dr. Hopewell’s original task was in Smith’s case in 1997 arid he said
that, at that time, he was asked to examine Smith
for brain damage and dysfunction. Dr. Hopewell continued in his response, without objection, that Smith
had been given a variety of diagnoses and that with
each diagnosis there was concern about malingering.
He recounted Smith’s various diagnoses, including
dissociative identity disorder, schizophrenia, malingering and mental retardation. The prosecutor further
questioned Dr. Hopewell about the materials he
reviewed as part of his 1997 evaluation. Ultimately,
defense counsel objected and the trial court admonished
the prosecutor to “tie” her questions to the issue of
mental retardation. The prosecutor then asked about
brain damage as it related to mental retardation and
whether Dr. Hopewell used portions of his 1997 evaluation to formulate his opinion that Smith is mildly
mentally retarded.
The record shows that it was not the State who
first questioned Dr. Smith about his involvement in
Smith’s case and his I.Q. testing in 1997, but defense
counsel. Dr. Smith testified that he and two other
doctors were investigating whether Smith had brain
damage. Defense counsel asked Dr. Smith if mental

App.142a
retardation was also one of the issues being investigated
at that time. He said that they were not looking so
much for mental retardation as for other issues,
namely multiple personality disorder, and if Smith
was malingering. On cross-examination, the prosecutor
confirmed that Dr. Smith was investigating a claim
of multiple personality disorder, a disorder in which
Dr. Smith does not believe. Dr. Smith felt that Smith
was being influenced by someone to mold his behavior
to be consistent with a diagnosis of multiple personality disorder.
The trial court did not commit error, plain or
otherwise, in allowing the challenged testimony of
Dr. Hopewell and Dr. Smith and finding that defense
counsel opened the door to much of the testimony.
Both doctors provided background information of their
involvement in Smith’s case. Neither was retained
initially to determine if Smith was mentally retarded,
but both used information obtained during earlier
evaluations for brain damage to form opinions about
whether Smith is mentally retarded and a malingerer.
Both doctors explained the circumstances of their
earlier evaluations regarding their investigation of
brain damage and other mental illnesses vis a vis their
opinions that Smith is mildly mentally retarded.
Such evidence was relevant and did not unfairly prejudice Smith. In addition, whether Dr. Smith believed
that Smith had feigned symptoms of some type of
multiple personality disorder or other dissociative
identity disorder is relevant to give the jury a full
understanding of Smith’s functioning.
Nor did the trial court err in admitting the
challenged testimony of Norman Cleary, Smith’s cellmate, and finding that the defense opened the door to

App.143a
much of his testimony as well. Cleary described Smith’s
daily routine of coloring and watching television. He
explained how he tried, without success, to teach
Smith to read. He went into detail about how he had
to assist Smith with filling out requests for medical
attention, using the prison canteen and writing letters
to family and friends because Smith was incapable
and slow. He also testified that Smith had seizures
after which Smith would be violent. On cross-examination, Cleary further described these seizure episodes
and said that he documented the various incidents
for one of Smith’s attorneys. Questioning Cleary
about Smith’s seizures and violent episodes that he
alone witnessed was proper to test the credibility and
perceptions of this witness, and was relevant to the
issue of whether Smith is malingering. The trial court
did not abuse its discretion in admitting this evidence.
This claim is denied.
Smith contends in his sixth proposition that his
Sixth Amendment right to confrontation was abridged
when the trial court limited his cross-examination of
Dr. Call, who is also a licensed attorney, on an issue
of bias, specifically if he co-wrote the State’s response
brief defending the Blackwell Memory Test, a nonstandardized test designed by Dr. Call, himself, to
detect malingering. During cross-examination, defense
counsel asked Dr. Call to identify the State’s response
brief and the State objected. At the bench, defense
counsel told the court that she believed that Dr. Call
prepared most of the brief and that she wanted to expose his bias and show that Dr. Call was not only
acting as a witness in this matter, but also as an
advocate against Smith. The prosecutor denied that
Dr. Call wrote the brief and told the court that the

App.144a
witness had only provided information about the test
to be used in writing the brief. The trial court held
that, without any evidence to contradict the prosecutor,
there was no good faith basis for the question;
defense counsel offered no further evidence to support
the question.
While the Sixth Amendment guarantees a defendant the right to cross-examine witnesses, it also allows
a trial judge to place reasonable limits on crossexamination. Delaware v. Van Arsdall, 475 U.S. 673,
678-79, 106 S.Ct. 1431, 1435, 89 L.Ed.2d 674 (1986);
Thrasher v. State, 2006 OK CR 15, ¶ 7, 134 P.3d 846,
849. “Not all limitations on the cross-examination of
a prosecution witness run afoul of the right of confrontation.” Thrasher, 2006 OK CR 15, ¶ 7, 134 P.3d
at 849. That is why trial judges have wide latitude to
impose reasonable limits on such cross-examination
based on concerns about “harassment, prejudice, confusion of the issues, the witness’ safety, or interrogation that is repetitive or only marginally relevant.”
Van Arsdall, 475 U.S. at 679, 106 S.Ct. at 1435;
Thrasher, 2006 OK CR 15, ¶ 7, 134 P.3d at 849.
As we stated in Thrasher.
In determining whether the Sixth Amendment has been violated, we look to see
whether there was sufficient information presented to the jury to allow it to evaluate the
witness and whether the excluded evidence
was relevant. “[W]e ‘distinguish between the
core values of the confrontation right and
more peripheral concerns which remain
within the ambit of the trial judge’s discretion.’” “Limiting the right to cross examine for

App.145a
impeachment purposes involves a peripheral
concern.”
2006 OK CR 15, ¶ 9, 134 P.3d at 849 (citations omitted).
Our review of the record convinces us that we
are dealing with “peripheral concerns,” and we can
see no abuse of discretion here. Both sides agree that
no evidence was presented to the jury concerning Dr.
Call’s Blackwell Memory Test. The record shows that
Smith’s counsel had nothing more than a hunch that
Dr. Call co-wrote the brief and no evidence to support
the inquiry. Such evidence would have been confusing
to the jury and had the potential to open up issues
regarding the test not relevant here. The trial court
did not err in limiting Smith’s cross-examination of
Dr. Call under these circumstances.
Smith argues in his seventh proposition that the
trial court erred in excusing a prospective juror for
cause. We addressed a similar challenge in Hooks v.
State, 2005 OK CR 23, ¶ 20, 126 P.3d 636, 645. The
juror challenged here, like the one in Hooks, had
professional experience with mental retardation. There,
we noted that the Murphy definition of mental retardation for capital punishment purposes is substantially
similar to the accepted clinical definitions of mental
retardation, but that it differs slightly in requiring
proof of significant limitations in adaptive functioning
in nine, rather than ten, areas. The prospective juror
here was asked if the legal and clinical definitions
differed, whether she could follow the law and apply
the definition given by the trial court. She replied
that she could not, and was excused for cause over
Smith’s objection.

App.146a
The decision to excuse a juror for cause rests
within the trial court’s sound discretion. Id. “A juror
must agree to follow the law; any other response
would prevent or substantially impair performance
of her duties in accordance with her instructions and
oath.” Id. Even though the differences between the
state and clinical definitions are so small that there
is little likelihood of conflict, that is not the issue
here. In order to be qualified as a juror, the prospective
juror had to agree to follow the law, whatever it was.
She could not do this. The trial court did not abuse
its discretion in excusing her for cause. This claim is
denied.
Smith argues in his eighth proposition that he
was denied a fair trial on the issue of mental retardation because of prosecutorial misconduct. Allegations
of prosecutorial misconduct do not warrant reversal
unless the cumulative effect of error found deprived
the defendant of a fair trial. Warner v. State, 2006
OK CR 40, ¶ 197, 144 P.3d 838, 891.
Smith challenges one of the prosecutor’s statements during jury selection relating to the burden of
proof, two statements in opening statement about the
experts review of the evidence and three statements
made during closing argument. The defense’s objection to the prosecutor’s question during jury selection
about the burden of proof was sustained before any
juror answered; the trial court advised the prosecutor
to rephrase. We find the trial court’s ruling cured any
error in light of the instructions and other discussion
about the burden of proof. McElmurry v. State, 2002
OK CR 40, ¶ 126, 60 P.3d 4, 30 (sustaining an objection generally cures any error.). The trial court also
sustained the defense’s objection to the first challenged

App.147a
remark during opening statement because it was
argumentative and the prosecutor followed the court’s
ruling and outlined the evidence. The second objection, for the same reason (argumentative), was properly
overruled because the prosecutor was merely outlining the evidence. Howell, 2006 OK CR 28, ¶ 7, 138
P.3d at 556 (The purpose of opening statement is to
tell the jury of the evidence the attorneys expect to
present during trial and its scope is determined at
the discretion of the trial court.). Likewise, any error
in the prosecutor’s statement during closing argument brought to the court’s attention was cured
when the trial court sustained Smith’s objection.
McElmurry, 2002 OK CR 40, ¶ 126, 60 P.3d at 30.
The other two statements challenged in closing
argument were not met with objection and a review
of the remarks shows they were fair comments on
the evidence. This claim is denied.
Smith contends in his ninth proposition that he
was denied a fair trial because of ineffective assistance
of counsel. He contends that trial counsel failed to
investigate and fully present evidence demonstrating
that he, in his status as a custodial supervisor, was
working at his full potential as a person with mental
retardation.
This Court reviews claims of ineffective assistance
of counsel under the two-part Strickland test that
requires an appellant to show: [1] that counsel’s performance was constitutionally deficient; and [2] that
counsel’s performance prejudiced the defense, depriving
the appellant of a fair trial with a reliable result.
Strickland v. Washington, 466 U.S. 668, 687, 104 S.
Ct. 2052, 2064, 80 L.Ed.2d 674 (1984); Davis v. State,
2005 OK CR 21, ¶ 7, 123 P.3d 243, 246. Under this

App.148a
test, Smith must affirmatively prove prejudice resulting
from his attorney’s actions. Strickland, 466 U.S. at
693, 104 S.Ct. at 2067; Head v. State, 2006 OK CR
44, ¶ 23, 146 P.3d 1141, 1148. “To accomplish this, it
is not enough to show the failure had some conceivable
effect on the outcome of the proceeding.” Head, 2006
OK CR 44, ¶ 23, 146 P.3d at 1148. Rather, Smith
must show that there is a reasonable probability that,
but for counsel’s unprofessional error, the result of the
proceeding would have been different. Id. “A reasonable
probability is a probability sufficient to undermine
confidence in the outcome.” Id.
On appeal, Smith contends that trial counsel
should have secured an expert in the field of training
mentally retarded individuals to show that the skills
he performed as head custodian were not inconsistent
with someone who is mentally retarded. Smith has
appended to his brief, among other things, an affidavit
from Theresa Flannery who is the Administrator for
the Dale Rogers Training Center’s Vocational Programs, a vocational training program for mentally
retarded individuals in Oklahoma City. She attests
that individuals with an I.Q. in the range of 55 can
be trained to be custodians, to set security alarms, to
use pagers and to learn repetitive cleaning tasks.
We cannot consider Smith’s extra record material
to evaluate the merits of his ineffective assistance of
counsel claim under these circumstances.13 Convincing
13 Smith has not requested an evidentiary hearing on his
ineffective assistance of counsel claim under Rule 3.11, Rules of
the Oklahoma Court of Criminal Appeals, Title 22, Ch. 18, App.
(2007). This Court does not consider ex parte affidavits and
extra-record material for purposes of assessing the merits of an
ineffective assistance of counsel claim. Rather, we will consider

App.149a
evidence was presented that Smith did not suffer from
sub-average intellectual functioning that prevented
him from being productive and able to function adequately. Those witnesses with first-hand knowledge of
his skills portrayed Smith as capable and normal. This
claim is denied.
Smith contends in his tenth proposition that his
trial attorneys were ineffective for failing to present
an expert to confirm that I.Q. testing by experts, Dr.
Hopewell, Dr. Smith and Dr. Call, was consistent with
a score clearly in the mentally retarded range. He
also argues his attorneys should have had an expert
perform the ABAS II test to confirm deficits in his
adaptive functioning.
Smith submits an affidavit from Dr. Terese Hall
in support of this claim again without requesting an
evidentiary hearing. We cannot consider this affidavit
for purposes of evaluating the merits of this claim.
Thus, we must find that Smith has failed to meet his
burden and cannot prevail. This claim is denied.
Smith asks this Court to review the aggregate
impact of the errors identified in his case in his final
proposition. He argues the cumulative effect of the
errors committed during his trial on mental retardation
necessitates relief. Where there is no error, there can
be no accumulation of error. Myers v. State, 2006 OK
such material to determine if an evidentiary hearing is warranted.
Dewberry v. State, 1998 OK CR 10, 9, 954 P.2d 774, 776. Assuming
Smith attached this information for purposes of requesting an
evidentiary hearing on his ineffective assistance of counsel
claim, the information is insufficient to show by clear and
convincing evidence that there is a strong possibility that counsel
was ineffective for failing to utilize the complained-of evidence.
Rule 3.11(B)(3)((b)(i).

App.150a
CR 12, ¶ 103, 133 P.3d 312, 336. We have reviewed
the record along with Smith’s claims for relief and
have found no error. This claim is denied.
IT IS THEREFORE THE ORDER OF THIS
COURT that the Judgment finding that Smith is not
mentally retarded is AFFIRMED. Smith’s capital
sentencing proceeding may now proceed in the District
Court of Oklahoma County. Pursuant to Rule 3.15,
Rules of the Oklahoma Court of Criminal Appeals,
Title 22, Ch.18, App. (2007), the MANDATE is
ORDERED issued upon the delivery and filing of this
decision.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 29th day of January, 2007.
/s/ Gary L. Lumpkin
Presiding Judge
/s/ Charles A. Johnson
Vice Presiding Judge
/s/ Charles S. Chapel
Judge
/s/ Arlene Johnson
Judge
/s/ David B. Lewis
Judge
Attest:
/s/ Michael S. Richie
Clerk

App.151a
CONCURING OPINION OF
PRESIDING JUDGE LUMPKIN
I continue to believe this Court’s decision in
Blonner v. State, 2006 OK CR 1, 127 P.3d 1135, was
errant as I wrote in my separate vote in that case. However, I accede to its procedure based on stare decisis.
I also believe the breadth of Appellant’s I.Q.
Tests, i.e. 55 to 78, in and of itself shows he was not
mentally retarded. As I have previously written, truly
mentally retarded individuals do not record that
amount of variance. Combined with the evidence of
adaptive functioning, the jury verdict is fully supported
by the evidence in this case.
I concur in the judgment of the Court.

App.152a
DISSENTING OPINION OF JUSTICE CHAPEL
I dissent. I am deeply troubled by this case. The
State cannot execute a person who is mentally
retarded.1 Smith was among those defendants who
had a jury determination of mental retardation after
he had been convicted of a capital crime. This Court
has gone to great lengths to fashion a process which
focuses the jury’s attention on the issue of mental
retardation and protects the rights of the defendant
and the State in capital mental retardation cases.2
After reviewing Smith’s case, it appears that Smith’s
jury trial on the mental retardation issue was carefully conducted in accordance with the procedures developed by this Court. As the majority notes, the jury
heard nothing regarding the facts of this case or even
the specific crimes Smith committed. There was no
mention of the death penalty, capital punishment, or
death row. However, notwithstanding these facts, I
cannot concur in the majority opinion upholding the
jury’s verdict.
To prove mental retardation, a defendant must
have an IQ score of 70 or below, and show (1) functioning at a significantly sub-average intellectual level in
specific ways; (2) with significant limitations in adaptive
functioning in at least two of nine skill areas; (3) and
that this mental retardation manifested itself before
he was eighteen years old.3 However, a defendant must
1 Atkins v. Virginia, 536 U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d
335 (2002); Murphy v. State, 2002 OK CR 32, 54 P.3d 556, 566.
2 Blonner v. State, 2006 OK CR 1, 127 P.3d 1135, 1139-43.
3 Myers v. State, 2005 OK CR 22, 130 P.3d 262, 265-66.

App.153a
show these only by a preponderance of the evidence,
and on review we also apply the preponderance standard.4 Smith had IQ tests of 55, 55, 65 and 73, with one
test in the range of 69 to 78. While some witnesses
suggested he may not have been performing at his
best effort during the testing resulting in the lowest
scores, no witness testified that Smith would have
had a significantly higher result, or that he was not
mentally retarded. The expert consensus appears to
be that Smith’s IQ is close to 70. Smith presented
evidence that he was in educably mentally handicapped classes in school, and that those classes were
used for mentally retarded children. Two former
teachers testified that he was in their EMH classes,
that he was appropriately placed, and that they
believed him to be retarded. Smith presented evidence
that he was functionally illiterate, though he could
copy letters and possibly read at a second or third
grade level. He received assistance with reading and
writing. He was slow developmentally from birth and
lived with either his wife or mother until he was
imprisoned. While Smith could carry on simple conversations and conduct basic business transactions,
there was no evidence that he used abstract thought
or was capable of abstract conversation.
The State did present evidence contrary to Smith’s
claims. The State presented several witnesses who
had brief, though regular, contact with Smith without noticing any mental handicap. However, all the
witnesses with experience of mental retardation agreed
that one cannot tell if a person is mildly mentally
retarded by looking at them, or in casual conversation.
4 Blonner, 127 P.2d at 1140; Myers, 130 P.2d 265.

App.154a
Smith was a head custodian, and experts did not
believe that he could have assumed that responsibility
if he were mildly mentally retarded. However, there
was evidence that Smith had help in performing those
duties. While Smith used his janitorial skills to aid
him in cleaning the crime scene and hiding evidence,
the experts did not state that a mildly mentally
retarded person cannot engage in any form of shortterm planning. There was also evidence that Smith
could, and did, lie and manipulate people to get what
he wanted. Again, experts agreed that a mentally
retarded person can do those things. Smith presented evidence of other deficits corresponding to the
definition of mental retardation in capital cases.
Smith presented significant evidence of mental
retardation, including persons who had taught him
as mentally retarded and test scores which put him
in the mentally retarded range. The State certainly
presented testimony which cast doubt on some of
Smith’s evidence. I have the greatest respect for our
jury system. However, on reviewing the entire case, I
cannot conclude that Smith is not, more likely than
not, mentally retarded. The constitutional issue in this
case, whether we may execute Smith for his crimes,
is of the utmost importance. Given the extremely low
burden of proof, I am compelled to give Smith the
benefit of any doubt I may have. I cannot concur in a
decision which finds that Smith is not mentally
retarded.

App.155a
ORDER OF THE COURT OF CRIMINAL APPEALS
OF OKLAHOMA GRANTING REHEARING
(JANUARY 13, 1997)
932 P.2d 521
COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
RODERICK L. SMITH,

Appellant,
v.
STATE OF OKLAHOMA,

Appellee.

________________________
No. F-94-1199

An Appeal from the District Court of Oklahoma
County; The Honorable Richard W. Freeman,
District Judge
Attorneys and Law Firms
Kenneth C. Watson, Vernon Smythe, Oklahoma
City, for Appellant at trial. Lee Ann Jones Peters,
Oklahoma Indigent Defense System, Norman, for
Appellant on appeal.
Robert H. Macy, Fern L. Smith, Oklahoma County
Courthouse, Oklahoma City, for the State at trial.
W.A. Drew Edmondson, Attorney General, Robert L.
Whittaker, Assistant Attorney General, Oklahoma
City, for Appellee on appeal.

App.156a
Before: Charles A. JOHNSON, Presiding Judge,
Charles S. CHAPEL, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, James F. LANE, Judge,
Reta M. STRUBHAR, Judge.
STRUBHAR, Judge:
Appellant, Roderick L. Smith, was charged with
five counts of First Degree Murder in violation of 21
O.S.1991, § 701.7, in the District Court of Oklahoma
County, Case No. CF-93-3968. The case was tried
before the Honorable Richard W. Freeman. The State
filed a Bill of Particulars alleging five aggravating
circumstances. The jury found Appellant guilty of the
crimes charged and found all five alleged aggravating
circumstances to exist.1 Appellant was sentenced to
death on all counts. From this Judgment and Sentence
Appellant has perfected his appeal.

1 The jury found the following aggravating circumstances to exist:
1) The defendant was previously convicted of a felony involving
the use or threat of violence to the person;
2) The defendant knowingly created a great risk of death to more
than one person;
3) The murders were especially heinous, atrocious or cruel;
4) The murders were committed for the purpose of avoiding or
preventing a lawful arrest or prosecution (except as to Jennifer
Smith); and
5) The existence of a probability that the defendant would commit
criminal acts of violence that would constitute a continuing
threat to society.

App.157a
FACTS
Appellant was married to Jennifer Smith, who
had four children from a prior relationship: ten year
old Shemeka Carter, nine year old Glen Carter, Jr.,
seven year old Ladarian Carter, and six year old
Kanesha Carter. The children lived with Appellant
and Jennifer.
On the morning of June 28, 1993, Jennifer’s
mother called the police and asked them to check her
daughter’s house. She had not seen or heard from
Jennifer since June 18, 1993. When Officer Peterson
arrived at the residence where Jennifer and Appellant
lived, the house appeared to be secured and no one
answered the doors. Because he noticed an odor of
decaying flesh and a large number of flies around the
windows, he contacted his supervisor, Lieutenant
Wayne Owen, who came to the address. Owen and
Peterson entered the house through a window. Inside,
they discovered a dead woman in one closet and a
dead child in another. They called the homicide division
of the Oklahoma City Police Department and secured
the house. Once homicide detectives arrived, the rest
of the house was searched. The bodies of three more
children were found, two in closets and the third
under a bed. The bodies were determined to be those
of Jennifer Smith and her four children. They were
determined to have been dead for at least two to
three days and up to as long as two weeks or more.
The afternoon of that same day, June 28, 1993,
Appellant walked into the Oklahoma County Sheriff’s
Office. He was turned over to the Oklahoma City
Police and placed under arrest. During a custodial
interrogation, Appellant told Detectives Bemo and

App.158a
Cook that he had been laid off his job as head janitor
at Washington Irving Elementary School because the
company that he worked for had lost its contract.
According to Appellant, when he told his wife this
news a fight ensued. At one point Jennifer grabbed a
knife and he took the knife from her and stuck her
with it. When the boys came to their mother’s defense,
he stuck them with the knife as well. Although
Appellant admitted that he “got” the girls also, he
could not remember any details. Appellant told the
police where he placed each of the bodies.
PRETRIAL ISSUES
Appellant first contends that the procedures
utilized in Oklahoma to determine a person’s competency to stand trial are less protective than those
accepted as sufficient by the United States Supreme
Court and therefore do not meet federal constitutional
standards of due process. As Appellant points out, it
is well settled that the Due Process Clause prohibits
the criminal prosecution of a defendant who is not
competent to stand trial. See Drope v. Missouri, 420
U.S. 162, 95 S.Ct. 896, 43 L.Ed.2d 103 (1975); Pate v.
Robinson, 383 U.S. 375, 86 S.Ct. 836, 15 L.Ed.2d 815
(1966). In making such determination, the Supreme
Court has held that “it is not enough for the district
judge to find that ‘the defendant [is] oriented to time
and place and [has] some recollection of events,’. . . . ”
Dusky v. United States, 362 U.S. 402, 80 S.Ct. 788,
789, 4 L.Ed.2d 824, 825 (1960). Rather, it is incumbent
upon the trial court to determine “whether [the
defendant] has sufficient present ability to consult
with his lawyer with a reasonable degree of rational
understanding—and whether he has a rational as well

App.159a
as factual understanding of the proceedings against
him.” Id.
These same principles are reflected in Oklahoma’s
law. Title 22 O.S.1991, § 1175.1 defines competency
as “the present ability of a person arrested for or
charged with a crime to understand the nature of the
charges and proceedings brought against him, and
to . . . effectively and rationally assist in his defense.”
This language has been interpreted to proffer a two-part
test requiring first that an accused have sufficient
ability to consult with his or her attorney and second,
that an accused have a “rational and actual understanding of the proceedings against him.” Middaugh
v. State, 767 P.2d 432, 434 (Okl.Cr.1988). This Court
has found little or no difference between the effective
meaning of Oklahoma’s law and the language used
by the Supreme Court in Dusky. “In both cases, the
accused is required to understand the charges against
him, the implications of the charges against him and
be able to effectively assist his attorney in defense of
the charges against him.” Lambert v. State, 888 P.2d
494, 498 (Okl.Cr.1994). See also Perry v. State, 893
P.2d 521, 526-27 (Okl.Cr.1995). Appellant has not
persuaded us otherwise.
As part of his first proposition, Appellant contends
that 22 O.S.1991, § 1175.4 is unconstitutional insofar
as it presumes every defendant competent and requires
the person whose competency is at issue to prove
incompetence by clear and convincing evidence at the
post-examination competency hearing. The United
States Supreme Court recently addressed this issue
in Cooper v. Oklahoma, 517 U.S. 348, 116 S.Ct. 1373,
134 L.Ed.2d 498 (1996), wherein it held that the clear
and convincing burden of proof does violate due process.

App.160a
“Oklahoma’s practice of requiring the defendant to
prove incompetence by clear and convincing evidence
imposes a significant risk of an erroneous determination
that the defendant is incompetent.” Id. 517 U.S. at –
–––, 116 S.Ct. at 1381.
On July 20, 1993, when defense counsel argued
his motion for a competency examination, he advised
the trial court that during their first few meetings,
Appellant had not seemed to understand his questions
about what had happened and had not known how to
respond. Based upon this, defense counsel stated that
he had serious questions about Appellant’s ability to aid
in his defense. The trial court granted the request for a
competency examination. Subsequently, on September
3, 1993, at the post-examination competency hearing,
neither the defense nor the State called any witnesses
to testify. Rather, both parties stipulated to the
admission of a letter from Dr. King, the expert who
had performed Appellant’s psychiatric evaluation.
Dr. King concluded in the letter that, “Mr. Smith is
able to communicate rationally with his attorney and
to deal adequately with his defense.”2 Defense counsel
stated that while he did not necessarily agree with
Dr. King’s findings, he was not prepared to contest
any of her findings because no funds were available
for him to secure a second opinion from another expert.
Significantly, defense counsel did not advise the trial
court that he was still having problems communicating
with Appellant.
Based upon the evidence presented at the postexamination competency hearing, the trial court found
Appellant competent to stand trial. After making
2 Original Record at 31.

App.161a
this ruling, the trial court indicated that if evidence
came to light demonstrating that Appellant was
incompetent to stand trial such would be considered
at that time. There is no indication from the record
that such evidence was ever presented. Indeed, there
is evidence to the contrary. Prior to the commencement
of voir dire on October 18, 1994, Appellant, himself,
argued two motions to the trial court. Appellant first
stated that he was concerned about facial expressions
the prosecutors would make to the jury. Second,
Appellant had previously filed a motion to have his
attorney removed from the case because he felt that
defense counsel was not doing his job. At the motion
hearing Appellant stated that he had subsequently
changed his mind. Again, on October 20, 1994, Appellant argued another motion to the trial court regarding
racial disparity of the jury. He was concerned because
eleven of the twelve jurors were white. While these
motions were not argued with the skill of a trial
attorney, they were communicated clearly enough for
the trial court to understand Appellant’s concerns.
Further, although these motions were without merit,
they were not so preposterous as to have been
inappropriately raised. These instances show that
Appellant not only understood the proceedings against
him, but he also was a very active participant in his
own defense.
Appellant argues that the record reflects he did
not display a rational and factual understanding of
the proceedings because he could not distinguish
reality from fantasy. This is based upon the notation
of Dr. King, that Appellant was “largely concerned with
having his mother visit him and with ‘getting the

App.162a
truth’ so he can get out of jail.”3 That Appellant could
have thought it possible that he would be able to go
home after having confessed to the crime is said to
demonstrate his inability to intellectually understand
the proceedings and separate fact from fiction. This
argument would seem more plausible if Appellant
had not tried to back away from his original confession. However, instead of adhering to his original
confession, Appellant started telling alternative stories
about what had happened, ranging from him being
poisoned to organized accounts of other persons having
committed the acts. Appellant’s statement to Dr. King
can be found to have been based upon a very rational
understanding of the proceedings and his hope that
his later explanations would be believed over his
original confession.
Despite Appellant’s assertion to the contrary, we
find the record supports a finding that he knew the
nature of the proceedings and possessed a rational
understanding of them. The defense failed to prove,
even by a preponderance of the evidence, that Appellant
was incompetent to stand trial. Because the evidence
in this case so strongly supports the finding that
Appellant was competent, we need not remand this
case for a new determination on this issue.
Appellant complains in his second proposition
that it was error for the trial court to dismiss for
cause prospective juror Mario Tello. Initially, when
asked about whether he could give equal consideration
to each of the three possible punishments for First
Degree Murder, Tello replied that he could give
honest consideration to each of these choices. However,
3 Original Record at 35.

App.163a
because he displayed some hesitation in answering
the question, the trial court decided to question him
further in this respect. Although Tello maintained
throughout that he could give equal consideration to
all three choices, he also consistently stated that he
did not know if he could ever impose the death
penalty. Based upon this, Tello was dismissed for cause.
In Wainwright v. Witt, 469 U.S. 412, 424, 105
S.Ct. 844, 852, 83 L.Ed.2d 841, 851-52 (1985), the
United States Supreme Court reaffirmed the standard
for determining when a prospective juror may properly
be excluded for cause based upon his or her views on
capital punishment. “That standard is whether the
juror’s views would ‘prevent or substantially impair
the performance of his duties as a juror in accordance
with his instructions and his oath.’”4 The Court in
Wainwright went on to note that a juror’s bias need
not be proved with “unmistakable clarity.”
This is because determinations of juror bias
cannot be reduced to question-and-answer
sessions which obtain results in the manner
of a catechism. What common sense should
have realized experience has proved: many
veniremen simply cannot be asked enough
questions to reach the point where their
bias has been made ‘unmistakably clear’;
these veniremen may not know how they
will react when faced with imposing the death
sentence, or may be unable to articulate, or
may wish to hide their true feelings. Despite
this lack of clarity in the printed record,
4 This standard was first established in Adams v. Texas, 448
U.S. 38, 45, 100 S.Ct. 2521, 2526, 65 L.Ed.2d 581, 589 (1980).

App.164a
however, there will be situations where the
trial judge is left with the definite impression
that a prospective juror would be unable to
faithfully and impartially apply the
law. . . . [T]his [in part] is why deference must
be paid to the trial judge who sees and
hears the juror.

Id. 469 U.S. at 425-26, 105 S.Ct. at 852-53, 83
L.Ed.2d at 852-53.

Appellant argues that Tello’s responses were not
sufficient to warrant his removal for cause because
Tello had simply expressed that he might be affected
by the awesome responsibility of considering the
death penalty. Although Tello’s bias is not
“unmistakably clear,” the record reflects a greater
concern than this. After extensive questioning by the
trial court, prosecutor and defense counsel, the trial
court believed that although Tello had said he could
consider the death penalty he did not really mean it.5
Tello’s indication that he could not vote for the death
penalty regardless of the circumstances, supports a
finding that his views would prevent or substantially
impair the performance of his duties as a juror in
accordance with his instructions and his oath.
Accordingly, we find that the trial court’s dismissal
of prospective juror Tello for cause was not violative of
Appellant’s Sixth and Fourteenth Amendment rights.
Shortly after the bodies of the victims were discovered on June 28, 1993, Appellant walked into the
Oklahoma County Sheriff’s Department appearing to
be disoriented. After his identity was discovered, he
5 Trial Transcript, Vol. II, at 111-12. (Even defense counsel did
not object to this dismissal.)

App.165a
was taken to the Oklahoma City Police Department
where he was arrested and taken into an interrogation
room for questioning. This interrogation was videotaped
and Appellant’s confessions were admitted into evidence
at trial. Appellant contends in this third proposition
that the trial court erred in failing to suppress his
confessions because he confessed without first having
knowingly and intelligently waived his Miranda6
rights.
In Moran v. Burbine, 475 U.S. 412, 421, 106
S.Ct. 1135, 1141, 89 L.Ed.2d 410, 421 (1986), the
Supreme Court addressed effective waiver of Miranda
rights finding that:
First, the relinquishment of the right must
have been voluntary in the sense that it was
the product of a free and deliberate choice
rather than intimidation, coercion, or deception. Second, the waiver must have been made
with a full awareness both of the nature of the
right being abandoned and the consequences
of the decision to abandon it. Only if the
“totality of the circumstances surrounding
the interrogation” reveal both an uncoerced
choice and the requisite level of comprehension may a court properly conclude that the
Miranda rights have been waived.

See also Schneckloth v. Bustamonte, 412 U.S. 218,

93 S.Ct. 2041, 36 L.Ed.2d 854 (1973). Further, where
the admissibility of a statement or confession is
challenged, the burden is upon the State to show by
6 Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d
694 (1966).

App.166a
a preponderance of the evidence that it was voluntary.
Young v. State, 670 P.2d 591, 594 (Okl.Cr.1983).
Prior to the admission of Appellant’s confession a

Jackson v. Denno7 hearing was held on defense

counsel’s motion to suppress. Therein, it was
established that before he was questioned Appellant
was read the Miranda warnings. Appellant initially
appeared unresponsive and indicated that he did not
understand his rights. The detective went over the
rights again, explaining each right individually, and
again asked Appellant if he understood them. Appellant
stated that he believed he did. When the detectives
proceeded with questioning Appellant talked about
having been in an accident and claimed that he could
not remember some things. At one point Detective
Bemo told Appellant that he had spoken with Appellant’s mother and she had said that there was not
anything wrong with Appellant that morning. After
this comment, Appellant’s behavior changed. He no
longer appeared to be disoriented and he responded
well to the detective’s questions. It was after this
that Appellant confessed to having killed Jennifer
and the children.8 The following day, the detectives
met again with Appellant at his request. Again, the
detectives read him his Miranda rights prior to
questioning him. Appellant was hesitant but indicated
that he understood his rights. During this interview
Appellant again talked about the death of his wife
and her children.9
7 Jackson v. Denno, 378 U.S. 368, 84 S.Ct. 1774, 12 L.Ed.2d 908
(1964).
8 Appellant’s statements were all tape recorded.
9 A third interview was attempted on June 30, 1993, but on this

App.167a
The trial court, after hearing the testimony and
viewing the video tapes, found that Appellant appeared
to have understood the Miranda warnings. The trial
court found it significant that Appellant acted more
alert and responded more normally after the detectives
told him that they had spoken with his mother who
told them that there was nothing wrong with him.
The trial court noted that while Appellant was not a
genius and appeared to have been under stress, he
seemed able to make a conscious, voluntary decision
to speak. The totality of the circumstances surrounding
the interrogation supports the trial court’s ruling
that Appellant’s decision to speak with the detectives
was uncoerced and made with the requisite understanding of his constitutional rights. Accordingly, this
proposition does not warrant relief.
FIRST STAGE ISSUES
Appellant argues in his fifth proposition that he
was denied a fair trial by the State’s improper introduction of other crimes evidence. Prior to trial the State
filed a notice apprising Appellant that it would offer
evidence that Appellant had a history of physically
abusing his wife and that he had engaged in an extramarital affair. Appellant claims that this evidence
did not tend to prove a motive, opportunity, intent,
preparation, plan, knowledge, identity or absence of
mistake or accident as is acceptable under Burks v.
State, 594 P.2d 771 (Okl.Cr.1979), rev’d on other
grounds, Jones v. State, 772 P.2d 922, 925
(Okl.Cr.1989). Rather, he contends that it served only
date Appellant, after he was read his Miranda rights, informed
authorities that he had an attorney and the interview was
appropriately terminated.

App.168a
to show that he was a philandering wife-beater.
Accordingly, Appellant urges this Court to find that
this evidence was inadmissible and should have been
excluded.
The weight of previous jurisprudence goes against
Appellant’s argument that the evidence of his prior
physical abuse against his wife was inadmissible.
This Court recently held in a capital case where the
defendant killed his wife that “[e]vidence of previous
altercations between spouses is relevant to the issue
of intent.” Hooker v. State, 887 P.2d 1351, 1359
(Okl.Cr.1994), cert. denied, 516 U.S. 858, 116 S.Ct.
164, 133 L.Ed.2d 106 (1995). In so finding, this Court
relied upon prior cases which hold that in a marital
homicide case evidence of ill feeling, threats or similar
conduct by one spouse toward another is probative to
show motive and/or intent. See Cheney v. State, 909
P.2d 74, 87 (Okl.Cr.1995); Duvall v. State, 825 P.2d
621, 626 (Okl.Cr.1991), cert. denied, 506 U.S. 878,
113 S.Ct. 224, 121 L.Ed.2d 161 (1992); Holt v. State,
774 P.2d 476, 478 (Okl.Cr.1989); Lamb v. State, 767
P.2d 887, 890 (Okl.Cr.1988); Brown v. State, 753
P.2d 908, 911 (Okl.Cr.1988). In keeping with this
established precedent, we find that the evidence of
Appellant’s prior physical abuse of Jennifer was
relevant to show motive and intent.
We disagree as well with the contention that the
evidence of Appellant’s extramarital affair should
have been suppressed. During the course of this
relationship, Appellant expressed to his girlfriend his
intent to marry and have children with her. This was
relevant to show Appellant’s motive and intent.
Although the State did introduce evidence of
crimes or bad acts other than those for which Appellant

App.169a
was being tried, this evidence fell within well recognized
exceptions to the rule prohibiting the introduction of
other crimes evidence. Further, we find that the
probative value of this relevant evidence outweighed
its prejudicial effect. Appellant’s argument concerning
other crimes evidence is without merit.
Appellant argues in proposition eight that the
evidence was insufficient to support his conviction
for First Degree Murder. The evidence introduced
against Appellant at trial was both direct and
circumstantial. Accordingly, the test to be applied in
determining the sufficiency of the evidence is whether,
when viewing the evidence in the light most favorable
to the State, any rational trier of fact could have
found the essential elements of the crime charged
beyond a reasonable doubt. Spuehler v. State, 709
P.2d 202 (Okl.Cr.1985); Paxton v. State, 867 P.2d
1309, 1315-16 (Okl.Cr.1993), cert. denied, 513 U.S.
886, 115 S.Ct. 227, 130 L.Ed.2d 153 (1994). It is
worthy of notation that the jury is the exclusive
judge of the weight and credibility of the evidence.
Robedeaux v. State, 866 P.2d 417, 429 (Okl.Cr.1993),
cert. denied, 513 U.S. 833, 115 S.Ct. 110, 130 L.Ed.2d
57 (1994). Further, despite conflicts in the evidence,
this Court will not disturb the jury’s verdict if there
is competent evidence to support it. Id.
Appellant acknowledges that the only element of
first degree murder which was contested was the element of malice aforethought. He claims that the
State’s evidence did not prove this element beyond a
reasonable doubt. The evidence that Appellant stabbed
his wife and the boys multiple times and then
squeezed the girls to death before placing their
bodies in various closets and under a bed is sufficient

App.170a
to support the jury’s conclusion that Appellant acted
with malice aforethought. Further the conclusion
that Appellant intended his victims to die finds
support in his confession wherein he acknowledged
that two of the victims were still alive when he
checked on them later but he declined to call for help
in an effort to save their lives. We find from these
facts and circumstances surrounding the killing that
the jury could have found beyond a reasonable doubt
that Appellant killed the victims with malice
aforethought.
ISSUES RELEVANT TO BOTH STAGES OF TRIAL
Appellant complains in his fourth proposition that
his constitutional rights to due process, a fair trial and
a fair and reliable sentencing hearing were violated
by the admission into evidence of highly prejudicial and
inflammatory color photographs. The six photographs
complained of on appeal depict the bodies of the
victims in advanced stages of decomposition. The
photographs reveal skin slippage and skeletonization
as well as maggot activity. The decomposition of the
bodies was so extensive that the victims could not be
identified by their appearance. Appellant argues that
because facts concerning the location and condition
of the bodies were not disputed at trial, the probative
value of the photographs was outweighed by their
prejudicial impact.
Decisions regarding the introduction of photographs are within the sound discretion of the trial
court and will not be disturbed absent an abuse of
discretion. Hooks v. State, 862 P.2d 1273, 1280
(Okl.Cr.1993), cert. denied, 511 U.S. 1100, 114 S.Ct.
1870, 128 L.Ed.2d 490 (1994). Photographs which are

App.171a
gruesome or inflammatory may be admissible where
their probative value is not substantially outweighed
by the danger of unfair prejudice. McCormick v. State,
845 P.2d 896, 898 (Okl.Cr.1993). It is well established
that “photographs of murder victims can be probative in
many respects. . . . They can show the nature, extent
and location of wounds, establish the corpus delicti,
corroborate testimony of medical examiners and expert witnesses and depict the crime scene.” Smallwood
v. State, 907 P.2d 217, 228 (Okl.Cr.1995). Further,
“Appellant’s willingness to concede that there is no
dispute over the identity of the victim or the injuries
sustained is not determinative of the photographs’
admissibility.” Id.
The photographs at issue in the present case are
gruesome. However, they also accurately depict the
crime scene and corroborate the testimony of the
medical examiner and Appellant’s confession. We
find that this probative value is not substantially
outweighed by the prejudicial impact. Accordingly,
we cannot find that the trial court abused its discretion
in admitting these photographs into evidence.
It is Appellant’s argument in his sixth assignment
of error that pervasive prosecutorial misconduct
deprived him of a fair trial and reliable sentencing.
Appellant cites to numerous instances during both
stages of trial in which he contends the prosecutors
exceeded the bounds of proper prosecutorial advocacy.
He claims that the prosecutors unfairly attacked
defense expert witnesses, appealed to the passions of
the jurors, improperly presented evidence that
Appellant had invoked his right to counsel, made
reference to facts not in evidence, misstated the law,
engaged in name calling, and voiced personal opinions.

App.172a
Most of the comments complained of were not objected
to at trial. Accordingly, as to these remarks, all but
plain error has been waived. Freeman v. State, 876
P.2d 283, 287 (Okl.Cr.), cert. denied, 513 U.S. 1022,
115 S.Ct. 590, 130 L.Ed.2d 503 (1994).
Our review of the record reveals that many of
the comments not met with timely objection fell
within the prosecutors’ wide range of permissible
argument. None were so egregious as to have risen to
the level of reversible error. The record also reflects
that of the few comments at issue which were objected
to, some of these objections were sustained. Where
the trial court admonished the jury to disregard the
improper statement the error was cured. See Romano
v. State, 909 P.2d 92, 116 (Okl.Cr.1995). Where no
admonishment was given or requested, review, again,
is limited to plain error. Id. In no instance where this
occurred did the comment rise to the level of plain
error. “Allegations of prosecutorial misconduct do not
warrant reversal of a conviction unless the cumulative
effect was such to deprive the defendant of a fair trial.”
Duckett v. State, 919 P.2d 7, 19 (Okl.Cr.1995). Because
we do not find that the inappropriate comments
deprived Appellant of a fair trial, affecting the jury’s
finding of guilt or assessment of the death penalty,
we decline to grant relief on this proposition.
FIRST STAGE JURY INSTRUCTIONS
In his seventh proposition Appellant argues the
trial court erred in failing to adequately instruct the
jury on lesser included offenses and defenses which
he claims were supported by the evidence. The record
reveals that defense counsel failed to request most of
the instructions he now claims were warranted. This

App.173a
Court has held that “where the evidence warrants a
lesser included offense instruction a defendant is
entitled to the same whether requested or not.” Boyd
v. State, 839 P.2d 1363, 1367 (Okl.Cr.1992), cert.
denied, 509 U.S. 908, 113 S.Ct. 3005, 125 L.Ed.2d
697 (1993). However, we have also held that “[j]ury
instructions on lesser included offenses or theories of
defense need only be given when there is evidence in
the record to support such instructions.” Powell v.
State, 906 P.2d 765, 778 (Okl.Cr.1995), cert. denied,
517 U.S. 1144, 116 S.Ct. 1438, 134 L.Ed.2d 560 (1996).
Appellant first calls this Court’s attention to the
instructions regarding heat of passion manslaughter
which were given by the trial court. He claims these
instructions were constitutionally deficient under the
Tenth Circuit’s holdings in United States v. Lofton,
776 F.2d 918 (10th Cir.1985) and Davis v. Maynard,
869 F.2d 1401 (10th Cir.1989), cert. granted and
judgment vacated on other grounds, Saffle v. Davis, 494
U.S. 1050, 110 S.Ct. 1516, 108 L.Ed.2d 756 (1990), on
remand, Davis v. Maynard, 911 F.2d 415 (10th
Cir.1990).
In the case at bar Appellant did not deny having
killed his wife and the children. Rather, his defense
to the charge of first degree murder with malice
aforethought was that he lacked the ability to form the
intent required for first degree murder. The defense
put on evidence that Appellant has low intelligence
bordering on mental retardation. In addition, an expert
witness for the defense testified that a near drowning
incident suffered by Appellant as a child caused
brain damage. There was testimony that this damage
diminished his ability to control emotions such as
irritation and rage. This, however, was not the evidence

App.174a
relied upon by the trial court for its decision to give
the manslaughter instruction. That evidence was put
on by the State in Appellant’s video taped confession.
During this confession, Appellant stated that when
he told his wife that he was being laid off from his
job, she thought that he was lying. She struck him so
hard that he saw black for a few seconds. He said
that “it went wild.” They got into a fist fight and it
got out of proportion. Before he knew it she grabbed
a knife. He took it from her and “things went crazy.”
It was at this point that he stabbed his wife.
Under 21 O.S.1991, § 711(2), homicide is First
Degree Manslaughter “[w]hen perpetrated without a
design to effect death, and in a heat of passion, but in
a cruel and unusual manner, or by means of a
dangerous weapon. . . . ” We find that under the facts
of this case, the heat of passion manslaughter
instructions simply were not warranted by the evidence
because the evidence regarding the brain dysfunction
which may have affected Appellant’s ability to control
his rage does not negate his intent to kill. Although
Appellant claims that he was unable to control his
rage, this does not preclude the conclusion that at the
time he killed his family he intended the logical results
of his actions. Accordingly, whether the instructions
on First Degree Manslaughter were sufficient under
Lofton and Davis is not of consequence to this case
because these instructions were not warranted by
the evidence. Any deficiency in these instructions is
harmless.
Appellant’s next argument concerns an instruction
on First Degree Manslaughter which was not requested
or given but which Appellant contends was required
by the evidence. As Appellant points out, “this Court

App.175a
held that 21 O.S.1981, § 711(2), sets forth two ways
in which the offense of first degree manslaughter
may be committed: 1) when perpetrated without a
design to effect death and in a heat of passion but in a
cruel and unusual manner or 2) when perpetrated
without a design to effect death by means of a
dangerous weapon.” Camron v. State, 829 P.2d 47,
51 (Okl.Cr.1992), citing, Moody v. State, 38 Okl.Cr.
23, 259 P. 159 (1927), and Smith v. State, 652 P.2d
303, 304 (Okl.Cr.1982) (overruled on other grounds).
It is argued that the evidence supported an instruction on the type of first degree manslaughter which
omits heat of passion as an element. This instruction,
again, is only warranted if there is evidence that
Appellant did not have a design to effect death. As
was discussed above, the nature of Appellant’s actions
omits a reasonable inference that he did not have the
intent to kill his victims. This instruction was not
warranted.
Next, Appellant argues that the defense of
unconsciousness or automatism was warranted by
the evidence and should have been given despite the
fact that such was not requested. Appellant directs
this Court’s attention to 21 O.S.1991, § 152(6) which
exempts from culpability “[p]ersons who committed
the act charged without being conscious thereof.”
This Court has addressed this defense in prior cases
holding that automatism “may be used in situations
where the otherwise criminal conduct of an individual
is the result of an involuntary act which is completely
beyond the individual’s knowledge and control.” Sellers
v. State, 809 P.2d 676, 686 (Okl.Cr.), cert. denied,
502 U.S. 912, 112 S.Ct. 310, 116 L.Ed.2d 252 (1991).
See also, Jones v. State, 648 P.2d 1251, 1258

App.176a
(Okl.Cr.1982), cert. denied, 459 U.S. 1155, 103 S.Ct.
799, 74 L.Ed.2d 1002 (1983). In Sellers, the defendant
had said that he could not remember killing his parents
and a psychologist testified that if the defendant had
killed his parents he did not realize what he was
doing. Sellers, 809 P.2d at 686. This Court held that
this evidence was not sufficient to warrant an instruction on automatism. Id. Similarly, in the present case,
the evidence of Appellant’s borderline mental retardation and brain damage was not sufficient to require
an instruction on the defense of automatism.
Appellant next contends that the evidence
warranted an instruction on second degree depraved
mind murder. An instruction on this crime is warranted
where the evidence supports a finding that the homicide
was “perpetrated by an act imminently dangerous to
another person and evincing a depraved mind,
regardless of human life, although without any premeditated design to effect the death of any particular
individual.”10 Appellant argues that the record in the
present case supports his contention because his brain
dysfunction could have caused him to act in a way
that evinced a depraved mind in extreme disregard
for human life but without the intention of killing
any person in particular. We find this argument
untenable. While the record may be found to support
a finding that Appellant evinced a depraved mind in
disregard for human life, it would take a quantum
leap to find that the victims of his rage were chosen
randomly. The trial court did not err in not giving an
instruction on second degree murder.

10 21 O.S.1991, § 701.8.

App.177a
Finally, Appellant argues that the trial court erred
by giving the Uniform Jury Instruction on causation.
This instruction informed the jury that:
No person may be convicted of Murder in
the First Degree unless his conduct caused
the death of the person allegedly killed. A
death is caused by conduct if the conduct is
a substantial factor in bringing about the
death and the conduct is dangerous and
threatens or destroys life.11
Appellant contends this instruction should not
have been given because there was no dispute regarding
the cause of the victims’ deaths. He argues that the
jury could have misunderstood this instruction to be
an alternative theory of first degree murder and
believed that he could be found guilty of murder even
absent a design to effect death. While it is true that
the facts of this case did not require this instruction
be given, we disagree with Appellant’s argument that
it may have misled the jury. The instructions, when
read as a whole, accurately state the applicable law
and preclude the possibility that the jury may have
believed it appropriate to convict Appellant of first
degree murder absent a finding of intent. This argument is without merit.
SECOND STAGE ISSUES
Appellant argues in his ninth assignment of
error that the trial court’s second stage instructions
inappropriately precluded the jury from giving due
consideration to the mitigating effect of evidence of his
brain dysfunction and borderline mental retardation.
11 Original Record at 450; OUJI–CR 426.

App.178a
In support of his argument Appellant cites Penry v.
Lynaugh, 492 U.S. 302, 109 S.Ct. 2934, 106 L.Ed.2d
256 (1989). In Penry, evidence was presented at trial
that the defendant had been diagnosed as having
organic brain damage and was mentally retarded.
However, under the Texas sentencing scheme the jury
was to answer three “special issues” which basically
asked if they found the existence of aggravating
circumstances. While the jury was instructed that it
could consider all evidence submitted in both phases
of trial in answering the special issue questions, they
were not instructed to weigh the aggravating circumstances with the mitigating evidence. Although defense
counsel argued that evidence of the defendant’s mental
condition was mitigating, the jury was not instructed
that it could consider such evidence as mitigating
and that it could take this mitigating evidence into
consideration in imposing the defendant’s sentence.
The Supreme Court acknowledged that evidence
of the defendant’s mental retardation and decreased
ability to control his impulses could have been found
by a rational juror to have made the defendant less
morally culpable than those persons who have no
such impediments. Id. 492 U.S. at 322-23, 109 S.Ct.
at 2949, 106 L.Ed.2d at 280-81. Further, it rejected
the State’s argument that the jury was able to
adequately consider all of the mitigating evidence
even without any jury instruction on mitigating
evidence. Id. 492 U.S. at 322, 109 S.Ct. at 2949, 106
L.Ed.2d at 280. The Supreme Court held that:
In this case, in the absence of instructions
informing the jury that it could consider
and give effect to the mitigating evidence of
[defendant’s] mental retardation and abused

App.179a
background by declining to impose the
death penalty, we conclude that the jury
was not provided with a vehicle for expressing
its ‘reasoned moral response’ to that evidence
in rendering its sentencing decision.

Id. 492 U.S. at 328, 109 S.Ct. at 2952, 106 L.Ed.2d at
284.

In the present case, the jury was not so restricted.
The jury was instructed that “[m]itigating circumstances are those which, in fairness and mercy, may
be considered as extenuating or reducing the degree
of moral culpability or blame. The determination of
what are mitigating circumstances is for you as jurors
to resolve under the facts and circumstances of this
case.”12 While the jury was not specifically instructed
that evidence of Appellant’s mental condition was
mitigating, it was instructed that it could determine
what it wanted to consider as mitigating evidence.
Defense counsel argued the mitigating value of the
evidence of Appellant’s brain dysfunction and decreased
mental ability to the jury in second stage and these
instructions adequately provided the jury a vehicle
for expressing its “reasoned moral response” to this
evidence. Accordingly, this proposition warrants no
relief.
The State alleged the existence of five aggravating
circumstances with regard to each count of murder:
1) that each murder was especially heinous, atrocious or
cruel; 2) that there existed a probability that Appellant
would constitute a continuing threat to society; 3)
that the murders were committed to avoid lawful arrest
12 Original Record at 478; OUJI–CR 438.

App.180a
or prosecution; 4) that Appellant created a great risk
of death to more than one person; and 5) that Appellant
was previously convicted of a felony involving the use
or threat of violence to a person. The jury found each
of these alleged aggravators to exist with regard to
the counts involving the children, and found all but the
third, murder committed to avoid lawful arrest, with
regard to the count involving Jennifer Smith. In his
tenth proposition Appellant challenges the propriety
and validity of these aggravating circumstances.
Appellant argues first that the evidence did not
support the jury’s finding that each murder was
especially heinous, atrocious or cruel because the
facts indicate that unconsciousness, if not death,
occurred quickly with each victim and there was no
design to cause great suffering. We have held that “the
heinous, atrocious or cruel aggravating circumstance
requires a showing that torture or serious physical
abuse preceded the victim’s murder.” Hooks, 862 P.2d
at 1282. See also, Stouffer v. State, 742 P.2d 562, 563
(Okl.Cr.1987), cert. denied, 484 U.S. 1036, 108 S.Ct.
763, 98 L.Ed.2d 779 (1988). It is necessary that the
State prove beyond a reasonable doubt that the victims
consciously suffered before death. “Absent evidence
of conscious physical suffering of the victim prior to
death, the required torture or serious physical abuse
standard is not met.” Perry v. State, 893 P.2d 521,
534 (Okl.Cr.1995), citing Battenfield v. State, 816
P.2d 555, 565 (Okl.Cr.1991), cert. denied, 503 U.S. 943,
112 S.Ct. 1491, 117 L.Ed.2d 632 (1992). Torture, for
purposes of this aggravator, can also include evidence
of extreme mental cruelty. Hawkins v. State, 891
P.2d 586, 597 (Okl.Cr.), cert. denied, 516 U.S. 977, 116
S.Ct. 480, 133 L.Ed.2d 408 (1995).

App.181a
The evidence of the circumstances surrounding
the deaths of the victims in this case came from
Appellant’s confession and testimony of the medical
examiner. Appellant’s statements to the police indicate
that Jennifer was fighting with him at the time he
stabbed her. The children were all in the house when
this occurred and the two boys actually witnessed it as
they attempted to protect their mother from Appellant.
When this happened, Appellant started stabbing the
two boys. When the two girls came down the hall
Appellant squeezed them until they became unconscious and then died.
The medical examiner testified that Jennifer
Smith was stabbed four times. Two of the stab wounds
damaged muscular tissues and did not enter body
cavities. The most severe stab wound severed an artery
in her neck. This wound would have resulted in extensive bleeding. There was no testimony as to which
stab wound was inflicted first or about how long she
was conscious. The medical examiner was unable to
determine with certainty the cause of death of the
two girls. He found no stab wounds on their bodies
and speculated that the cause of their deaths was
some form of asphyxial injury. The medical examiner
testified that he found that at least four stab wounds
had been inflicted on Ladarian Carter. One stab
wound was to the neck, one to the abdomen, and two
to the chest region. He testified that any of these
could have been fatal, but none would have killed the
victim immediately. Glen Carter, Jr., was found to
have been stabbed also. However, the decomposition
of his body made it more difficult for the medical examiner to determine the extent of the stab wounds.

App.182a
He was able to identify one stab wound to the chest
area and another possible stab wound to the abdomen.
This evidence does not indicate that death for any
of these victims was instantaneous. The evidence is
less clear as to how long each of the victims remained
conscious. Even so, the evidence does support a finding
that Jennifer Smith was conscious for at least part of
her struggle with Appellant. The boys suffered consciously as they, too, were fighting with Appellant
prior to their death as they tried to protect their
mother. Further, the evidence that they witnessed the
stabbing of their mother supports a finding of extreme mental cruelty. Although the circumstances
surrounding the death of the girls are not as clearly
established, the evidence is sufficient to sustain the
heinous, atrocious or cruel circumstance for these
two deaths because they would have been conscious
for at least part of the time that they were being
squeezed to death.
Appellant also argues that the narrowed interpretation of the heinous, atrocious or cruel aggravating
circumstance as is currently applied, is unconstitutionally vague. This Court has rejected this argument. See Williamson v. State, 812 P.2d 384, 407
(Okl.Cr.1991), cert. denied, 503 U.S. 973, 112 S.Ct.
1592, 118 L.Ed.2d 308 (1992). We do not choose to
hold differently now.
Appellant next argues that there was insufficient
evidence to support the finding that the murders of
the children were committed to avoid or prevent a
lawful arrest or prosecution. This Court has held
that, “[t]his aggravating circumstance, by definition,
requires that there be a predicate crime, separate
from the murder, for which the appellant seeks to

App.183a
avoid arrest or prosecution.” Barnett v. State, 853 P.2d
226, 233 (Okl.Cr.1993). Appellant’s intent to murder
in order to avoid arrest or prosecution for the commission of this separate crime must often be inferred
from circumstantial evidence. McGregor v. State, 885
P.2d 1366, 1385 (Okl.Cr.1994), cert. denied, 516 U.S.
827, 116 S.Ct. 95, 133 L.Ed.2d 50 (1995).
In the present case, the murder of Jennifer
Smith provides the predicate crime, separate from
the murders of the children, from which Appellant
can be found to have sought to avoid arrest. Appellant’s
confession provided evidence that the two boys saw
him kill his wife and that the girls were also present
in the house when he stabbed Jennifer. Evidence
that Appellant cleaned the house and lied to relatives
to cover for Jennifer’s failure to keep appointments
provides circumstantial evidence from which it can
be inferred that Appellant was concerned with avoiding
detection of these crimes. Because any of the children
could have identified him as the person who killed
their mother, it is reasonable to infer that he killed
them to prevent this from happening.
Appellant also argues that this aggravating
circumstance has been interpreted in such a way
that it is unconstitutionally vague and overbroad.
This Court has previously addressed this issue and
found it to be without merit. Braun v. State, 909 P.2d
783, 798 (Okl.Cr.1995), cert. denied, 517 U.S. 1144,
116 S.Ct. 1438, 134 L.Ed.2d 559 (1996). See also,
Castro v. State, 844 P.2d 159, 175 (Okl.Cr.1992), cert.
denied, 510 U.S. 844, 114 S.Ct. 135, 126 L.Ed.2d 98
(1993). Appellant has not persuaded us otherwise in
this case.

App.184a
Next, Appellant submits that the “great risk of
death” aggravating circumstance is unconstitutionally
vague and overbroad. He admits that this issue has
been previously addressed and rejected. See Braun,
909 P.2d at 798. See also, Cartwright v. Maynard, 802
F.2d 1203, 1221-22 (10th Cir.1986), Rev’d on other
grounds on reh’g, 822 F.2d 1477, aff’d, 486 U.S. 356, 108
S.Ct. 1853, 100 L.Ed.2d 372 (1988). However, Appellant
asks this Court to reconsider this issue. We decline
to do so at this time.
Appellant’s next argument attacks the propriety
of two aggravating circumstances, “prior violent felony
conviction” and “continuing threat to society.” He
contends that error occurred because the jury relied
upon the same evidence to find the existence of both
of these aggravators. This was evidence of a prior
conviction for assault and battery with a dangerous
weapon arising from an incident in which Appellant
repeatedly stabbed his girlfriend. Appellant recognizes
that this Court has previously rejected this argument.
See Robedeaux, 866 P.2d at 435; Pickens v. State,
850 P.2d 328, 336 (Okl.Cr.1993), cert. denied, 510
U.S. 1100, 114 S.Ct. 942, 127 L.Ed.2d 232 (1994).
The record reflects that this was the only evidence
used to support the “prior violent felony conviction”
aggravating circumstance. However, despite Appellant’s
assertion to the contrary, we find evidence in the
record other than this prior conviction which supports
the “continuing threat to society” aggravating circumstance. This is the evidence of Appellant’s history of
physical abuse upon his wife and the evidence presented by Appellant’s expert witnesses that he has
diminished ability to control his rage. Accordingly,
the evidence presented at trial was sufficient to

App.185a
support the jury’s findings regarding both of these
aggravating circumstances.
Appellant also argues that the “continuing threat
to society” aggravating circumstance is unconstitutional. He recognizes that this Court has repeatedly
rejected constitutional attacks on this aggravating
circumstance. See Mitchell v. State, 884 P.2d 1186,
1208 (Okl.Cr.1994), cert. denied, 516 U.S. 827, 116
S.Ct. 95, 133 L.Ed.2d 50 (1995). However, he asks this
Court to reconsider those decisions. We decline this
request.
During the second stage of trial, the State introduced evidence of victim impact through the testimony
of two witnesses, Marietta Love, Jennifer Smith’s
mother, and Glen Carter, Sr., the father of the four
children who were killed. In his eleventh proposition
Appellant raises several issues concerning the use of
victim impact evidence in the second stage of trial.
Appellant first argues that error occurred in the
use of victim impact evidence at his trial because the
State failed to follow statutory requirements in the
presentation of such testimony. He contends that the
relevant statutes provide that such evidence can only
be introduced through the presentation of written
statements, not through testimony. In support of this
argument he directs this Court’s attention to Neill v.
State, 896 P.2d 537, 553 (Okl.Cr.1994), cert. denied,
516 U.S. 1080, 116 S.Ct. 791, 133 L.Ed.2d 740 (1996),
for its recognition that 22 O.S.Supp.1992, §§ 984,
984.1 and 991a(C) provide guidance regarding the
use of victim impact evidence. Title 22 O.S.Supp.1992,
§ 984.1(A) provides that “[a] victim, or a member of
the immediate family of the victim, may present a
written victim impact statement or, at the court’s op-

App.186a
tion, appear personally at the sentencing proceeding
and present the statement orally.” While this language
makes reference to a written victim impact statement,
it does not preclude the introduction of victim impact
evidence through testimony. Further, this Court has
specifically found that “the trial court may wish to
consider whether a question-and-answer format may
be a preferable method of controlling the way relevant
victim impact evidence is presented to a jury.” Cargle
v. State, 909 P.2d 806, 828 (Okl.Cr.1995).
Victim impact evidence is constitutionally
acceptable unless “it is so unduly prejudicial that it
renders the trial fundamentally unfair.” Payne v.
Tennessee, 501 U.S. 808, 825, 111 S.Ct. 2597, 2608,
115 L.Ed.2d 720, 735 (1991). Appellant argues that
the victim impact evidence exceeded the bounds of
propriety when Glen Carter, Sr. made a comment
which did not fall within the bounds of proper victim
impact evidence.13 Appellant is correct in his assertion
that this comment was inappropriate evidence of
victim impact. However, it cannot be found to have
been so unduly prejudicial as to have rendered the
trial fundamentally unfair.
Appellant also argues that Payne v. Tennessee
and Oklahoma’s amended capital sentencing statute
have opened the floodgates for the introduction of
highly emotional and irrelevant evidence. It is his
13 Glen Carter stated, “What is the world coming to when we
just let people in our society just come and kill and go to prison
and let them out and they come back and do the same act. What
it[sic] going to take? More people got to be victims to these
crimes that are being committed? More people have to suffer
day for day because they know their loved ones are gone.” Trial
Transcript X, at 32.

App.187a
position that victim impact evidence has no place in
Oklahoma’s death penalty scheme as our statutes
require a balancing test of aggravating circumstances
and mitigation and victim impact evidence is relevant
to neither. He argues that victim impact evidence
operates as irrelevant, improper, highly charged,
emotion evidence which is present in every capital
case and has the same effect as an unconstitutionally
broad aggravating circumstance. Appellant implores
this Court to adopt specific guidelines to prevent this
from becoming a “superaggravator.” This Court recently
addressed these concerns and proffered such guidelines
in Cargle, 909 P.2d at 824-30 (Okl.Cr.1995).
Finally, Appellant argues that error occurred in
this case because the jury instructions did not address
the victim impact evidence or its place in the sentencing
decision. While it is true that the jury in this case
was given no instructions regarding the victim impact
statements, at the time of trial, such was not required.
Although this Court recently promulgated an
instruction to assist the jury in using victim impact
evidence, we did so making clear that the instruction
was to apply prospectively only. Id. at 828-29. In
Cargle, as in the case at bar, a specific instruction on
victim impact evidence was not given, nor was it
found that the absence of such rendered the defendant’s
sentence unreliable. Accordingly, in the present case
as in Cargle, the absence of such an instruction does
not require reversal of the sentencing proceeding.
In his next proposition Appellant sets forth four
arguments previously rejected by this Court in order
to preserve such for appellate review. He first argues
that error occurred because the instructions failed to
inform the jury that its findings regarding the mitigat-

App.188a
ing circumstances did not have to be unanimous. He
acknowledges that this issue has previously been
addressed by this Court and that on prior occasions
relief has been denied. See Harjo v. State, 882 P.2d
1067, 1081 (Okl.Cr.1994), cert. denied, 514 U.S. 1131,
115 S.Ct. 2007, 131 L.Ed.2d 1007 (1995). See also
Bryson v. State, 876 P.2d 240, 262 (Okl.Cr.1994), cert.
denied, 513 U.S. 1090, 115 S.Ct. 752, 130 L.Ed.2d 651
(1995); Pickens, 850 P.2d at 339. Although Appellant
asks this Court to reconsider this issue at this time,
we decline to do so.
Appellant also argues that the instructions given
to the jury on the issue of mitigation permitted the
jurors to ignore mitigating evidence altogether, and
seriously diminished the effect of the mitigating
evidence presented in this case. Appellant advises
this Court that the same or similar instructions to
those given in the present case were upheld against
this challenge in Pickens, 850 P.2d at 339. We decline
to hold otherwise at this time.
Next, Appellant alleges that the trial court
committed error when it failed to instruct the jurors
that they could consider a sentence of life or life without
parole even though they had found the existence of
an aggravating circumstance. Such an instruction is
not required and this Court has consistently rejected
this argument. See Valdez v. State, 900 P.2d 363, 385
(Okl.Cr.1995), cert. denied, 516 U.S. 967, 116 S.Ct. 425,
133 L.Ed.2d 341 (1995); Bryson, 876 P.2d at 262-63;
Pickens, 850 P.2d at 339; Romano v. State, 847 P.2d
368, 392 (Okl.Cr.1993), aff’d, Romano v. Oklahoma,
512 U.S. 1, 114 S.Ct. 2004, 129 L.Ed.2d 1 (1994). We
will not now depart from this prior holding.

App.189a
Finally, Appellant argues that the instructions
regarding the manner in which the jury was to weigh
aggravating circumstance set forth an improper burden
of proof. Again, he acknowledges that this preponderance of the evidence standard has been repeatedly
approved by this Court. See Mitchell, 884 P.2d at 1206.
See also Rojem v. State, 753 P.2d 359, 370 (Okl.Cr.),
cert. denied, 488 U.S. 900, 109 S.Ct. 249, 102 L.Ed.2d
238 (1988); Brogie v. State, 695 P.2d 538, 544 (Okl.
Cr.1985). Again, we decline to revisit this issue.
This Court has held that where there is no error
present, there can be no accumulation of error.
Brecheen v. State, 732 P.2d 889, 897 (Okl.Cr.1987),
cert. denied, 485 U.S. 909, 108 S.Ct. 1085, 99 L.Ed.2d
244 (1988). However, when there have been numerous
irregularities during the course of the trial that tend
to prejudice the rights of the defendant, reversal will
be required if the cumulative effect of all the errors
was to deny the defendant a fair trial. Bechtel v.
State, 738 P.2d 559, 561 (Okl.Cr.1987). While it can
be found in the present case that there were a few
irregularities during the course of the trial, even
taken together, these cannot be found to have been
so great as to have denied Appellant a fair trial.
Accordingly, relief is not warranted.
MANDATORY SENTENCE REVIEW
In accordance with our statutory duty, we must
now determine whether the death sentence was
imposed under the influence of passion, prejudice, or
any other arbitrary factor, and also whether the
evidence supports the jury’s finding of the alleged
statutory aggravating circumstances. See 21 O.S.1991,
§ 701.13(C). We are satisfied that neither passion,

App.190a
prejudice nor any other arbitrary factor contributed
to the jury’s sentencing determination. After carefully
reviewing the evidence presented, we also find that it
supported the jury’s finding of the aggravating
circumstances.
Finding no error warranting reversal or modification, Appellant’s Judgment and Sentence is
AFFIRMED.
JOHNSON, P.J., CHAPEL, V.P.J., and LANE,
J., concur.
LUMPKIN, J., concurs in results.
ORDER GRANTING REQUEST
FOR PUBLICATION
On December 6, 1996, this Court granted Appellant’s request for rehearing in the above styled case.
This order did not grant relief but clarified an issue
discussed in the opinion previously handed down in
this case on October 1, 1996. The Order Granting
Rehearing was not published. Subsequently, on December 11, 1996, Appellant filed a Motion to Publish the
Order Granting Rehearing reasoning that trial judges
should have the benefit of this Court’s discussion
regarding requests for instructions on second degree
murder which is contained therein.
Having examined Appellant’s motion this Court
finds that Appellant’s request should be, and the same
hereby is GRANTED. The Order Granting Rehearing
issued in Appellant’s case shall be released for publication.
IT IS SO ORDERED.

App.191a
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 13th day of January, 1997.
/s/ Charles S. Chapel
Presiding Judge
/s/ Reta M. Strubhar
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Charles A. Johnson
Judge
/s/ James F. Lane
Judge

App.192a
ORDER GRANTING REHEARING
Petitioner, Roderick L. Smith, was convicted of
five counts of First Degree Murder in the District
Court of Oklahoma County, Case No. CF-93-3968.
He was sentenced to death on each count. From this
Judgment and Sentence Petitioner perfected a timely
appeal to this Court. Oral argument was heard on May
8, 1996, and a decision was rendered in a published
opinion handed down by this Court on October 1,
1996. See Smith v. State, 932 P.2d 521 (Okl.Cr.1996).
Subsequently, Petitioner filed a Petition for Rehearing.
Petitioner bases his request for rehearing upon the
contention that the opinion is in conflict with authority
not previously before this Court. See Rules of the
Court of Criminal Appeals, 22 O.S.1991, Ch. 18,
App., Rule 3.14(B)(1). Petitioner directs this Court’s
attention to that part of the opinion which addressed
the issue of whether Petitioner was entitled to an
instruction on second degree depraved mind murder.
The opinion correctly noted that an instruction on
this degree of murder is warranted where the evidence
supports a finding that the homicide was “perpetrated
by an act imminently dangerous to another person
and evincing a depraved mind, regardless of human
life, although without any premeditated design to
effect the death of any particular individual.” See 21
O.S.1991, § 701.8. However, the opinion went on to find
that the facts did not warrant an instruction on this
degree of murder because the Petitioner had not
chosen his victims randomly. This analysis focused
on the language “any particular individual” and
construed it too narrowly, limiting its use to situations
where a person’s wrath is not directed against any
particular person. While second degree depraved mind

App.193a
murder may still apply to such situations, it has not
been limited to such situations. Convictions for second
degree depraved mind murder have been upheld in
cases where the victim was specifically targeted. See
Quilliams v. State, 779 P.2d 990 (Okl.Cr.1989); Dorsey
v. State, 739 P.2d 528 (Okl.Cr.1987); Hall v. State,
698 P.2d 33 (Okl.Cr.1985).
Allowing that this crime has been applied to
situations where the accused may have intended to
harm the victim but did not intend to kill, we find
that under the facts of the present case, Petitioner
was still not entitled to such an instruction. Given
the evidence presented at trial, the only reasonable
inference is that Petitioner specifically targeted his
victims and that he intended to kill them. Again, the
trial court did not err in failing to instruct the jury
on the crime of second degree depraved mind murder.
Finally, Petitioner asks this Court also to reconsider its ruling regarding whether Petitioner was
entitled to manslaughter instructions. Again, Petitioner
contends that the opinion is contrary to controlling
authority. We have reviewed this allegation and have
found that this issue was decided based upon
appropriate controlling authority.
Accordingly, for the reasons discussed above
regarding the second degree depraved mind murder
instruction, we find that the Petition for Rehearing
should be GRANTED. However, no relief is warranted.
IT IS THEREFORE THE ORDER OF THIS
COURT that this Petition for Rehearing is GRANTED
with no relief required. The Clerk of this court is
directed to issue the mandate forthwith.
IT IS SO ORDERED.

App.194a
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 6th day of December, 1996.
/s/ Charles A. Johnson
Presiding Judge
/s/ Charles S. Chapel
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
Concur in Result
/s/ Reta M. Strubhar
Judge
/s/ James F. Lane
Judge

App.195a
PETITION FOR WRIT OF HABEAS CORPUS BY
A PERSON IN STATE CUSTODY PURSUANT TO
28 U.S.C. § 2254, RELEVANT EXCERPTS
(MAY 22, 2015)
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA
________________________
RODERICK L. SMITH,

Petitioner,
v.
ANITA TRAMMELL,
Warden, Oklahoma State Penitentiary,

Respondent.

________________________
Case No. 14-CV-579-R

THOMAS D. HIRD
EMMA V. ROLLS
Assistant Federal Public Defenders
Western District of Oklahoma
215 Dean A. McGee, Suite 707
Oklahoma City, OK 73102
(405) 609-5975 / (405) 609-5976 - fax
Tom_Hird@fd.org
Emma_Rolls@fd.org
Counsel for Petitioner, Roderick L. Smith

App.196a
[...]
GROUND ONE
Roderick Smith’s Execution Is Prohibited by the
Eighth and Fourteenth Amendments Because
He Is Intellectually Disabled.
Introduction and Summary
Mr. Smith cannot legally be executed because he
is intellectually disabled. See Atkins v. Virginia, 536
U.S. 304 (2002); Hall v. Florida, 134 S.Ct. 1986
(2014). His IQ scores and overall adaptive functioning
have consistently been in the intellectually disabled
range. Smith’s placement in special education classes
for the educable mentally handicapped from early
elementary school through high school demonstrates
his intellectual disability is not a feigned attempt to
avoid being executed, as the State of Oklahoma has
maintained; rather, the overwhelming evidence shows
Smith has suffered from intellectual disability since
infancy. If the State of Oklahoma is allowed to execute a man as intellectually impaired as Roderick
Smith, then the constitutional protection announced
in Atkins and reinforced in Hall surely would be
meaningless.
In Atkins, the Supreme Court categorically banned
the execution of the intellectually disabled. As the
Court later explained in Hall, to determine whether
a criminal defendant is in fact intellectually disabled
requires the consideration of the informed views of
medical and psychiatric experts. Hall, 134 S.Ct. at
2000. The American Association on Intellectual and
Developmental Disabilities (AAIDD), one of the very
groups of experts relied on by the Court in both Hall

App.197a
and Atkins, provides the following definition of intellectual disability:
Intellectual disability is characterized by
significant limitations both in intellectual
functioning and in adaptive behavior as expressed in conceptual, social, and practical
adaptive skills. This disability originates
before age 18.
AAIDD, Intellectual Disability: Definitions, Classification, and Systems of Supports 5 (11th ed. 2010).3 The
Court in both Atkins and Hall referenced the clinical
definition. Atkins, 536 U.S. at 309 n.3; Hall, 134
S.Ct. at 1994.
Experts who have evaluated Smith’s intellectual
functioning are in a remarkable state of accord that
he is intellectually disabled. Drs. Terese Hall, Alan
Hopewell, William Ruwe, Fred Smith, James Patton,
and Bhushan Agharkar have separately opined that
he is intellectually disabled.4 Tellingly, the State’s
own expert at Smith’s Atkins trial, Dr. John Call,
scored Smith with a full-scale IQ of 55, also placing
3 The determination at Smith’s Atkins trial that he is not
intellectually disabled is infected by a number of constitutional
violations, including a flawed understanding and application of
these core definitional concepts and the use of flawed jury
instructions, later revised. See Ground Two (delineating a
variety of deficiencies in Smith’s Atkins proceedings).
4 Drs. Hall, Hopewell, Ruwe, and Smith actually concluded
Smith is mentally retarded; however, in Hall, 134 S. Ct. at
1990, the Supreme Court adopted the term “intellectual disability” in place of the term “mental retardation.” Accordingly,
this petition uses the term “intellectual disability” and related
terms in place of “mental retardation” unless quoting specific
language.

App.198a
Smith in the intellectually disabled range. MR2 VI 38.
In fact, when asked whether he could say that Smith
is not intellectually disabled, Call responded “[n]o.” Id.
at 67. Any conclusion that Smith is not intellectually
disabled is fundamentally at odds with the evidence
and is scientifically untenable.
The Constitution’s prohibition on execution of
the intellectually disabled is not observed by the execution of a man whom numerous experts collectively
find is intellectually disabled, particularly when the
State’s own expert is unable to find otherwise. Cooper
v. Oklahoma, 517 U.S. 348, 367 (1996) (finding procedures that permitted trial of individual more likely
than not incompetent deeply offensive to fundamental
principles). Here, the evidence Smith is intellectually
disabled is compelling. This Court should enforce Atkins
and Hall by prohibiting the State of Oklahoma from
executing Roderick Smith.
A.

The Overwhelming Evidence Demonstrates Smith
Is Intellectually Disabled.
1. Smith Suffers from Significant Limitations in
His Intellectual Functioning.

The valid IQ test scores attributed to Smith
throughout his life fall squarely within the intellectually
disabled range. Evidence of a brain injury resulting
from a hypoxic event when Smith was a child, reports
from doctors, and testimony from teachers and relatives
of Smith amplify and illustrate the dimension of his
low IQ scores.

App.199a
a. Smith’s IQ scores Fall Squarely Within
the Intellectually Disabled Range on
Standardized Intelligence Quotient Tests
Administered by Licensed Professionals.
The operational definition of the first criteria for
intellectual disability—significant limitations in intellectual functioning—is defined as follows:
[A]n IQ score that is approximately two
standard deviations below the mean, considering the standard error of measurement for
the specific assessment instruments used and
the instruments’ strengths and limitations.
AAIDD, supra, at 27. “[A] test taker who performs
two or more standard deviations from the mean will
score approximately 30 points below the mean on an
IQ test, i.e., a score of approximately 70 points.” Hall,
134 S.Ct. at 1994 (internal quotations omitted). One
should keep in mind, however, that “IQ scores represent
a range, not a fixed number.” Id. at 1999. Further, only
a limited number of IQ tests available provide an
appropriate assessment of the general factor of intelligence, as well as multiple broad ability domains.
Edward A. Polloway, The Death Penalty and Intellectual Disability 128 (2015). Often described as the
“gold standard” for IQ assessment, RTr. VII 33-34,
the Wechsler Adult Intelligence Scale (WAIS) is one
of the most widely used instruments. Polloway, supra,
at 130.
The various valid IQ tests administered to Smith
over the years have resulted in remarkably consistent scores. Tests administered by defense experts, the State’s expert at Smith’s Atkins trial, and
a Department of Corrections psychologist have pro-

App.200a
duced IQ scores that fall well within the intellectually
disabled range, even without application of the standard error of measurement5 or the Flynn Effect.6 So
consistent were the results on four different IQ tests,
including the WAIS-III and the WAIS-IV, they “would
be virtually impossible” to “fake.” RTr. VII 45.
1997 WAIS-R Testing
Dr. Fred Smith, a psychologist with the Oklahoma
Department of Corrections, administered the WAISR to Mr. Smith in 1997. MR2 III 160. Mr. Smith
scored a 64 on the verbal component and a 70 on the
performance component, resulting in a full-scale IQ
score of 65. Id. at 161. Although this score clearly
falls within the intellectually disabled range without
consideration of the Flynn Effect, it is nonetheless
inflated. At the time Dr. Smith gave the WAIS-R to
Mr. Smith, the WAIS-III was available, making the
WAIS-R outdated. RTr. VII 37. When adjusted for
the Flynn Effect, see note 6 supra, the results from
the 1997 WAIS-R testing more accurately reflect a
full-scale IQ score of 62, representing a range of 5767 with the application of the SEM. RTr. VII 38; see
5 The standard error of measurement (SEM) is a measurement to
provide confidence that the test-taker’s true intellectual ability
falls within a range of IQ scores (typically +/-5 points for a 95%
confidence level). AAIDD, supra, at 36.
6 The Flynn Effect is a statistical phenomena by which IQ scores
are inflated as a function of the length of time between when
the test was normed and when it is administered. Succinctly
stated, old tests overstate IQ scores on average of about three
points per decade. James R. Flynn, Tethering the Elephant:
Capital Cases, IQ, and the Flynn Effect, 12 Psychol. Pub. Pol’y
& L., No 2, 170, 170 (2006).

App.201a
note 5 supra. Dr. Smith concluded that Mr. Smith’s
results on the WAIS-R test “indicates mental retardation.” MR2 III 161.
September 2003 WAIS-III Testing
Forensic psychologist and the State’s expert at
Smith’s Atkins trial, Dr. John Call, administered the
WAIS-III to Smith in September of 2003. Smith
received a 57 on the verbal component and a 62 on
the performance component, resulting in a full-scale
score of 55. MR2 VI 38. Based on the results of this
WAIS-III, Smith’s IQ range is between 52-60 at a
95% confidence level. Id. at 60.
Dr. Call said he could not come to a conclusion
as to whether Smith is intellectually disabled. Dr.
Call’s inability or unwillingness to make a determination as to whether Smith is intellectually disabled is
unsurprising when one considers his experience and
expertise: The majority of Call’s practice is forensic
in nature rather than clinical. MR2 VI 40. Of the few
clinical clients Call has, none are intellectually disabled.
Id. at 41. He has received no national awards in the
area of intellectual disability, nor has he published
any peer-reviewed articles on the subject. Id. He is
the president of Crisis Management Consultants, a
business that “deal[s] in violence issues,” whose clients
include the Oklahoma City Police Department, the
City of Midwest City, and the Oklahoma District
Attorneys’ Council. Id. at 6, 41-43. And, he is also the
director of Litigation Research Service, a business
that puts together focus groups for civil cases. Id. at
43. Although Dr. Call is a jack-of-all-trades psychologist, of the many hats he wears, none are primarily

App.202a
focused on the evaluation and assessment of the
intellectually disabled.7
December 2003 WAIS-III Testing
Dr. Clifford Alan Hopewell, a clinical neuropsychologist, administered the WAIS-III in December of 2003 to Smith. See Att. 4, 1/31/03 Report of
Hopewell found as App. 2 of Successor Application
for Post Conviction Relief in a Death Penalty Case,
PCD-2002-973. Having received specialized training
in intellectual disability screening by both the military
and a large independent school district, Dr. Hopewell
is uniquely qualified to evaluate individuals suspected
of suffering from intellectual disability.8 MR2 II 3739. On the test administered by Dr. Hopewell, Smith
scored a 55 on the verbal component and a 64 on the
performance component; he received a full-scale IQ
score of 55, a score worse than 99% of potential testtakers. Id. at 56, 138. According to Dr. Hopewell,
based on the September 2003 WAIS-III results, Smith’s
IQ range is estimated between 52 and 60 at a 95%
confidence level. See Att. 4 at 4. Dr. Hopewell opined
7 In the directory for the American Academy of Forensic
Psychology, Dr. Call lists his expertise in the following areas:
dangerousness, risk assessment, child custody, and litigation
strategy. MR2 VI 46-47. Not included in his areas of expertise is
intellectual disability. Dr. James Patton, an internationallyrenowned professional with over 34 years of experience with the
intellectually disabled population, emphasizes that expertise of
skilled intellectual disability professionals is integral to
implementing the protections of Atkins. Att. 3, Report of Dr.
Patton at 2. Dr. Call clearly does not fit the bill.
8 Unlike Dr. Call whose practice is almost exclusively forensic
in nature, Dr. Hopewell regularly diagnoses and treats patients
because the majority of his practice is clinical. MR2 II 31.

App.203a
that Smith’s full-scale score of 55 substantially limits
Smith’s ability to communicate, learn from experience,
engage in logical reasoning, understand the reactions
of others, and control his impulses. MR2 II 57.
2005 WAIS-III Testing
In September of 2005, forensic psychologist Dr.
Terese Hall administered the WAIS-III to Smith.
Att. 5, Report of Dr. Hall, Exhibit D of Fast Track
Appeal in O-2006-683; O.R. VIII 1620. Once again,
Smith tested at a full-scale IQ of 55, resulting in an
estimated IQ range of 52 to 60. RTr. VII 34. On the
verbal component Smith received a 56, and on the
performance component he received a 63. Att. 5 at 8.
After reviewing the raw data of Drs. Hopewell and
Call, Dr. Hall was struck by the remarkable consistency
in Smith’s scores and found “it would be virtually
impossible” to “fake.” RTr. VII 45.
2010 WAIS-IV Testing
Mr. Smith was last tested in 2010 by Dr. William
Ruwe, a clinical neuropsychologist, who was assisted
by Angela Fuller, a psychometrist. RTr. VIII 38, 44;
Att. 6, Report of Dr. Ruwe. Dr. Ruwe is the Director
of Clinical Neuropsychology at the Veteran’s Affairs
Medical Center, and he maintains a private clinical
practice. RTr. VIII 32, 34-35. Dr. Ruwe administered
the WAIS-IV, which differs from the WAIS-III by
adding new measures, making some of the previous
measures optional, and reducing the amount of time
it takes to complete. Id. at 43-44. Further, the WAISIV employs a different scoring framework. Id. at 44.
On the WAIS-IV, Smith again received a full-scale
IQ of 55, scoring 56 on the verbal component and 67

App.204a
on the performance component. Id. at 46. Like the
results of the three earlier WAIS-III tests, the results
of this test indicate Smith’s IQ range is from 52 to
60. Based on Smith’s level of functioning, Dr. Ruwe
concluded that Smith was “more inclined to act
impulsively.” Id. at 84.
Unreliable Results from Invalid Tests
At Smith’s original jury trial in 1994, Dr. Murphy,
now deceased, testified that Smith’s full-scale IQ was
73. RTr. VII 99-100. The State of Oklahoma made
much of the “results” of Dr. Phillip Murphy’s 1994
“testing.” However, the State ignored the fact that
Murphy never identified what particular test he
used, nor did the domain results Murphy reported at
the original trial fit any known IQ test. There was
also no raw data available to support his “results.”
Notably, a few years after Murphy testified at Smith’s
original trial he had licensing problems for falsifying
data and applying scores from one test to another. Id.
at 98. In short, “there was a lot of unethical stuff
going on with” Dr. Murphy. Id.; See Att. 7 State ex
rel. State Bd. of Exam’rs of Psychologists v. Murphy,
Case No. ADML 99-0013, BC98-9 (finding Dr. Murphy
violated his Code of Ethics, placing his license on
probation for 3 years, and prohibiting Dr. Murphy from
administering tests, interpreting tests, or writing
reports during probationary period). Surely, the State’s
reliance on this score should be questioned.
The other reported IQ score to which the prosecution and the OCCA cling is even less reliable. Along
with the WAIS-R, Dr. Fred Smith also administered
the Raven’s Progressive Matrices to Mr. Smith. MR2
III 161. Instead of resulting in specific scores, the

App.205a
Raven’s results in “a very general rough IQ range.”
Id. Mr. Smith scored in the range of 69-78 on the
Raven’s. Of the two tests, the WAIS-R and the
Raven’s, the WAIS-R more accurately depicted Smith’s
true intellectual functioning because “[t]he Wechsler
Scale is the premiere instrument.” Id. Further, the
Raven’s is not recognized as one of the few tests that
serve as an appropriate assessment of the general
factor of intelligence, as well as multiple broad ability
domains. Polloway, supra, at 129-30. Unlike the WAIS,
which comprises 11 sub-tests, the Raven’s “just measures one aspect of cognitive function.” MR2 III 162.
The unidimensional Raven’s should “only have a role
in circumstances in which language or other issues
preclude a comprehensive assessment of intelligence.”
Polloway, supra, at 131. To characterize the Raven’s
as having only limited value in intellectual disability
assessment would be generous to say the least.
b. Smith’s Low IQ Scores on Standardized,
Scientifically Recognized Tests Represent
His Best Efforts.
With the exception of Dr. Call, all of the experts
who administered IQ tests to Smith concluded that
the test results were reliable and that Smith gave his
best effort. Dr. Ruwe was “confident” the full-scale
IQ score of 55 Smith received on the 2010 WAIS-IV
was an accurate result. RTr. VIII 80-81. According to
Dr. Ruwe, Smith’s consistent performance on all of
the WAIS tests would be “challenging” to achieve if
Smith was “trying to perform at a particular level,
especially when . . . using a new instrument.” Id. at
81. Dr. Ruwe found it “very hard to imagine” that
Smith could “actually consciously answer” questions
in such a way as to cause “that test score to be spot

App.206a
on.” Id. at 82. Further evidence of Smith’s giving his
best effort on the 2010 WAIS-IV is that while taking
the test, he asked for additional time so “he had
given his best shot.” Id. at 48. “[T]hat is uncommon
[with] folks who are trying to malinger or feign.” Id.
In coming to the conclusion that Smith’s full-scale
score of 55 on three separate WAIS-III tests would be
“virtually impossible” to fake, RTr. VII 45, Dr. Hall
relied on the complex scoring system of the test. Id.
at 46. Specifically, Dr. Hall explained that Smith
received slightly different raw scores on the sub-tests
for each administration of the test; such variation in
raw scores is normal. Id. at 45-46. Despite this slight
variation in raw scores, after the scores were converted into the scaled scores, each WAIS-III resulted
in a full-scale score of 55. Even though Dr. Hall has
administered the WAIS-III “many[,] many times,” she
opined that she would be unable to purposely achieve
such results were she given the exam three separate
times. Id. at 46.
Dr. Hopewell also “never saw any indication that
[Smith] was faking, either when [Smith] was working
with [Hopewell] or in the other tests that [Smith] had
done with other people.” MR2 II 73. Dr. Hopewell’s
unique experience makes him especially astute at
detecting malingering. Not only does he possess indepth experience with the assessment of the intellectually disabled, MR2 II 37-38, but he also contracted with the State of Texas to assess benefit
applicants, which involved “frequently finding people
that would like to get benefits,” so they exaggerated
symptoms. Id. at 39. Dr. Hopewell also served as an
Army psychologist, and in that role he “had much
more experience with malingering and faking because

App.207a
we saw so much of that happening in the military.
. . . [W]e saw literally hundreds of patients where that
was a consideration.” Id.
Although DOC psychologist Dr. Smith was initially
skeptical that Mr. Smith’s full-scale score of 65 on
the outdated WAIS-R was based on Mr. Smith’s best
effort, MR2 III 167, since that time “certain pieces
have fallen in place.” Id. Specifically, Dr. Smith went
back and took “a closer look,” and he “was very much
struck” by the consistency in the results of his WAISR testing and the results of other psychological tests,
including the Standard Progressive Matrices and the
Memory-for-Designs Test he administered to Mr.
Smith. Id. at 167-68. The consistency amongst all the
results “was quite remarkable and it shows a consistent pattern rather than faking.” Dr. Smith’s initial
“gut feeling” was eventually replaced by a clinical
determination that the 65 full-scale score was accurate
based on “objective test results.” Id. at 166.
Notwithstanding the opinions of Drs. Ruwe,
Hall, Hopewell, and Smith, Dr. Call “doubted the
validity and reliability” of the results from the WAISIII he administered to Mr. Smith because he thought
Mr. Smith was not putting forth his best effort. RTr.
VI 173; MR2 VI 38-39. Reasons exist to question Dr.
Call’s opinion, especially in the face of such overwhelming evidence to the contrary. Particularly for
those practitioners who have little or no clinical experience with the intellectually disabled, like Dr. Call,
malingering may be suspected as a result of confusion related to a combination of psychiatric symptoms,
neurological symptoms, and cognitive deficits. Polloway, supra, at 270.

App.208a
Further, in the past Dr. Call has been quick to
undermine reported IQ scores which place a criminal
defendant in the intellectually disabled range based
on an allegation of malingering.9 He has supported
such allegations with results obtained from “The
Blackwell Memory Test,” a made-up malingering test
which he created and named after his secretary. See
Salazar v. State, 126 P.3d 625, 629-31 (Okla. Crim.
App. 2005) (modifying petitioner’s death sentence to
life without parole based on counsel’s failure to
investigate Dr. Call’s use of a non-standardized malingering test when Call suggested defense expert was
“unethical to administer tests” that have norms the
petitioner did not fall within). Call appears to have
administered this same, non-standardized, self-created
malingering test during his evaluation of Smith; See
Att. 8, October 8, 2003 letter from Dr. Call to Pattye
High; O.R. V 921; Att. 9, Raw Data from Dr. Call’s
evaluation of Roderick. This alone makes Dr. Call’s
opinion dubious at best.
What is more, Dr. Call’s opinion that Smith was
not putting forth his best effort was based in part on
Smith’s results on the Test of Memory Malingering
(TOMM), a test with a standardization sampling representation which did not include people with intellectual
disability. Polloway, supra, at 271. A review of this
test has indicated that its reliability and validity are
9 In the years immediately after Atkins, Dr. Call, despite his
admitted lack of clinical experience with the intellectually
disabled, “made a specialty of examining capital defendants for
mental retardation” for the prosecution. Lambert v. State, 126
P.3d 646, 652 (Okla. Crim. App. 2005). In each of these cases,
Dr. Call either administered or attempted to administer several
malingering tests as he did in Smith’s case. Id. at 652 n.17.

App.209a
highly suspect when it is administered to the intellectually disabled. Karen L. Salekin & Bridget M. Doane,
Malingering Intellectual Disability: The Value of
Available Measures and Methods, 16 Applied Neuropsychology 105, 111 (2009). The research in the assessment
of malingered intellectual disability indicates that
“effort tests and indices of cognitive malingering are
not working with this population, and that true cases
can be misidentified as malingered.” Id. at 111. Such
is the case with Dr. Call’s opinion that Smith malingered so as to perform poorly on IQ tests.
c. Smith’s Placement in Special Education
Classes for the Educable Mentally
Handicapped Shows He Suffers from
Significant Limitations in His Intellectual
Functioning.
At no fault of Mr. Smith, all of his school records
have been destroyed other than a copy of his highschool
transcript.10 MR2 III 19; MR2 Def. Ex. 3. Nonetheless, no doubt exists that Smith spent the majority, if
not all, of his schooling in special education classes
for the educable mentally handicapped (EMH).11
Although Smith does not have the benefit of school
10 Oklahoma City Public Schools are required by law to maintain
student records for six years from the last point of activity. MR2
III 8. After the six-year period, the district has a policy of
destroying such records if they have not been picked up. Id. at
8-9.
11 Dr. Call’s allegation of malingering is further undermined by
Smith’s early placement in EMH classes because Smith would
have had to begin malingering in childhood, before any incentive
to avoid the death penalty occurred. See also Lambert, 126 P.3d
at 651 n.14.

App.210a
records, which would surely include results from IQ
testing and individualized education plans (IEPs),
the next-best sources of information still remain: the
testimony of the special education teachers who taught
him in high school and photographs of Smith in
special education classes when he was in early elementary school. Smith’s deficits left such an impression
on his special education teachers, they were able to
recall their experiences with Smith in detail nearly
20 years later.
Smith was in special education classes during
the 1975-76 and 1976-77 school years when he was
eight and nine years old. MR2 Def. Ex. 1 & 2. Jesse
Thompson, the principal at Willard Elementary during
those years, would often pose for photos with individual
classes. MR2 II 202. One such photo includes Smith
as a student in the 1975-1976 class of Mr. Anderson.
MR2 Def. Ex. 2. Another shows Smith was a student
in the 1976-77 class of Mrs. White. MR2 Def. Ex. 1. Mr.
Thompson identified both teachers as special education teachers for “mentally handicapped children”
with “limited abilities.”12 MR2 II 203. Students were
placed in these classes if “they couldn’t handle the
regular curriculum” and needed “remedial help so
they [could] be able to have some success.” Id. at 204
Placement in these classes required a recommendation by a teacher and testing. Id. at 205 To have
maintained placement in special education in the
12 The 1975-76 academic year was Mr. Thompson’s first year at
Willard Elementary. He does not know when Smith was first
placed in special education classes because “[h]e was already
placed” before Thompson’s arrival. MR2 II 204. According to
Eva Cates, Smith’s mother, he was placed in special education
classes “from the time he started regular school.” MR2 IV 8.

App.211a
1970s and 1980s, students were required to be given
IQ tests every three years. RTr. V 216.
Both Paul Preston and Mona Autry recall having
Smith in their EMH classes while he was in high
school. To be eligible for these classes, students were
recommended by a teacher and given IQ tests; they
had to score in the 55 to 75 range for placement. MR2
III 95. Each student in these classes had an IEP
which addressed the individual’s special needs. Id. at
96. And, students in EMH classes were not assigned
grades based on their comparative performance. MR2
II 97. Instead, as long as students tried to the best of
their ability, they typically made A’s and B’s. MR2
III 28.
Ms. Autry served as Smith’s EMH teacher during
his 9th-11th grades, and she taught a variety of
classes including math skills, communication skills,
and social studies skills.13 Id. at 94-95. During the
three years Smith was in Ms. Autry’s classes, she
spent several hours a day with him. Id. at 95. Ms.
Autry recalls that despite his best efforts, Smith
functioned at about the third-grade level in math
and reading. Id. at 99-100. Ms. Autry has absolutely
no doubt that Smith was properly placed in her EMH
classes, and of the many students she taught, she
considers Smith “one of the lower” functioning students.
Id. at 104. She describes Smith’s ability to learn as

13 Smith’s high school transcript shows all of his substantive
classes bear the “skills” designation and he was enrolled in “coop training.” MR2 Def. Ex. 3. In the 1980s, “skills” classes were
special education classes. MR2 III 11. “Co-op training” classes
taught basic job skills. Id.

App.212a
“very limited,” id. at 112, and Smith as having a
“[v]ery limited knowledge base.” Id. at 113.
Paul Preston, Smith’s EMH teacher for science
skills and co-op training during his 9th-12th grades,
echos much of the same sentiment about his experience with Smith. As part of co-op training, Mr.
Preston taught Smith janitorial skills. Id. at 30-31.
He recognized Smith’s reading and writing skills
were extremely limited; as a result, he filled out job
applications for Smith. Id. at 30-34. Mr. Preston recalls
Smith was “very low, very limited in his abilities.” Id.
at 28. He estimates that of all the EMH students he
taught during his 27-year career, Smith fell in the
“low-medium” range. Id. at 29. Although some students
in EMH classes were occasionally mainstreamed into
regular substantive classes, Mr. Preston would never
have suggested Smith be mainstreamed because
“[h]e does not have the ability . . . [it] wouldn’t [have
been] fair to him.” Id. at 35.
d. A Hypoxic Brain Injury Exacerbated
Smith’s Already-Existing Low Intellectual Functioning.
Smith’s already-compromised brain was further
damaged when he was twelve years old and suffered
a near-drowning after slipping off a rock and falling
into water. Att. 10, Medical Records from Johnston
Memorial Hospital. After he was pulled from the
water, he was “unconscious and apneic.” Id. at 5. At
the emergency room at Johnston Memorial Hospital
in Tishomingo, he presented “with dyspnea, tachycardia, and hypothermia.” Id. Hypoxic injuries, like
Smith’s near-drowning, result in a reduction in the
blood and oxygen supplies to the brain. RTr. VIII 66.

App.213a
Specific areas of the brain “are particularly sensitive
to that type of insult.” Id. The temporal lobes and
hippocampus, which are the areas involved in learning
and memory, are “very sensitive to having appropriate
levels of oxygenation.” Id.
In addition to Smith having been “developmentally
disabled probably from birth,” there exists “no doubt”
he has brain damage, likely in part, from his hypoxic
injury. MR2 II 105. Smith has impairments which
suggest “large areas of the brain are probably not
functioning the way they should.” RTr. VIII 67. A
1994 SPECT scan14 of Smith’s brain showed decreased
uptake in the bilateral temporal lobe areas, confirming
those parts of the brain do not function properly. Id. at
68. The results of the SPECT scan showed “abnormalities which were consistent with . . . the drowning
episode.” MR2 II 76.
Further confirming brain damage to Smith’s
temporal lobes and hippocampus, Dr. Hopewell found
“[f]ormal testing of memory indicated defective storage
of new information, to include both visual and verbal
material.” See Att. 12 at 5, 11/20/1998 Report of Dr.
Hopewell-originally filed as Appendix 9 in PCD-1997982. Smith’s “learning and storage of new information
was so poor as to result in a very poor memory
profile, with memory functioning below the tenth
percentile.” Id. Dr. Hopewell had “no doubt” Smith
suffers from documented and measurable brain dysfunction. Id. at 1. Such dysfunction is “without a doubt”
likely to affect Smith’s “memory, information proc14 A SPECT (single-photon emission computed tomography) scan
is a type of imaging that looks at metabolic activity and
functioning. RTr. VIII 67-68.

App.214a
essing, and emotional behaviors and actions, especially
under periods of stress.” Id.
In addition to the SPECT results and the results
of Dr. Hopewell’s testing, Dr. Smith found Mr. Smith
suffered from diffuse brain damage which is consistent
with a near-drowning. MR2 III 161. Because of the
“developmental problems [Smith had] from the beginning,” the near drowning from which he suffered “could
have been a significant incident” that contributed to
his limited intellectual functioning. MR2 II 77. Dr.
Ruwe shared Dr. Smith’s opinion, finding that the
“hypoxic insult caused additional neural damage,
further exacerbating [Smith’s] cognitive dysfunction.”
Att. 6 at 3. Medical tests and experts confirmed what
Mr. Smith’s mother knew all along: Smith’s being
“slow” was not “caused [solely] from a drowning. It
got worser [sic] after he almost got drowned.” MR2
IV 17.
2. Smith Suffers from Significant Limitations in
His Adaptive Behavior.
While intelligence, as measured by IQ, has predominated as the primary criterion for diagnosing
intellectual disability, sub-average intellectual functioning must coexist with related limitations in two
or more areas of adaptive behavior.15 Atkins, 536
U.S. at 309 n.3. Adaptive behavior is defined as the
“collection of conceptual, social, and practical skills
that have been learned and are performed by people
15 Oklahoma currently requires a showing of “significant limitations in two or more of the following adaptive skill areas: communication, self-care, home living, social skills, community use,
self-direction, health, safety, functional academics, leisure skills
and work skills.” Okla. Stat. tit. 21, § 701.10b(A)(2).

App.215a
in their everyday lives.”16 AAIDD, supra, at 43. Crucial
is the fundamental precept that adaptive behavior must
be evaluated on a deficit model: Intellectually disabled individuals, like all individuals, have strengths,
and these strengths do not negate their disability. Id.
at 45. Further, intellectually disabled people may also
appear to have strengths they do not in fact have
because they often hide their deficits in a cloak of
competence. Polloway, supra, at 265.
An appropriate clinical assessment of adaptive
behaviors includes consideration of many sources.
For example, Dr. Hall conducted a full adaptive
functioning evaluation which included administering
The Adaptive Behavior Assessment System II (ABASII) to Smith; interviewing collateral sources; reading
the testimony of Smith’s family, teachers, cell mates,
and former lawyers; and reviewing information about
Smith’s placement in special education and his job as
a janitor. RTr. VII 53. Drs. Hopewell and Hall both
came to the same conclusion: Smith has serious deficits
in several areas of adaptive behavior.
Although Dr. Call was quick to criticize the methods used by Dr. Hopewell to assess Smith’s adaptive
behavior, MR2 VI 23, 34, Dr. Call never administered any adaptive behavior testing of his own. Id. at
45-46.17 Despite fully knowing that adaptive behavior
16 The “two-out-of-ten-categories” approach has been removed
from the latest AAIDD definition.
17 Dr. Hopewell administered The Vineland Test to Smith to
evaluate his adaptive behavior. He acknowledged that The
Vineland is usually administered by questioning a caretaker
rather than the individual suspected of being intellectually
disabled. MR2 II 60. Dr. Hopewell opted to give the test to Mr.
Smith because “there weren’t any caretakers really available

App.216a
is extremely difficult to measure in prison because of
the highly structured environment, MR2 VI 48, Dr.
Call relied on “general information” he obtained from
an unnamed DOC psychologist and an unnamed DOC
guard which led Call to believe Smith did not have
any deficiencies in any particular areas. Id. at 31-32.
Dr. Call’s opinion stands in stark contrast to the
evidence of Smith’s significant limitations in several
areas of adaptive behavior.
a. Smith Suffers from Impoverished Communication Skills.
This area of adaptive behavior includes the ability
to comprehend and express information through speech
or writing, as well as through facial expressions and
gestures. Att. 5 at 9. Although Smith is able to carry
on conversation about basic information, Dr. Hopewell
found he suffers from “impoverished communication.”18
MR2 II 62. Noting that many people in Smith’s past
describe him as a “loner” or “non-communicative,” Dr.
Hopewell found what these people are really describing
is simply “abulia,” a technical term that means the
inability to be spontaneous and produce ideas. Id. at
63. “Most of the time,” according to Dr. Hopewell,
Smith “simply can’t come up with much of anything.”
Id. Finding that Smith has “[e]xtremely poor verbal
skills” and “low abilities . . . in terms of language
development,” Dr. Hopewell concluded Smith’s func. . . in the prison setting.” Id. at 61. Adequate functioning is
expected of incarcerated individuals with intellectual disability
because of the structured environment. Polloway, supra, at 202.
18 Although Dr. Ruwe did not assess Smith’s adaptive behavior,
he did note that Smith suffered from a “poverty of speech.” RTr.
VIII 60.

App.217a
tional communication skills are at approximately the
same level as an almost five-year-old child. See Att. 4
at 7.
Mirroring Dr. Hopewell’s findings, Dr. Hall determined Smith has “significant deficits in the communication domain.” Att. 5 at 9. Dr. Hall noted the following:
He’s very simple. He is very concrete. You
have to use very simple words. His ability to
express what he thinks is very limited, very
simple. He just doesn’t have the mental
processes. So communication is very poor.
RTr. VII 55. On the communication section of the
ABAS-II Smith scored more than two standard deviations below the mean and at the 1st percentile. Att. 5
at 9.
Anecdotal evidence supports the findings of Drs.
Hall and Hopewell. Inmates who have celled with or
near Smith have noticed his limited communication
skills. An inmate who once shared an inmate pod
with Smith at the Oklahoma County Jail recalled
that he assisted Smith by reading and writing Smith’s
correspondence. CTr. II 87. When writing letters for
Smith, the inmate felt the need to add his own comments to the content because Smith’s thoughts were
so basic:
I would always add a few things [to Smith’s
letters], . . . because . . . a letter don’t [sic] consist of just telling someone, tell them I love
them, tell them to send me this and a picture,
so I would have to send some filler in the
letter just to make it a letter. . . .

App.218a

Id. at 88. Another inmate observed that Smith “kept

to himself” and was “a very quiet man. You know,
really unless you ask him questions he really don’t
[sic] talk.” CTr. IV 33. And, Norman Cleary, an inmate
with whom Smith celled at Oklahoma State Penitentiary for several years, noted “you can’t really hold a
conversation with [Smith].” MR2 Def. Ex. 8 at 9.
So too have correctional professionals observed
Smith’s limited ability to communicate. Jeremy
Rodolph, an Oklahoma County Jail Detention Officer,
described Smith’s interaction with other guards and
inmates to be “childlike.” CTr. IV 27. Describing Smith’s
inability to engage in spontaneous conversation,
another jail employee commented that Smith “never
really speaks, unless I speak to him.” Id. at 59.
Instead, Smith “is usually quiet. He smiles a lot.” Id.
Further, in 1998, long before any incentive to feign
intellectual disability existed, Dr. Wakeford, a psychologist with Oklahoma State Penitentiary, noted that
Smith wanted a single cell, but he “doesn’t know how
to ask.” He also commented that Smith is “probably
M.R. [mentally retarded].” Att. 11, DOC records
8/13/1998.
Family members confirm that Smith often kept
to himself and had a hard time understanding and
engaging in communication. Family members describe
their conversations with Smith as repetitive, RTr. V
84; RTr. Vol. VI 117, lacking depth, RTr. Vol. V 85,
and typically not initiated by Smith. RTr. VI 117. In
a recollection that poignantly illustrates the extent of
Smith’s limited ability to understand communication,
his mother recalled when Smith was in early elementary school, he would at times walk home in the
middle of the school day. When Ms. Cates walked

App.219a
Smith back to school and asked his teacher why he
was leaving the school grounds, she discovered the
teachers told him he could go outside to play. Smith
“took it as being” told to go home. MR2 IV 8.
b. Smith Possesses the Functional Academics of a Child in Kindergarten to First
Grade.
Functional academics involve the ability to understand what is learned and to apply the lessons to
everyday living. RTr. VII 55. Testing and collateral
sources confirm that Mr. Smith’s academic functioning
is “quite defective.” MR2 II 66. As previously discussed, Smith spent most, if not the entirety, of his
academic career in special education classes for the
educable mentally handicapped. And, by all accounts,
Smith is functionally illiterate.19 RTr. VII 54; Att. 6
at 10; MR2 II 67; MR2 III 34; Id. at 48; Id. at 70; Id.
at 109. These pieces are just part of the picture portraying a man whose academic functioning is “in
terms of grade level, Kindergarten or first grade.”
MR2 II 66.
Formal adaptive behavior assessments show that
Smith suffers from significant deficits in this domain.
During Dr. Hopewell’s assessment of Smith’s functional academics, Dr. Hopewell administered the Wide
Range Achievement Test II (WRAT-III) in addition to
The Vineland. See Att. 4 at 1. The WRAT-III is a basic
test measuring one’s ability in reading, writing, and
arithmetic. MR2 II 65. On the reading and spelling
19 Functional illiteracy is the inability to read or write well enough
to accomplish everyday tasks; it differs from pure illiteracy,
which is the inability to read or write at all.

App.220a
components of the WRAT-III, Mr. Smith scored at the
kindergarten level, and on the arithmetic component,
he scored at the first-grade level.20 See Att. 4 at 2.
Smith’s results on Dr. Hall’s measure of functional
academics are similar. On the ABAS-II, Smith scored
three standard deviations below the mean in this
domain. Att. 5 at 11. Noting that Smith “was never
able to progress sufficiently in school to read or write
to any extent” and that Smith “does not have sufficient
math skills to handle bill paying, purchases, or
budgeting,” Dr. Hall concluded that Smith has “clear
and substantial deficits in this domain.” Id.
Smith’s special education teachers highlight his
limited ability to learn information and apply such
information in a practical way. Mr. Preston, one of
Smith’s EMH teachers, recalled that Smith’s reading
skills were so poor, Mr. Preston had to help him fill
out job applications for such basic jobs as a sacker in
a grocery store. MR2 III 32, 34. Ms. Autry, another
one of Smith’s EMH teachers, prioritized teaching
her students basic “survival skills” so that her students
could “be functional in society.” Id. at 97. Such
survival skills included rudimentary budgeting, basic
reading skills to facilitate finding a job, and using
money in the marketplace. Id. at 97-99; RTr. V 104.
Despite her emphasis on reading, she never asked
20 Although neither Dr. Ruwe nor Dr. Call assessed Smith’s
adaptive behavior, they both administered versions of the
WRAT to him. Dr. Call gave Smith the WRAT-III, and Smith
performed at the preschool level on reading and spelling, and he
performed at the kindergarten level on arithmetic. RTr. VI 152.
On Dr. Ruwe’s administration of the WRAT-IV, Smith performed
at the kindergarten level on reading, spelling, and sentence
comprehension, and he performed almost to the second-grade
level on math computation. RTr. VIII 57-58.

App.221a
Smith to read aloud in class because “you don’t embarrass students or humiliate them. . . . His capabilities
just weren’t there.” RTr. V 105. Not only did Mr.
Smith lack the capabilities for basic reading, he could
not construct sentences very well. Id. at 106. Nor
could Smith apply math skills beyond very basic addition and matching. Id. According to Ms. Autry, Smith’s
inability to learn such basic concepts was not due to
lack of effort on his part:
[A]s a Special Ed teacher, you just hope and
pray that one day the light bulb comes on.
You practice, and you practice, and you
practice and sometimes students will catch
it and it’s there for a while and sometimes
they don’t. But you’ve got to continue that
repetition. . . . [With Roderick] [i]t was difficult. It was very[,] very difficult. He tried.
He tried all the time to do a good job, but he
didn’t always catch it.

Id. at 107.
Family members also detail Smith’s limitations
in his functional academic abilities. Several family
members recognize that Smith cannot read. MR2 III
70; RTr. VI 96; Id. at 118. Despite his inability to
read, Smith would “act like he was reading” the
newspaper. Id. at 117. When a family member asked
him “what’s going on in the paper,” Smith “would
talk about something totally different that wasn’t in
the paper.” Id. Bonita Jackson, Smith’s older cousin
who grew up with him, saw first-hand Smith’s inability
to apply basic, functional math in everyday life. She
recalls that when Smith was in high school he was
unable to count money for purchases and he would
walk away before clerks were able to give him his

App.222a
change.21 Id. at 97. Ms. Jackson also remembers that
when she and Smith were around 20 years old, she
went into labor at home with Smith present. Tasked
with timing Ms. Jackson’s contractions, Smith was
unable to use a stopwatch to accurately report the
rate at which her contractions came. Id. at 97-98.
Later in life, Smith’s functional academics did
not improve. He is and has been totally dependent on
cell mates for reading and writing correspondence
and filling out commissary slips. RTr. V 21; Id. at 59.
Recognizing Smith’s inability to read, Mr. Cleary
tried to teach Smith to read by using the Hooked on
Phonics series. MR2 Def. Ex. 8 at 8. After spending
several hours a day for six months, Cleary eventually
abandoned the project because “it was absolutely
hopeless.” Id. at 9. Illustrating Smith’s deficits in functional arithmetic, Cleary also recalled that “[Smith]
can’t play cards, . . . [N]obody likes for him to play
dominoes because he slows everything down. . . . [A]ll
he really does is just match the ends, the numbers.
He doesn’t know how to—any strategy or anything
like that.” Id. at 8. Smith’s deficits in functional
academics make him particularly vulnerable:
[he] doesn’t understand values on different
things. Like you can say if he’s got a bag of
potato chips that costs $1.05 and you’ve got
two sodas that cost 29 cents, . . . he thinks
he’s getting a great deal, he is getting two
for one if you give those two pops for that bag
21 Further confirming Smith’s inability to count change, Eugene
Wallace, a barber, recalls Smith “never paid attention to how
much money he got back,” and “didn’t know how to count
money.” Att. 25 at ¶6.

App.223a
of chips. People used to really take advantage
of [him] like that.

Id. at 18.
c. Smith Has Significant Deficits Both in
Home Living and in Health and Safety,
Placing Him More than Two Standard
Deviations Below the Mean in These
Domains.
The home living domain refers to skills related
to functioning in the home, including clothing care,
housekeeping, property maintenance, food preparation,
planning and budgeting for shopping, home safety,
and daily scheduling. Att. 5 at 9. The health and
safety domain relates to the maintenance of one’s
health and basic safety considerations. Id. at 11.
Because some skills have relevance to both domains,
the two domains will be considered together here.
Drs. Hopewell and Hall concluded that Smith
has significant deficits in these areas. The Vineland
Test, administered by Dr. Hopewell, measured what
was at that time known as “daily living,” which
included such skills as cooking and house maintenance.
MR2 II 58. For the daily living portion of The Vineland,
Dr. Hopewell estimated that Smith functioned at the
level of an almost six-year-old child. See Att. 4 at 7.
Dr. Hall’s subsequent and more complete adaptive
behavior assessment had similar results. On Dr. Hall’s
administration of the ABAS-II, Smith scored more
than two standard deviations below the mean in the
home living domain; in the domain of health and
safety, he scored three standard deviations below the
mean. Att. 5 at 9-10.

App.224a
Dr. Hall relied on much of the following information to support her findings: Smith has never lived
independently and without support. MR2 IV 28-29.
According to several family members, Smith’s mother
took careful care of him, even into his adulthood. When
Smith was in his early twenties, Ms. Cates “would do
everything for him like iron his clothes, run his bath
water. After she cooked she would fix his plate and
put it in front of him.” RTr. VI 119. Ms. Cates did not
treat her other two sons this way, despite their being
younger than Smith. Id. Smith was not required to
do chores around the house while growing up. RTr. V
79; RTr. VI 99. Fearing injury to Smith, Ms. Cates did
not teach him to cook. MR2 IV 9. And, “tasks such as
property maintenance and budgeting clearly exceed
his abilities.” Att. 5 at 10.
Unable to rely on the support of his mother,
Smith has relied on the support of other inmates
since his incarceration. As detailed above, Smith’s
cell mates help him with correspondence and anything
else that requires reading or writing. Smith has also
required the assistance of inmates in using the telephone system at Oklahoma County Jail. RTr. V 6364. Demonstrating Smith’s deficits in health and
safety, Mr. Cleary recalled that more than once he
discovered Smith “sitting in his socks and the whole
toe of his socks [was] just blood red. And I will say,
Man, what did you do? He’ll say, Oh, I was trying to
cut my toenails and slipped again.” MR2 Def. Ex. 8
at 17. Cleary would often “do first aid on [Smith’s]
toes and put Band-Aids on him and stuff.” Id. at 18.

App.225a
d. Smith Has Significant Limitations in
the Social Domain.
Social skill limitations and intellectual disability
have always been closely intertwined because social
skills have a cognitive foundation. Leffert, J.S.,
Siperstein, G.N., & Widaman, K.F., Social Perception in
Children with Intellectual Disabilities: The Interpretation of Benign and Hostile Intentions, 54 Intell.
Disability Res. 168, 169 (2010). Skills related to this
domain include social exchanges with others, displaying
appropriate social behavior, and conforming conduct
with laws. Att. 5 at 10. As with the four domains discussed above, Mr. Smith has significant deficits in this
domain.
Smith’s deficits in this domain are confirmed by
formal adaptive behavior assessments. Dr. Hopewell
found that Smith operates in the lower 2% of the
population in this domain; he estimated Smith’s
skills in this domain are equivalent to an almost sixyear-old child. See Att. 4 at 7. Although Dr. Hall
estimated somewhat higher functioning than did Dr.
Hopewell in this domain, she still found that Smith
fell two standard deviations below the mean. Att. 5
at 10. Specifically, Dr. Hall recognized the complexity
involved with assessing Smith’s adaptive social skills:
Information about his abilities in this area
is mixed . . . but it appears that Mr. Smith
has significant deficits in the Social domain.
He has always been able to form and maintain
relationships, but it appears that most of
those relationships have been with family
and have involved someone taking care of
him in one way or another. He does have
fairly good social skills at a superficial level,

App.226a
in that he is able to respond appropriately
and pleasantly to typical conversation. Ironically, this ability may mask his deficits to
the casual observer.

Id.
The people who knew Smith best are consistent
in their description of Smith’s social behavior. Cousins
with whom Smith was raised describe him in the
following ways: “a “loner-type person, always to himself,” MR2 III 70; “quiet, distant. Kind of a loaner
[sic],” RTr. VI 95; “[h]e didn’t have many friends,”
CTr. III 201; and “I just don’t think he was very . . .
sociable.” Id. at 202. Smith’s cousin, Shawn Gallahar,
recognized Smith’s limited coping skills; he recalled
that when Smith was 17 or 18 years old, if Smith
“g[o]t frustrated, the way he actually would handle it
was kind of—it struck kind of odd to me. He would
actually go into a closet. . . . Just sit in the closet.”
RTr. VI 211. Despite being six years younger than
Smith, Mr. Gallahar knew this response was not
normal for an older teenager. Id. at 211-12. So too
did Smith’s mother recognize that he did not respond
to frustration in age-appropriate ways. Ms. Cates
describes Smith as acting “just like a two-year-old”
when being teased by neighborhood children. “[S]ometimes he would go up under the . . . porch in the back
and he would go up under there and I guess you
would call it hiding from them.” MR2 IV 7.
3. Smith’s Intellectual Disability Manifested Itself
Prior to the Age of 18.
The most valid approach to establishing whether
intellectual disability manifested during the developmental period is to see if there is evidence of what

App.227a
has been termed a “continuity of concern.” Greenspan,
S., Homicide Defendants with Intellectual Disabilities:
Issues in the Diagnosis in Capital Cases, 19 Exceptionality, 219, 230 (2011). This term means that
various people, both professionals and non-professionals, described the defendant from an early age as
“slow” or as needing help in mastering various life
tasks that individuals of the same age and cultural
background are expected to master without assistance.
Id. The key is not whether the person was formally
diagnosed as having intellectual disability before
turning 18, but rather, whether there were signs that
the post-18 impairment did not suddenly emerge.22

Id.

Undoubtedly, Smith’s placement in EMH classes
when he was in early elementary school proves that
Smith’s impairments did not suddenly emerge after
he turned 18. Teacher recommendation and IQ testing
22 Oklahoma has adopted a continuity-of-concern approach. As
the OCCA determined in Murphy v. State, 54 P.3d 556, 568
n.19 (Okla. Crim. App. 2006), overruled in part by Blonner v.
State, 127 P.3d 1135, 1139 (Okla. Crim. App. 2006), “[m]anifestation before the age of eighteen is . . . intended to establish
that the first signs of mental retardation were recognized before
the defendant turned eighteen. Lay opinion and poor school records
may be considered. Thus, a defendant need not, necessarily,
introduce an intelligence quotient test administered before the
age of eighteen or medical opinion given before the age of
eighteen in order to prove his or her mental retardation
manifested before the age of eighteen.” This approach was later
codified in Okla. Stat. tit. 21, § 701.10b(B). Despite the clear
language in Murphy, the instructions given at Mr. Smith’s Atkins
proceedings required the heightened burden that a defendant’s
“mental retardation” be “present and known before the Defendant
was eighteen (18) years of age.” O.R. VI 1138. (emphasis added).
See Ground Two, infra at 67-74 addressing this error.

App.228a
were required for placement, and Smith clearly met
the standards for placement year after year.
In addition to the professionals who recognized
Smith had intellectual deficits long before his turning
18, his mother knew Smith was “very, very slow,”
even when he was a baby. MR2 IV 6. Ms. Cates
recalls:
[H]e wasn’t like an ordinary one-year-old
child. He wasn’t fast. It took me longer to
potty train him. And he wasn’t really active.
He wasn’t—would be to himself all the time
and—you know, he just acted like he wouldn’t
understand what I would be saying to him,
you know . . . [H]e was almost three years
old [when he learned to walk] . . . He didn’t
actually begin to talk until he was maybe
four or five. And sometimes I couldn’t
understand what he was saying at four or
five. Because he would constantly whine if
you asked him something . . . [Neighborhood
kids] would tease him, and you know and—
you know, kids are cruel.

Id. at 6-7.
B.

Dispelling the Myths Surrounding Intellectual
Disability: the Intellectually Disabled Have
Strengths That Co-Exist with Their Intellectual
Deficits, and Having Strengths Does Not Negate
or Contradict Their Disability.

When faced with such overwhelming evidence of
Smith’s intellectual disability, one may ask how he
has not been given the protection to which he obviously
is so entitled under Atkins. The answer is that mem-

App.229a
bers of the public, including judges, jurors, and prosecutors, underestimate the abilities of individuals with
intellectual disability. Intellectual disability occurs
along a continuum, as does intellectual ability, and
those who have mild intellectual disability are at the
upper end of the continuum of intellectual limitations,
displaying general intellectual functioning in the IQ
range of 55-75. Att. 3 at 6. Like Smith, “most of these
individuals are physically indistinguishable from the
general population because no specific physical features
are associated with intellectual disability at the
higher IQs.” Id. Yet, stereotypes held by the public
are typically grounded in “an implicit behavioral and
physical phenotype, which is more appropriate to
moderate or severe ID [intellectual disability], where
behavioral and physical characteristics are obvious
and limitations are fairly global.” Greenspan, supra,
at 220.
The skills possessed by intellectually disabled individuals “vary considerably, and the fact that an
individual possesses one or more that might be thought
by some laypersons as inconsistent with the diagnosis
(such as holding a menial job . . . ) cannot be taken as
disqualifying.” James W. Ellis, Mental Retardation
and the Death Penalty: A Guide to State Legislative
Issues, 27 Mental and Physical Disability L. Rep. 11,
13 n.29 (2003). In fact, competence in certain day-today tasks is not at all inconsistent with a diagnosis of
intellectual disability; to believe otherwise fundamentally misapprehends the nature of intellectual disability. Frank J. Floyd et al., The Transition to
Adulthood for Individuals with Intellectual Disability,
37 Int’l Rev. of Research in Mental Retardation 31
(2009). See also S.A. Richardson, M. Katz, and H.

App.230a
Koller, Patterns and Leisure Activities of Young Adults
with Mental Retardation, 98 Am. J. Mental Retardation 431, 431-32 (1993) (noting that individuals with
mild intellectual disability “are members of families,
have friends, work, marry, and have children.”).
Individuals suffering from mild intellectual disability, like Smith, can and do “develop enough
superficial social skills that in just a superficial conversation you would never have a clue [they were
intellectually disabled].” RTr. VII 60. Not only can
the intellectually disabled marry and raise a family, but
they can also lie and cheat on their spouses. Id. And,
one certainly cannot determine whether an individual
suffers from intellectual disability solely by looking at
or occasionally speaking to that person. Id.
C.

The OCCA Acted Unreasonably by Finding the
Record in Smith’s Atkins Proceeding Supported
the Jury’s Verdict That Smith Is Not Mentally
Retarded.

In Smith’s case, the OCCA concluded the record
supported the verdict finding Smith “not mentally
retarded.” Att. 1. In coming to this conclusion, the
OCCA disregarded the clinical diagnostic practices
and definitions of professionals in the field of intellectual disability by substituting its own I-know-itwhen-I-see-it approach. The OCCA’s failure to adhere to
clinical diagnostic practices is clearly an unreasonable
application of and contrary to Atkins.
In Atkins, the Court left to “the State[s] the task
of developing appropriate ways to enforce the constitutional restriction.” Atkins, 536 U.S. at 317 (quoting
Ford v. Wainwright, 477 U.S. 399, 405 (1986)). “Appropriate” procedures, however, necessarily are tethered

App.231a
to clinical definitions and practices, as demonstrated
by the Court’s reliance on and references to clinical
definitions of mental retardation in the Atkins opinion.
Id. at 309 n.3, 318. “The clinical definitions of intellectual disability . . . were a fundamental premise of
Atkins.” Hall, 134 S.Ct. at 1999.
In Hall, the Supreme Court effectively redoubled
its commitment to ensuring the intellectually disabled
are not unlawfully executed by emphasizing clinical
definitions and diagnostic practices. As the Court in
Hall recognized, “[i]f the States were to have complete
autonomy to define intellectual disability as they
wished, the Court’s decision in Atkins would become
a nullity, and the Eighth Amendment’s protection of
human dignity would not become a reality.” Hall, 134
S.Ct. at 1999. One clear message from Atkins and
Hall is that courts and legislatures should not act
inconsistently with the consensus of professionals in
the field of intellectual disability. Id. at 1993.
The Sixth Circuit has acknowledged the importance of accepted clinical practices and has granted
habeas relief based on the state court’s “failure to
adhere to the clinical framework” required by Atkins
and Hall. Van Tran v. Colson, 764 F.3d 594, 608, 621
(6th Cir. 2014). Specifically, the court held the state
court of appeals was unreasonable in its determination
that the petitioner was not intellectually disabled
because it did not rely on clinical methods and definitions. Id. at 612. The court reasoned that “the Constitution requires the courts and legislatures to follow
clinical practices in defining intellectual disability.”

Id.

App.232a
Here, the OCCA dispensed with diagnostic criteria
and valid test results altogether when it concluded
the following:
The evidence presented at trial supports a
finding that Smith failed to meet even the
first prong of the Murphy definition of mental
retardation. The evidence, viewed in the
light most favorable to the State, portrayed
Smith as a person who is able to understand
and process information, to communicate, to
understand the reactions of others, to learn
from experience or mistakes, and to engage
in logical reasoning. He held down a job with
supervisory functions, carried on an affair,
argued motions on his own behalf and manipulated those around him. The jury’s verdict
finding that Smith is not mentally retarded
is justified.
Att. 1 at 10. The OCCA acted inconsistently with the
consensus of professionals in the field of intellectual
disability and unreasonably ignored the requirements of
Atkins.
The OCCA’s determination that Smith failed to
meet even the first prong of the mental retardation
definition is patently unreasonable. In coming to this
conclusion, the OCCA’s “overemphasis on certain
perceived strengths, inferred from anecdotal evidence,
is inconsistent with the expert testimony and accepted
professional analyses.” Van Tran, 764 F.3d at 609.
Despite the fact that Smith’s IQ results on three
separate scientifically recognized tests23 were remark23 These three test results were confirmed by the subsequent
testing of Drs. Hall and Ruwe.

App.233a
ably consistent and well within the range of intellectual
disability, the OCCA relied instead on its own
uninformed beliefs about the mildly intellectually disabled. Sadly, the OCCA supported its decision with
the type of stereotypes about the intellectually disabled discussed above.24
Nothing about Smith holding the job of janitor and
eventually being promoted to head janitor contradicts
the fact that he is intellectually disabled. MR2 II
105-07; see also Att. 3 at 11-12. Persons with intellectual disability are “very capable of getting and maintaining jobs,” especially jobs which do not require
complex activities.25 Id. In fact, jobs in the cleaning
industry are some of the most commonly held by the
intellectually disabled population.26 Id.
The supervisory duties attributed to Smith’s
position as a head janitor were truly illusory. In relying
on his supervisory status, the OCCA unreasonably
ignored the evidence of Smith’s network of family
support on the job. He got the job only because his
aunt already worked for the company and assisted
him in getting it. MR2 III 73. In addition to Smith’s
24 The jurors who served at Smith’s Atkins trial also engaged
in the type of stereotyping discussed above. See Att. 13,
Affidavit of Glenda Holliday, ¶5.
25 Smith’s assignments when he served as head custodian were
simple and routine. They included the following: vacuuming,
dusting, emptying trash, cleaning restrooms, stocking restrooms,
mopping, cleaning chalkboards, shampooing carpets, changing
light bulbs, and minor maintenance. See Att. 14, St. Ex. 147
from 1994 trial; MR2 III 73.
26 This explains why janitorial training was offered as part of
Smith’s EMH classes in high school.

App.234a
aunt, several other family members worked as janitors
at the same school. Id. And, Smith relied on his aunt
to do all the paperwork associated with his job. Id. at
73-74.
Although the OCCA pointed out that Smith was
entrusted to use a pager and enable an alarm system
as part of his responsibilities as a head janitor, Att. 1 at
9, such behavior is by no means beyond the capabilities
of a mildly intellectually disabled individual. As Dr.
Patton has observed through his contacts with hundreds of intellectually disabled individuals in the
course of his decades-long career, many individuals
with mild intellectual disability today use smart phones
which are “more difficult to use than the pager Smith
was provided.” Att. 3 at 12; MR2 St. Ex. 68. The
OCCA’s unreasonable reliance on such information
to endorse the verdict finding Smith not mentally
retarded flies in the face of Atkins.
The OCCA’s reliance on Smith’s ability to communicate and understand is also scientifically unsustainable and contrary to Atkins. Att.1 at 11. The court
focused on the testimony of witnesses who spent very
little time with Smith to substantiate this finding.
Id. at 8-10 (highlighting that Smith “was able to
communicate” with a former case manager, and he
was “very sociable” with an insurance agent who
spent no more than an hour total with him). To rely
on this evidence at the exclusion of the opinions of
Dr. Hopewell, Smith’s EMH teachers, and Smith’s
family is unreasonable. And, being mildly intellectual
disabled in no way precludes an individual from
being able to communicate; Results of The National

App.235a
Longitudinal Transition Study-227 indicate that 43%
of parents with intellectually disabled teenagers
report their children conversed just as well as other
children of the same age. Att. 3 at 13.
Even more indicative of the OCCA’s unreasonable
hostility to clinical definitions and diagnostic practices
is the court’s belief that Smith’s alleged clean-up of
the crime scene demonstrates his “ability to recognize
the wrongfulness of his criminal acts and to conceal
evidence of his crimes is relevant to the issue of
whether he is capable of logical reasoning and whether
he is mentally retarded.”28 Att. 1 at 4. Smith’s ability
to clean the carpets and hide the victim’s bodies in
closets and under a bed inside his home in the heat
of the summer in no way demonstrates “logical reasoning” relevant to the assessment of “whether he is
mentally retarded.” First, Smith had been a janitor
for several years, and he clearly possessed the skill
set to clean up. And even more importantly, attempting
to avoid getting into trouble “is very much consistent
with the behavior of individuals with [intellectual
disability].” Att. 3 at 14. The reasoning involved with
shampooing carpets and hiding bodies does “not
27 This is a comprehensive study commissioned by the United
States Department of Education to evaluate the experiences of
young people as they transition into adulthood. See http://www.
nlts2.org/faq.html#whatisit (last visited 5/14/15).
28 Somewhat related to the OCCA’s focus on Smith’s ability to
clean up a crime scene as evidence of logical thinking, is the
court’s focus on Smith’s ability to have an affair. Relying on
such evidence is not only unreasonable, but it directly contradicts the State’s expert, Dr. Call. MR2 VI 62. Even Dr. Call
acknowledged that intellectually disabled individuals are capable
of lying. Id.

App.236a
reflect a well-thought out plan to avoid anyone finding
the victims.” Id.; see also Van Tran, 764 F.3d at 60809 (finding the petitioner’s fleeing the jurisdiction
and selling the victim’s stolen goods after the crime
were “not so sophisticated or elaborate that the intellectually disabled could not have performed [them].”).
Finally, that Mr. Smith “argued motions on his
behalf” before his 1994 trial is of no import to
whether he is intellectual disabled, especially when
one scratches the surface of what really occurred. To
support its determination that Mr. Smith’s alleged
ability to argue motions indicates he is not intellectually
disabled, the court relied on the testimony of Fern
Smith, an assistant district attorney who prosecuted
Mr. Smith at his 1994 trial. Ms. Smith recalled that
prior to the 1994 trial, Mr. Smith filed two pro se motions. According to Ms. Smith one involved a motion
to dismiss the jury because “he said he was being
racially discriminated against by the jury and Judge
Freeman and by myself and Mr. Macy,” and the
other involved a motion to have counsel table moved
because he felt the prosecution “could possibly communicate with the jury by rolling our eyes or making
facial expressions to the jury.” MR2 IV 107. According
to Ms. Smith, when Mr. Smith attempted to defend
those motions in court, “he was articulate. He knew
what he was doing. He made good arguments to the
court and knew why he was presenting them and
articulated that to the court.” MR2 IV 103. However,
on cross-examination, Ms. Smith admitted that Mr.

App.237a
Smith may not have actually written the motions.29
Id. at 106.
Unlike the majority of the OCCA, Judge Chapel
recognized the importance of the issue with which
the court was faced:
[A]ll the witnesses with experience in mental
retardation agreed that one cannot tell if a
person is mildly mentally retarded by looking
at them, or in casual conversation. . . .

29 Had trial counsel for Mr. Smith simply read the transcript
for the hearing wherein Mr. Smith defended his motions, Ms.
Smith’s statement that Mr. Smith was “articulate” would have
been rich ground for cross-examination. See Oct. 18, 1994 Motion
Hearing, Oklahoma County Case No. CF-1993-3968. Further,
trial counsel should have been well aware that Mr. Smith did
not write either motion and should have been able to pointedly
cross-examine Ms. Smith on the matter. In 2001, as part of Mr.
Smith’s first habeas proceedings, his prior habeas counsel deposed
Ronald Veatch, a former inmate and jailhouse lawyer who celled
next to Mr. Smith at the Oklahoma County Jail before Mr.
Smith’s 1994 trial. Veatch testified that when he first met Mr.
Smith, Veatch “didn’t know if he was an idiot or something was
wrong.” Jan. 11, 2001 Depo. of Ronald Veatch at 9, Okla. West.
Dist. Case No. CIV-98-601. After being unable to make sense of
what Mr. Smith told him about his case, Veatch “agreed to take
[Mr. Smith’s case] on.” Id. at 10. Thinking that Mr. Smith did
not understand the severity of the situation, id. at 16, Veatch
wrote the pro se motions and coordinated with an outside service
to have the motions filed. Id. at 17-26. For several days, Veatch
“had to go over and over and over . . . stuff with him to try to get
him to understand what he had to do and what he had to say in
court. Id. at 27. It was “almost impossible” to make Mr. Smith
understand. Id. Trial counsel’s failure to capitalize on this
information during cross-examination of Ms. Smith is just
another example of their ineffectiveness. See Ground 3 for more
discussion of trial counsel’s ineffectiveness.

App.238a
Smith presented significant evidence of
mental retardation, including persons who
taught him as mentally retarded [sic] and test
scores which put him in the mentally
retarded range. The State certainly presented
testimony which cast doubt on some of
Smith’s evidence. I have the greatest respect
for our jury system. However, on reviewing
the entire case, I cannot conclude that Smith
is not, more likely than not, mentally
retarded. The constitutional issue in this
case, whether we may execute Smith for his
crimes, is of the utmost importance. Given the
extremely low burden of proof, I am compelled
to give Smith the benefit of any doubt I may
have. I cannot concur in a decision which
finds that Smith is not mentally retarded.
Att. 1, Chapel, J., dissenting, at 2-3 (emphasis added).
Judge Chapel clearly understood that the stereotypes
perpetuated by the majority did not negate or contradict
the overwhelming evidence of Smith’s intellectual
disability presented at his Atkins trial.
D.

Conclusion.

Roderick Smith is intellectually disabled. The
Supreme Court has recognized the lessened moral
culpability of defendants like Smith. Atkins, 536 U.S.
at 332. Smith’s death sentences are in clear violation
of Atkins and Hall. The Writ should issue to enable
new re-sentencing proceedings in which the death
penalty is precluded.

App.239a
TENTH CIRCUIT OPENING BRIEF OF
PETITIONER/APPELLANT RODERICK L. SMITH,
RELEVANT EXCERPTS
(AUGUST 3, 2018)
IN THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
________________________
RODERICK L. SMITH,

Petitioner/Appellant,
v.
MIKE CARPENTER,
Interim Warden, Oklahoma State Penitentiary,

Respondent/Appellee.

________________________

Case No. 17-6184 (Capital Case)
District Court: CIV-14-579-R (W.D. Okla.)
On Appeal from the United States District Court
for the Western District of Oklahoma
Case No. CIV-14-579-R
The Honorable David L. Russell, Federal District Judge
EMMA V. ROLLS, OBA # 18820
THOMAS D. HIRD, OBA # 13580
Assistant Federal Public Defenders
Western District of Oklahoma
215 Dean A. McGee, Suite 707
Oklahoma City, Oklahoma 73102
(405) 609-5975 telephone

App.240a
(405) 609-5976 facsimile
emma_rolls@fd.org
tom_hird@fd.org
Counsel for Petitioner/Appellant, Roderick L. Smith
ORAL ARGUMENT REQUESTED
Dated this August 3, 2018
[...]
PROPOSITION ONE
Smith’s Execution Is Prohibited by the
Eighth and Fourteenth Amendments
Because He Is Intellectually Disabled.
A.

Where the Claim Was Raised.

This claim was raised in Ground One of Smith’s
habeas petition, Doc. 18 at 6-46, and in his Motion
for Evidentiary Hearing, Doc. 38 at 3. The district
court denied relief. Doc. 47 at 6-25.
B.

Introduction.

Smith cannot legally be executed because he is
intellectually disabled. See Atkins v. Virginia, 536
U.S. 304 (2002). His IQ scores and overall adaptive
functioning place him squarely in the intellectuallydisabled range. Smith’s placement in special education
for the educable mentally handicapped from early
elementary school through high school demonstrates
his intellectual disability is not a feigned attempt to
avoid being executed, as the State of Oklahoma has
maintained; rather, the overwhelming evidence shows
Smith has suffered from intellectual disability since

App.241a
infancy. If the State of Oklahoma is allowed to execute
a man as intellectually impaired as Roderick Smith,
then the constitutional protection announced in Atkins
and later reinforced in Hall v. Florida, 134 S. Ct. 1986
(2014), Brumfield v. Cain, 135 S. Ct. 2269 (2015), and
Moore v. Texas, 137 S. Ct. 1039 (2017) surely would be
meaningless.9
In Atkins, the Supreme Court categorically banned
the execution of the intellectually disabled. And
although the Court tasked the states with developing
their own procedures for determining whether someone
is intellectually disabled, Atkins, 536 U.S. at 317, the
Court “did not give the States unfettered discretion
to define the full scope of the constitutional protection,”
Hall, 134 S. Ct. at 1998.
Instead, the Supreme Court charged the states
with “developing appropriate ways to enforce the
constitutional restriction.” Atkins, 536 U.S. at 317
(emphasis added). If states were given “complete autonomy to define intellectual disability as they wished,
the Court’s decision in Atkins could become a nullity.”
Hall, 134 S. Ct. at 1999. As the Court has continued
to emphasize, to determine whether a criminal defendant is intellectually disabled requires the consideration
of the informed views of clinical experts and the application of current clinical standards.10 Hall, 134 S. Ct.
9 “Although they were decided after the state court decision in
[Smith’s] case, the primary holdings in Hall and Moore were compelled by Atkins. Both are illustrations of what was previously
established in Atkins.” Hill v. Anderson, 881 F.3d 483, 491 (6th
Cir. 2018).
10 In Atkins the Supreme Court relied on the clinical definitions
of mental retardation promulgated by the American Psychiatric
Association (“APA”) and the American Association on Mental

App.242a
at 2000; Brumfield, 135 S. Ct. at 2276-82; Moore, 137
S. Ct. at 1053.
Smith recognizes when challenging the sufficiency
of evidence following a jury verdict finding him not
mentally retarded, a reviewing court must apply
Jackson v. Virginia, 443 U.S. 307, 319 (1979) to determine “whether, viewing the evidence in the light
most favorable to the prevailing party (the State),
any rational trier of fact could have found [Smith] not
mentally retarded by a preponderance of the evidence.”
Hooks v. Workman, 689 F.3d 1148, 1166 (10th Cir.
2012). But a state court’s ability to correctly cite the
sufficiency standard is not the end of the inquiry.
Smith’s sufficiency challenge “inescapably requires
[consideration of] the kinds of evidence that state
courts may (or may not) rely upon in adjudicating an
Atkins claim.” Id.
The Constitution’s prohibition on execution of
the intellectually disabled is not observed by the execution of a man whom clinical experts collectively find
is intellectually disabled, particularly when the State’s
own expert is unable to find otherwise. Cooper v.
Oklahoma, 517 U.S. 348, 367-68 (1996) (finding procedures permitting trial of individual more likely than
not incompetent deeply offensive to fundamental principles). Here, the evidence presented at Smith’s Atkins
trial demonstrating his intellectual disability was
compelling.

Retardation (“AAMR”) to emphasize the clinical underpinning
of the constitutional restriction. Atkins, 536 U.S. at 308 n.3, 317
n.22.

App.243a
C.

Smith Established by a Preponderance of the
Evidence He is Intellectually Disabled and No
Rational Jury Could Have Found Otherwise.

At his Atkins trial, Smith carried the burden to
prove by a preponderance of the evidence 1) that he
functions at a significantly sub-average intellectual
level that substantially limits his ability to understand
and process information, to communicate, to learn
from experience or mistakes, to engage in logical
reasoning, to control impulses, and to understand the
reactions of others; 2) that his mental retardation
manifested itself before the age of 18; and 3) that he
has significant limitations in adaptive functioning in
at least two of the nine listed skill areas. Attachment
4 at 6 & n.8. Undoubtedly, Smith presented sufficient
evidence to prove his intellectual disability, especially
under this low evidentiary standard.
1. Significantly Sub-Average Intellectual Functioning.
The operational definition of the first criterion
for intellectual disability—significant limitations in
intellectual functioning—is defined as follows:
[A]n IQ score that is approximately two standard deviations below the mean, considering
the standard error of measurement for the
specific assessment instruments used and the
instruments’ strengths and limitations.
American Association on Intellectual and Developmental Disabilities (“AAIDD”), Intellectual Disability:

Definition, Classification, and Systems of Supports

at 27 (11th ed. 2010). “[A] test taker who performs
‘two or more standard deviations from the mean’ will

App.244a
score approximately 30 points below the mean on an
IQ test, i.e., a score of approximately 70 points.” Hall,
134 S. Ct. at 1994. One should keep in mind, however,
that “IQ scores represent a range, not a fixed number.”
Id. at 1999.
Further, only a limited number of IQ tests available provide an appropriate assessment of the general
factor of intelligence. See The Death Penalty and
Intellectual Disability at 129 (Edward A. Polloway ed.
2015) (hereinafter Polloway). The Wechsler Adult
Intelligence Scale (“WAIS”) is one of the most widely
used and trusted instruments. Id. at 129-30.
Not one expert who testified at Smith’s Atkins
trial concluded he was “not mentally retarded.” In fact,
all of the experts who testified at Smith’s Atkins
trial, including State’s expert Dr. Call, came up with
similar IQ test results on versions of the WAIS, all of
which place Smith well below an IQ of 70. See supra
at 8-9 (discussing testimony and testing results of
Dr. Smith,11 Dr. Hopewell, and Dr. Call). And although
Dr. Call testified he did not think Dr. Hopewell’s
results and his results were “accurate reflections of
[Smith’s] best performance” because he believed Smith
was malingering, MR2 VI 39, he refused to say Smith
is “not mentally retarded.” Id. at 67 (When asked by
defense counsel “[b]ased on your testing and your
review of the records in this case, can you say that
11 As noted, Smith received a 65 on Dr. Smith’s 1997 administration of the outdated WAIS-R. Supra at 8-9. The district
court erroneously referred to this test as resulting in a score of
70. Doc. 47 at 14 (noting “Dr. Call . . . took note of other IQ tests
Petitioner had taken . . . in 1997, he received a 70.”) In fact, Dr.
Call said the 1997 resulted in a “[f]ull [s]cale IQ of 65; Verbal
IQ of 64; Performance IQ of 70.” MR2 VI at 35-36.

App.245a
Roderick Lynn Smith is not mentally retarded?” Dr.
Call responded “No”). Id.
Dr. Call’s opinion that Smith failed to put forth
his best efforts is completely at odds with the opinion
of Dr. Hopewell. According to Dr. Hopewell, he “never
saw any indication that [Smith] was faking, either
when [Smith] was working with [Hopewell] or in the
other tests that [Smith] had done with other people.”
MR2 II 73. Dr. Hopewell’s unique experience makes
him especially astute at detecting malingering. Not
only does he possess in-depth clinical experience
assessing the intellectually disabled, id. at 37-38, he
also has experience screening benefit applicants,
which involved “frequently finding people that would
like to get benefits,” so they exaggerated symptoms.
Id. at 39. Additionally, Dr. Hopewell served as an
Army psychologist, and in that role, he “had much
more experience with malingering and faking because
we saw so much of that happening in the military.
. . . [W]e saw literally hundreds of patients where that
was a consideration.” Id.
Dr. Smith also contradicted any allegations of
Smith’s alleged malingering. Although DOC psychologist Dr. Smith was initially skeptical Smith’s 1997
full-scale score of 65 on the outdated WAIS-R was
based on Smith’s best effort, MR2 III 167-68, since
that time Dr. Smith “took a closer look” and “was
very much struck” by consistency in the results of his
WAIS-R testing and the results of other psychological
testing. Id. The consistency amongst all the results
“was quite remarkable and it shows a consistent
pattern rather than faking.” Id. at 168. Dr. Smith’s
initial “gut feeling” was eventually replaced by a clinical
determination that the 65 on the outdated WAIS-R

App.246a
was accurate based on “objective test results.” Id. at
166.12
Dr. Call’s malingering opinion was countered
with overwhelming evidence to the contrary. The majority of Call’s practice is forensic rather than clinical.
MR2 VI 40. Of the few clinical clients Call has, none
are intellectually disabled. Id. at 41. Particularly for
those practitioners who have little or no clinical experience with the intellectually disabled, like Dr. Call,
malingering may be suspected as a result of confusion
related to a combination of psychiatric symptoms,
neurological symptoms, and cognitive deficits. Polloway
at 270.
Further, in the past Dr. Call has been quick to
undermine reported IQ scores which place a criminal
defendant in the intellectually-disabled range based
on an allegation of malingering.13 He has supported
such allegations with results obtained from “The
12 In addition to the WAIS-R, Dr. Smith also administered the
Raven’s Progressive Matrices to Smith. MR2 III 161. Instead of
resulting in specific scores, the Raven’s results in “a very
general rough IQ range.” Id. Smith scored in the range of 69-78.
Id. at 62. The WAIS-R more accurately depicted Smith’s true
intellectual functioning because “[t]he Wechsler Scale is the
premier instrument.” Id. The Raven’s is not recognized as one of
the few tests that serve as an appropriate assessment of the
general factor of intelligence. Polloway at 129-30.
13 In the years immediately after Atkins, Dr. Call, despite his
admitted lack of clinical experience with the intellectually
disabled, “made a specialty of examining capital defendants for
mental retardation” for the prosecution. See Lambert v. State,
126 P.3d 646, 652 (Okla. Crim. App. 2005). In each of these
cases, Dr. Call either administered or attempted to administer
several malingering tests as he did in Smith’s case. Id. at 652
n.17.

App.247a
Blackwell Memory Test,” a made-up malingering test
which he created and named after his secretary. See
Salazar v. State, 126 P.3d 625, 629-34 (Okla. Crim.
App. 2005) (vacating death sentence based on counsel’s
failure to investigate Call’s use of a non-standardized
malingering test when Call suggested defense expert
was “unethical to administer tests” that have norms
the petitioner did not fall within). Call appears to
have administered this non-standardized, self-created
test during his evaluation of Smith. O.R. V 921. Doc.
18, Atts. 8 and 9. This alone makes Dr. Call’s opinion
dubious.
What is more, Dr. Call’s opinion Smith was not
putting forth his best effort was based in part on
Smith’s results on the Test of Memory Malingering
(TOMM), MR2 VI 13-18, a test with a standardization
sampling representation which did not include the
intellectually disabled. Polloway at 270-71. A review
of this test has indicated its reliability and validity
are highly suspect when it is administered to the intellectually disabled. Id. As the Seventh Circuit has recognized, “a defendant cannot readily feign the symptoms
of mental retardation.” Newman v. Harrington, 726
F.3d 921, 929 (7th Cir. 2013).
Dr. Call also relied on the results of testing from
1994 by Dr. Phillip Murphy, which indicated Smith
had an IQ of 73, to opine Smith malingered on later
tests. MR2 VI 34-37. But reasons exist to doubt the
validity of Murphy’s results used to support Call’s
malingering allegation. First, a few years after Murphy
testified at Smith’s original trial in 1994, he had
licensing problems for falsifying data and applying
scores from one test to another. See Doc. 18, Att. 7;

State ex rel. State Bd. of Exam’rs of Psychologists v.

App.248a

Murphy, Case No. ADML-99-0013 (placing Murphy

on probation for three years, and prohibiting him
from administering tests, interpreting tests, or writing
reports during probationary period without supervision). Second, nowhere in Call’s testimony at Smith’s
Atkins trial, nor in Murphy’s 1994 testimony for that
matter, is it mentioned what specific intelligence test
Murphy gave Smith. MR2 VI 35-36; Oct. 26, 1994
Trial in Oklahoma County Case No. CF-94-1199, Tr.
VIII at 89-159. And third, Call failed to consider, or
even mention to the jury, Murphy’s ultimate determination was Smith is “in the mentally retarded range.”
Id. at 124.
Further, there was no evidence presented to
counter significantly sub-average intellectual functioning, as shown through his placement in EMH classes
throughout the entirety of his schooling.14 See supra
at 10-13 (discussing testimony of EMH teachers, Mona
Autry, Paul Preston, and principal, Jesse Thompson).
No evidence was presented that a lack of effort resulted
in Smith’s longstanding placement in EMH classes.
And exacerbating his already-compromised intellectual
functioning, Smith suffered a near drowning when
he was 12, resulting in brain damage. MR2 II 51, 76,
78, 105; MR2 III 161, 165-66.
2. Manifestation Before Age 18.
The most valid approach to establishing whether
intellectual disability manifested during the develop14 Dr. Call’s allegation of malingering is further undermined by
Smith’s early placement in EMH classes because Smith would
have had to begin malingering in childhood, before any incentive to avoid the death penalty occurred. See Lambert, 126 P.3d
at 651 n.14.

App.249a
mental period is to see if there is evidence of what
has been termed a “continuity of concern.” Greenspan,
S., Homicide Defendants with Intellectual Disabilities:
Issues in the Diagnosis in Capital Cases, 19 Exceptionality 219, 230 (2011). This term means that
various people described the defendant from an early
age as “slow” or as needing help in mastering life tasks
that individuals of the same age and cultural background are expected to master. Id. The key is not
whether the person was formally diagnosed as having
intellectual disability before turning 18, but rather,
whether there were signs that the post-18 impairment
did not suddenly emerge. Id. (See Proposition Two).
Undoubtedly, Smith’s placement in EMH classes
when he was in early elementary school proves Smith’s
impairments did not suddenly emerge after he turned
18. Teacher recommendations and IQ testing were
required for placement, and Smith clearly met the
standards for placement year after year. See supra at
10-13.
In addition to the professionals who recognized
Smith had intellectual deficits long before turning 18,
his mother knew Smith was “very, very slow,” even
when he was a baby. MR2 IV 6. Ms. Cates recalls
[H]e wasn’t like an ordinary one-year-old
child. He wasn’t fast. It took me longer to
potty train him. And he wasn’t really active.
He wasn’t—he would be to himself all the
time and—you know, he just acted like he
wouldn’t understand what I would be saying
to him, you know. . . . [H]e was almost three
years old [when he learned to walk] . . . He
didn’t actually begin to talk until he was
maybe four or five. And sometimes I couldn’t

App.250a
understand what he was saying at four or
five. Because he would constantly whine if
you asked him something . . . [Neighborhood
kids] would tease him, and you know and—
you know, kids are cruel.

Id. at 6-7.
3. Significant Limitations in Adaptive Functioning.
While intelligence, as measured by IQ, has predominated as the primary criterion for diagnosing intellectual disability, sub-average intellectual functioning
must coexist with related limitations in two or more
areas of adaptive behavior.15 Atkins, 536 U.S. at 308
n.3. Crucial is the fundamental precept that adaptive
behavior must be evaluated on a deficit model:
Intellectually disabled individuals, like all individuals,
have strengths, and these strengths do not negate their
disability. See Moore, 137 S. Ct. at 1050 (noting “the
medical community focuses the adaptive-functioning
inquiry on adaptive deficits”); see also Brumfield, 135
S. Ct. at 2281 (finding “intellectually disabled persons
have ‘strengths in social or physical capabilities,
strengths in some adaptive skill areas, or strengths
in one aspect of an adaptive skill in which they otherwise show an overall limitation’”) (quoting Mental
Retardation: Definition, Classification, and Systems
of Supports at 8 (AAMR, 10th ed. 2002)).
15 At the time of Smith’s Atkins trial, Oklahoma required a
showing of significant limitations in two or more of the
following areas: communication; self-care; social/interpersonal
skills; home living; self-direction; academics; health and safety;
use of community resources; and work. Attachment 4 at 6 n.8.

App.251a
Of the three experts who testified at Smith’s
Atkins trial, only Dr. Hopewell conducted an adaptive
behavior assessment. MR2 II 58-61; MR2 III 164; MR2
VI 45-46. Based on Smith’s results on The Vineland
and the WRAT-III, Dr. Hopewell concluded Smith
suffers from profound deficits in communication, see
supra at 15-16; functional academics, see supra at
18; social skills, see supra at 21; and home living/
health and safety, see supra at 22-23. Smith’s family
members, former EMH teachers, and former cell
mates corroborated Dr. Hopewell’s formal findings
with anecdotal evidence. See supra at 17, 20-21, 23-24,
25 (discussing testimony of Norman Cleary); supra at
19 (discussing testimony of EMH teachers); supra at
22-23 (discussing testimony of Smith’s mother).
Dr. Call was quick to criticize Dr. Hopewell’s
methods, but he failed to administer his own adaptive
behavior tests. MR2 VI 23-24, 45-46. And although
Dr. Call acknowledged adaptive behavior is difficult
to measure in prison because of the highly structured
environment, MR2 VI 48, he nonetheless relied on
“general information” he obtained from an unnamed
DOC psychologist and an unnamed DOC guard to
irrationally concluded Smith had no deficiencies. Id.
at 31-32.
D.

The OCCA Acted Unreasonably by Finding the
Record Supported the Jury’s Verdict That Smith
Is “Not Mentally Retarded,” and the District
Court Erred by Endorsing Such Opinion.

The OCCA concluded the record supported the
jury’s verdict finding Smith “not mentally retarded.”
Attachment 4 at 11. But by failing to adhere to accepted
clinical practices, the OCCA’s decision to uphold the

App.252a
jury determination was not an appropriate way to
enforce Atkins’ constitutional prohibition. Hence, it
was an unreasonable application of and contrary to
Atkins and its progeny. § 2254(d)(1). Moreover, OCCA’s
willingness to ignore abundant evidence strongly
rebutting the jury verdict of “not mentally retarded”
and to substitute its own arbitrary standards resulted
in several unreasonable determinations of fact. § 2254
(d)(2). Further, the district court erred by failing to
consider the import of Atkins’ clinical underpinnings
in its analysis, instead focusing exclusively on the
Jackson standard. In doing so, the district court
engaged in the same unreasonable decision-making
as OCCA.
The OCCA dispensed with diagnostic criteria and
valid test results altogether when it concluded
The evidence presented at trial supports a
finding that Smith failed to meet even the
first prong of the Murphy definition of mental
retardation. The evidence, viewed in the
light most favorable to the State, portrayed
Smith as a person who is able to understand
and process information, to communicate, to
understand the reaction of others, to learn
from experience or mistakes, and to engage
in logical reasoning. He held down a job with
supervisory functions, carried on an affair,
argued motions on his own behalf and manipulated those around him. The jury’s verdict
finding that Smith is not mentally retarded
is justified.
Attachment 4 at 11. In an effort to discount the strong
clinical evidence presented on Smith’s behalf, the
court noted “the State presented persuasive evidence

App.253a
from lay witnesses to refute Smith’s evidence of subaverage intellectual functioning and of adaptive
deficits.” Id. at 8.
OCCA’s determination that Smith “failed to
meet even the first prong of the Murphy definition” is
an unreasonable determination of fact, and Pruitt v.
Neal, 788 F.3d 248 (7th Cir. 2015) illustrates as much.
In Pruitt, the court held the state court’s reliance “on
inaccurate assumptions and select pieces of evidence”
to conclude the petitioner did not suffer from significantly sub-average intellectual functioning constituted
an unreasonable determination of fact under § 2254
(d)(2). Id. at 268-69. The evidence relied on by the state
court included the petitioner’s ability to fill out job
applications, his capacity to support himself financially,
and his work history as a dishwasher, truck driver,
carpenter, and laborer. Id.
The types of “inaccurate assumptions” and “select
pieces” of evidence relied on by the state court in Pruitt
are precisely what OCCA relied on in its decision
finding Mr. Smith “failed to meet even the first prong”
of “mental retardation.” At the exclusion of Mr. Smith’s
IQ scores on scientifically-recognized tests, which all
fell well within the intellectually-disabled range, OCCA
relied on Mr. Smith’s work history as a head janitor,16

16 The “supervisory duties” ascribed to Mr. Smith’s position as
a head janitor were nothing more than illusory. In relying on
his supervisory status, OCCA unreasonably ignored the evidence
of Smith’s network of family support on the job. Smith was
hired by a family member and relied on his aunt to do all the
paperwork. MR2 III 73-74. Further, Smith’s assignments as
head janitor were simple and routine. Id.

App.254a
his ability to carry on an affair,17 an isolated instance
of his having argued pro-se motions on his behalf,18
and that “he manipulated those around him” to
conclude he failed to prove sub-average intellectual
functioning. There is no scientific or clinical support
for OCCA’s determination such factors are relevant,
let alone determinative, of whether an individual
possesses sub-average intellectual functioning. To
the contrary, Mr. Smith presented abundant evidence which clearly rebuts such and was never refuted
by IQ testing with appropriate instruments. OCCA’s
determination Mr. Smith failed to meet “even the
first prong” of mental retardation was premised on
unreasonable determinations of fact.
The Supreme Court’s opinion in Brumfield also
illustrates the extent to which OCCA’s determination
of this prong was unreasonable. In Brumfield, the
Court found the state court’s decision that petitioner
failed to establish sub-average intellectual functioning
was based on an unreasonable determinations of fact
because there was no “evidence of any higher IQ test
score that could render the state court’s determination
reasonable.” Brumfield, 135 S. Ct. at 2278. The same
holds true in Mr. Smith’s case. At Mr. Smith’s Atkins
trial, there was no evidence presented of IQ test results
from standardized, scientifically-recognized tests placing him outside the intellectually-disabled range. In
17 Demonstrating OCCA’s unreasonable reliance on Smith’s
ability to have an affair, even Dr. Call acknowledged intellectually disabled people are capable of lying. MR2 VI 62.
18 That Mr. Smith once “argued motions on his behalf” before
his 1994 trial is of no import to whether he is intellectually
disabled, especially when one scratches the surface of what
really occurred. See Doc. 18 at 44-45.

App.255a
fact, the State’s only expert was unable to say Mr.
Smith is “not mentally retarded.” MR2 VI 67.
Even more indicative of OCCA’s unreasonable
hostility to clinical definitions and diagnostic practices
is the court’s belief that Smith’s alleged clean-up of
the crime scene demonstrates his “ability to recognize
the wrongfulness of his criminal acts and to conceal
evidence of his crimes is relevant to the issue of
whether he is capable of logical reasoning and whether
he is mentally retarded.” Attachment 4 at 4. This
statement is absurd. The reasoning involved with
shampooing carpets and hiding bodies in closets and
under beds in the heat of the summer does not reflect
a well-thought out plan to avoid anyone finding victims.
See Van Tran v. Colson, 764 F.3d 594, 608-09 (6th
Cir. 2014) (finding the petitioner’s fleeing the jurisdiction and selling the victim’s stolen goods after the
crime were “not so sophisticated or elaborate that the
intellectually disabled could not have performed
[them]”). In Van Tran, the Sixth Circuit granted habeas
relief based on the state court’s “failure to adhere to
the clinical framework” mandated by Atkins and
Hall. Id. at 608, 621. Such is precisely the case here.
In light of OCCA’s unreasonable determinations
of fact and its failure to reasonably apply Atkins, the
district court erred by relying exclusively on the
Jackson standard to deny relief. In denying relief,
the district court reaffirmed this Court’s holding in
Hooks that “[n]ot only does Murphy not require OCCA
to focus on deficiencies to the exclusion of strengths
but—most relevant to our inquiry here—neither does
Atkins.” Hooks, 689 F.3d at 1172; Doc. 47 at 25. In
light of the Supreme Court’s illumination of Atkins
in Moore and Brumfield, this position is no longer

App.256a
sustainable. Undoubtedly, in order to reasonably
apply Atkins, the focus of the adaptive-functioning
inquiry must be on deficits. See Moore, 137 S. Ct. at
1043; Brumfield, 135 S. Ct. at 2281.
For an example of what a reasonable decision
would look like in this case, one need look no further
than Judge Chapel’s dissent, in which he demonstrated
an understanding of the clinical issues, together with
the low standard of proof:
I dissent. I am deeply troubled by this case.
The State cannot execute a person who is
mentally retarded.
[...]
Smith presented significant evidence of
mental retardation, including persons who
had taught him as mentally retarded and test
scores which put him in the mentally
retarded range. The State certainly presented
testimony which cast doubt on some of
Smith’s evidence. I have the greatest respect
for our jury system. However, on reviewing
the entire case, I cannot conclude that Smith
is not, more likely than not, mentally
retarded. The constitutional issue in this
case, whether we may execute Smith for his
crimes, is of the utmost importance. Given
the extremely low burden of proof, I am
compelled to give Smith the benefit of any
doubt I may have. I cannot concur in a decision which finds that Smith is not mentally
retarded.
Attachment 4 (Chapel, J., dissent at 1, 3).

App.257a
E.

Conclusion.

Smith’s intellectual disability has been present
since his infancy. His is a serious disability which
has adversely affected his functioning his entire life.
Mercifully, the Eighth Amendment does not permit
his execution. This Court must grant the Writ to
prevent Roderick Smith’s unlawful execution.
[...]

App.258a
TENTH CIRCUIT RESPONDENT-APPELLEE’S
(STATE OF OKLAHOMA) ANSWER BRIEF,
RELEVANT EXCERPTS
(OCTOBER 1, 2018)
IN THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
________________________
RODERICK L. SMITH,

Petitioner/Appellant,
v.
MIKE CARPENTER,
Interim Warden, Oklahoma State Penitentiary,

Respondent/Appellee.
________________________
Case No. 17-6184
District Court: CIV-14-579-R (W.D. Okla.)
On Appeal from the United States District Court
for the Western District of Oklahoma
D.C. No. CIV-14-579-R
The Honorable David L. Russell,
United States District Judge
MIKE HUNTER
Attorney General of Oklahoma
JENNIFER J. DICKSON, OBA #18273
Assistant Attorney General

App.259a
313 NE 21st Street
Oklahoma City, OK 73105
(405) 521-3921 (Voice)
(405) 522-4534 (Fax)
Service email: fhc.docket@oag.ok.gov
Jenny.dickson@oag.ok.gov
Attorneys for Respondent-Appellee
October 1, 2018
ORAL ARGUMENT IS NOT REQUESTED
[...]
ARGUMENT AND AUTHORITY
PROPOSITION I
THE OCCA’S DETERMINATION THAT PETITIONER
FAILED TO PROVE THAT HE IS INTELLECTUALLY
DISABLED IS NOT CONTRARY TO, OR AN UNREASONABLE
APPLICATION OF, CLEARLY ESTABLISHED FEDERAL
LAW, OR BASED ON AN UNREASONABLE
DETERMINATION OF THE FACTS
Petitioner’s first proposition of error alleges that
he cannot legally be executed because he is intellectually disabled. Petitioner raised this claim in his
appeal of his Atkins jury trial that was held March 815, 2004, to the OCCA in Case No. O-2006-683. The
OCCA rejected Petitioner’s claim on the merits, holding
that the record supported the jury’s verdict that the
Petitioner is not intellectually disabled. Smith v.
State, No. O-2006-683 (Okla. Crim. App. 2007) (unpublished and attached to Opening Br. as Attachment 4).
Petitioner alleges that the OCCA’s determination
was contrary to, and an unreasonable application of,

App.260a

Atkins v. Virginia, 536 U.S. 304 (2002) and was based
on an unreasonable determination of fact.

As will be shown below, the OCCA’s determination
is neither contrary to, nor an unreasonable application of, clearly established federal law, nor based on
an unreasonable determination of the facts. Therefore, this Court must find Petitioner’s first proposition of error to be without merit.
A.

Preliminary Matters

Petitioner claims the OCCA’s decision was unreasonable as to both law and fact. See 28 U.S.C. § 2254
(d)(1) & (2). Below, Petitioner only challenged the
OCCA’s opinion based on § 2254(d)(1). Doc. 18 at 3946. Now, he adds “[m]oreover, OCCA’s willingness to
ignore abundant evidence strongly rebutting the jury
verdict of ‘not mentally retarded’ and to substitute its
own arbitrary standards resulted in several unreasonable determinations of fact. § 2254(d)(2)”. Opening Br.
at 38. This argument is forfeited because Petitioner
did not make this argument below. Accordingly, this
Court should not consider it here. See Hancock v.
Trammell, 798 F.3d 1002, 1011 (10th Cir. 2015).
While generally this Court can still review a forfeited
argument for plain error, it does not engage in plan
error review when a party fails to so request, as
Petitioner fails to do so here. See id.
Petitioner presented evidence to the district
court that was not proper pursuant to Pinholster and
the district court properly refused to consider same
when it denied relief. Doc. 35 at 19-25; Doc. 47 at 8,
n. 5. Here, although Petitioner re-arranged his brief
in a manner that makes it less obvious that he is
relying on evidence never presented to the OCCA to

App.261a
support this claim–by placing this evidence in his
“Statement of Facts” (Opening Br. at 8-24)–he continuously refers back to that section throughout this
proposition of error to support his argument. Opening
Br. at 30, 34-35, 37. Unfortunately, that manner of
presentation makes it quite difficult to distinguish
those facts upon which this Court may rely from
those on which it may not. Nevertheless, this Court
cannot consider evidence that was not presented to
the OCCA.
Similarly, Petitioner continues throughout this
proposition of error to rely on publications that were
never presented to the OCCA. Opening Br. at 30, 32-33,
35. Indeed, all of those publications were not even in
existence at the time of the OCCA’s decision. “Review
of substantive rulings under § 2254(d)(1) ‘is limited to
the record that was before the state court that
adjudicated the claim on the merits.’” Fairchild v.
Trammell , 784 F.3d 702, 711 (10th Cir. 2015)
(quoting Pinholster, 563 U.S. at 181).
The prohibition against considering evidence
that was not before the state court applies with even
more force in the context of this sufficiency challenge.
In reviewing a challenge to the sufficiency of the
evidence, a court must consider all of the evidence
that was before the jury, even that which was not
properly admitted. McDaniel v. Brown, 558 U.S. 120,
131 (2010) (per curiam). It follows then that the inverse
is also true, i.e., a court may not consider evidence
which was not before the jury. Accordingly, Petitioner’s
reliance upon scientific articles, evidence designed to
impeach the credibility of Dr. John Call and Dr.

App.262a
Phillip Murphy and other evidence developed postAtkins trial is improper.8
B.

Standard of Review

When reviewing the sufficiency of the evidence
on a habeas corpus petition, this Court utilizes the
beyond a reasonable doubt standard set forth in Jackson v. Virginia. Jackson v. Virginia, 443 U.S. 307
(1979); McCracken v. Gibson, 268 F.3d 970, 981
(10th Cir. 2001). This Court has tailored the Jackson
standard when the defendant is challenging a jury
determination that he is not intellectually disabled.
First, the substantive law at the basis of his
sufficiency challenge consists not of the
“essential elements” of a state-law criminal
offense, Jackson, 443 U.S. at 319, 99 S. Ct.
2781, but rather of the definition of mental
retardation–definition that, although dependent on state law (here, Murphy), ultimately
has Eighth Amendment underpinnings pursuant to Atkins. See Ochoa v. Workman, 669
F.3d 1130, 1143 (10th Cir. 2012) (“The liberty
interest at issue in this case, the right of the
mentally retarded to avoid execution, flows
directly from the Eighth Amendment.”). Thus,
Mr. Hooks’s sufficiency challenge inescapably
8 Petitioner also implies at times that the OCCA’s decision is
unreasonable in light of other decisions by the OCCA. The
OCCA’s cases are irrelevant. See Donald Grant, 886 F.3d at 947
n.25 (“we are at a loss to understand how any purported inconsistency in the OCCA’s own (state law) precedent produced by
the OCCA’s ruling in Mr. Grant’s case is germane to our inquiry
under AEDPA—where the unalloyed legal concern is clearly
established federal law.”) (emphasis adopted).

App.263a
requires that we consider the kinds of evidence that state courts may (or may not)
rely upon in adjudicating an Atkins claim.[9]
Second, the jury in Mr. Hooks’s Atkins trial
was required to determine, not whether he
is guilty of an offense beyond a reasonable
doubt (a question on which the State would
have borne the burden of proof), but whether
he is mentally retarded by a preponderance
of the evidence (a question on which Mr.
Hooks bore the burden of proof). The different
standard of proof requires us to tailor
Jackson to fit this context. We hold that the
relevant constitutional standard for the
state appellate court was whether, viewing
the evidence in the light most favorable to
the prevailing party (the State), any rational
trier of fact could have found Mr. Hooks not
mentally retarded by a preponderance of
the evidence. See Maynard, 468 F.3d at 674.
If so, Mr. Hooks’s evidentiary challenge would
fail. Put a different way, if any rational trier
of fact could have found that Mr. Hooks
failed to establish, by a preponderance of
the evidence, that he is mentally retarded,
then the jury verdict may be upheld.
Of course, AEDPA adds a second layer of
deference to this standard. We do not directly
review the jury’s verdict. AEDPA limits our
gaze to “the highest state court’s resolution
9 Respondent strongly disagrees. As pointed out above, a sufficiency challenge requires this Court to consider all of the evidence that was before the jury, without regard to its admissibility.

App.264a
of a particular claim.” Alverson v. Workman, 595 F.3d 1142, 1155 (10th Cir.2010).
We therefore ask whether the OCCA correctly
identified the governing legal principle from
Jackson and reasonably applied it to the facts
of Mr. Hooks’s case. See Matthews v. Workman, 577 F.3d 1175, 1183 (10th Cir. 2009)
(“Because the OCCA applied the Jackson
standard in deciding Mr. Matthews’s sufficiency claim on direct review, our task is
limited by AEDPA to inquiring whether the
OCCA’s application of Jackson was unreasonable.” (footnote omitted)). We reiterate that
under both paragraphs (1) and (2) of § 2254
(d), we are precluded from considering evidence not before the OCCA. See Pinholster,
131 S.Ct. at 1398 (construing 28 U.S.C. § 2254
(d)(1)); 28 U.S.C. § 2254(d)(2).

Hooks v. Workman, 689 F.3d 1148, 1166-1167 (10th

Cir. 2012) (emphasis added). This Court further held:
Because the OCCA applied the correct legal
standard, our inquiry is limited to whether
its determination that the evidence was
sufficient to support the jury’s verdict was reasonable. As noted, that inquiry also requires
us to consider whether the OCCA, in upholding the jury’s verdict, reasonably applied
Atkins to [Petitioner’s] claim of mental retardation.

Id. (Citation to authority omitted).
The Jackson standard gives substantial deference
to the jury function of weighing the evidence, drawing
reasonable inferences from same. Wilson v. Sirmons,

App.265a
536 F.3d 1064, 1105 (10th Cir. 2008). When there is
conflicting facts, this Court presumes “that the trier
of fact resolved any such conflicts in favor of the
prosecution, and must defer to that resolution.” Id.
A habeas petitioner raising a Jackson claim
challenging a jury’s determination that he is not
intellectually disabled must overcome double deference.
See Hooks, 689 F.3d at 1167 (noting the “second
layer of deference” added to a habeas claim that the
evidence was insufficient to support a jury’s finding
that a defendant was not intellectually disabled).
First, the evidence must be viewed in the light most
favorable to the prosecution and the question is
whether any rational trier of fact could have found as
the jury did. See Patton v. Mullin, 425 F.3d 788, 796
(10th Cir. 2005) (citing Jackson, 443 U.S. at 319);
Hooks, 689 F.3d at 1166. Second, on top of that, the
AEDPA adds another layer of deference to the OCCA’s
resolution of a sufficiency of the evidence claim.
Patton, 425 F.3d at 796. The habeas petitioner “must
show that the state court’s ruling on the claim being
presented in federal court was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility
for fairminded disagreement.” Richter, 562 U.S. at 103.
Finally, the question is whether the OCCA
reasonably applied Jackson, not whether the OCCA
reasonably applied Atkins. See Premo v. Moore,
562 U.S. 115, 127-128 (2011) (criticizing the lower court
for finding AEDPA satisfied by reference to a case
regarding the improper admission of a confession
where the claim before it was ineffective assistance
of counsel).

App.266a
C.

OCCA’s Merits Determination
In the present matter, the OCCA held:
Smith complains in his fourth proposition
that the jury’s verdict is contrary to the
clear weight of the evidence and that the
State failed to rebut evidence of his deficits.
When a defendant challenges the sufficiency
of the evidence following a jury verdict finding
him not mentally retarded, this Court reviews
the evidence in the light most favorable to
the State to determine if any rational trier of
fact could have reached the same conclusion.
Myers, 2005 OK CR 22, ¶ 7, 130 P.3d at
267. Applying this standard of review to the
present case, we find the record supports
the jury’s verdict that Smith is not mentally
retarded.
It is the defendant’s burden to prove mental
retardation by a preponderance of the evidence. Myers, 2005 OK CR 22, ¶ 6, 130 P.3da
at 265-66. “He must show: 1) that he functions at a significantly sub-average intellectual level that substantially limits his ability
to understand and process information, to
communicate, to learn from experience or
mistakes, to engage in logical reasoning, to
control impulses, and to understand the
reactions of others; 2) that his mental retardation manifested itself before the age of 18;
and 3) that he has significant limitations in
adaptive functioning in at least two of the
nine listed skill areas.”8 Id.

App.267a
8 The adaptive functioning skill areas

are: communication; self-care; social/
interpersonal skills; home living; selfdirection; academics; health and safety;
use of community resources; and work.
Evidence of Smith’s intellectual functioning
was controverted at trial by the experts.9
Smith’s primary expert, Dr. Clifford Hopewell,
tested him in January 2003 and scored his
full scale I.Q at 55. Dr. Hopewell concluded
that Smith is mildly mentally retarded and
that he has adaptive functioning deficits in at
least five areas. Dr. Frederick Smith, another
psychologist who evaluated Smith in prison
in 1997, testified that his testing showed
that Smith’s full scale I.Q was 65, some ten
points higher than Dr. Hopewell’s score. Dr.
Smith was left with the impression during his
evaluation that Smith was actually brighter
than what his I.Q. test score showed. He
wrote in a memo shortly after the evaluation
that he suspected that Smith’s score was
somewhat low in terms of accuracy. Dr. Smith
also administered the Raven’s Standard
Progressive Matrices that showed Smith’s I.Q.
was in the range of 69 to 78. He testified that
he now believes Smith’s I.Q. is closer to 70.
9 Intelligence quotients are one of many

factors that may be considered, but are
not alone determinative. Myers, 2005
OK CR 22, ¶ 8, 130 P.3d at 268.
The State presented the testimony of forensic
psychologist Dr. John Call to refute Smith’s
expert evidence of subaverage intellectual

App.268a
functioning. Dr. Call gave Smith the Wechsler
Adult Intelligence Scale-III (WAIS-III) I.Q.
test and reviewed Dr. Hopewell’s data and
score on this same test, as well as several
other tests. He found that Smith failed two
tests designed to detect malingering given
by Dr. Hopewell.10 According to Dr. Call,
Smith’s performance on these two tests
provides significant doubt about his efforts
on the WAIS-III I.Q. test and the validity of
Dr. Hopewell’s overall testing. Dr. Call also
gave Smith one of the malingering tests (Test
of Memory and Malingering) during his
evaluation and found that Smith failed again.
Dr. Call concluded that Smith’s score suggested a lack of effort on his part calling into
doubt the reliability and validity of the
I.Q. score that both he and Dr. Hopewell
obtained.11 Dr. Call noted a previous I.Q.
test given by Dr. Murphy in 1994 in which
Smith scored a full scale I.Q. of 73. Dr. Call
believed a lack of effort on Smith’s part was
one possible explanation to account for the
discrepancy in the subsequent scores. In Dr.
Call’s opinion, the data showed that Smith
did not put forth his best efforts during his
and Dr. Hopewell’s testing and that Smith’s
I.Q. test results were unreliable and suspect.
10 The tests were the 15-Item Test and

the Test of Memory and Malingering
commonly referred to as the TOMM test.
11 Dr. Call’s I.Q. testing of Smith also

showed a full scale I.Q. score of 55.

App.269a
Though evidence of Smith’s I.Q. was disputed,
the State presented persuasive evidence
from lay witnesses to refute Smith’s evidence
of sub-average intellectual functioning and
of adaptive functioning deficits. Emma Watts,
Smith’s former case manager, now unit
manager in prison, tested that she had
daily contact with Smith for two years while
acting as his case manager. Watts described
Smith as quiet and respectful for the most
part; he appeared to be like the other inmates
in her unit. He was able to communicate
with her and she found that he understood
how to use manipulative behavior to get a
more desirable cell or cellmate.
Ruby Badillo, a provider of financial services,
testified that she met with Smith and his
wife twelve years ago about purchasing life
insurance. She recalled that Smith was kind
and attentive to his wife. She identified their
application and Smith’s signature. She said
that Smith neither indicated that he had any
physical or mental challenges nor did she
suspect that he had any based on their conversation. She described Smith as “perfectly
normal” and “very sociable.” Smith appeared
so personable and capable that Badillo tried
to recruit him to work for her company selling
insurance policies and presenting other financial services to would-be customers.
Mark Woodward, the facilities manager for
a company providing custodial services to local
schools, testified that Smith was the head
custodian at Washington Irving Elementary

App.270a
School. Woodward described Smith as the
“go-to” person if something needed to be done
at the school. Smith was responsible for supervising a staff of four to five people working
shifts from 7 a.m. until 11 p.m. and insuring
that their time cards were filled out. Smith
had to delegate custodial duties and, if
someone was absent from work, reassign
that person’s duties. Woodward identified
Smith’s job application and signature; he
also identified various forms that Smith had
signed or filled out for his employment. He
noted that Smith checked on his job application form that he could read, write and
speak the English language. Woodward testified that he effectively communicated with
Smith in person and through the use of a
digital pager. He recalled an occasion when
he had to reprimand Smith for not wearing
his uniform and thereafter Smith followed
the rules and wore his uniform. According
to Woodward, Smith effectively operated the
school’s multi-zone alarm system and cleaning
equipment. Woodward described Smith as a
typical head janitor.
Fern Smith, one of the assistant district
attorneys who prosecuted Smith’s murder
case, testified that Smith filed and presented several motions on his own behalf.
She said that Smith was articulate and
made “good” arguments to the court in
support of his motions. She did not notice
anything unusual or out of the ordinary
about Smith’s demeanor during trial or his

App.271a
many court appearances. She recalled him
taking notes and conferring with counsel
during trial. Ms. Smith, who was once a
special education teacher of mentally retarded
students, stated there was nothing in her
contacts with Smith that led her to believe
that Smith was mentally retarded.
Laura Dich testified that she met Smith in
April 1993 at a flea market and they began
dating shortly thereafter. Smith did not
give her his home phone number, instead he
had her use his digital pager number to contact him. Smith lied to Dich and told her
that he lived with a cousin instead of with
his wife and step-children and Dich claimed
that she was none the wiser.12 Dich testified that by the end of May 1993, her
relationship with Smith was progressing
and Smith told her that he wanted to marry
and have children with her. Dich, who was
only 19 years old and still living with her
parents, testified that Smith took her to a
motel on several occasions and that it was
Smith who rented and paid for the motel
room.
12 Once when Dich paged Smith, an

upset woman returned the page causing
Dich concern, but Smith convinced her
for the most part that he had no other
girlfriends.
The evidence presented at trial supports a
finding that [Petitioner] failed to meet even
the first prong of the Murphy definition of
mental retardation. The evidence, viewed in

App.272a
the light most favorable to the State, portrayed [Petitioner] as a person who is able to
understand and process information, to
communicate, to understand the reactions
of others, to learn from experience or mistakes, and to engage in logical reasoning. He
held down a job with supervisory functions,
carried on an affair, argued motions on his
own behalf and manipulated those around
him. The jury’s verdict finding that [Petitioner] is not mentally retarded is justified.

Smith, No. O-2006-683, slip op. at 6-11 (Opening Br.
Att. 4) (emphasis added).

Petitioner is challenging the sufficiency of the
evidence presented at his Atkins jury trial. Petitioner
claims the OCCA acted unreasonably by finding the
record in Petitioner’s 2004 Atkins jury trial supported
the jury’s verdict that Petitioner was not intellectually
disabled. Petitioner claims the OCCA’s opinion is
contrary to, and, an unreasonable application of, Atkins
v. Virginia, 536 U.S. 304 (2002).10 Petitioner’s claim
is without merit.
In Atkins, the Supreme Court pronounced a
prohibition against the execution of intellectually
disabled offenders. Although the Court referenced the
10 Petitioner also relies on Hall v. Florida, ___ U.S. ___, 134 S.
Ct. 1986 (2014), Brumfield v. Cain, ___ U.S. ___, 135 S. Ct. 2269
(2015) and Moore v. Texas, ___ U.S. ___, 137 S. Ct. 1039 (2017).
As these cases were decided well after the OCCA’s merits
determination of this issue, they are not relevant here in a
§ 2254 appeal. Smith v. Duckworth, 824 F.3d 1233, 1245 (10th
Cir. 2016) (“Because Hall was decided more than three years
after the OCCA ruled against Mr. Smith on this issue, Hall
provides no basis for us to disturb the OCCA’s decision.”).

App.273a
clinical definitions of intellectual disability embraced
by the American Association on Mental Retardation
(now the American Association on Intellectual and
Developmental Disabilities) and the American Psychiatric Association, it left to the states “the task of
developing appropriate ways to enforce the constitutional restriction” it announced. Atkins, 536 U.S. at
317; see also Bobby v. Bies, 556 U.S. 825, 831 (2009)
(stating that Atkins “did not provide definitive procedural or substantive guides for determining when a
person who claims mental retardation” falls within
Atkins’ scope); Smith, 824 F.3d at 1246 (holding that
Atkins does not require adjustment of IQ scores for a
clinical practice called the “Flynn Effect”).
Following the Supreme Court’s ruling in Atkins,
the OCCA promulgated a definition of intellectual
disability for use in the courts of Oklahoma. The
OCCA held a person is intellectually disabled:
(1) If he or she functions at a significantly
sub-average intellectual level that substantially limits his or her ability to understand
and process information, to communicate, to
learn from experience or mistakes, to engage
in logical reasoning, to control impulses, and
to understand the reactions of others; (2)
The mental retardation manifested itself
before the age of eighteen (18); and (3) The
mental retardation is accompanied by significant limitations in adaptive functioning in
at least two of the following skill areas: communication; self-care; social/interpersonal
skills; home living; self-direction; academics;
health and safety; use of community
resources; and work. It is the defendant’s

App.274a
burden to prove he or she is mentally
retarded by a preponderance of the evidence
at trial. Intelligence quotients are one of the
many factors that may be considered, but
are not alone determinative.

Murphy v. State, 54 P.3d 556, 567-568 (Okla. Crim.
App. 2002) (overruled on other grounds by Blonner v.
State, 127 P.3d 1135, 1139 (Okla. Crim. App. 2006)).11
As quoted above, the OCCA applied the Jackson
standard and concluded the jury’s verdict was rational.
Smith, No. O-2006-683, slip op. at 6 (Opening Br. Att.
4).
D.

District Court’s Denial of Relief

The district court recognized Petitioner received
a jury trial that lasted five days and included twentythree witnesses. Doc. 47 at 6, 24. Relying on Atkins
and this Court’s decision in Hooks, this district court
found Petitioner was not entitled to relief. The district
court properly limited its consideration to evidence
presented to the OCCA. Doc. 47 at 8, 23. Ultimately,
the district court reviewed the evidence presented by
both parties and found Petitioner failed to demonstrate he was entitled to relief. Doc. 47 at 9-25. The
district court held:
Although Petitioner claims that the OCCA
violated Atkins by disregarding expert opinion, what the OCCA found was a dispute
among the experts. Although Dr. Hopewell
11 The Murphy test has been supplanted by Okla. Stat. tit. 21,
§ 701.10b (2006), however, Petitioner’s claim falls under Murphy
because his trial was held before the statute was enacted.

App.275a
believed that Petitioner’s I.Q. testing showed
sub-average intellectual functioning, the
State’s expert, Dr. Call, questioned that conclusion based on additional testing that indicated Petitioner was not putting forth his
best effort. The same is true regarding
Petitioner’s adaptive functioning. While Dr.
Hopewell found that Petitioner had deficits
in all areas of adaptive functioning, Dr. Call
testified that Dr. Hopewell’s assessment was
invalid because the test was inappropriately
administered. In addition, as with the testing of Petitioner’s intellectual function, Dr.
Call testified that he believed that Petitioner
did not put forth his best effort in adaptive
functioning testing. Dr. Call’s opinion is
supported by the fact that Petitioner could
not even spell his last name for Dr. Call, when
he had done so on prior occasions, including
for Dr. Hopewell just eight months earlier.
Petitioner’s assessment of the evidence also
fails to give due consideration to the very
posture of the claim. This is a sufficiency-ofthe-evidence claim. Although Petitioner
argues with great fervor that he is mentally
retarded, that is not for this Court to decide.
Petitioner had the opportunity to prove he
is mentally retarded. However, a jury determined that he had failed to meet his burden
of proof. That jury verdict, and its subsequent
validation by the OCCA, is what is under
review here, and the Court’s review is largely
limited due to the deference afforded the

App.276a
jury’s verdict and the AEDPA deference
afforded the OCCA’s decision.
While Petitioner clearly does not agree with
the jury’s verdict, it was the jury’s job to
assess the evidence, and the OCCA found that
when viewing the evidence in light most
favorable to the State, a rational trier of
fact could have reached the same conclusion.
In addition to Dr. Call’s testimony, which
called into question Petitioner’s primary expert, evidence from lay witnesses showed
that Petitioner had skills and strengths
which the jury could consider in assessing
whether Petitioner had significant limitations. Although Petitioner argues that his
strengths were overemphasized and inappropriately considered, the Tenth Circuit has
held that “[b]oth strengths and deficiencies
enter into [the mental retardation determination] because they make up the universe
of facts tending to establish that a defendant
either has ‘significant limitations’ or does not.
Not only does Murphy not require the OCCA
to focus on deficiencies to the exclusion of
strengths but-most relevant to our inquiry
here–neither does Atkins.”
Given the evidence presented to the jury,
the OCCA’s assessment of that evidence in
upholding the jury’s verdict, and the doubledeference review this Court must apply in
its review, the Court concludes that Petitioner
is not entitled to relief on his first ground
for relief. Ground One is therefore denied.
Doc. 47, 23-25 (internal citations omitted).

App.277a
E.

Merits

Petitioner has failed to demonstrate that the
OCCA’s adjudication was contrary to, or an unreasonable application of, pertinent Supreme Court precedent, or an unreasonable determination of the facts
in light of the evidence presented in the State court
proceeding.12 As set forth above, the clearly established
law that applies to this claim is Jackson, not Atkins.
Further, Atkins does not mandate the application of
the clinical standards that Petitioner endorses.
1. Intellectual Functioning
The first prong of Murphy is whether Petitioner
“functions at a significantly sub-average intellectual
level that substantially limits his or her ability to
understand and process information, to communicate,
to learn from experience or mistakes, to engage in
logical reasoning, to control impulses, and to understand the reactions of others.” Murphy, 54 P.3d at
567-568. Petitioner does not complain that Murphy’s
definition of intellectual disability is inconsistent
with Atkins. “Indeed, Murphy’s definition closely tracks
the AAMR (now AAIDD) definition discussed in
Atkins. See 536 U.S. at 308 n. 3, 318.” Hooks, 689
F.3d at 1165. Rather, Petitioner complains that the
OCCA’s decision to uphold the jury’s determination
that Petitioner was not intellectually disabled was
contrary to, or an unreasonable application of, Atkins.
Petitioner’s complaints amount to nothing more than

12 Although Petitioner has waived any § 2254(d)(2) argument
as discussed above, Respondent shows his new argument to be
without merit.

App.278a
a disagreement with the jury’s verdict, in contravention
of the jury’s duty to resolve conflicts in the evidence.
Petitioner first claims that his IQ scores fall
squarely within the intellectually disabled range on
standardized IQ tests administered by licensed professionals. Under the Murphy test that predated § 710.10
(b), “[i]ntelligence quotients are one of the many
factors that may be considered, but are not alone
determinative.” Murphy, 54 P.3d at 568; see also
Lambert v. State, 126 P.3d 646, 650 (Okla. Crim.
App. 2005) (“The test . . . requires that a defendant (a)
meet the threshold legal requirement of an IQ test
under 70, and (b) prove the three prongs of the
Murphy test by a preponderance of the evidence: subaverage intellectual ability, . . . . ” (emphasis added)).
Atkins does not clearly establish that the first prong
must be decided solely on the basis of IQ tests.
Atkins, 536 U.S. at 316-318.
In any event, the jury could have rejected
Petitioner’s claims based on test results alone. Petitioner relies on several tests to support his claim.
However, not relied on by Petitioner is a Wechsler IQ
test administered by Dr. Phillip Murphy in 1994 on
which Petitioner scored a 73 (Atkins Tr. VI, 35-36).
The OCCA noted that Dr. Call testified about this
test to show that subsequent, post-Atkins tests, showed
a serious lack of effort on Petitioner’s part.13 Smith,
No. O-2006-683, slip op. at 8 (Opening Br. Att. 4). It
was well within the jury’s province to place more

13 As noted above, Petitioner cannot attempt to undermine the
credibility of Dr. Call or Dr. Murphy with evidence that was not
before the jury.

App.279a
reliance on this IQ score than on Petitioner’s postAtkins test results.
Petitioner shows that Dr. Fred Smith administered the Wechsler Adult Intelligent Scales-Revised
(WAIS-R) test to Petitioner in 1997 (Atkins Tr. III,
161). Petitioner received a full scale score of 65
(Atkins Tr. III, 161). Dr. Smith testified that his
impression of Petitioner during his 1997 evaluation
was that Petitioner “seemed to me to be a little bit
brighter than what he tested out to be on the Weschler.”
(Atkins Tr. III, 163, 181-182). Dr. Smith also wrote
in a memo he produced during the evaluation process
that “[a]lthough the WAIS-R Full Scale IQ tested out
at 65, I suspect that this particular result may be
somewhat low in terms of accuracy for whatever
reason.” (Atkins Tr. III, 165). Dr. Smith testified that
he wrote the memo because he was considering that
Petitioner may be malingering. (Atkins Tr. III, 165).
Although Dr. Smith did not administer any tests
specifically designed to detect malingering, Dr. Smith
was not satisfied with the WAIS-R score, so he
administered the Raven Standard Progressive Matrices
test. (Atkins Tr. III, 175-177, 189). Petitioner’s general
IQ score from the Raven test was 69-78, showing
Petitioner was much brighter than what his WAIS-R
test showed. (Atkins Tr. III, 161). Dr. Smith admitted
that he testified in Federal Court, in a previous
habeas proceeding, that he believed Petitioner’s IQ
score was somewhere between 70-75. (Atkins Tr. III,
183). Dr. Smith further testified that although it is
not possible to fake a higher IQ score, it is possible to
fake a lower score, and a difference of ten or more

App.280a
points on separate tests is significant (Atkins Tr. III,
174).14
Petitioner was twice administered the WAIS-III
test in 2003, once by Dr. John Call and once by Dr.
Clifford Hopewell. Both Dr. Call and Dr. Hopewell
testified that the results of the test he administered
showed that Petitioner had full scale IQ of 55 (Atkins
Tr. II, 56; VI, 36-38). Both Dr. Call and Dr. Hopewell
administered malingering tests to Petitioner (Atkins
Tr. VI, 37). According to Dr. Call, Petitioner failed the
malingering tests administered by himself and Dr.
Hopewell. (Atkins Tr. VI, 37). Dr. Call testified that
Petitioner’s nearly 20 point range on his IQ scores
from 1994 to 2003 is unusual and statistically significant (Atkins Tr. VI, 37).15
14 Although Dr. Smith testified at the Atkins trial to his ultimate
conclusion that Petitioner is on the cusp of being intellectually
disabled (Atkins Tr., 168), the jury could reasonably have
rejected this ultimate conclusion based on Dr. Smith’s testimony
that a ten point difference on IQ testing is significant in terms
of malingering (Atkins Tr. III, 173-175).
15 Interestingly, two prior EMH teachers testified at trial as to
the qualification level to be enrolled in EMH classes. Paul
Preston testified that to qualify for the classes Petitioner was in
during high school, he would have had to have an IQ between
60-75 (Atkins Tr. III, 38). Students scoring below a 60 would be
placed in the TMH (trainable mentally handicapped) program
(Atkins Tr. III, 38, 44). Mona Autry testified the range was
from 55-75 (Atkins Tr. III, 95). The TMH program was not
available at Petitioner’s school and if the student fell into that
range (under 60 according to Mr. Preston and under 55
according to Ms. Autry) they would have to go to a different
school (Atkins Tr. III, 44). However, for students who had an IQ
just above 75, the psychometrist who performed the testing had
discretion to manipulate a score-for example, decreasing a score
of 77 to 74, so that the student could be placed in the special

App.281a
Dr. Hopewell, in order to detect malingering,
administered the Test of Memory and Malingering
(TOMM) and the 15-Item Memory Test to Petitioner
(Atkins Tr. VI, 13). Dr. Hopewell modified the “norms”
of the TOMM test because Petitioner was allegedly
intellectually disabled (Atkins Tr. II, 136-164).16 Dr.
Hopewell admitted that there is no published research
that authorizes his modification of the test. Further,
Dr. Hopewell admitted that had he used the “norms”
prescribed by the TOMM test, Petitioner would have
fallen within the range of malingering (Atkins Tr. II,
198). Dr. Call testified that Petitioner’s results on Dr.
Hopewell’s tests are significant because Petitioner
was demonstrating a performance level significantly
below that of an individual who had a serious dementing disease and hardly any memory whatsoever (Atkins
Tr. VI, 16-19). Even severely demented individuals
with severely impaired memory functioning will
improve during each trial of the test. The fact that
Petitioner did not improve showed that Petitioner was
not putting forth sufficient effort during the administration of the tests (Atkins Tr. VI, 16-19).
Dr. Call also administered the TOMM test during
his evaluation of Petitioner. Dr. Call’s results were
similar to Dr. Hopewell’s suggesting that Petitioner
was not putting forth his best efforts (Atkins Tr. VI,
25-26, 38-39). Dr. Call and Dr. Hopewell also administered the Wide Range Achievement Test-III (WRATeducation class so that they could compete with students closer
to their IQ level (Atkins Tr. III, 40).
16 Of course, Dr. Hopewell was supposed to determine whether
Petitioner was intellectually disabled. Thus, his decision to modify
the TOMM on the assumption that Petitioner is intellectually
disabled appears questionable.

App.282a
III). Dr. Call expected that Petitioner would perform
similarly on both tests. However, on the test given by
Dr. Call, Petitioner was all of a sudden unable to
spell certain words that he was able to spell during
Dr. Hopewell’s administration (Atkins Tr. VI, 26-30).
These words included Petitioner’s last name, “Smith,”
that Petitioner had previously been able to spell on
a 1992 insurance application as well as other prison
documents (Atkins Tr. VI, 26-30). Further, it is
important to note the significant drop in IQ scores
from his pre-Atkins scores of 73 and 65, to his postAtkins scores of a consistent 55. Clearly Petitioner
has learned the importance of a low score, and how to
maintain it, which is further evidence that Petitioner
does not function at a sub-average intellectual level.
Petitioner cannot overcome the deference due to
the OCCA in affirming the jury’s verdict that he was
not intellectually disabled.
First, AEDPA deference applies to the
OCCA’s review-and rejection-of [Petitioner’s
Jackson] claim. Thus, the OCCA’s factual
determinations are presumed correct absent
clear and convincing evidence to the contrary.
See 28 U.S.C. § 2254(e)(1). Second, a jury
concluded [Petitioner] was not mentally
retarded, and our review of jury verdicts is
‘sharply limited.’ Boltz v. Mullin, 415 F.3d
1215, 1232 (10th Cir. 2005). We cannot overturn a jury verdict ‘as long as it is within
the bounds of reason.’ Id. Given these layers
of deference, [Petitioner] would have to
present a very convincing case that he is, in
fact, mentally retarded--i.e., that the OCCA’s

App.283a
and Oklahoma jury’s decisions to the contrary
were unreasonable.

Howell v. Trammell, 728 F.3d 1202, 1228 (10th Cir.
2013).

The evidence Petitioner relies on includes evidence
that he was in special education classes in school17 and
that he nearly drowned at the age of twelve. (Opening
Br. at 34-35). However, these facts are at best merely
factors in the determination, and not definitive proof
of intellectual disability. The credibility and weight
of this evidence is for a jury to determine. Further,
neither of these facts prove that Petitioner “functions
at a significantly sub-average intellectual level that
substantially limits his or her ability to understand
and process information, to communicate, to learn
from experience or mistakes, to engage in logical
reasoning, to control impulses, and to understand
the reactions of others.” Murphy, 54 P.3d at 567-568.
Petitioner argues the OCCA’s reliance on the
above facts is unreasonable and amounted to inaccurate
assumptions and an improper reliance on select
pieces of evidence. Generally, because the issue of
the sufficiency of the evidence is a mixed question of
law and fact, the claim is analyzed under both § 2254
(d)(1) and (2). See Maynard v. Boone, 468 F.3d 665,
673 (10th Cir. 2006) (explaining applicability of § 2254
(d)(1) and § 2254(d)(2) to mixed questions of law and
fact such as sufficiency of the evidence, on habeas
review). Here, however, Petitioner forfeited any argument that any factual findings supporting the OCCA’s
17 As shown above in footnote 15, it is quite possible that
Petitioner was not intellectually disabled but was still placed in
these classes.

App.284a
sufficiency claim were unreasonable pursuant to § 2254
(d)(2) by failing to raise same in the district court, as
argued above.
In any event, his argument here does not adequately trigger a (d)(2) argument because he is merely
complaining about the application of the law to the
facts rather than an unreasonable factual finding itself. Regardless, even if this Court reviews Petitioner’s
(d)(2) claim, the argument above shows he cannot
satisfy Richter’s “fairminded disagreement” standard,
Brumfield’s “reasonable minds could disagree” standard nor has he shown, pursuant to § 2254(e)(1), by
clear and convincing evidence the OCCA’s factual
findings were incorrect.
2. Adaptive Behavior
Next, Petitioner claims he has a significant
limitation in adaptive behavior. The adaptive impairment prong of an intellectual disability diagnosis
requires an evaluation of the individual’s ability to
function across a variety of dimensions.” Brumfield,
___ U.S. at ___, 135 S. Ct. at 2279. The OCCA determined that a petitioner must show a significant limitation in adaptive functioning in at least two of the
following skill areas: communication, self-care, social
skills, home living, self-direction, academics, health
and safety, use of community resources, and work.
Murphy, 54 P.3d at 568.
Petitioner claims he suffers from profound deficits
in communication, functional academics, social skills
and home living/health and safety. Opening Br. at
37. The adaptive behavior test relied on by Petitioner
was the Vineland Test given by Dr. Hopewell. Dr.
Hopewell testified that the Vineland Test is supposed

App.285a
to be administered to a caretaker rather than the
individual suspected of being intellectually disabled
(Atkins Tr. II, 60). However, Dr. Hopewell administered the test to Petitioner. This misuse of the test is
even more egregious in light of Petitioner’s performance
on the TOMM, discussed above.
As shown below, an overwhelming amount of
evidence was presented by the State to show Petitioner
did not suffer from poor verbal skills or language
development. The evidence supporting Petitioner’s
position the jury or the OCCA heard was that of Dr.
Hopewell who claimed the Petitioner had extremely
poor verbal skills and low ability in terms of language
development (Atkins Tr. 62-67; Doc.18, Att. 4, pg. 7).
Petitioner argues his “family members, former EMH
[educable and mentally handicapped] teachers, and
formal cell mates corroborated Dr. Hopewell’s formal
findings with anecdotal evidence.” Opening Br. at 37.
According to Petitioner, Norman Cleary’s testimony,
a former cell mate, that “you can’t really hold a conversation with” Petitioner and that Mr. Cleary tried
to teach Petitioner to read but to no avail supports
Dr. Hopewell’s opinion. He also says Mr. Cleary’s
testimony that Petitioner could not play cards, slowed
down a dominoes game and could not understand the
value of certain commissary items does as well. He
further relies on Mr. Cleary’s testimony that Petitioner
would cut himself when he attempted to trim his
toenails.
Petitioner also claims his educators presented
evidence that he had limited ability to learn information and apply it practically. To support this assertion,
Petitioner refers this Court to Paul Preston who
recalled that Petitioner’s reading skills were poor

App.286a
and that he helped Petitioner fill out job applications
and to Mona Autry who testified she taught her
students basic survival skills so they could function
in society (i.e. how to fill out job applications, create
a budget, use a calculator to help manage money,
basic reading skills, Oklahoma history, etc.) (Atkins
Tr. III, 97-98).18 Finally, he relies on his mother’s
testimony that Petitioner did not respond to frustration like other children his age and that she never
taught him to cook because she “didn’t want him to
play with fire when [she] wasn’t there.” (Atkins Tr.
IV, 9). This evidence was the only evidence presented
to the jury that Petitioner relies on and the jury
determined that it was not enough to meet his
burden of proof and the OCCA agreed. This was clearly
based on the overwhelming evidence presented that
refuted any claim Petitioner was intellectually disabled.
The OCCA held that the State presented sufficient
and persuasive evidence to refute Petitioner’s claim
of sub-average intellectual functioning and of adaptive
functioning deficits. Smith, No. O-2006-683, slip op.
at 7-8 (Opening Br. Att. 4). Clearly, as the evidence
is relevant to the question of Petitioner’s intellectual
disability, any reliance by the OCCA on same is likewise
relevant and proper for consideration. More importantly, Petitioner has pointed to no Supreme Court
case which prevented the OCCA (or the jury) from
relying on the facts discussed below.
Specifically, the OCCA first noted the testimony
of Emma Watts, Petitioner’s former prison case man18 This seems to contradict Mr. Cleary’s testimony that Petitioner
could not read nor appreciate the value of certain commissary
items.

App.287a
ager who had daily contact with Petitioner for two
years. Smith, No. O-2006-683, slip op. at 8 (Opening
Br. Att. 4) (Atkins Tr. IV, 55). Ms. Watts testified that
Petitioner was able to communicate with her and
understood how to use manipulative behavior to get
a more desirable cell or cellmate. Smith, No. O2006683, slip op. at 8 (Opening Br. Att. 4) (Atkins Tr. IV, 61).
The OCCA also noted the testimony of Ruby
Badillo, Petitioner’s insurance agent. Ms. Badillo testified that Petitioner was perfectly normal and very
sociable, so much so that she attempted to recruit
Petitioner to work for her company selling insurance
or other financial services. Smith, No. O-2006-683,
slip op. at 9 (Opening Br. Att. 4) (Atkins Tr. IV, 51).
Next, the OCCA recalled the testimony of Mark
Woodward, a facilities manager for a company that
employed Petitioner as the head custodian at Washington Irving Elementary School. Mr. Woodward
testified that Petitioner was the “go-to guy,” was
responsible for a staff of four to five people, ensured
other workers had their time cards filled out properly,
and was responsible for delegating and reassigning
custodial duties on a daily basis. Smith, No. O-2006683, slip op. at 9 (Opening Br. Att. 4) (Atkins Tr. IV,
69-72). Mr. Woodward testified that he was able to
effectively communicate with Petitioner both in person
and through a digital pager. Smith, No. O-2006-683,
slip op. at 9 (Opening Br. Att. 4) (Atkins Tr. IV, 74-76).
Next, the OCCA remarked on the testimony of
Fern Smith, one of the assistant district attorneys
that prosecuted Petitioner’s murder case. Ms. Smith
testified she was once a special education teacher of
intellectually disabled students, and there was nothing
about her contact with Petitioner that led her to

App.288a
believe Petitioner was intellectually disabled. Smith,
No. O-2006-683, slip op. at 10 (Opening Br. Att. 4)
(Atkins Tr. IV, 108). Further, Ms. Smith testified
that Petitioner filed and presented several motions
on his own behalf. Ms. Smith testified that Petitioner
made good arguments and was articulate when presenting his motions. Smith, No. O-2006-683, slip op.
at 10 (Opening Br. Att. 4) (Atkins Tr. IV, 102-105).
Finally, the OCCA noted the testimony of Laura
Dich. Ms. Dich testified that she met Petitioner in
April 1993 and they began dating shortly thereafter.
Petitioner did not give Ms. Dich his phone number,
but rather had her use his digital pager to contact
him. Ms. Dich testified that by May 1993, Petitioner
had told her that he wanted to marry her and have
children with her. Ms. Dich also testified that Petitioner
took her to a motel on several occasions and that it
was Petitioner who reserved and paid for the room.
Smith, No. O-2006-683, slip op. at 10-11 (Opening Br.
Att. 4) (Atkins Tr. V, 5-29). Although Petitioner argues
there is no scientific or clinical support to show the
above evidence is relevant, it clearly is as it speaks
directly to the factors Petitioner was required to
prove to show he was intellectually disabled.19
The OCCA relied on the evidence to make a
legal determination that the evidence was sufficient
to support the jury’s verdict. Petitioner was unable to
show that he has significant limitations in adaptive
19 The third requirement in Oklahoma is that Petitioner’s mental
retardation be present prior to the age of 18. The presence or
absence of this prong was not argued to the OCCA. As the
OCCA concluded that the jury’s verdict was supported as to the
first two prongs of Murphy, it had no occasion to expressly
discuss the third prong.

App.289a
functioning in at least two of the following skill areas:
communication; self-care; social/interpersonal skills;
home living; self-direction; academics; health and
safety; use of community resources; and work. Murphy,
54 P.3d at 567-568. To the contrary, the evidence
showed Petitioner was not impaired with any ability
to adaptively function in society.
Petitioner argues the OCCA’s reliance on these
facts is unreasonable and amounted to inaccurate
assumptions and an improper reliance on select
pieces of evidence. Like above, any § 2254 (d)(2) is
forfeited as it was not raised to the district court.
Further, like above, his argument does not amount to
proper (d)(2) argument because he is merely complaining about the application of the law to the facts and
not specifically an unreasonable factual finding.
Regardless, as in the first prong, Petitioner cannot
satisfy Richter, Brumfield or the demanding standard
of § 2254(e)(1).
The question before this Court is not whether
Petitioner is intellectually disabled. Rather, the question is whether the OCCA’s acceptance of the jury’s
verdict was so unreasonable that no fairminded jurist
would agree. Petitioner relies heavily on the Sixth
Circuit case of Van Tran v. Colson, 764 F.3d 594 (6th
Cir. 2014), that a state court’s determination of intellectual disability is unreasonable if the state court
does not rely on clinical methods and definitions. Id.
at 612. However, Van Tran is an inappropriate
standard, as the sole yardstick for review is “clearly
established Federal law, as determined by the Supreme
Court of the United States.” 28 U.S.C. § 2254(d). Not
only was Van Tran decided after Petitioner’s Atkins
appeal, its interpretation of Atkins is also not clearly

App.290a
established federal law. Petitioner does not identify a
standard the OCCA failed to follow, rather, he merely
complains that the OCCA accepted the jury’s decision to disbelieve Petitioner’s experts.
F.

Conclusion

The OCCA concluded that the evidence supported
the jury’s determination that Petitioner was not intellectually disabled. Contrary to Petitioner’s assertion, the
evidence presented concerning his intellectual disability
was not conclusive, but disputed. In fact, Petitioner
relies upon a dissent from Judge Chapel which recognized that “[t]he State certainly presented testimony
which cast doubt on some of Smith’s evidence.” Opening
Br. at 43. Based on this evidence, considered in the
light most favorable to the state, any rational juror
could have concluded that Petitioner is not intellectually disabled. Thus, the OCCA’s decision is not contrary to, or an unreasonable application of, Jackson,
and Petitioner’s first Ground for Relief is without
merit and must be denied by this Court.

App.291a
TENTH CIRCUIT REPLY BRIEF OF
PETITIONER/APPELLANT RODERICK L. SMITH,
RELEVANT EXCERPTS
(DECEMBER 7, 2018)
IN THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
________________________
RODERICK L. SMITH,

Petitioner/Appellant,
v.
MIKE CARPENTER,
Warden, Oklahoma State Penitentiary,

Respondent/Appellee.
________________________
Case No. 17-6184
(Capital Case)
District Court: CIV-14-579-R (W.D. Okla.)
On Appeal from the United States District Court
for the Western District of Oklahoma
Case No. CIV-14-579-R
The Honorable David L. Russell, Federal District Judge
EMMA V. ROLLS, OBA #18820
THOMAS D. HIRD, OBA #13580
Assistant Federal Public Defenders
Western District of Oklahoma
215 Dean A. McGee, Suite 707

App.292a
Oklahoma City, OK 73102
(405) 609-5975 (telephone)
(405) 609-5976 (facsimile)
emma_Rolls@fd.org
tom_Hird@fd.org
Counsel for Petitioner/Appellant, Roderick L. Smith
[...]
ARGUMENT AND AUTHORITIES
Without waiver or abandonment of any issues or
arguments, Mr. Smith replies to Respondent/Appellee’s
Response Brief (hereinafter Response).
REPLY CONCERNING PROPOSITION ONE
SMITH’S EXECUTION IS PROHIBITED BY THE
EIGHTH AND FOURTEENTH AMENDMENTS BECAUSE
HE IS INTELLECTUALLY DISABLED
A.

Preliminary Matters

In an effort to dilute the strength of this claim,
Respondent inaccurately asserts Smith “only challenged
the OCCA’s opinion based on § 2254(d)(1)” before the
district court. Response at 18. Hence, according to
Respondent, Smith forfeited any argument based on
§ 2254(d)(2) raised before this Court. Id. This is simply
untrue. Smith raised numerous arguments based on
§ 2254(d)(2) before the district court. See Doc. 43 at 5,
8-11, 13. And the district court considered such arguments. See Doc. 47 at 23 (recognizing Smith argued
that “the OCCA arbitrarily relied on isolated factors
that it unreasonably believed were inconsistent with
intellectual disability while disregarding the wealth

App.293a
of evidence that shows [Petitioner] is intellectually
disabled”) (citing Doc. 43 at 5).
Further, Respondent’s reliance on Hancock v.
Trammell, 798 F.3d 1002, 1011 (10th Cir. 2015) to

support his forfeiture argument, Response at 18,
stretches Hancock beyond its logical bounds. Neither
Hancock, nor the case it relies on, Olmos v. Holder,
780 F.3d 1313, 1326 (10th Cir. 2015), supports the
strained result Respondent seeks. In both cases, petitioner raised claims on appeal that had not been
touched on below—in Hancock a claim the OCCA’s
decision did not encompass a due process claim and
thus was not an adjudication on the merits, and in
Olmos, a claim that a statute did not apply to petitioner
because he had already been sentenced to probation
rather than confinement. Here, the claim has consistently challenged the OCCA’s adjudication as contrary to Atkins v. Virginia, 536 U.S. 304 (2002), for
unreasonably applying Atkins, and for making unreasonable determinations of fact. The claim, in its
entirety, is properly before this Court.
Next, Respondent complains that Smith’s “manner
of presentation” makes it “quite difficult to distinguish
those facts upon which this Court may rely from
those on which it may not.” Response at 19. Although
Smith did refer back to some facts set forth in the
“Statement of Facts” section to support this claim,
see Opening Brief at 30, 34-35, 37, the facts to which
he referred were all very clearly part of the state-court
record, as designated by their citation to the transcript
volumes, page numbers, and exhibits from his Atkins
trial.

App.294a
B.

Standard of Review

Respondent and Smith agree this Court’s decision
in Hooks v. Workman, 689 F.3d 1148, 1166 (10th Cir.
2012) provides the appropriate standard of review when
a defendant is challenging an Atkins jury determination: “[T]he relevant constitutional standard . . . was
whether, viewing the evidence in the light most favorable to the prevailing party (the State), any rational
trier of fact could have found [the petitioner] not
mentally retarded by a preponderance of the evidence.”
See Response at 20-22; Opening Brief at 28. But
while promoting Hooks as providing the appropriate
standard of review for this claim, Respondent simultaneously “strongly disagrees” with the part of the
opinion holding such sufficiency challenges “inescapably require[ ] that [the Court] consider the kinds of
evidence that state courts may (or may not) rely upon
in adjudicating an Atkins claim.” Response at 21 n.9
(referring to Hooks, 689 F.3d at 1166). Respondent
cannot have it both ways.
Respondent next attempts to sever Atkins from
the analysis of this claim altogether by asserting “the
question is whether the OCCA reasonably applied
Jackson [v. Virginia, 443 U.S. 307 (1979)], not whether
the OCCA reasonably applied Atkins.” Response at
23. See also id. at 33 (arguing “the clearly established
law that applies to this claim is Jackson, not Atkins”).
This Court has flatly rejected Respondent’s proffered
argument. Hooks makes crystal clear the “inquiry also
requires [the Court] to consider whether the OCCA,
in upholding the jury’s verdict, reasonably applied
Atkins to [the petitioner’s] claim of mental retardation.”
689 F.3d at 1167.

App.295a
Smith recognizes the high deference given to the
review of jury verdicts, especially in cases involving
the AEDPA. This Court has held:
We cannot overturn a[n] [Atkins] jury verdict
‘as long as it is within the bounds of reason.’
Given these layers of deference [including
AEDPA deference], [petitioner] would have
to present a very convincing case that he
is, in fact, mentally retarded–i.e., that the
OCCA’s and Oklahoma jury’s decisions to
the contrary were unreasonable.

Howell v. Trammell, 728 F.3d 1202, 1228 (10th Cir.

2013) (internal citation omitted). Smith’s is the rare
case that surpasses that high level of deference.
Although not clearly established federal law,
Pickens v. State, 126 P.3d 612, 615, 621 (Okla. Crim.
App. 2005) demonstrates that sufficiency challenges in
Atkins cases are not an impossibility; it also highlights
how unreasonable the OCCA’s determinations are in
Smith’s case. In Pickens, the OCCA found the jury’s
verdict finding Mr. Pickens not mentally retarded was
contrary to the evidence, reversed the verdict, and
modified Mr. Pickens’ sentence to life without parole.
Despite that Pickens had IQ scores ranging from 7079, the OCCA found he met the first prong of Murphy.
Id. at 615-16. And despite evidence that Mr. Pickens
could “communicate normally,” “dress[ ] very neatly,”
and fill out medical service forms and write letters,
the court found he suffered from significant deficits
in his adaptive functioning. Id. at 618-19. As discussed in his Opening Brief and below, Smith presented far lower IQ scores, yet the court found he
failed to meet the first Murphy prong. And despite
presenting evidence of significant deficits in his adap-

App.296a
tive functioning, the court focused on a few perceived
strengths and determined he failed to establish this
prong. As demonstrated in his Opening Brief and
again in this Reply, Roderick Smith is, in fact, intellectually disabled, and any decision to the contrary is
unreasonable.
C.

Respondent Has Not Countered the OCCA’s
Finding that the Record Supported the Jury’s
Verdict Smith Is “Not Mentally Retarded” Is
Unreasonable

Respondent incorrectly asserts Atkins does not
mandate the application of clinical standards. Response
at 33. Respondent would have this Court ignore the
Supreme Court’s jurisprudence reinforcing this requirement of Atkins, specifically Hall v. Florida, 572 U.S.
701 (2014), Brumfield v. Cain, 135 S. Ct. 2269 (2015),
and Moore v. Texas, 137 S. Ct. 1039 (2017).1 Response
at 29 n.10. See Opening Brief at 27, 29, 36-37, 41-42
(discussing how these cases illustrate Atkins’ mandate
for the application of clinical standards and definitions).
1 In Hall, the Supreme Court recognized “[t]he clinical definitions of intellectual disability . . . were a fundamental premise
of Atkins.” 572 U.S. at 720. Continuing to emphasize the clinical
underpinnings of the constitutional restriction, in Brumfield,
the Court relied on clinical practices and criteria to find the
state court’s rejection of the petitioner’s request for an Atkins
hearing was premised on an unreasonable determination of
facts. 135 S. Ct. at 2276-82. And most recently, in Moore, the
Court relied on prevailing clinical standards to conclude Texas’
reliance on the non-clinical Briseno factors to assess adaptive
functioning was unconstitutional. 137 S. Ct. at 1049-53. The
Court went on to hold “[t]he medical community’s current standards supply one constraint on States’ leeway” in the area of
defining intellectual disability for the purposes of Atkins protection. Id. at 1053.

App.297a
Although these cases were decided after the state
court decision in this case, the primary holdings in
them were compelled by Atkins. See, e.g., Hill v.
Anderson, 881 F.3d 483, 491-92 (6th Cir. 2018),
Harris v. Stovall, 212 F.3d 940, 944 (6th Cir. 2000)
(“[C]learly established federal law as determined by
the Supreme Court . . . means that the rule sought
by petitioner must have been dictated or compelled
by [existing precedent].”)
The Sixth Circuit explained the relevance of the
Supreme Court’s post-Atkins intellectual disability
cases:
[T]he Moore Court described a 2015 case—
Brumfield—as “relying on Hall to find unreasonable a state court’s conclusion that a score
of 75 precluded an intellectual disability
finding.” 137 S. Ct. at 1049. Because Brumfield reached the Supreme Court on collateral
review and the state post-conviction rulings
on the defendant’s Atkins claims preceded
Hall, the Supreme Court’s reliance on Hall
in Brumfield makes clear that Hall’s principal
holdings were compelled by Atkins.

Hill, 881 F.3d at 492 (internal citation omitted).
Clearly, states and courts do not have carte blanche
to apply standards and definitions that are inconsistent
with current clinical standards; to do so would be an
unreasonable application of, and contrary to, Atkins,
as illustrated by Hall, Brumfield, and Moore.
Instead of employing clinically-accepted standards
and definitions, here the OCCA arbitrarily relied on
isolated factors that it unreasonably believed were
inconsistent with intellectual disability. Its approach

App.298a
was not an “appropriate way” to enforce the constitutional prohibition. Atkins, 536 U.S. at 317 (tasking
states with “developing appropriate ways to enforce
the constitutional restriction”). Hence, it was an
unreasonable application of, and contrary to, Atkins.
Moreover, the OCCA’s willingness to ignore abundant
evidence that strongly rebuts the jury verdict of “not
mentally retarded” resulted in unreasonable determinations of facts.
1. Unreasonable Determinations Regarding Intellectual Functioning
In his Opening Brief, Smith raised four clear
and discrete points attacking the reasonableness of
the OCCA’s finding that “Smith failed to meet even
the first prong of the Murphy definition of mental
retardation.” Opening Brief at 38-39; Att. 1 at 11.
Specifically, Smith attacked this finding as unreasonably deviating from clinical standards and definitions
(contrary to and unreasonably applying Atkins) and
raised the following arguments:
1)

the OCCA unreasonably relied on evidence
from lay witnesses, to the exclusion of expert
testimony. Opening Brief at 39;

2)

the OCCA unreasonably relied on inaccurate
assumptions about the intellectually disabled and select pieces of evidence, namely
Smith’s history as a janitor, his ability to
carry on an affair, and that he “manipulated
those around him” to conclude he was “not
mentally retarded.” Id. at 39-40 (citing
Pruitt v. Neal, 788 F.3d 248 (7th Cir. 2015));

App.299a
3)

the OCCA unreasonably failed to recognize
the State presented no evidence of IQ test
results from standardized, scientifically-recognized tests placing Smith outside the intellectually-disabled range, and not one expert,
even the State’s, could conclude Smith was
“not mentally retarded.” Opening Brief at 41
(citing Brumfield, 135 S. Ct. at 2278); and

4)

the OCCA unreasonably believed that Smith’s
alleged clean-up of the crime scene was somehow relevant to “whether he is capable of
logical reasoning and whether he is mentally
retarded.” Opening Brief at 41-42 (citing Van
Tran v. Colson, 764 F.3d 594, 608-09 (6th Cir.
2014)).

Rather than address these specific arguments
and the supporting case law, Respondent, like the
lower courts, resorts to broad arguments limited to
the Jackson standard without consideration of Atkins’
mandate for the application of clinical standards.
Respondent also ignores Hooks’ requirement that
reviewing courts must “consider the kinds of evidence
that state courts may (or may not) rely upon in adjudicating an Atkins claim.” Hooks, 689 F.3d at 1166
(emphasis added). Instead, Respondent makes easilydebunked arguments regarding Smith’s sub-average
intellectual functioning.
First, Respondent attempts to blunt the significance of Smith’s remarkably consistent history of
IQ scores within the intellectually-disabled range by
diminishing the role of IQ test results for determining
whether a petitioner establishes prong one of the

App.300a

Murphy definition.2 Response at 34 (citing Murphy
v. State, 54 P.3d 556, 568 (Okla. Crim. App. 2002)).
Although an IQ score is not “final and conclusive
evidence of a defendant’s intellectual capacity,” Hall,
572 U.S. at 712, “[t]his is not to say that an IQ test
score is unhelpful. It is of considerable significance,
as the medical community recognizes,” id. at 723.

Second, Respondent tries to undermine Smith’s
consistent history of IQ scores in the intellectuallydisabled range by resurrecting the unreliable test
results about which Dr. Phillip Murphy testified at
Smith’s original trial in 1994. Response at 34-35.
Respondent, without any support from the record,
characterizes the test Dr. Murphy administered to
Smith as “a Wechsler IQ test.” Id. at 34. Yet nowhere
in the record–not even in the pages cited by Respondent
(MR2 VI at 35-36)–is Murphy’s test referred to as “a
Wechsler IQ test.”3 In light of Dr. Murphy’s ethical
problems discussed in Smith’s Opening Brief at 34,
and the record’s failure to identify whether Dr.
2 Smith did not rely solely on IQ test results to establish he suffers
from significantly sub-average intellectual functioning. He also
presented three witnesses who testified to his placement in
classes for the educable mentally handicapped (“EMH”) for the
entirety of his schooling. Opening Brief at 34-35. “Mentally
retarded” children comprised EMH classes at the time of Smith’s
placement. MR2 III at 7-8. Smith also presented evidence of a
near-drowning when he was twelve that exacerbated his alreadycompromised intellectual functioning. Opening Brief at 34-35.
3 In fact, in Murphy’s testimony from Smith’s original trial, not
once does he state he administered “a Wechsler IQ test” to Smith.
See Oct. 26, 1994 trial in Oklahoma County Case No. CF-941199 at 89-159. Respondent fails to mention that Dr. Murphy’s
opinion was that Smith is “in the mentally retarded range.” Id.
at 124.

App.301a
Murphy used an appropriate testing instrument, the
lower courts’ reliance on the Murphy results to the
exclusion of other credible testing is unreasonable.
Third, Respondent fails to effectively counter
Department of Corrections Psychologist Dr. Fred
Smith’s opinion that Smith suffers from “mental
retardation.” MR2 III at 161, 168. Instead, Respondent,
like the OCCA, wrenches Dr. Smith’s opinion out of
context to support the theory Smith was malingering.
Response at 35-36. Respondent and the OCCA conveniently omit that although Dr. Smith initially had
some doubts as to whether Smith put forth his best
effort on an outdated WAIS-R administered in 1997
that resulted in a 65, Dr. Smith’s ultimate conclusion
was the following:
At that time I felt more skeptical than I do
now because certain pieces have fallen into
place since then. Since that time the issue
has developed into one of mental retardation.
And based on that question, I took a closer
look on the day that we had and I was very
much struck by the fact that there’s a consistency in what happened with the Wechsler
Scale, with what happened with the Standard
Progressive Matrices, and with what happened with the Memory-for-Designs, the consistency was quite remarkable and it shows
a consistent pattern rather than faking.
MR2 III at 167-68 (emphasis added).
Fourth, Respondent dismisses Smith’s EMH placement based on a very minor discrepancy in the testimony of two of Smith’s EMH teachers. See Response
at 36-37 n.15 (noting one witness testified placement

App.302a
in EMH classes required a student to have an IQ
between 60-75 and another witness testified the range
was from 55-75). This insignificant discrepancy does
nothing to undercut that Mona Autry, Smith’s EMH
teacher during his 9th through 11th grades, testified
that of the many EMH students she taught, Smith
was “one of the lower” functioning students.” MR2 III
at 104. She described Smith’s ability to learn as “very
limited,” and Smith as having a “[v]ery limited knowledge base.” Id. at 112-13. And Paul Preston, another
high school EMH teacher of Smith concurred; he recalls
Smith was “very low, very limited in his abilities.” Id.
at 28. Although some students in EMH classes were
mainstreamed into the regular curriculum, Preston
never would have suggested Smith be mainstreamed
because “[h]e does not have the ability . . . [it] wouldn’t
[have] been fair to him.” Id. at 35. Smith’s placement
in EMH classes for the entirety of his schooling, long
before any incentive to malinger existed, undermines
the State’s malingering canard.
In a trial where such overwhelming evidence of
sub-average intellectual functioning was presented
and the State’s own expert could not conclude Smith
was “not mentally retarded,” MR2 VI at 67, no rational
juror could have found Smith failed to meet the first
prong of the Murphy definition. The lower courts unreasonably concluded otherwise by failing to adhere to
current clinical standards, by relying on inaccurate
assumptions about the intellectually disabled, and by
relying on select, improper pieces of evidence to support
such inaccurate assumptions.

App.303a
2. Unreasonable Determinations Regarding Adaptive Functioning
Respondent hones in on a few instances described
by lay witnesses that allegedly demonstrate Smith’s
proficient adaptive functioning, while ignoring the
overwhelming clinical evidence demonstrating his
profound deficits. Respondent’s position, as well as
the position of the lower courts, fails to acknowledge
that the Supreme Court has unequivocally held adaptive behavior must be evaluated on a deficit model:
Intellectually disabled individuals, like all individuals,
have strengths, and these strengths do not negate their
disability. See Moore, 137 S. Ct. at 1050 (noting the
“medical community focuses the adaptive-functioning
inquiry on adaptive deficits”); Brumfield, 135 S. Ct.
at 2281 (finding “intellectually disabled persons ‘have
strengths in social or physical capabilities, strengths
in some adaptive skill areas, or strengths in one
aspect of an adaptive skill in which they otherwise show
an overall limitation’”) (quoting American Association
on Mental Retardation, Mental Retardation: Definition,
Classification, and Systems of Supports at 8 (AAMR)
(10th ed. 2002)). See also Opening Brief at 36-37, 42.
Respondent would have this Court ignore this clear
directive. Response at 29 n.10. But as Smith explained
supra at 5-6, Brumfield and Moore were compelled
by Atkins. Hence, courts must adopt the deficit model to
assess adaptive functioning to satisfy Atkins’ requirement that state courts apply current clinical criteria.
As detailed in his Opening Brief at 36-38, Smith
proved he suffers from significant deficits in his adaptive
functioning in the following domains: communication,
functional academics, social skills, and home living/
health and safety. Such deficits were established

App.304a
through the testimony of expert and lay witnesses. If
this Court employs the deficit model, as clearly established federal law compels it to do, the unreasonableness of the lower courts’ finding that Smith failed to
prove this prong will be apparent.4
D.

Conclusion

Roderick Smith has suffered from significantly
sub-average intellectual functioning and profound
adaptive behavior deficits his entire life. Every clinically-recognized IQ test administered to Smith confirms
his profound deficits, and multiple experts agree he
is intellectually disabled. But because jurors and judges
have disregarded clinical practices and definitions,
Smith stands to be executed without this Court’s
intervention. If Atkins ’ constitutional restriction on
the execution of the intellectually disabled has any
meaning, then surely the State of Oklahoma cannot
execute Roderick Smith. This Court should reverse
with directions to grant the Writ to prevent his
unlawful execution.

4 The OCCA did not address the “manifestation-before-ageeighteen” requirement. Nevertheless, Smith’s placement in EMH
classes in early elementary school, along with his mother’s
recognition Smith was “very, very slow,” MR2 IV at 6, even
when he was a baby, demonstrate his disability manifested long
before he turned eighteen.

App.305a
PROSECUTOR CLOSING ARGUMENTS
AT TRIAL, RELEVANT EXCERPTS
(MARCH 15, 2004)
IN THE DISTRICT COURT OF
OKLAHOMA COUNTY, STATE OF OKLAHOMA
________________________
THE STATE OF OKLAHOMA,

Plaintiff/Respondent,
v.
RODERICK LYNN SMITH,

Defendant/Petitioner.
________________________
Case No. CF-1993-3968
Volume VI
Transcript of Jury Trial
Had on the 15th Day of March, 2004,
Before the Honorable Jerry D. Bass, District Judge

[March 15, 2004 Transcript, p. 86]
. . . indicate that Mr. Smith scored below a 70 on
the IQ testing that each of them administered
individually. As far as the area of adaptive
functioning, only one expert administered an adaptive functioning test, and that was Dr. Hopewell.
And as the evidence showed, the Vineland, which
was given to Mr. Smith, showed deficits in these

App.306a
three areas. Did he function in the lower 2 percent
of the population in these three areas? As it was
mentioned, the Vineland doesn’t measure all nine
areas. But if you will remember, Dr. Hopewell
said that Mr. Smith suffers significant deficits in
all nine areas.
We would ask that when you review this evidence
you remember the road map and you look at the
three pit stops, those three pit stops being the
three elements of mental retardation. We ask that
you find—that you reach a conclusion and find
that Mr. Smith is mentally retarded as defined
in those instructions. Thank you.
THE COURT: Thank you, Ms. Hobbs.
Mr. Mashburn, you may address the jury, sir.
MR. MASHBURN: This guy is a faker. He is a faker.
It’s plain and simple, ladies and gentlemen. You’ve
sat through a week of this stuff only to know
that he’s a faker. Two things that you know for
sure, 100 percent dead cinch, you know, number
one, that what you decide here will help this
judge in determining a sentence. Number two,
what you know, is that he wants you to find him
mentally retarded. He gains something. He gets
something out of this if you guys find him mentally retarded. He has a motive to fake it. That’s
what you know.
Well, ladies and gentlemen, I’m sure Ms. High is
going to talk to you about malingering and things
like that. But what I want to talk to you about
is, despite his best efforts, despite him scoring
55 on an IQ test and mumbling and coloring pictures, despite his best efforts, they can’t—these

App.307a
good lawyers can’t prove to you that he meets
the definition of mentally retarded. Despite all
of that, they’re stuck with a guy that’s really not.
And remember, remember, if you don’t take anything else that I say right now, remember two
things. As he sits here right now, he is presumed
to be not mentally retarded. He is presumed to
be just fine, as you guys sit here, unless and until
they can prove otherwise. That’s the second thing.
They have to prove it to you.
We could stop. We could not have called any witnesses. We could have sat here with our heads
down, not cross-examined one of those witnesses,
and they would have had to prove it to you. So
ask yourself this. Okay? When they got through
calling witnesses the other day, I believe it was
Thursday morning, when they got through, you
heard their last witness, were you guys convinced? Had they met their burden at that time?
Because remember, we didn’t have to call all of
these other people. We could have stopped right
then. But we went ahead and we called all of
those people to show you that he’s really not. So
remember that. He’s presumed just fine and
they have to prove it to you. And have they? And
I submit to you, ladies and gentlemen, they haven’t
come close.
Now, let’s talk about this legal definition. Let’s
talk about this legal definition. And you guys
are going to have these instructions back there
with you. And we’re going to—I’m going to direct
you to what number that I have them listed at.
Okay?

App.308a
Now—and let me also point out, this Instruction
No. 16, what I just got through talking to you
guys about, the burden on them, the presumption
and stuff, that’s in Instruction No. 16. So it’s not
just me making it up. It’s right there in the law.
You guys are going to have this with you. Read
it, go over it, talk about it, because this is the
law that’s going to guide you to your decision.
Okay? And I’m only directing your attention to
certain ones, and that doesn’t meant that not all
of them are important. Read them all. I just bring
special attention to one that needs special attention. Now, let’s look—that’s Instruction No. 16.
Instruction No. 17 is basically the elements. You
remember how I talked to you guys in voir dire
about the elements and they have to prove all of
them. Are you guys going to make them prove
all of them, and not just one or two? And you
guys all promised me, yes, we’re going to hold
them to their burden and make them prove all of
them. So here it is, Instruction No. 17.
It gives you’ve the definition that—it starts out
by giving you the definition of what mentally
retarded is. Okay? And then this is it. And in the
first element or the first question you have to
answer is, is the defendant a person who is
mentally retarded as defined in this instruction?
So question number one is, does he meet this
definition that’s given up at the top? Okay? And
here it is.
He’s mentally retarded if he functions at a significantly sub-average intellectual level that substantially limits his ability—and then several
things—substantially limits his ability, number

App.309a
one, to understand and process information; number two, to communicate; number three, to learn
from experience or mistakes; number four, to
engage in logical reasoning; number five, to control impulses; and, number six, to understand the
reactions of others. So “and” meaning all of these.
He has a significantly sub-average intellectual
level that substantially limits his ability to do all
of these, not just one or two. He can have deficits
in a couple, but it has got to be substantially
limit his ability to do all six of these things. All
six of them. So you guys have to find that all
six—he has trouble—significant trouble in all
six of these areas. They have to have proven that
to you.
But have they, ladies and gentlemen? I mean, just
look at them. Just kind of go over them. Have
they proven to you that he can’t understand and
process information? Have they proven to you
that he can’t communicate or that he has significant sub-average—and all that stuff—substantially limits his ability to do that stuff?
I mean, because think about it. And what this is,
is significantly sub-average, and we talked about
it over and over again, it’s that two standard
deviation.
Basically, he has to be in the bottom 2 percent of
the population of the United States in every single
one of these areas. He has to be worse off than
98 percent of the people in this country in all six
of these areas.
Have they proven that to you? Have they even
asked these questions to the witnesses that they

App.310a
put on the stand, besides Dr. Hopewell? And we’re
going to talking about Dr. Hopewell. Did they
even ask anybody those kind of questions? It’s
their burden and they didn’t even ask it.
Now—and just look at these. To communicate, to
learn from experience or mistakes. He learned
that he needed to be wearing his uniform shirt
at work. Remember? He was instructed, man, you
need to start wearing a shirt. And then he started
wearing his shirt. I mean, just little examples
like that. There was a lot of stuff in there.
To engage in logical reasoning. Remember when
Detective Maddox was up on the stand? And he
talked about the crime scene and the cleanup
that had gone on. The shampooed carpets, the
items of evidence, some of them were put in the
attic, the thing that was put in the attic. All of
that stuff, logical reasoning. I need to keep from
getting caught. How do I do that? I’m logically
reasoning. I’m doing this.
Is that the bottom 2 percent of the—do you think
the bottom 2 percent of the population would think
I need to do this, this, and this to keep from
getting caught? Common sense. Common sense,
ladies and gentlemen. So there’s that. That’s the
first one.
If you answer no, does he function at all of this,
if you say no, he doesn’t meet the definition of
mentally retarded, you guys can stop. Done. Hit
the buzzer. Come on down and give us your verdict.
Because if you answer no to any of these, then
game over. If they didn’t prove one, if they
missed one, that’s it. So you guys can stop here

App.311a
if your answer to this is no. You guys don’t even
have to keep deliberating.
And I’m going to keep going because—not because
based on the evidence I submit to you that this
has been met, but I have to keep going because I
don’t know what you’re thinking right now.
So we go to the second question. So if for some
reason you answer yes to that you have to go to
the second question. Did the mental retardation—
or the mental retardation was present and known
before the age of 18. Have they proven that to
you? Have they proven to you that this definition of mental retardation, he had trouble in all
six of those areas before he was 18? Who did
they call to talk to you guys about before the age
of 18? They called Mom, his mother. And they
called some teachers, some of them didn’t even
remember him. And some of them said, yeah, he
was in my class, and if he went on to be a head
janitor, man, that would be surprising, he probably
wasn’t properly placed.
MS. HOBBS: Objection, Your Honor. That’s not what
the evidence was.
THE COURT: Ladies and gentlemen of the jury, anything that any of these lawyers say is not evidence.
Closing argument is for the purposes of persuasion
only. I would remind you of that.
You may continue, Mr. Mashburn.
MR. MASHBURN: Okay. Now, did that stuff prove
to you that this mental retardation that they say
he has occurred before he turned 18? And if it
doesn’t, if you answered, no, we don’t think that

App.312a
the mental retardation happened before the age
of 18—because remember, if it happens before
he’s 18, this brain damage, it’s brain damage. If
the brain damage happens before 18, it’s mental
retardation. If it happens after he turns 18, then
it’s called something else. It’s called dementia or
something like that. It’s just plain old brain
damage.
So that’s why—because brain damage mental
retardation, if the brain damage is before, it’s
developmental. Otherwise, it’s just something
that happened to your brain after you turned 18.
Okay. So if your answer to that is no, stop, hit
the buzzer, you guys are done. Say, no, that didn’t
happen before he turned 18, and you’re done.
Take a look at this. Because this is what has happened here. They’ve given you basically this time
line, between zero and 18, his mother comes in
and some Special Ed pictures and stuff come in
and say, okay, he’s mentally retarded in this area,
in this time frame. But then between 18 and 27,
you know, he had his job, he was a father, a
husband, he could hold girlfriends down on the
side, he could drive around in his vehicle, he was
the head supervisor in charge of all of these
employees.
So, you know, he was okay when he was—because
remember here they’re saying, man, he was so
awful in the year of 18. Well, he was decent 18
to 27. And then from 27 to now, they called some
doctors to say, oh, man, he’s bad again. He’s—he
colors pictures and he just sits around all day.

App.313a
Now, ladies and gentlemen, dad-gummit, if this
was the truth, if the truth was he’s mentally
retarded, then it’s the same from day one to
now. It doesn’t fluctuate. It doesn’t say, oh, it
gets better here, but not here. You don’t go back
and pick out things here and there. The truth is
the truth. Is he mentally retarded all the way
through or is he not?
They can’t even get their own experts to agree. One
expert says, well, he’s right on the cusp of being
mentally retarded. That was Fred Smith. And
then you’ve got the other doctor saying, man, he’s
55, he’s at the bottom 1 percent of the population.
He’s either a bottom dweller, slobbering, or he’s
just right on the cusp. If it’s the truth, then it’s
one or the other. They can’t have it both ways.
Now, third element. Suppose you say yes to this.
Okay? If you say no, remember you don’t. Third
element, the mental retardation is accompanied
by significant limitations in adaptive functioning
in at least two of the following skilled areas. And
so you have to find two out of these nine areas
that he has to have significant limitations in.
Communication, self-care, social/interpersonal
skills, home living, self-direction, academics,
health and safety, use of community resources,
and work. Two out of these he has to have significant limitations in. That’s the third element.
Can they prove that to you? And, ladies and gentlemen, this is the one where they haven’t even—
they haven’t even broken the skin on this element. Because they—because I asked these questions—you remember me asking those questions,
like the defendant’s mother, I said you were

App.314a
available. Of those teachers who had contact with
him in high school, when I said, hey, you’re
available, you’re around town, aren’t you? You
would have been available if a doctor or somebody
wanted to come and ask you questions about
this defendant and the way he acted before he
was 18 and stuff. And they were like, oh, yeah, I
live right down the street or, yeah, I’m around.
Because they didn’t even bother to ask the
witnesses about this stuff.
Their doctor, Dr. Hopewell, didn’t even pick up
the phone. He relied on a couple of transcripts
and what this defendant told him. And they
bring that to you saying, see, we’ve proven it.
No, they cannot prove it to you based on that—
based on what they brought to you.
Because, ladies and gentlemen, if they really
wanted to—if they really wanted you to hear the
answers to these questions, then they could have
put—got Dr. Hopewell on the phone and called
up those teachers and called up Mama and said let
me ask you these questions that go to communication, self-care, and all this other stuff. But they
didn’t do that. They missed this one by a mile,
ladies and gentlemen. They missed this one, the
answer is no. Then all you have to do is buzz,
ladies and gentlemen. Because they haven’t met
their burden in this case, plain and simple. He’s
a faker.
MS. HIGH: It’s easy to say, well, your doctor didn’t
do it either. Dr. Call didn’t do that either. Well,
folks, make no mistake, the State of Oklahoma
doesn’t have the burden of proof in this case.
And that’s when Ms. Hobbs said no doctor did

App.315a
that. Dr. Hopewell, is the only one that even did
adaptive functioning tests. Dr. Hopewell did
invalid, inappropriate, inadequate, completely
unreliable adaptive functioning tests. That’s exactly what Dr. Hopewell did. And that’s the only
evidence that they have brought to you of this.
That is it.
The Vineland—read from the manual of the
manual says you can’t do it the way Dr. Hopewell
did it. You can’t do it that way. Dr. Hopewell
was undeterred by the rules. The rules meant
absolutely nothing to Dr. Hopewell. Because Dr.
Hopewell didn’t care what the rules of the TOMM
or the 15-Item Test where either. I mean, if it
doesn’t fit what you are asked to do, then make
it fit. Because that’s what Dr. Hopewell told you.
When I asked him—I don’t remember exactly the
question I asked him, but it was something like
why didn’t you do this. And he said I wasn’t
asked to do that. Well, heaven forbid. Heaven
forbid that Dr. Hopewell do one thing more than
what he was asked to do. Which I submit to you
was find this defendant mentally retarded by
whatever means necessary. Because that’s all
that he did. He talked to not one single soul outside
of Roderick Smith.
Now, he said he talked to a nurse. About what?
Who knows? Who knows? It wasn’t helpful to
him. He said that he talked to a guard who told
him that Roderick Smith behaved just fine in
the facility in which he lives. Dr. Call at least
talked to the prison psychologist, for heaven’s
sake. And it’s not our burden of proof.

App.316a
Dr. Hopewell did nothing. He wasn’t going to do
one single thing that he needed to do to come in
front of the 12 of you. He didn’t even know what
the Oklahoma law was. Do you remember him
saying, well, the law is different in all states?
Well, folks he’s coming in here to Oklahoma to
talk to 12 Oklahomans about what they needed
to do in this case.
This case may not have been important enough
for Dr. Hopewell to spend some time on, but let
me assure you, that the people of the State of
Oklahoma take this case very, very seriously.
Every case is serious. Every case is serious. And
Dr. Hopewell may have gotten what he needed
to get, but I submit, you have not gotten what
you needed to get.
How? How can you take two tests, a 15-Item Test
and a TOMM test, that both indicate that this
defendant is malingering, if you look at them in
the way that they’re supposed to be looked at
and just go, oh, well, whatever? And you know
the most amazing thing about that is, Dr.
Hopewell said that he did those tests because
there have always been issues of malingering
with this defendant. Do you remember him saying,
well, you know the issue of malingering always
comes up. Dr. Call said it. Dr. Smith said it.
Well, lo and behold, Dr. Hopewell, your tests say
it.
But you know what we did with that? We just
pushed that aside. Why? Because that’s not
helpful to Roderick Smith. So let’s just push that
aside. Let’s just call it something that it’s not.

App.317a
He is a malingerer. That is what he is. He is in a
prison population where Dr. Smith told you that
malingering is common. More common than it is
in a free society. Why? Because, as Mr. Mashburn
told you, people want something. And they will do
what they need to do to get it. And what Roderick
Smith did was not perform up to his full potential.
And how can you tell that? Folks, you heard about
these tests. You know, all of this comes in. And you
use your common sense. Come on, folks. Somebody
shows you four dots and asks you to connect the
dots, and if you don’t do it fast enough, then they
say that you’re doing it right or you’re doing it
wrong, that is ridiculous. Absolutely ridiculous.
That’s how Dr. Smith says, well, yeah, he had
some diffuse brain damage, he didn’t connect
those dots fast enough. If that’s the case, I could
put myself forward as being in the bottom 1 percent of the population too, because all I have to
do is stand there and act like I don’t know what
I’m doing. But when you compare those tests over
time, Roderick Smith is a faker, but he can’t
remember how he faked the last time.
Because remember the WRAT test—remember the
WRAT test given between September and January—or January and September of 2003. He
couldn’t spell his last name. Now, that is ludicrous.
That is ludicrous that this defendant would say I
can’t spell my last name. Look through those exhibits. How many times could he spell his last
name? Over and over and over again. But, you
know, Dr. Hopewell, tells you it doesn’t really
matter if he lies to you, it doesn’t really matter,
it doesn’t change the score, doesn’t change any-

App.318a
thing for Dr. Hopewell. Yet he told Dr. Hopewell,
I can’t write my name in cursive. Well, folks, he
sure could when he was filling out his Oklahoma
driver’s identification card or his ID card. He
sure could there. He could print it and write it
on the insurance application.
And Dr. Hopewell said, oh, that doesn’t matter.
It doesn’t matter to Dr. Hopewell because that’s
not what he was going to do. He was going to
find this defendant mentally retarded. And that
is exactly what he did. It does not mean that you
have to. Because you can use something that Dr.
Hopewell apparently refused to use, and that’s
your common sense.
And common sense tells you that if you can spell a
“C” one time, you can spell a “C” the next time. If
you can write Roderick Smith when you’re getting
an Oklahoma ID card, you can write Roderick
Smith for Dr. Hopewell in 2003. Because there is
no explanation for anything having happened to
him between those two times except he went to
prison. That’s the only difference.
Now, all of a sudden, it is not in Roderick Smith’s
best interest to be able to write his last name.
It’s not in his best interest to be able to do all of
these things that he could do before. Because
remember who Roderick Smith was before he
went to prison. He was married. Four children
lived in his home. He could drive. He could keep
a job. He could maintain a girlfriend. He could
buy insurance. He could do everything that you
can do and I can do.

App.319a
But when you go to prison, folks, there’s no advantage to being able to do all of those things anymore. The advantage is gone. What’s in your
advantage then is to all of a sudden get up a
variety of mental disorders. Because that’s what
Roderick Smith has done. He has some difficulty
figuring out which one he’s supposed to be doing
today because of the seizure disorder. Seizure
disorder is helpful for some reason. It’s not helpful
in mental retardation, but it’s helpful.
But you know what you get if you try to feign
seizures? You get Tegretol and you get Depakote.
And Dr. Hopewell told you what the effects of
Tegretol and Depakote can be on individuals
who don’t have seizure disorders. Sedation and
cognitive depression.
Now, do you see any other explanation in this case
for why in 1994 Roderick Smith can score a 73 and
in 2003 he can score a 55? How do you explain
that? Ask that question. How do you explain a 73
going to a 55? And you know what? Any explanation has to be based on the evidence. It can’t be
something that we come up with now in closing
argument. There has been no explanation for
that, other than medication. That’s the only possible one. Because he was fine here.
And this is a test given by his expert in 1994.
Dr. Smith in 1997 says more likely 70 to 75.
Hum, that’s right in the middle there. And then
Dr. Hopewell comes along and his is a 55. A 55
and fails two malingering tests. And he’s a 55 on
Dr. Call.

App.320a
Dr. Call and Dr. Hopewell got similar scores. Well,
folks, you have to expect that because they got
the same full scale score. You can’t get big high
scores or big low scores and come out with the
same full scale score. And, okay, so had the
same number of points in a particular area of
questioning. Did she ask him, gosh, did he get
all of the same questions right or all of the same
questions wrong? No. Funny, didn’t ask that
question. Why would that be? Because, folks,
they don’t put in front of you what they don’t
want you to see.
MS. HOBBS: Objection, Your Honor.
THE COURT: Sustained. I’m going to sustain that.
MS. HIGH: The evidence that has been put in front
of you is not the evidence, as Mr. Mashburn
pointed out to you, didn’t put a scintilla of evidence
about what this defendant was like between the
ages of 18 and 27. Not a bit. We want to hear
about how he was supposed to be this awful,
awful student and then all of a sudden he’s an
awful, awful, sits in the corner and draws coloring
pages while he’s watching Jay Leno on TV in
prison. Nothing about in the middle when he’s
out and he’s an adult and he’s able to do what he
wants to do.
And they tell you Paul Preston and Mona Autry
said, uh-huh, yeah, he was properly placed.
Until they were given the facts of what Roderick
Smith grew up to be. Until somebody said to
them, well, what did he grow up to be? The head
janitor. Oh, I would be surprised. You see, folks,
you can’t just take part of the picture. You’ve got

App.321a
to take the whole picture. You can’t just pick
and choose. I want this fact. Ooh, I don’t want
that fact. That fact is not helpful to me. I wasn’t
asked to do that. I was asked to do this.
Let’s say, you know, Dr. Call, yeah, he made some
money off of the State of Oklahoma. Do you believe
that’s the reason why he came in and said the
things that he did? Dr. Hopewell, didn’t ask Dr.
Hopewell about how much money he had made.
Because experts get paid. That’s how they make
their living. So let’s just throw all of the experts
aside. Let’s just throw out all of the people that
have an interest in this case, monetary interest,
or are related to the defendant. Who does that
leave you with?
Well, that leaves you with Jesse Thompson. What
did he tell you? I see him in two pictures. That’s
what he told you. Yeah, that’s his picture in two
Special Ed pictures. Uh-huh. That’s it.
Paul Preston and Mona Autry both said, yeah, he
was in my class, medium to low-medium in my
class. Does that sound like the bottom 2 percent
to you? Does that sound like the bottom 1 percent
that Dr. Hopewell told you he was? Because you
don’t get any worse. You don’t get any better.
You stay the same. Mentally retarded is mentally
retarded.
They tell you, both of them, because—and remember the line of questioning with Mr. Preston,
because I said, I came out to your house the other
day and we had a discussion and we talked
about the fact that sometimes people have been
misplaced in your class, and you said that if

App.322a
someone grew up to be the head janitor at the—
a head janitor in a position that they would have
been misplaced. And he goes, yeah, I believe
they would have been misplaced. Folks, that’s
what he said.
Now, at the time, did Paul Preston know that
Roderick Smith had grown up to be the head
janitor? No. But that’s what he said because
that’s the truth. And then he went on. He was
asked, “Why? Why do you think that?” “Because
he wouldn’t have had the social skills.” That was
one of the things that he talked about, about the
supervising.
They want to explain away all of the paperwork
by somebody else. Roderick Smith had to supervise
four to six people. He had to get that school
cleaned. He had to arm and disarm the alarm.
And you heard Mark Woodward tell you about
that process. He communicated with his supervisor by use of a pager. Can the bottom 2 percent
of the population use and communicate by a
pager? And he didn’t just do in that thing, he did
it with his girlfriend too.
And if you don’t think Roderick Smith is smart,
consider what Laura Dich told you, that’s the
girlfriend, when she talked about how a page
was returned by a woman and the woman said,
“I know all I need to know,” and then five minutes
later Roderick Smith called back. And she was
angry and she said, yeah, I talked to him about
that. But he convinced her that it wasn’t another
girlfriend.

App.323a
He had the wherewithal intellectually to be able
to go to a hotel, to rent a room, to pay for that
room. So they want you to believe he can’t use
money. Well, how did he rent the hotel room?
They don’t give those out for free, I don’t care
how many girlfriends you’ve got, you’ve got to
pay for those things.
And he’s able to hide all of that from his wife
and four children who live in his home. And he’s
able to do that and maintain a full-time job. And
he’s in the bottom 2 percent of the population?
Do you believe that? Are you convinced that that
is more probably true than not? Both teachers
told you, I’d be surprised if he grew up to be a
head janitor. And both of them mentioned social
skills.
You had Emma Watts. Emma Watts is a unit
manager in the unit Roderick Smith lives and
has been his individual case manager before for
two years. And she said there’s nothing wrong
with him. He’s a little manipulative. He can manipulate people to try and get cell placements when
he wants his cellmate changed. But he’s just like
everybody else. I never saw any seizures. I never
saw any psychological problems. I never saw
anything wrong with him.
Now, who is in a better position? And do you think
that Emma Watts wasn’t available to Dr. Hopewell?
Do you think he couldn’t have called the unit
manager and spoken with her? He didn’t want to
know what Roderick Smith was like, because
that’s not helpful to come in here and tell you

App.324a
that. But Emma Watts told you there was nothing
wrong with him, just like everybody else. As Dr.
Smith said, there was nothing behaviorally or
performance-wise different from him and any
other incarcerated individual. Just like everybody
else.
Madeline Corsoro, she was the music teacher. I
submit to you she was well-intentioned. But you
have to look at what she told you. She gave him
notes, but she knew he couldn’t read. But she
knew he couldn’t read, so she puts him on a
stage with a list of names to read. Something is
not quite right there. You either know that he
can’t read or you don’t know that he can’t read.
But look at his job application, because he said
he could read. He has checked on there read,
write, and speak the English language. All of the
questions on the application are filled out just like
they are on the insurance application. Everything
is there just like it is supposed to be.
Madeline Corsoro didn’t come into this courtroom
and tell you that Roderick Smith was mentally
retarded. She came in to tell you that in her
opinion he couldn’t read so well. Does that get
you there? Does that get you to where you want
to go? Uh-huh, I believe it’s more probably true
that this defendant is mentally retarded. I submit
to you, it does not.
Ruby Badillo and Mark Woodward. Mark Woodward worked with this defendant, was the supervisor, said typical school custodian. Did all of the
things that were asked of him, did them well,
did them adequately. You’ve got his personnel

App.325a
file, so the write-up that Mark Woodward gave
him about not wearing his uniform shirt is in
there. Anything else, if he wasn’t capable of doing
his job and then gotten written up for it, it
would be in there. Look through that stuff and
see what is in there.
He made decisions about insurance, health insurance. Did he want it? Did he not want it? He
made all kinds of—he has the capability of having
a check stop card—a check cashing card. Why do
you need a check cashing card for if you can’t
manage your money? Why do you need that for?
He has a social security card and he has an
Oklahoma state identification card. This is a
man that made his way in this world, just like
everybody else, until he went to prison.
Laura Dich, Dinah Dean, Cherie Mishion, what did
they tell you? Cherie Mishion and Dinah Dean
told you he was in our family. He was married to
my sister and my aunt. Cherie Mishion said he
taught her how to drive, taught her how to drive.
Now can the bottom 2 percent of the population
take a 15-year-old and teach them how to drive?
I submit to you they cannot. They cannot. But
this defendant can. He can watch four children.
He can cook, cook meals just like anybody else in
this society. He can do everything until he goes
to prison, and then it’s not in his best interest to
do that.
John Maddox told you—gave you the best example,
I submit, of this defendant’s ability to logically
reason. Because when that crime was committed
this defendant did what everybody would do
that has the ability to logically reason, you try to

App.326a
cover up. And he was successful, because John
Maddox told you that this defendant’s crime was
not discovered for seven to ten days. And John
Maddox told you that if you had gone and looked
in that window of that house, his cleanup, his
cover-up was so complete you would have never
known that the crime had been committed there.
This defendant didn’t just take evidence, he
cleaned, he brought a carpet cleaner into that
house and cleaned those carpets. He covered his
tracks so well, so well. Could the bottom 2 percent
of the population find—because Maddox told you
that there were four items of evidence hidden in
closets, one item of evidence hidden under a bed.
That the bed had been made up to cover evidence
that was in the bed. And some evidence had
been taken up into the attic and hidden up there.
Could the bottom 2 percent of the population do
that? Could the bottom 2 percent of the population
go and get a steam cleaner and clean it so completely that the only place you could find confirmation of that evidence was under the carpet?
This defendant is logical. He is clear-thinking. He
is not mentally retarded. It is not more what is
without a doubt true is that he is just the same
as everybody else in this courtroom. Just the same.
The only difference being he is in prison. And I
ask you to find this defendant not mentally
retarded.
When you go to that verdict form, when you get,
I submit, to that first question, as Mr. Mashburn
said, “Is the defendant a person who is mentally
retarded as defined in this instruction?” and you
say, no, he is not. Go to this verdict form. The

App.327a
second line says, “Defendant is not mentally
retarded as defined by the Court’s instructions.”
Check that box and have your foreperson sign
and push that buzzer and be done with Roderick
Smith. Thank you.
THE COURT: Thank you, Ms. High. Ms. Werneke,
you may address the jury.
MS. WERNEKE: Thank you, Your Honor.
May it please the Court, members of the jury,
counsel. On behalf of Ms. Hobbs and Mr. Smith,
we thank you for your undivided attention and
the seriousness of this case. And both Mr.
Mashburn and Ms. High have given very passionate arguments to you. I’m not going to raise
my voice as loud as they have, though.
What I do want to say is that, first of all, Dr.
Call did not say that there’s no evidence that
Roderick Smith is faking. The evidence out of
Dr. Call’s mouth was he didn’t put forth his best
effort. Ms. High kept saying faking or failed.
Dr. Call never said that. And I would ask that
you recall exactly what he said. There is nothing
that says that Mr. Smith is faking anything.
Was Mr. Smith faking it when he was in the
mental retardation class as a small child? I don’t
know very many elementary children who want
to fake being mentally retarded and be placed in
those classes.
I’m going to go over with you some of these—the
prongs that we have. And as you recall during
voir dire, we weren’t allowed to tell you what the
legal . . .

